No.

In the Supreme Court of the United States
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES, ET AL., PETITIONERS
v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JOHN V. COGHLAN
Deputy Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DANIEL TENNY
GERARD SINZDAK
JOSHUA DOS SANTOS
JACK STARCHER
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

Under the Immigration and Nationality Act, 8 U.S.C.
1101 et seq., an alien is “inadmissible” if, “in the opinion
of the [Secretary of Homeland Security] at the time of
application for admission or adjustment of status, [the
alien] is likely at any time to become a public charge.”
8 U.S.C. 1182(a)(4)(A). Following notice-and-comment
rulemaking, the United States Department of Homeland Security (DHS) promulgated a final rule interpreting the statutory term “public charge” and establishing
a framework by which DHS personnel are to assess
whether an alien is likely to become a public charge.
The questions presented are:
1. Whether entities that are not subject to the
public-charge ground of inadmissibility contained in
8 U.S.C. 1182(a)(4)(A), and which seek to expand benefits usage by aliens who are potentially subject to that
provision, are proper parties to challenge the final rule.
2. Whether the final rule is likely contrary to law or
arbitrary and capricious.

(I)

PARTIES TO THE PROCEEDING

Petitioners (defendants-appellants below) are the
United States Citizenship and Immigration Services,
the United States Department of Homeland Security;
Peter T. Gaynor, in his official capacity as Acting Secretary of Homeland Security; and Kenneth T. Cuccinelli, Senior Official Performing the Duties of the Director, United States Citizenship and Immigration Services. *
Respondents (plaintiffs-appellees below) are the
City and County of San Francisco; the County of Santa
Clara; the State of California; the State of Colorado; the
State of Delaware; the State of Hawaii; the State of Illinois; the State of Maine; the State of Maryland; the
Commonwealth of Massachusetts; the State of Minnesota; the State of Nevada; the State of New Jersey; the
State of New Mexico; the State of Oregon; the Commonwealth of Pennsylvania; the State of Rhode Island; the
Commonwealth of Virginia; the State of Washington;
Dana Nessel, Attorney General on behalf of the People
of Michigan; and the District of Columbia.

The complaints named Kevin K. McAleenan, then the Acting
Secretary of Homeland Security, as a defendant in his official capacity. Peter T. Gaynor has since assumed the role of Acting Secretary,
and has thus been automatically substituted as a party in place of
former Acting Secretary McAleenan. See Fed. R. App. P. 43(c)(2);
Fed. R. Civ. P. 25(d). Similarly, the complaints named Kenneth T.
Cuccinelli II, in his role as Acting Director of the United States Citizenship and Immigration Services. Mr. Cuccinelli is now serving
as Senior Official Performing the Duties of the Director.
*

(II)

RELATED PROCEEDINGS

United States District Court (E.D. Wash.):
State of Washington v. United States Department
of Homeland Security, No. 19-cv-5210 (Oct. 11,
2019)
United States District Court (N.D. Cal.):
City & County of San Francisco v. U.S. Citizenship
& Immigration Services, No. 19-cv-4717 (Oct.
11, 2019)
State of California v. U.S. Department of Homeland Security, No. 19-cv-4975 (Oct. 11, 2019)
United States Court of Appeals (9th Cir.):
City & County of San Francisco v. United States
Citizenship & Immigration Services, No. 1917213 (Dec. 2, 2020) (affirming preliminary injunction in relevant part)

(III)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory and regulatory provisions involved ........................... 2
Statement ...................................................................................... 2
A. The public-charge inadmissibility rule .......................... 3
B. Procedural history ........................................................... 6
Discussion .................................................................................... 12
Conclusion ................................................................................... 13
Appendix A — Court of appeals opinion (Dec. 2, 2020) ........ 1a
Appendix B — Court of appeals order (Dec. 5, 2019) ......... 35a
Appendix C — District court preliminary injunction
(Oct. 11, 2019)........................................... 102a
Appendix D — District court order granting plaintiff
States’ motion for Section 705 stay and
preliminary injunction (Oct. 11, 2019) ... 232a
Appendix E — Statutory provisions ................................... 289a
TABLE OF AUTHORITIES

Cases:
CASA de Maryland, Inc. v. Trump, 971 F.3d 220
(4th Cir. 2020), reh’g en banc granted, 981 F.3d 311
(4th Cir. 2020) .................................................................. 2, 12
Cook County v. Wolf, 962 F.3d 208 (7th Cir. 2020),
petition for cert. pending, No. 20-450
(f iled Oct. 7, 2020) ........................................................... 3, 12
Department of Homeland Security v. New York,
140 S. Ct. 599 (2020) ............................................................. 2
New York v. United States Department of Homeland Security, 969 F.3d 42 (2d Cir. 2020), petition
for cert. pending, No. 20-449 (f iled Oct. 7, 2020) ............... 3
Wolf v. Cook County, 140 S. Ct. 681 (2020) ........................... 2

(V)

VI
Constitution and statutes:

Page

U.S. Const. Art. III ................................................................. 8
Immigrant Fund Act, Act of Aug. 3, 1882, ch. 376,
§§ 1-2, 22 Stat. 214 ................................................................ 4
Immigration and Nationality Act, ch. 477,
66 Stat. 163 (8 U.S.C. 1101 et seq.) ...................................... 2
§ 212(a)(15), 66 Stat. 183 ................................................... 4
8 U.S.C. 1103 ...................................................................... 3
8 U.S.C. 1182(a)(4)(A) ..................................... 2, 3, 9, 289a
8 U.S.C. 1182(a)(4)(B) ............................................. 3, 289a
8 U.S.C. 1182(a)(4)(B)(i)(II) ................................. 9, 289a
8 U.S.C. 1182(a)(4)(C)-(D) .................................. 11, 290a
8 U.S.C. 1227(a)(5)................................................... 3, 294a
8 U.S.C. 1601 ......................................................... 9, 294a
Rehabilitation Act of 1973, Pub. L. No. 93-112,
87 Stat. 355 (29 U.S.C. 701 et seq.) ................................... 6
29 U.S.C. 794(a)................................................... 10, 300a
5 U.S.C. 706(2)(A) ................................................................ 6
6 U.S.C. 211(c)(8) ..................................................................... 3
6 U.S.C. 557 .............................................................................. 3
Miscellaneous:
64 Fed. Reg. 28,676 (May 26, 1999) ................................... 4, 5
64 Fed. Reg. 28,689 (May 26, 1999) ................................... 4, 5
83 Fed. Reg. 51,114 (Oct. 10, 2018) ........................................ 5
84 Fed. Reg. 41,292 (Aug. 14, 2019) ............................... 4, 5, 6
S. Rep. No. 1515, 81st Cong., 2d Sess. (1950) ....................... 4

In the Supreme Court of the United States
No.
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES, ET AL., PETITIONERS
v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the United
States Citizenship and Immigration Services, et al., respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a34a) is reported at 981 F.3d 742. An earlier order of the
court of appeals staying the preliminary injunctions at
issue here pending appeal (App., infra, 35a-101a) is reported at 944 F.3d 773. The orders of the district courts
(App., infra, 102a-231a, 232a-288a) are reported at 408
F. Supp. 3d 1057 and 408 F. Supp. 3d 1191.
JURISDICTION

The judgment of the court of appeals was entered on
December 2, 2020. The jurisdiction of this court is invoked under 28 U.S.C. 1254(1).
(1)

2
STATUTORY AND REGULATORY
PROVISIONS INVOLVED

Pertinent statutory and regulatory provisions are
reproduced in the appendix to this petition. App., infra,
289a-302a.
STATEMENT

The United States Department of Homeland Security (DHS) issued a rule interpreting the provision of
the Immigration and Nationality Act (INA), ch. 477, 66
Stat. 163 (8 U.S.C. 1101 et seq.), that makes an alien inadmissible if, “in the opinion of ” the Secretary of Homeland Security, the alien is “likely at any time to become
a public charge.” 8 U.S.C. 1182(a)(4)(A). The district
courts here entered preliminary injunctions barring implementation of the DHS rule, one nationwide and the
other within the geographic bounds of the plaintiff jurisdictions, see App., infra, 102a-231a, 232a-288a, and
district courts in three other States also entered preliminary injunctions against implementation of the Rule
(some nationwide and some on a more limited basis).
Those preliminary injunctions were all stayed—some
by the Fourth and Ninth Circuits, see Order, CASA de
Maryland, Inc. v. Trump, No. 19-2222 (4th Cir. Dec. 9,
2019); App., infra, 35a-101a, and the remainder by this
Court, see Department of Homeland Security v. New
York, 140 S. Ct. 599 (2020); Wolf v. Cook County, 140
S. Ct. 681 (2020). A Fourth Circuit panel subsequently
reversed the preliminary injunction entered by a district court in Maryland, see CASA de Maryland, Inc. v.
Trump, 971 F.3d 220 (2020), but the full court then
granted rehearing en banc, 981 F.3d 311 (2020), while
the Second Circuit affirmed the injunctions entered by
a district court in New York (though limiting their geo-

3
graphic scope), see New York v. United States Department of Homeland Security, 969 F.3d 42 (2020), petition
for cert pending, No. 20-449 (filed Oct. 7, 2020), and the
Seventh Circuit affirmed an injunction entered by a district court in Illinois, Cook County v. Wolf, 962 F.3d 208
(2020), petition for cert pending, No. 20-450 (filed Oct.
7, 2020). In the decision here, a divided panel of the
Ninth Circuit affirmed the preliminary injunctions entered by the district courts, but concluded that the injunctions should not extend nationwide. App., infra, 1a34a.
A. The Public-Charge Inadmissibility Rule

1. The INA provides that “[a]ny alien who, * * * in
the opinion of the [Secretary of Homeland Security] at
the time of application for admission or adjustment of
status, is likely at any time to become a public charge is
inadmissible.” 8 U.S.C. 1182(a)(4)(A). * That assessment “shall at a minimum consider the alien’s (I) age;
(II) health; (III) family status; (IV) assets, resources,
and financial status; and (V) education and skills.”
8 U.S.C. 1182(a)(4)(B). A separate INA provision provides that an alien is deportable if, within five years of
entry, the alien “has become a public charge from
causes not affirmatively shown to have arisen” since entry. 8 U.S.C. 1227(a)(5).
Three agencies make public-charge determinations
under this provision: DHS, for aliens seeking admission
at the border and aliens within the country applying to

The statute refers to the Attorney General, but in 2002 Congress
transferred the Attorney General’s authority to make public-charge
determinations in the relevant circumstances to the Secretary of
Homeland Security. See 8 U.S.C. 1103; 6 U.S.C. 557; see also
6 U.S.C. 211(c)(8).
*

4
adjust their status to that of a lawful permanent resident; the Department of State, for aliens abroad applying for visas; and the Department of Justice, for aliens
in removal proceedings. See 84 Fed. Reg. 41,292, 41,294
n.3 (Aug. 14, 2019). The rule at issue governs DHS’s
public-charge determinations. Ibid.
2. The “public charge” ground of inadmissibility
dates back to the first federal immigration statutes in
the late nineteenth century. See, e.g., Immigrant Fund
Act, Act of Aug. 3, 1882, ch. 376, §§ 1-2, 22 Stat. 214.
Through the nearly 140 years that the public-charge inadmissibility ground has been in effect, however, Congress has consistently chosen not to define the term
“public charge” by statute. Indeed, in an extensive report that served as a foundation for the enactment of
the INA in 1952, the Senate Judiciary Committee recognized that “[d]ecisions of the courts have given varied
definitions of the phrase ‘likely to become a public
charge,’ ” and that “ ‘different consuls, even in close
proximity with one another, have enforced [publiccharge] standards highly inconsistent with one another.’ ” S. Rep. No. 1515, 81st Cong., 2d Sess. 347, 349
(1950). Rather than recommend adoption of a specific
standard, the Committee indicated that because “the elements constituting likelihood of becoming a public
charge are varied, there should be no attempt to define
the term in the law.” Id. at 349; see INA § 212(a)(15),
66 Stat. 183 (using term without definition).
In 1999, the Immigration and Naturalization Service
(INS), recognizing that the term was “ambiguous” and
had “never been defined in statute or regulation,” proposed a rule to “for the first time define ‘public charge.’ ”
64 Fed. Reg. 28,676, 28,676-28,677 (May 26, 1999); 64

5
Fed. Reg. 28,689, 28,689 (May 26, 1999) (1999 Guidance). The proposed rule would have defined “public
charge” to mean an alien “who is likely to become primarily dependent on the Government for subsistence
as demonstrated by either: (i) [t]he receipt of public
cash assistance for income maintenance purposes, or
(ii) [i]nstitutionalization for long-term care at Government expense.” 64 Fed. Reg. at 28,681. When it announced the proposed rule, INS also issued “field guidance” adopting the proposed rule’s definition of “public
charge.” 64 Fed. Reg. at 28,689. The proposed rule was
never finalized, however, leaving only the 1999 Guidance in place. 84 Fed. Reg. at 41,348 n.295.
3. In October 2018, DHS announced a new approach
to public-charge determinations. It did so by providing
notice of a proposed rule and soliciting comments. 83
Fed. Reg. 51,114 (Oct. 10, 2018). After responding to
comments timely submitted, DHS promulgated a final
rule in August 2019. 84 Fed. Reg. at 41,501 (Rule).
The Rule defines “public charge” to mean “an alien
who receives one or more public benefits [as defined in
the Rule] * * * for more than 12 months in the aggregate within any 36-month period.” 84 Fed. Reg. at
41,501. The designated public benefits include cash assistance for income maintenance and certain non-cash
benefits, including most Medicaid benefits, Supplemental Nutrition Assistance Program benefits, and federal housing assistance. Ibid. As the agency explained,
the Rule’s definition of “public charge” differs from the
1999 Guidance in that (1) it incorporates certain noncash benefits and (2) it replaces the “primarily dependent” standard with the 12-month/36-month measure of
dependence. Id. at 41,294-41,295.

6
The Rule also sets forth a framework immigration
officials will use to evaluate whether, considering the
“totality of an alien’s individual circumstances,” the alien is “likely at any time in the future to become a public
charge.” 84 Fed. Reg. at 41,369; see id. at 41,501-41,504.
Among other things, the framework identifies a number
of factors an adjudicator must consider in making a
public-charge determination, such as the alien’s age, financial resources, employment history, education, and
health. Ibid. The Rule was set to take effect on October
15, 2019, and was originally set to apply prospectively
to applications and petitions postmarked (or, if applicable, submitted electronically) on or after that date. Id.
at 41,292.
B. Procedural History

1. Respondents are a group of cities, counties, and
States. In three separate lawsuits, they challenged the
Rule, urging that the Rule’s definition of “public charge”
is at odds with that term’s settled meaning; the Rule is
arbitrary and capricious, see 5 U.S.C. 706(2)(A); the Rule
violates the Rehabilitation Act of 1973 (Rehabilitation
Act), Pub. L. No. 93-112, 87 Stat. 355 (29 U.S.C. 701
et seq.), because disabled aliens are less likely to be admissible; and the Rule violates constitutional equalprotection principles.
Two of the lawsuits were brought in the Northern
District of California, and the relevant respondents’ motions for preliminary injunctions were decided together
in a single opinion on October 11, 2019, with the district
court issuing a preliminary injunction applicable to all
the plaintiff jurisdictions in those cases. App., infra,
102a-231a. The third lawsuit was brought in the Eastern
District of Washington, and the district court issued a

7
nationwide injunction on October 14, 2019. Id. at 232a288a.
a. In the California case, the district court concluded
that respondents had standing because they anticipate
experiencing economic and administrative costs when aliens disenroll from public benefits in response to the
Rule. App., infra, 211a-221a. The court also concluded
that respondents were within the zone of interests protected by the public-charge provision, reasoning that,
through the public-charge and related provisions, “Congress intended to protect states and their political subdivisions’ coffers.” Id. at 200a.
On the merits, the district court concluded that respondents were likely to prevail on their claim that the
Rule’s definition of “public charge” was not a reasonable
interpretation of the statute. App., infra, 120a-169a.
The court reasoned that the Rule’s definition was at odds
with the term’s purportedly “long-standing focus on the
individual’s ability and willingness to work or otherwise
support himself,” and the legislative history of Congress’s 1996 amendments to the INA and an amendment
Congress rejected in 2013. Id. at 166a.
The district court also concluded that respondents
were likely to succeed in demonstrating that the Rule
was arbitrary and capricious, because DHS allegedly
failed adequately to consider the adverse economic costs
and public-health-related effects of the Rule. App., infra, 171a-190a.
b. In the Washington case, the district court likewise
concluded that respondents had standing because they
anticipate experiencing economic, administrative, and
public-health costs when aliens disenroll from public
benefits in response to the Rule. App., infra, 242a-256a.
The court also concluded that respondents were within

8
the zone of interests protected by the public-charge provision, reasoning that the public-charge statute is designed “to protect states from having to spend money to
provide for immigrants who could not provide for themselves.” Id. at 258a.
On the merits, the district court concluded that respondents were likely to prevail on their claim that the
Rule’s definition of “public charge” was not a reasonable
interpretation of the statute. App., infra, 263a-277a.
The court reasoned that the public-charge statute’s recent legislative history, including Congress’s recent rejection of legislative proposals that would have expressly
defined “public charge” to include receipt of noncash
benefits, indicated that Congress unambiguously foreclosed DHS from adopting the Rule. Id. at 277a. The
court further concluded that Congress had not delegated
the authority to DHS to define who qualifies as a “public
charge.” Ibid.
The district court also concluded that respondents
were likely to succeed in demonstrating that the Rule
was arbitrary and capricious, because DHS allegedly
failed to provide reasoned explanations for changing the
definition of “public charge” and for adopting its chosen
framework. App., infra, 278a-280a. The court further
concluded that there was “doubt” as to whether the Rule
complied with the Rehabilitation Act, because the Rule
required DHS to consider an alien’s disability as a negative factor in some circumstances. Id. at 276a.
2. The government sought a stay pending appeal, and
the Ninth Circuit granted it in a published opinion. App.,
infra, 35a-101a. The court of appeals rejected the government’s Article III standing argument, id. at 52a-56a,
and assumed without deciding that respondents’ injuries
fell within the statute’s zone of interests, id. at 51a n.8.

9
But the court concluded that the government had
demonstrated a “strong” likelihood of success on the
merits, that the government would suffer irreparable
harm, and that the balance of the equities and public interest favored a stay. Id. at 40a.
On the merits, the court of appeals observed that the
statute’s text entrusts the public-charge determination
to the “ ‘opinion’ of the consular or immigration officer,”
which “is the language of discretion.” App., infra, 62a
(quoting 8 U.S.C. 1182(a)(4)(A)). The court further reasoned that the term “public charge” is ambiguous, that
Congress had identified a non-exclusive list of factors for
the agency to consider, and that DHS had authority to
adopt regulations to enforce the provision. Id. at 63a64a. The court reviewed the history of the term’s interpretation, and was “unable to discern one fixed understanding of ‘public charge’ that has endured since 1882,”
instead concluding that “different factors have been
weighted more or less heavily at different times.” Id. at
73a; see id. at 64a-74a.
The court of appeals then concluded that DHS had
adopted a reasonable interpretation of the ambiguous
term. App., infra, 78a-79a. The court’s conclusion in
that regard was bolstered by the statements of immigration policy enacted by Congress in 1996, contemporaneously with the current version of the public-charge provision, that emphasize self-sufficiency. Id. at 79a (citing
8 U.S.C. 1601).
The court of appeals stated that respondents’ reliance
on the Rehabilitation Act “need not detain us long.”
App., infra, 80a. Immigration officers are statutorily required to consider an immigrant’s “health,” 8 U.S.C.
1182(a)(4)(B)(i)(II), and DHS uses a totality-of-thecircumstances test to determine whether an alien is

10
likely to become a public-charge, and would not deny an
alien admission or adjustment of status “solely by reason
of her or his disability,” 29 U.S.C. 794(a). App., infra,
80a-81a.
The court of appeals likewise rejected respondents’
arbitrary-and-capricious argument. The court noted
that “DHS addressed at length the costs and benefits associated with the Final Rule.” App., infra, 83a. And
DHS “not only addressed [concerns related to public
health] directly, it changed its Final Rule in response to
the comments.” Id. at 90a.
Finally, the court of appeals concluded that the government had demonstrated irreparable harm, given that
it might grant lawful-permanent-resident status to aliens
whom the Secretary would have deemed likely to become
public charges. App., infra, 91a-93a. Because the government had made a strong showing of likelihood of success on the merits and had demonstrated irreparable
harm, the court concluded that a stay was warranted. Id.
at 96a.
Judge Owens would have denied the motions to stay.
App., infra, 101a.
3. After plenary review, however, the Ninth Circuit
affirmed the preliminary injunctions, though holding
that they should not have nationwide scope. App., infra,
1a-34a.
The court of appeals once again concluded that respondents had standing, and stated that respondents’
“interests * * * in preserving immigrants’ access to supplemental benefits is within the zone of interests protected by the statute.” App., infra, 17a; see id. at 14a17a.
On the merits, the court of appeals concluded that the
statute’s history suggested that “it had been interpreted

11
to mean long-term dependence on government support,
and had never been interpreted to encompass temporary
resort to supplemental non-cash benefits.” App., infra,
18a. The court accepted respondents’ argument that repeated reenactment of the public-charge provision without change, against that backdrop, supported their reading of the statute. Ibid.
The court of appeals rejected reliance on other INA
provisions that indicate that Congress intended that
those admitted to the country be able to support themselves without relying on non-cash benefits for an intense
or extended period. The court, for example, dismissed
the requirement that certain immigrants furnish an affidavit of support from a sponsor under which the sponsor
must agree to reimburse the government for any meanstested benefit the alien receives, 8 U.S.C. 1182(a)(4)(C)(D), because the court concluded that provision had “no
historic or functional relationship” to the public charge
provision. App., infra, 22a.
The court of appeals also agreed with respondents’ argument that the Rule was arbitrary and capricious. The
court concluded that the Rule “failed to take into account
the costs the Rule would impose on state and local governments; it did not consider the adverse effects on
health, including both the health of immigrants who
might withdraw from programs and the overall health of
the community; and it did not adequately explain why it
was changing the policy that was thoroughly explained
in the 1999 Guidance.” App., infra, 24a; see id. at 24a30a.
The court of appeals did not reach the Rehabilitation
Act issue, because it had upheld the preliminary injunction on other grounds. App., infra, 33a.

12
The court of appeals concluded that respondents’ economic harms were sufficient to constitute irreparable
harm, and that the balance of harms favored a preliminary injunction. App., infra, 30a-32a. The court concluded, however, that a nationwide injunction was not appropriate. Id. at 32a-33a.
Judge VanDyke dissented. App., infra, 34a. He
would have reversed the injunctions for the reasons set
forth in the motions panel’s stay order, the Fourth Circuit’s decision in CASA de Maryland, supra, and thenJudge Barrett’s dissent in Cook County, supra. App.,
infra, 34a.
DISCUSSION

The court of appeals held that the public-charge rule
is likely contrary to law and arbitrary and capricious.
As the government has explained in its petition for a
writ of certiorari in Department of Homeland Security
v. New York, No. 20-449 (Oct. 7, 2020), that conclusion
is erroneous. While this Court’s review is therefore
warranted, the same questions are already presented
by the government’s petition in New York, which is fully
briefed and was conferenced on January 8, 2021. And
the court of appeals in this case did not address any
other questions not presented in New York. Accordingly, the government respectfully requests that the
Court hold the petition for a writ of certiorari in this
case pending the Court’s disposition of the government’s petition in New York, and then dispose of the petition here as appropriate in light of New York.

13
CONCLUSION

The Court should hold the petition for a writ of certiorari pending disposition of Department of Homeland
Security v. New York, No. 20-449 (Oct. 7, 2020), and
then dispose of the petition as appropriate in light of the
Court’s decision in that case.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
JOHN V. COGHLAN
Deputy Assistant Attorney
General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
DANIEL TENNY
GERARD SINZDAK
JOSHUA DOS SANTOS
JACK STARCHER
Attorneys

JANUARY 2021

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-17213
D.C. No. 4:19-cv-04717-PJH
CITY AND COUNTY OF SAN FRANCISCO; COUNTY OF
SANTA CLARA, PLAINTIFFS-APPELLEES
v.
U.S. CITIZENSHIP AND IMMIGRATION
SERVICES, A FEDERAL AGENCY; U.S. DEPARTMENT OF
HOMELAND SECURITY, A FEDERAL AGENCY; CHAD F.
WOLF, IN HIS OFFICIAL CAPACITY AS ACTING
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HOMELAND SECURITY; KENNETH T. CUCCINELLI, IN
HIS OFFICIAL CAPACITY AS ACTING DIRECTOR OF
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES, DEFENDANTS-APPELLANTS
No. 19-17214
D.C. No. 4:19-cv-04975-PJH
STATE OF CALIFORNIA; DISTRICT OF COLUMBIA;
STATE OF MAINE; COMMONWEALTH OF PENNSYLVANIA;
STATE OF OREGON, PLAINTIFFS-APPELLEES
v.
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, A FEDERAL AGENCY; UNITED STATES
CITIZENSHIP AND IMMIGRATION SERVICES, A FEDERAL
AGENCY; CHAD WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF THE UNITED STATES
DEPARTMENT OF HOMELAND SECURITY; KENNETH T.
CUCCINELLI, IN HIS OFFICIAL CAPACITY AS ACTING
(1a)

2a
DIRECTOR OF UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, DEFENDANTS-APPELLANTS
Appeal from the United States District Court
for the Northern District of California
Phyllis J. Hamilton, Chief District Judge, Presiding
No. 19-35914
D.C. No. 4:19-cv-05210-RMP
STATE OF WASHINGTON; COMMONWEALTH OF
VIRGINIA; STATE OF COLORADO; STATE OF DELAWARE;
STATE OF ILLINOIS; STATE OF MARYLAND;
COMMONWEALTH OF MASSACHUSETTS; DANA NESSEL,
ATTORNEY GENERAL ON BEHALF OF THE PEOPLE OF
MICHIGAN; STATE OF MINNESOTA; STATE OF NEVADA;
STATE OF NEW JERSEY; STATE OF NEW MEXICO;
STATE OF RHODE ISLAND; STATE OF HAWAII,
PLAINTIFFS-APPELLEES
v.
U.S. DEPARTMENT OF HOMELAND
SECURITY, A FEDERAL AGENCY; CHAD F. WOLF,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
THE UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, A FEDERAL AGENCY; KENNETH
T. CUCCINELLI, IN HIS OFFICIAL CAPACITY AS ACTING
DIRECTOR OF UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, DEFENDANTS-APPELLANTS
Argued and Submitted: Sept. 15, 2020
San Francisco, California
Filed: Dec. 2, 2020

3a
Appeal from the United States District Court
for the Eastern District of Washington
Rosanna Malouf Peterson, District Judge, Presiding
OPINION

Before:

MARY M. SCHROEDER, WILLIAM A.
FLETCHER, and LAWRENCE VANDYKE, Circuit Judges.
Opinion by Judge SCHROEDER;
Dissent by Judge VANDYKE
SCHROEDER, Circuit Judge:
The phrase “public charge” enjoys a rich history in
Anglo-American lore and literature, one more colorful
than our American law on the subject. There have
been relatively few published court decisions construing
the phrase, even though our immigration statutes have
barred admission to immigrants who are likely to become a “public charge” for more than a century. Until
recently, the judicial and administrative guidance has
reflected the traditional concept—rooted in the English
Poor Laws and immortalized by Dickens in the workhouse of Oliver Twist—of incapacity and reliance on
public support for subsistence. The first comprehensive federal immigration law barred entry to “any convict, lunatic, idiot, or any person unable to take care of
himself or herself without becoming a public charge.”
Immigration Act of 1882, 22 Stat. 214, Chap. 376 § 2
(1882). The 1999 Guidance (the Guidance) issued by
the Immigration and Naturalization Service (INS), the
predecessor of the current agency, defined a “public
charge” as one who “is or is likely to become primarily

4a
dependent on the government for subsistence.” See
Field Guidance on Deportability and Inadmissibility on
Public Charge Grounds, 64 Fed. Reg. 28,689 (May 26,
1999).
In 2019, the Department of Homeland Security (DHS)
changed direction, however, and issued a rule (the Rule)
that defines the term to include those who are likely to
participate, even for a limited period of time, in non-cash
federal government assistance programs. The programs designated by the Rule are not intended to provide for subsistence but instead to supplement an individual’s ability to provide for basic needs such as food,
medical care, and housing. 8 C.F.R. § 212.21(b). Foreseeable participation for an aggregate of twelve months
in any of the federal programs within a three-year span
renders an immigrant inadmissible as a public charge
and ineligible for permanent resident status. § 212.21(a).
In other words, a single mother with young children who
DHS foresees as likely to participate in three of those
programs for four months could not get a green card.
Litigation followed in multiple district courts against
DHS and U.S. Citizenship and Immigration Services
(USCIS) as states and municipalities recognized that
the immediate effect of the Rule would be to discourage
immigrants from participating in such assistance programs, even though Congress has made them available
to immigrants who have been in the country for five
years. According to the plaintiffs in those cases, the
Rule’s effect would be to increase assistance demands
on state and local governments, as their resident immigrants’ overall health and welfare would be adversely affected by non-participation in federal assistance programs.

5a
The challenges to the Rule in the district courts resulted in a chorus of preliminary injunctions holding the
Rule to be contrary to law and arbitrary and capricious
under the Administrative Procedure Act (APA). 5 U.S.C.
§ 706(2)(A). These included the two preliminary injunctions before us, one issued by the District Court for
the Northern District of California (Northern District)
covering the territory of the plaintiffs, and the other by
the District Court for the Eastern District of Washington (Eastern District) purporting to apply nationwide.
Our court became the first federal appeals court to
weigh in when we granted DHS’s motion for a stay of
those injunctions pending appeal. City and Cnty. of
San Francisco v. USCIS, 944 F.3d 773, 781 (9th Cir.
2019). Preliminary injunctions were also issued by
courts in the Northern District of Illinois and the Southern District of New York, and they were stayed by the
United States Supreme Court before appeals could be
considered by the circuit courts of appeals.
When the Seventh Circuit and the Second Circuit did
consider those preliminary injunction appeals, both
courts affirmed the injunctions. Although their reasoning differed in some respects, both circuits concluded
that the Rule’s definition was both outside any historic
or commonly understood meaning of “public charge,”
and arbitrary and capricious, in concluding that shortterm reliance on supplemental benefits made immigrants dependent on public assistance within the meaning of the statutory public charge immigration bar.
Cook Cnty., Ill. v. Wolf, 962 F.3d 208, 229, 232-33 (7th
Cir. 2020); New York v. DHS, 969 F.3d 42, 80-81 (2nd
Cir. 2020). The Second Circuit opinion was unanimous,
while a dissenting opinion in the Seventh Circuit agreed

6a
with DHS that those who receive such supplemental
benefits could be considered public charges because, by
receiving some assistance, they are not completely selfsufficient. Cook Cnty., 962 F.3d at 250-51 (Barrett, J.,
dissenting).
The district court in Maryland also enjoined enforcement of the Rule and was reversed by a divided decision
of the Fourth Circuit. The majority looked in large
measure to the fact that the Supreme Court had stayed
the injunctions in the Seventh and Second Circuits.
CASA de Maryland, Inc. v. Trump, 971 F.3d 220, 230
(4th Cir. 2020). In dissent, Judge King viewed the Rule
as outside the longstanding meaning of “public charge”
and would have affirmed the injunction. He also disagreed with the majority about the significance of the Supreme Court’s stay, explaining that “[i]f the Court's decision to grant a stay could be understood to effectively
hand victory to the government regarding the propriety
of a preliminary injunction, there would be little need
for an intermediate appellate court to even consider the
merits of an appeal in which the Court has granted a
stay.” Id. at 281 n.16 (King, J., dissenting) (citing Cook
Cnty., 962 F.3d at 234).
To understand the reason for this recent cascade of
litigation after a relatively quiescent statutory and regulatory history, we review the historical background of
the Rule. Such a review reveals the extent to which the
Rule departs from past congressional and administrative policies.
A.

Statutory and Administrative Background

This country has had a federal statutory provision
barring the admission of persons likely to become a

7a
“public charge” since 1882. The Immigration Act of
1882 barred entry to, among others, “any convict, lunatic, idiot, or any person unable to take care of himself or
herself without becoming a public charge.” The Immigration and Nationality Act now provides that “[a]ny alien who, . . . in the opinion of the [Secretary of
Homeland Security] at the time of application for admission or adjustment of status, is likely at any time to
become a public charge is inadmissible.” 8 U.S.C.
§ 1182(a)(4)(A). No statute has ever defined the term.
For over a century, agencies have routinely applied
these provisions in determining admissibility and removal as well as in issuing visas for entry.
In 1996, however, Congress amended the statute to
add five factors for agencies to consider in determining
whether an individual is likely to be a public charge:
the non-citizen’s age; health; family status; assets, resources and financial status; and education and skills.
§ 1182(a)(4)(B)(i). Congress also included a provision
requiring applicants to produce an affidavit of support.
See § 1182(a)(4)(C)-(D) (requiring most family-sponsored
immigrants to submit affidavits of support); § 1183a (affidavit of support requirements).
At nearly the same time, Congress enacted major reforms of public benefit programs that, as relevant here,
made only non-citizens with five or more years of residency in the United States eligible for public benefits
such as Supplemental Nutrition Assistance Program
(SNAP) and Medicaid. Personal Responsibility and
Work Opportunity Reconciliation Act (PRWORA), Pub.
L. No. 104-193, 110 Stat. 2105, 2265 (1996). Previously,
lawful immigrants had generally been eligible for such
benefits. Congress thus simultaneously reduced the

8a
number of immigrants eligible for this assistance and
spelled out the factors to be considered in a public
charge determination. The fact that Congress delineated the factors relevant to the public charge determination at the same time it adjusted certain immigrants’
eligibility to receive specific supplemental assistance
strongly suggests that Congress did not intend for such
assistance to be considered as one of the public charge
factors.
Judicial guidance in interpreting the phrase was apparently not in need or demand: There are relatively
few such decisions. A leading early Supreme Court
case resolved the important question of whether the adverse economic conditions in the location where the immigrant intends to live can render an immigrant likely
to become a “public charge.” Gegiow v. Uhl, 239 U.S.
3 (1915). The Supreme Court’s answer was no because
the statute spoke to the permanent characteristics personal to the immigrant rather than to local labor market
conditions. Id. at 10. We followed Gegiow in Ex parte
Sakaguchi, 277 F. 913 (9th Cir. 1922), where we held
that a person temporarily in need of family assistance
should not have been excluded as likely to become a public charge. We so held because there was an absence of
“any evidence whatever of mental or physical disability
or any fact tending to show that the burden of supporting the appellant is likely to be cast upon the public.”
Id. at 916. Thus, our court in Sakaguchi understood
the standard for determining whether someone is a public charge to be whether the “burden of support” falls on
the public.
Administrative decisions followed the Supreme
Court’s lead by looking to the inherent characteristics of

9a
the individual rather than to external circumstances.
The Board of Immigration Appeals thus held that
only an individual with the inherent inability to be selfsupporting is excludable as “likely to become a public
charge” within the meaning of the statute. Matter of
Harutunian, 14 I & N. Dec. 583, 589-90 (BIA 1974);
Matter of Vindman, 16 I. & N. Dec. 131, 132 (B.I.A.
1977); see also New York, 969 F.3d at 69. There has
been corollary administrative recognition that even if an
individual has been on welfare, that fact does not in and
of itself establish the requisite likelihood of becoming a
public charge. An Attorney General decision collected
authorities indicating that it is the totality of circumstances that must be considered in order to determine
whether “the burden of supporting the alien is likely
to be cast on the public.” Matter of Martinez-Lopez,
10 I & N. Dec. 409, 421-22 (BIA 1962; A.G. 1964) (citing
Sakaguchi, 277 F. at 916). Likely receipt of some public benefits does not automatically render an immigrant
a public charge because the public does not bear the
“burden of support.”
The 1996 amendments, which added factors to be
considered and created the current public charge statutory provision, caused some confusion as to how big a
change they represented. The INS, the agency then in
charge of administering immigration, decided a regulatory definition would be helpful. It adopted the 1999
Guidance, the first regulatory guidance to interpret the
rather ancient notion of “public charge” in light of the
myriad, modern forms of public assistance. 64 Fed.
Reg. 28,269.
The Guidance defined a “public charge” as a non-citizen
who depends on the government for survival, either by

10a
receipt of income or confinement in a public institution.
It described persons “primarily dependent on the government for subsistence, as demonstrated by either (i)
the receipt of public cash assistance for income maintenance or (ii) institutionalization for long term care at
government expense.” Id. at 28,689. It thus embodied the traditional notion of primary dependence on the
government for either income or institutional care.
The Guidance went on to identify the types of public
assistance that would typically qualify as evidence of primary dependence: (1) Supplemental Security Income
(SSI); (2) Temporary Assistance for Needy Families
(TANF); (3) state and local cash assistance programs;
and (4) programs supporting people institutionalized for
long-term care. Id. at 28,692. The Guidance expressly
excluded non-cash benefits intended to supplement income and not to provide primary support. The explanation lay with the changing times that were bringing
benefits to more and more families to improve their
health and welfare. See id. (“[C]ertain federal, state,
and local benefits are increasingly being made available
to families with incomes far above the poverty level, reflecting broad public policy decisions about improving
general public health and nutrition, promoting education, and assisting working-poor families in the process
of becoming self-sufficient. Thus, participation in such
non-cash programs is not evidence of poverty or dependence.”).
The Guidance actually encouraged non-citizens to receive supplemental benefits in order to improve their
standard of living and to promote the general health and
welfare. The Guidance drew a sharp distinction be-

11a
tween the receipt of such supplemental benefits and dependence on the government for subsistence income
that would render the individual a “public charge.” Id.
at 28,692-93.
The 2019 Public Charge Rule we review in this case
effectively reversed that policy by making receipt of
supplemental benefits the very definition of a public
charge. See Inadmissibility on Public Charge Grounds,
84 Fed. Reg. 41,292 (Aug. 14, 2019). The Rule defines
the term “public charge” to mean “an alien who receives
one or more [specified] public benefits . . . for more
than 12 months in the aggregate within any 36-month
period (such that, for instance, receipt of two benefits in
one month counts as two months).” Id. at 41,501. The
public benefits specified by the Rule include most Medicaid benefits, SNAP benefits, Section 8 housing vouchers and rental assistance, and other forms of federal
housing assistance. Id. Any receipt of such a benefit,
no matter how small, will factor into the public charge
determination. The Rule also directs officials to consider English proficiency in making the public charge
determination. Id. at 41,503-04.
The Rule was greeted with challenges in federal district courts throughout the country. We deal with
those in this circuit.
B.

The District Court Injunctions

On appeal are two district court decisions granting
preliminary injunctions barring enforcement of the
Rule.
The Northern District considered the challenges of California, the District of Columbia, Maine,
Pennsylvania, and Oregon, consolidated with the challenges brought by the City and County of San Francisco,

12a
and the County of Santa Clara. The Eastern District
heard the challenges brought by Washington, Virginia,
Colorado, Delaware, Hawaii, Illinois, Maryland, Massachusetts, Michigan, Minnesota, Nevada, New Jersey,
New Mexico, and Rhode Island. Both district courts
agreed that the plaintiffs had standing because they had
shown that they would likely suffer economic harm and
other costs and that their concerns were within the zone
of interests of the statute. Both held that the new definition of “public charge” was likely not a permissible interpretation of the statute because it would depart from
the longstanding, settled understanding that a person
does not become a public charge by receiving short-term
aid, and must instead demonstrate an inherent incapacity to provide subsistence. City and Cnty. of San
Francisco v. USCIS, 408 F. Supp. 3d 1057, 1101 (N.D.
Cal. 2019), Washington v. DHS, 408 F. Supp. 3d 1191,
1219 (E.D. Wash. 2019). Both found the Rule to be
likely arbitrary and capricious because the agency failed
to consider the burdens the Rule would impose on states
and municipalities. The Eastern District issued a nationwide injunction, and the Northern District declined
to do so.
Within a few weeks of the district court rulings, a divided motions panel of this court, however, stayed both
injunctions pending this appeal. City and Cnty. of SF,
944 F.3d 773. The panel majority wrote that DHS was
likely to prevail because the Rule would probably be
viewed as a reasonable interpretation of a statute that
had no consistent historical application and gave the
agency “considerable discretion.”
Id. at 796, 799.
Judge Owens dissented in part and would have denied
the stay. Id. at 809-10 (Owens, J., dissenting).

13a
The stay was based on a prediction of what this panel
would hold in reviewing the merits of the preliminary
injunctions. The stay in this case was entered at a particularly early point, less than two months after the district court injunctions. Almost none of the extensive
documentation relevant to this appeal was before the
motions panel. The brief of the appellant DHS in the
Northern District case had been filed only the day before the panel entered its stay, and the opening brief in
the Eastern District case was not filed until the day after. Still to come were not only the answering and reply briefs in both appeals, but two dozen amicus briefs,
many of which we have found very helpful.
At least equally important, no other circuit court
opinions had yet considered the issues. By now we
have heard from three. One of those opinions even discussed and disagreed with the reasoning of this court’s
motions panel stay opinion, pointing out that it “pinn[ed]
the definition of ‘public charge’ on the form of public
care provided” in concluding that there was no consistent interpretation of the Rule. New York, 969 F.3d
at 73 (emphasis in original). The court there said our
motions panel thereby went “astray.” Id. This was
because the issue was not whether a “public charge” had
always received similar assistance. Id. The issue
should have been whether the “inquiry” under the statute had been consistent. Id. The Second Circuit concluded the public charge inquiry had always been
whether the non-citizen “is likely to depend on that [assistance] system.” Id.
We therefore turn to the appeal before us. We deal
first with DHS’s arguments that the plaintiffs may not
maintain the suit because they lack Article III standing

14a
or are outside the zone of interests of the immigration
statute in question.
C.

Plaintiffs’ Capacity to Maintain the Action

Plaintiffs are states and municipalities that allege the
Rule is causing them to suffer continuing financial harm,
as lawful immigrants eligible for federal cash, food, and
housing assistance withdraw from these programs to
avoid the impact of the Rule. Plaintiffs allege harm because such immigrants will instead turn to assistance
programs administered by the state and local entities.
DHS argues that such injuries are speculative and
represent only plausible future injury. There is no
question that to have Article III standing to bring this
action, the plaintiffs must allege that they have suffered,
or will imminently suffer, a “concrete and particularized” injury in fact. Lujan v. Defs. of Wildlife, 504 U.S.
555, 560 (1992). There is also no question that an increased demand for aid supplied by the state and local
entities would be such an injury. The only question is
whether such demand is, as of yet, apparent or imminent.
That is not a difficult question to answer. The Rule
itself predicts a 2.5 percent decrease in enrollment in
public benefit programs and a corresponding reduction
in Medicaid payments of over one billion dollars per
year. Final Rule, 84 Fed. Reg. at 41,302, 41,463. The
Rule itself further acknowledges that disenrollment will
cause other indirect financial harm to state and local entities by increasing the demand for uncompensated indigent care. Declarations in the record show that such

15a
entities are already experiencing disenrollment as a result of the Rule. See City and Cnty. of SF, 408 F. Supp.
3d at 1122.
DHS nevertheless asserts that the Rule will result in
a long-term cost savings after states compensate for the
loss of federal funds by reforming their operations.
But such long-term reforms would not remedy the immediate financial injury to the plaintiffs or the harms to
the health and welfare of those individuals affected. As
the Second Circuit explained, “this simplistic argument
fails to account for the fact that the States allege injuries
that extend well beyond reduced Medicaid revenue and
federal funding to the States, including an overall increase in healthcare costs that will be borne by public
hospitals and general economic harms.” New York,
969 F.3d at 60. Thus, plaintiffs have established Article III standing.
Those suing under the APA, must also establish that
the interest they assert is at least “arguably within the
zone of interests to be protected or regulated by the
statute” in question.
Match-E-Be-Nash-She-Wish
Band of Pottawatomi Indians v. Patchak, 567 U.S. 209,
224 (2012) (quoting Ass’n of Data Processing Serv.
Orgs., Inc. v. Camp, 397 U.S. 150, 153 (1970)). The Supreme Court has described the test as “not meant to be
especially demanding” and as “not requir[ing] any ‘indication of congressional purpose to benefit the would-be
plaintiff.’ ” Id. at 225 (quoting Clarke v. Sec. Indus.
Ass’n, 479 U.S. 388, 399-40 (1987)). A plaintiff ’s interest need only be “sufficiently congruent with those of
the intended beneficiaries that the litigants are not
‘more likely to frustrate than to further the statutory
objectives.’ ” First Nat. Bank & Tr. Co. v. Nat’l Credit

16a
Union Admin., 988 F.2d 1272, 1275 (D.C. Cir. 1993)
(quoting Clarke, 479 U.S. at 397 n.12).
The statute in question is, of course, the immigration
statute that renders inadmissible an individual likely to
become a “public charge.” 8 U.S.C. § 1182(a)(4)(A).
DHS appears to contend that the only entities within the
zone of interests are the federal government itself and
individuals seeking to immigrate, because the provision
deals with immigration and only the federal government
controls immigration. If that were to define the zone
of interests regulated by the statute, the scope of permissible immigration litigation against the government
would be so narrow as to practically insulate it from
many challenges to immigration policy and procedures,
even those violating the Constitution or federal laws.
DHS suggests that the purpose of the public charge
exclusion is to reduce immigrants’ use of public benefits,
and that the plaintiffs’ suit therefore contradicts this
purpose by seeking to make more federal benefits available. But this assumes that Congress’s statutory purpose was the same as DHS’s purpose here, which is the
very dispute before us. As the Second Circuit pointed
out, “DHS assumes the merits of its own argument when
it identifies the purpose of the public charge ground as
ensuring that non-citizens do not use public benefits.
. . . Understood in context, [the public charge bar’s]
purpose is to exclude where appropriate and to not exclude where exclusion would be inappropriate.”) New
York, 969 F.3d at 62-63.
Moreover, DHS maintains that the statute’s overall
purpose is to promote self-sufficiency. Providing access to better health care, nutrition and supplemental

17a
housing benefits is consistent with precisely that purpose. See Cook Cnty., 962 F.3d at 220 (access to affordable basic health care may promote self-sufficiency);
Hilary Hoynes, Diane Whitmore Schanzenbach & Douglas Almond, Long-Run Impacts of Childhood Access to
the Safety Net, 106 Am. Econ. Rev. 903, 921 (2016) (access to food stamps in childhood significantly increases
economic self-sufficiency among women). For these
reasons, the interests of the plaintiffs in preserving immigrants’ access to supplemental benefits is within the
zone of interests protected by the statute.
We therefore conclude that the district courts correctly determined that the plaintiffs are entitled to
maintain this action. All of the circuits to consider the
validity of this Rule have reached a similar conclusion.
See Cook Cnty., 962 F.3d at 219-20, CASA de Maryland,
971 F.3d at 240-241, New York, 969 F.3d at 62-63. We
now turn to the question whether they were entitled to
the preliminary injunctions entered by the district
courts.
D.

Contrary to Law

Both district courts concluded that the plaintiffs are
likely to prevail in their contention that the Rule violates
the statute’s public charge provision, and that such a
conclusion supports the entry of preliminary injunctions. See Winter v. Nat. Res. Def. Council, Inc., 555
U.S. 7, 20 (2008). On appeal, DHS contends, as it has
throughout the litigation, that the Rule is a permissible
interpretation of the statute. The plaintiffs maintain
that the Rule violates the statute because the Rule is not
a reasonable interpretation of the meaning of “public
charge.”

18a
History is a strong pillar supporting the plaintiffs’
case. Plaintiffs point to repeated congressional reenactment of the provision after it had been interpreted to
mean long-term dependence on government support,
and had never been interpreted to encompass temporary resort to supplemental non-cash benefits. Plaintiffs contend that this repeated reenactment amounts to
congressional ratification of the historically consistent
interpretation. DHS disagrees, arguing that the repeated reenactments reflect congressional intent to
have a flexible standard subject to various executive
branch interpretations.
Our review of the history of the provision in our law
suggests the plaintiffs have the better part of this dispute. From the Victorian Workhouse through the 1999
Guidance, the concept of becoming a “public charge” has
meant dependence on public assistance for survival.
Up until the promulgation of this Rule, the concept has
never encompassed persons likely to make short-term
use of in-kind benefits that are neither intended nor sufficient to provide basic sustenance. The Rule also, for
the first time, introduces a lack of English proficiency
as figuring into the equation, despite the common American experience of children learning English in the public schools and teaching their elders in our urban immigrant communities.
8 C.F.R. § 212.22(b)(5)(ii)(D).
Indeed, in Gegiow, 239 U.S. 3, the Supreme Court found
that the individuals in that case were not likely to become public charges even though they spoke only Russian.
In New York, 969 F.3d 42, the Second Circuit essentially agreed with plaintiffs’ historical analysis. The

19a
court recognized and explained the line of settled judicial and administrative interpretations of a public charge
as one who is primarily dependent on the government
for subsistence. Id. at 65-70. The court traced that
history in far more detail than we have outlined and was
“convinced” that there was a well-settled meaning of
“public charge” even before congressional passage of
the Illegal Immigration Reform and Immigrant Responsibility Act (IIRIRA) in 1996, and that was a person “unable to support herself, either through work, savings, or
family ties.” Id. at 71. Receipt of cash benefits may
be considered in deciding whether a person is dependent
on the government but has never been determinative.
The Second Circuit persuasively summarized:
The Plaintiffs do not argue, and we do not hold, that
the receipt of various kinds of public benefits is irrelevant to the determination of whether a non-citizen
is likely to become a public charge. But defining
public charge to mean the receipt, even for a limited
period, of any of a wide range of public benefits—
particularly . . . ones that are designed to supplement an individual’s or family’s efforts to support
themselves, rather than to deal with their likely permanent inability to do so—is inconsistent with the
traditional understanding of what it means to be a
“public charge,” which was well-established by 1996.
Id. at 78 (emphasis removed).
A few months earlier, the Seventh Circuit had come
to a similar conclusion that the Rule violates the statutory meaning of public charge. Cook Cnty., 962 F.3d
208. The Seventh Circuit differed somewhat in its analysis. After a historical survey of court decisions and secondary sources, it determined that the phrase “public

20a
charge” was susceptible to various interpretations. Id.
at 226. It concluded, however, that DHS’s interpretation, quantifying the definition to mean receipt of twelve
months’ worth of benefits within three years, represented an understanding of its authority to define the
phrase that “has no natural limitation.” Id. at 228-29.
If DHS’s interpretation were to be accepted, then there
is nothing in the statutory text that would prevent a
zero-tolerance rule, where foreseeable receipt of a single benefit on one occasion would bar entry or adjustment of status. The majority forcefully rejected such
an interpretation, stating:
We see no warrant in the Act for this sweeping view.
Even assuming that the term “public charge” is ambiguous and thus might encompass more than institutionalization or primary, long-term dependence on
cash benefits, it does violence to the English language and the statutory context to say that it covers
a person who receives only de minimis benefits for a
de minimis period of time. There is a floor inherent
in the words “public charge,” backed up by the weight
of history.
Id. at 229.
Although the opinions of the Second Circuit in New
York and the Seventh Circuit in Cook County reflect
some disagreement over whether there was any historically established meaning of the phrase “public charge,”
they agreed that the Rule’s interpretation of the statute
was outside any historically accepted or sensible understanding of the term. In commenting on the difference
between its historical review in New York and that of the
Seventh Circuit in Cook County, the Second Circuit

21a
noted that the Seventh Circuit had not included the significant administrative rulings that preceded the 1996
statute. New York, 969 F.3d at 74.
The New York opinion was unanimous, but the Cook
County opinion was not. The lengthy dissenting opinion in Cook County focused on other statutory provisions aimed at preventing entry of persons who could
become dependent on the government. The most significant of these provisions is the requirement that familysponsored immigrants, and employment-sponsored immigrants whose employment is tied to a family member,
must furnish an affidavit from the sponsor. 8 U.S.C.
§§ 1182(a)(4)(C)-(D). In the affidavit, the sponsor must
agree to support the immigrant at annual income of at
least 125 percent of the poverty level and pay back the
relevant governmental entity in the event the immigrant
receives “any means-tested public benefit.” 8 U.S.C.
§ 1183a(a)(1)(b).
The dissent focused on the fact that the affidavit provision forces sponsors to bear responsibility for “any
means-tested public benefit” that an immigrant may receive. It concluded that the affidavit provision reflects
Congress’s view that “public charge” may encompass receipt of supplemental benefits as well as primary dependence. See Cook Cnty., 962 F.3d at 246 (Barrett, J.,
dissenting).
In its focus on the provisions in a related but different
section of the statute, the dissent did not address the
significance of the history of the public charge provision
itself, nor did it address the majority’s objection to the
duration of the receipt of benefits as a standard having
no limiting principle. The dissent concluded only that

22a
the choice of an aggregate of twelve months is “not unreasonable.” Id. at 253. Moreover, the dissent’s interpretation of the affidavit requirement’s application
here seems to suggest that it would approve a public
charge rule excluding individuals who received “any
means-tested benefit,” no matter how small, as in line
with congressional intent.
In this appeal, DHS also relies upon the affidavit of
support provisions to contend that the Rule is consistent
with the statutory public charge bar.
The public
charge bar and affidavit of support provisions were
parts of two separate acts. The two have no historic or
functional relationship to each other. The public charge
bar dates back to the 19th century, embodying an ageold concept of excluding those who may become primarily dependent on the government. Congress enacted
the affidavit of support provision, however, in 1996 as
part of more recent specific immigration reforms including the financial responsibilities of families and employers sponsoring individual immigrants. See PRWORA,
Pub. L. No. 423, 110 Stat. 2271 (1996); IIRIRA, Pub. L.
No. 104-208, 110 Stat. 3009 (1996). The section of the
affidavit provision that refers to public benefits serves
as a post-admission remedy to help local and federal
governments recoup funds. § 1183a(b). The changes
to the affidavit provisions were aimed at problems with
the unenforceability of such affidavits prior to 1996.
Michael J. Sheridan, The New Affidavit of Support and
Other 1996 Amendments to Immigration and Welfare
Provisions Designed to Prevent Aliens from Becoming
Public Charges, 31 Creighton L. Rev. 741, 743-44, 75253 (1998) (article by INS Associate General Counsel).

23a
DHS also points to the provision that permits entry
of battered women without regard to receipt of “any
benefits.” See 8 U.S.C. § 1182(s). DHS argues that
this reflects Congress’s belief that the receipt of any
public benefits would be a consideration in admission for
most other public charge determinations. Had Congress intended to make non-cash benefits a factor for
admission or permanent residence, it would have done
so directly and not through this ancillary provision.
See Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 468
(2001) (Congress does not “hide elephants in mouseholes”). It is more likely that Congress created this
provision in order to provide sweeping protections for
battered migrant women, as it did throughout Section
1182. See § 1182(a)(6)(ii), (a)(9)(B)(iii)(IV).
For these reasons we conclude the plaintiffs have
demonstrated a high likelihood of success in showing
that the Rule is inconsistent with any reasonable interpretation of the statutory public charge bar and therefore is contrary to law.
E.

Arbitrary and Capricious

Both district courts also ruled that the plaintiffs were
likely to succeed in their contention that the Rule is arbitrary and capricious. The APA standard in this regard is inherently deferential. The task of the courts
is to ensure that the agency’s action relied on appropriate considerations, considered all important aspects of
the issue, and provided an adequate explanation for its
decision. The Supreme Court summed it up in its leading decision, Motor Vehicle Mfrs. Ass’n, Inc. v. State
Farm Mut. Auto. Ins. Co. (“State Farm”), 463 U.S. 29
(1983). The Court explained the general rule:

24a
Normally, an agency rule would be arbitrary and capricious if the agency has relied on factors which
Congress has not intended it to consider, entirely
failed to consider an important aspect of the problem,
offered an explanation for its decision that runs counter to the evidence before the agency, or is so implausible that it could not be ascribed to a difference in
view or the product of agency expertise.
Id. at 43.
The plaintiffs argue that DHS failed the test in three
principal respects: It failed to take into account the
costs the Rule would impose on state and local governments; it did not consider the adverse effects on health,
including both the health of immigrants who might withdraw from programs and the overall health of the community; and it did not adequately explain why it was
changing the policy that was thoroughly explained in the
1999 Guidance.
1.

Disenrollment and Financial Costs

We first turn to DHS’s consideration of the financial
impact of the proposed Rule. During the comment period, there was repeated emphasis on the financial burdens that would befall state and local governments because immigrants fearing application of the Rule would
disenroll from the supplemental programs, even if the
Rule did not apply to them. DHS’s response was a generality coupled with an expression of uncertainty. It
said that, despite these effects, the Rule’s “overriding
consideration” of self-sufficiency formed “a sufficient
basis to move forward.” 84 Fed. Reg. at 41,312. DHS
added that there was no way of knowing with any degree
of exactitude how many individuals would disenroll or

25a
how much of a burden it would place on the state and
local governments. Id. at 41,312-13.
DHS provided no analysis of the effect of the Rule on
governmental entities like the plaintiffs in these cases.
As the Northern District found, DHS had not “grapple[d] with estimates and credible data explained in the
comments.” City and Cnty. of SF, 408 F. Supp. 3d at
1106.
Our law requires more from an agency. A bald declaration of an agency’s policy preferences does not discharge its duty to engage in “reasoned decisionmaking”
and “explain the evidence which is available.” State
Farm, 463 U.S. at 52. The record before DHS was replete with detailed information about, and projections
of, disenrollment and associated financial costs to state
and local governments. See, e.g., Ninez Ponce, Laurel
Lucia, & Tia Shimada, How Proposed Changes to the
‘Public Charge’ Rule Will Affect Health, Hunger and
the Economy in California, 32 (Nov. 2018), https://
healthpolicy.ucla.edu/newsroom/Documents/2018/publiccharge-seminar-slides-nov2018.pdf (estimating over
300,000 disenrollments from Medicaid in California
alone); Fiscal Policy Institute, Only Wealthy Immigrants
Need Apply: The Chilling Effects of “Public Charge,”
5 (Nov. 2019), http://fiscalpolicy.org/wp-content/uploads/
2019/11/FINAL-FPI-Public-Charge-2019-MasterCopy.
pdf (estimating over $500 million combined in lost state
tax revenue). DHS was required to “reasonably reflect
upon” and “grapple with” such evidence. Fred Meyers
Stores, Inc. v. NLRB, 865 F.3d 630, 638 (D.C. Cir. 2017).
But DHS made no attempt to quantify the financial costs
of the Rule or critique the projections offered.

26a
Similarly, DHS’s repeated statements that the Rule’s
disenrollment impacts are “difficult to predict” do not
satisfy its duty to “examine the relevant data” before it.
State Farm, 463 U.S. at 43. The Supreme Court held
in State Farm that an agency may not, without analysis,
cite even “‘substantial uncertainty’ . . . as a justification for its actions.” Id. at 52; see also Ctr. for Biological Diversity v. NHTSA, 538 F.3d 1172, 1200 (9th
Cir. 2008) (rejecting as arbitrary and capricious agency’s
characterization of greenhouse gas reductions as “too
uncertain to support their explicit valuation and inclusion” in analysis). DHS’s analysis thus fell short of the
standard established by the Supreme Court and recognized by our circuit. DHS did not adequately deal with
the financial effects of the Rule.
2.

Health Consequences

Although DHS wrote the Rule was intended to make
immigrants healthier and stronger, commenters stressed
the Rule’s likely adverse health consequences for immigrants and the public as a whole, including infectious
disease outbreaks and hospital closures. While acknowledging these comments, DHS concluded, without
support, that the Rule “will ultimately strengthen public
safety, health, and nutrition.” 84 Fed. Reg. at 41,314.
The Northern District aptly found that DHS impermissibly “simply declined to engage with certain, identified
public-health consequences of the Rule.” City and
Cnty. of SF, 408 F. Supp. 3d at 1111-12.
Commenters provided substantial evidence that the
Rule would in fact harm public safety, health, and nutrition. DHS itself repeatedly acknowledged that hospitals might face financial harms as a result of the Rule,

27a
but DHS repeatedly declined to quantify, assess, or otherwise deal with the problem in any meaningful way.
See, e.g., 84 Fed. Reg. at 41,313-14, 41,384, 41,475,
41,476. This is inadequate and suggests that DHS’s
position was intractable. As the D.C. Circuit has observed, making some mention of evidence but then coming to a contrary, “unsupported and conclusory” decision “add[s] nothing to the agency’s defense of its thesis
except perhaps the implication that it was committed to
its position regardless of any facts to the contrary.”
Chem. Mfrs. Ass’n. v. EPA, 28 F.3d 1259, 1266 (D.C. Cir.
1994). DHS responded by excluding certain programs
for children and pregnant women from the ambit of the
Rule, but never addressed the larger concerns about the
Rule’s effect on health as well as on hospital resources.
There were other serious health concerns. For example, comments demonstrated that the Rule would endanger public health by decreasing vaccination rates in
the general population. DHS insisted that vaccines
would “still be available” to Medicaid-disenrolled individuals because “local health centers and state health
departments” would pick up the slack, id. at 41,385, despite objections voiced by such local health centers and
state health departments themselves showing that the
Rule will put the populations they serve—citizens and
non-citizens alike—in danger. See, e.g., Mass. Dep’t of
Pub. Health, Comments on Inadmissibility on Public
Charge Grounds (Dec. 2018), https://www.regulations.
gov/document?D=USCIS-2010-0012-45697; Hilltown
Cmty. Health Ctr., Comments on Inadmissibility on Public Charge Grounds (Dec. 2018), https://www.regulations.
gov/document?D=USCIS-2010-0012-45675.
A deci-

28a
sion that “runs counter to the evidence” or “is so implausible that it could not be ascribed to a difference in view
or the product of agency expertise” is arbitrary and capricious. State Farm, 463 U.S. at 43. The promulgation of this Rule is such a decision. DHS claims no expertise in public health, unlike the scores of expert commenters who weighed in against the Rule.
3.

Reversal of Position

Above all, DHS failed to explain its abrupt change in
policy from the 1999 Guidance. An agency reversing a
prior policy “must show that there are good reasons for
the new policy” and provide “a reasoned explanation
. . . for disregarding facts and circumstances that underlay or were engendered by the prior policy.” FCC
v. Fox Television Stations, Inc., 556 U.S. 502, 515-16
(2009). The district courts below found that DHS had
failed to satisfy this standard. City and Cnty. of SF,
408 F. Supp. 3d at 1111-12; Washington v. DHS, 408
F. Supp. 3d at 1220.
The 1999 Guidance had been issued after the 1996
statutory amendments setting out the general factors to
be taken into account in making a public charge determination. The Guidance considered all of the different
types of public assistance governments offered, including programs providing subsistence income and those
providing supplemental benefits. The Guidance expressly provided that receipt of supplemental assistance
for food, healthcare and housing were not to be considered in assessing an immigrant’s likelihood of becoming
a public charge. As discussed above, this provision was
consistent with over a century of judicial and administrative decisions interpreting the public charge bar.

29a
The Rule, however, provides that the prospect of receiving those same supplemental benefits, for even a few
months, renders an individual inadmissible. This is directly contrary to the 1999 Guidance.
Yet DHS promulgated the Rule without any explanation of why the facts found, and the analysis provided, in
the prior Guidance were now unsatisfactory. This is a
practice the Supreme Court has rejected: an agency
about-face with no “reasoned explanation . . . for
disregarding” the findings underlying the prior policy.
Fox, 556 U.S. at 516. Here is an illustration of the
about-face. The 1999 Guidance had found that deterring acceptance of “important health and nutrition benefits” had yielded “an adverse impact . . . on public
health and the general welfare.” 64 Fed. Reg. at
28,692. In contrast, DHS now says that the new Rule
“will ultimately strengthen public safety, health, and nutrition.” 84 Fed. Reg. at 41,314. DHS provides no basis for this conclusion or for its departure from the empirical assessments underlying the prior policy.
In light of this policy change, coupled with the “serious reliance interests” engendered by over two decades
of reliance on the Guidance, DHS was required to provide a “more detailed justification” for the Rule. Fox,
556 U.S. at 515. DHS provides no justification, other
than the repeated conclusory mantra that the new policy
will encourage self-sufficiency. DHS in effect says that
by creating a disincentive for immigrants to use available assistance, the Rule will “ensur[e] that [admitted immigrants] be self-sufficient and not reliant on public resources.” 84 Fed. Reg. at 41,319. DHS does not substantiate, and the record does not support, this empirical
prediction. See, e.g., Hilary Hoynes, Diane Whitmore

30a
Schanzenbach & Douglas Almond, Long-Run Impacts
of Childhood Access to the Safety Net, 106 Am. Econ.
Rev. 903, 930 (finding that having access to food stamps
during childhood leads to “significant improvement in
adult health” and “increases in economic self-sufficiency,”
including decreased welfare participation). Plaintiffs
urge that their experience is contrary to DHS’s conclusion. Also to the contrary is the experience related in
multiple amicus briefs. See, e.g., Brief for the Institute
for Policy Integrity as Amicus Curiae Supporting Petitioners at 9 (citing evidence that reductions in SNAP
participation increase homelessness); Brief for National
Housing Law Project et al. as Amici Curiae Supporting
Petitioners at 13 (citing evidence that Medicaid made it
easier for recipients to work and find work).
4.

Arbitrary and Capricious

In sum, DHS adopted the Rule, reversing prior,
longstanding public policy, without adequately taking
into account its potential adverse effects on the public
fisc and the public welfare. We must conclude that the
Rule’s promulgation was arbitrary and capricious as
well as contrary to law within the meaning of the APA.
5 U.S.C. § 706(2)(A).
F.

Remaining Injunction Factors

1.

Irreparable Harm

Plaintiffs have shown a likelihood of success on the
merits of their claim that the Rule violates the standards
of the APA in that it is both contrary to law and arbitrary and capricious. To support entry of an injunction, Plaintiffs must also show a likely threat of irreparable injury in the absence of an injunction. Winter,
555 U.S. at 22. Plaintiffs have established that they

31a
likely are bearing and will continue to bear heavy financial costs because of withdrawal of immigrants from federal assistance programs and consequent dependence
on state and local programs.
There is no dispute that such economic harm is sufficient to constitute irreparable harm because of the unavailability of monetary damages. See California v.
Azar, 911 F.3d 558, 581 (9th Cir. 2018); 5 U.S.C. § 702
(providing for relief “other than monetary damages”).
DHS counters that such harm in this case is speculative,
amounting to no more than the possibility of future injury. See Park Vill. Apartment Tenants Ass’n v. Mortimer Howard Tr., 636 F.3d 1150, 1160 (9th Cir. 2011).
We have, however, already seen that in this case such
harm is more than speculative. Plaintiffs have presented evidence that they are already experiencing
harm and DHS itself has projected significant disenrollment from federal programs, likely leading to enrollments in state and local ones. The district courts both
made factual findings as to harm that DHS does not refute with citations to the record.
2.

Balance of Equities and Public Interest

There was no error in finding that the balance of equities and public interest support an injunction. The
Northern District pointed to the need for “continuing
the provision of medical services through Medicaid to
those who would predictably disenroll absent an injunction” in light of the explanations given by “parties and
numerous amici . . . [of the] adverse health consequences not only to those who disenroll, but to the entire
populations of the plaintiff states, for example, in the
form of decreased vaccination rates.” City and Cnty.

32a
of SF, 408 F. Supp. 3d at 1127. The public interest in
preventing contagion is particularly salient during the
current global pandemic.
Although DHS nevertheless argues that it is harmed
by not being able to implement its new definition of public charge, if it is ultimately successful in defending the
merits of the Rule, the harm will amount to no more than
a temporary extension of the law previously in effect for
decades. Given the financial burdens that plaintiffs
have persuasively demonstrated will befall them as a result of disenrollment from federal programs, coupled
with adverse effects on the health and welfare of the immigrant as well as general population, we cannot say the
district courts abused their discretion in finding that the
balance of equities and public interest weigh in favor the
injunction.
G.

Propriety of a Nationwide Injunction

The Northern District issued a preliminary injunction limited to the territory of the plaintiff state and local entities before it. The Eastern District issued a nationwide injunction, explaining that a more limited injunction would not prevent all the harms alleged. The
court was concerned about protecting immigrants from
harm if they moved outside of the plaintiff jurisdictions,
about the economic impact on plaintiff states if immigrants moved to them to evade the consequences of the
Rule, and about lawful immigrants being subject to the
Rule at points of entry after travel abroad. Washington, 408 F. Supp. 3d at 1223.
The appropriateness of nationwide injunctions in any
case has come under serious question. See, e.g., DHS
v. New York, 140 S Ct. 599, 599-601 (2020) (Gorsuch, J.,

33a
concurring); Trump v. Hawaii, 138 S. Ct. 2392, 2424-29
(2018) (Thomas, J., concurring). In explaining the limited scope of its injunction, the Second Circuit questioned the propriety of one court imposing its will on all:
It is not clear to us that, where contrary views could
be or have been taken by courts of parallel or superior authority entitled to determine the law within
their own geographical jurisdictions, the court that
imposes the most sweeping injunction should control
the nationwide legal landscape.
New York, 969 F.3d at 88.
Whatever the merits of nationwide injunctions in
other contexts, we conclude a nationwide injunction is
not appropriate in this case. This is because the impact
of the Rule would fall upon all districts at the same time,
and the same issues regarding its validity have been and
are being litigated in multiple federal district and circuit
courts.
Accordingly, we vacate that portion of the Eastern
District’s injunction making it applicable nationwide,
but otherwise affirm it.
H. Rehabilitation Act

The plaintiffs also contend that the Rule violates the
Rehabilitation Act, which bans discrimination on the basis of disabilities. 29 U.S.C. § 794(a). The Seventh
Circuit looked favorably on this contention, and the Second Circuit expressly did not address it. Cook Cnty.,
962 F.3d at 228, New York, 969 F.3d at 64 n.20. Because we have held that the Rule violates the APA as
contrary to law and arbitrary and capricious, we similarly do not address the Rehabilitation Act.

34a
I.

Conclusion

The order of the District Court for the Northern District of California is AFFIRMED. The order of the District Court for the Eastern District of Washington is AFFIRMED in part and VACATED in part. Costs are
awarded to the plaintiffs.
VANDYKE, Circuit Judge, dissenting:

For the reasons ably articulated by our court in a December 2019 published opinion,1 by the Fourth Circuit
in an August 2020 opinion, 2 and by a dissenting Seventh
Circuit judge in a June 2020 opinion (particularly notable for its erudition) 3 —and implied by the Supreme
Court’s multiple stays this year of injunctions virtually
identical to those the majority today affirms 4—I must
respectfully dissent.

City & County of San Francisco v. USCIS, 944 F.3d 773 (9th
Cir. 2019).
2
CASA de Maryland, Inc. v. Trump, 971 F.3d 220 (4th Cir. 2020).
3
Cook County v. Wolf, 962 F.3d 208, 234-54 (7th Cir. 2020) (Barrett, J., dissenting).
4
Dep’t of Homeland Sec. v. New York, 140 S. Ct. 599 (2020); Wolf
v. Cook County, 140 S. Ct. 681 (2020).
1

35a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-17213
D.C. No. 4:19-cv-04717-PJH
CITY AND COUNTY OF SAN FRANCISCO; COUNTY OF
SANTA CLARA, PLAINTIFFS-APPELLEES
v.
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES, A FEDERAL AGENCY; U.S. DEPARTMENT OF
HOMELAND SECURITY, A FEDERAL AGENCY; CHAD F.
WOLF, IN HIS OFFICIAL CAPACITY AS ACTING
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HOMELAND SECURITY; KENNETH T. CUCCINELLI, IN
HIS OFFICIAL CAPACITY AS ACTING DIRECTOR OF
UNITED STATES CITIZENSHIP AND IMMIGRATION
SERVICES, DEFENDANTS-APPELLANTS
No. 19-17214
D.C. No. 4:19-cv-04975-PJH
STATE OF CALIFORNIA; DISTRICT OF COLUMBIA;
STATE OF MAINE; COMMONWEALTH OF PENNSYLVANIA;
STATE OF OREGON, PLAINTIFFS-APPELLEES
v.
U.S. DEPARTMENT OF HOMELAND
SECURITY, A FEDERAL AGENCY; UNITED STATES
CITIZENSHIP AND IMMIGRATION SERVICES, A FEDERAL
AGENCY; CHAD F. WOLF, IN HIS OFFICIAL CAPACITY
AS ACTING SECRETARY OF THE UNITED STATES
DEPARTMENT OF HOMELAND SECURITY; KENNETH T.
CUCCINELLI, IN HIS OFFICIAL CAPACITY AS ACTING

36a
DIRECTOR OF UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, DEFENDANTS-APPELLANTS
No. 19-35914
D.C. No. 4:19-cv-05210-RMP
STATE OF WASHINGTON; COMMONWEALTH OF
VIRGINIA; STATE OF COLORADO; STATE OF DELAWARE;
STATE OF ILLINOIS; STATE OF MARYLAND;
COMMONWEALTH OF MASSACHUSETTS; DANA NESSEL,
ATTORNEY GENERAL ON BEHALF OF THE PEOPLE OF
MICHIGAN; STATE OF MINNESOTA; STATE OF NEVADA;
STATE OF NEW JERSEY; STATE OF NEW MEXICO;
STATE OF RHODE ISLAND; STATE OF HAWAI‘I,
PLAINTIFFS-APPELLEES
v.
U.S. DEPARTMENT OF HOMELAND
SECURITY, A FEDERAL AGENCY; CHAD F. WOLF,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
THE UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, A FEDERAL AGENCY; KENNETH
T. CUCCINELLI, IN HIS OFFICIAL CAPACITY AS ACTING
DIRECTOR OF UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, DEFENDANTS-APPELLANTS
Filed: Dec. 5, 2019
ORDER

Before: JAY S. BYBEE, SANDRA S. IKUTA, and JOHN
B. OWENS, Circuit Judges.
Concurrence by Judge BYBEE;

37a
Partial Concurrence and Partial Dissent by Judge

OWENS

BYBEE, Circuit Judge:
Since 1882, when the Congress enacted the first comprehensive immigration statute, U.S. law has prohibited
the admission to the United States of “any person unable to take care of himself or herself without becoming a
public charge.” Act of Aug. 3, 1882, ch. 376, § 2, 22 Stat.
214 (1882). Although the precise formulation of this
provision has been amended regularly in the succeeding
century and a quarter, the basic prohibition and the
phrase “public charge” remains. Most recently, in the
Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (IIRIRA), Congress amended the Immigration and Nationality Act (INA) to provide that
“[a]ny alien who, in the opinion of the consular officer at
the time of application for a visa, or in the opinion of
the Attorney General at the time of application for admission or adjustment of status, is likely at any time
to become a public charge is inadmissible.” 8 U.S.C.
§ 1182(a)(4)(A). In making this determination, “the
consular officer or the Attorney General shall at a minimum” take five factors into account: age; health; family status; assets, resources, and financial status; and education and skills. Id. § 1182(a)(4)(B)(i). Under longstanding practice, consular officers and the Attorney
General consider these factors under a “totality of the
circumstances” test.
In 1999, the Immigration and Naturalization Service
(INS), providing guidance to the public and INS field
officers, defined “public charge” as an “alien . . .
who is likely to become . . . primarily dependent on

38a
the government for subsistence” as demonstrated by either “institutionalization for long-term care at government expense” or “receipt of public cash assistance for
income maintenance.” Field Guidance on Deportability and Inadmissibility on Public Charge Grounds, 64
Fed. Reg. 28,689, 28,689 (May 26, 1999) (1999 Field
Guidance) (internal quotation marks omitted). Although
INS determined that the receipt of cash benefits received under a public program would be considered a
factor in determining whether an alien was likely to become a public charge, it stated that non-cash benefits
would not be taken into account for public-charge purposes. Id.
In August 2019, following notice and comment, the
Department of Homeland Security adopted a new rule,
redefining the term “public charge” to require a consideration of not only cash benefits, but also certain noncash benefits. Inadmissibility on Public Charge Grounds,
84 Fed. Reg. 41,292, 41,292 (Aug. 14, 2019) (Final Rule).
Under DHS’s Final Rule a public charge is “an alien who
receives one or more public benefits . . . for more
than 12 months in the aggregate within any 36-month
period.” Id. at 41,501. In turn, DHS defined “public
benefits.” Consistent with the 1999 Field Guidance,
DHS still considers receipt of cash assistance from Supplemental Security Income (SSI); Temporary Assistance for Needy Families (TANF); and federal, state, or
local general assistance programs to be public benefits.
To that list, DHS added non-cash assistance received
through the Supplemental Nutrition Assistance Program (SNAP), Section 8 housing assistance, Section 8
project-based rental assistance, Medicaid (with certain
exceptions), and Section 9 public housing. Id. DHS’s

39a
rule exempts public benefits received for emergency
medical conditions, benefits received under the Individuals with Disabilities Education Act, and school-based
services or benefits. Id. It also exempts those benefits received by aliens under 21 years of age, women during pregnancy, and members of the armed forces and
their families. Id. DHS repeated that “[t]he determination of an alien’s likelihood of becoming a public
charge at any time in the future must be based on the
totality of the alien’s circumstances.” Id. at 41,502.
Prior to the Final Rule taking effect in October 2019,
various states, municipalities, and organizations brought
suits in California and Washington seeking a preliminary injunction against the implementation of the rule.
In Nos. 19-17213 and 19-17214, California, Maine, Oregon, Pennsylvania, and the District of Columbia; the
City and County of San Francisco and the County of
Santa Clara; and various organizations brought suit in
the Northern District of California against the United
States under the Due Process Clause of the Fifth
Amendment; the Administrative Procedure Act (APA),
5 U.S.C. § 706; and the Declaratory Judgment Act, 28
U.S.C. §§ 2201-02. The district court granted a preliminary injunction on the basis of the APA, effective
against implementation of the rule in the plaintiff states.
City & Cty. of San Francisco v. U.S. Citizenship & Immigration Servs., 2019 WL 5100718 (N.D. Cal. Oct. 11,
2019). In No. 19-35914, thirteen states—Washington,
Virginia, Colorado, Delaware, Hawai‘i, Illinois, Maryland, Massachusetts, Minnesota, Nevada, New Jersey,
New Mexico, and Rhode Island—filed suit in the Eastern District of Washington against DHS under the Due
Process Clause of the Fifth Amendment and the APA.

40a
The district court granted a preliminary injunction on
the basis of the APA claims and issued a nationwide injunction. Washington v. U.S. Dep’t of Homeland Sec.,
2019 WL 5100717 (E.D. Wash. Oct. 11, 2019).
DHS seeks a stay of both preliminary injunctions. 1
Our authority to issue a stay of a preliminary injunction
is circumscribed. Nevertheless, for the reasons explained below, we will grant the stay. DHS has shown
a strong likelihood of success on the merits, that it will
suffer irreparable harm, and that the balance of the equities and public interest favor a stay. See Nken v.
Holder, 556 U.S. 418, 434 (2009).
I.

BACKGROUND AND PROCEDURE

We begin with the governing statutory framework,
the proposed change to this framework, and the proceedings below.
A. Statutory Framework
The INA requires all aliens who seek lawful admission to the United States, or those already present but
seeking to become lawful permanent residents (LPRs),
to prove that they are “not inadmissible.” 8 U.S.C.
§ 1361; see also id. §§ 1225(a), 1255(a). Section 212 of
the INA lists the grounds on which an alien may be adjudged inadmissible. Id. § 1182(a)(1)-(10). One of the
grounds for inadmissibility is a determination that
the alien is likely to become a “public charge.” Id.
§ 1182(a)(4). Section 212(a)(4) of the INA reads as follows:

For clarity, we will refer to the plaintiffs below as “the States”
and the defendants as “DHS.”
1

41a
(4) PUBLIC CHARGE.—
(A) IN GENERAL.—Any alien who, in the
opinion of the consular officer at the time of application for a visa, or in the opinion of the Attorney
General at the time of application for admission or
adjustment of status, is likely at any time to become a public charge is inadmissible.
(B) FACTORS
ACCOUNT.—

TO

BE

TAKEN

INTO

(i) In determining whether an alien is inadmissible under this paragraph, the consular officer or the Attorney General[2] shall at a minimum consider the alien’s—
(I)

age;

(II)

health;

(III) family status;
(IV) assets, resources, and financial status;
and
(V)

education and skills.

(ii) In addition to the factors under clause (i),
the consular officer or the Attorney General
The Homeland Security Act of 2002 transferred much of the Attorney General’s immigration authority to the newly created office
of the Secretary of Homeland Security. See In re D-J-, 23 I. & N.
Dec. 572, 573-74 & n.2 (Op. Att’y Gen. 2003) (citing Homeland Security Act of 2002, Pub. L. No. 108-7, 117 Stat. 531 (2003)). Though
the Attorney General retains authority over the Executive Office for
Immigration Review, id. n.3, the Secretary of Homeland Security is
now responsible with the general administration and enforcement of
immigration law, id. n.2.
2

42a
may also consider any affidavit of support[3] under section 1183a of this title for purposes of
exclusion under this paragraph.
Id.
This provision is applied at different times by different government agencies. When an alien seeks a visa
to travel to the United States, a Department of State
(DOS) consular officer must make an admissibility determination. See 84 Fed. Reg. at 41,294 n.3. When an
alien arrives at a port of entry without a visa, DHS
makes that determination. Id. An alien may also be
deemed “inadmissible” even when the alien is already in
the country. For example, when an alien seeks an adjustment of status from non-immigrant to LPR, DHS
must determine that the alien is not inadmissible. See
id. And when an alien is processed in immigration
court, the Department of Justice (DOJ) through immigration judges and the Board of Immigration Appeals
(BIA) must determine whether that alien is inadmissible. Id.
Though § 212 of the INA lays out the factors an immigration official must consider “at a minimum” when
making a public-charge determination, the INA does not
define the term “public charge,” or restrict how officials
are to consider age, health, family status, financial resources, and education. Indeed, as explained in more
detail below, in the context of immigration law, the term
“public charge” has had several meanings. Since 1999,

An affidavit of support is a binding pledge, often made by an employer or family member of the alien, to financially support the alien
at 125 percent of the Federal poverty line. 8 U.S.C. § 1183.
3

43a
however, the term has been defined according to guidelines issued by the INS Field Guidance on the matter.
See 1999 Field Guidance, 64 Fed. Reg. at 28,689. The
1999 Field Guidance defined a public charge as an alien
who “is likely to become (for admission/adjustment purposes) primarily dependent on the government for subsistence, as demonstrated by either (i) the receipt of
public cash assistance for income maintenance or (ii) institutionalization for long-term care at government expense.” Id. (internal quotation marks omitted). The
1999 Field Guidance did not permit immigration officers to “place any weight on the receipt of non-cash public benefits,” id., and allowed consideration of only cashbenefit programs like SSI, TANF, and “[s]tate and local
cash assistance programs that provide benefits for income maintenance,” id. at 28,692.
B. The Proposed Rule
On October 10, 2018, DHS published a Notice of Proposed Rulemaking (NPRM) indicating its intent to
abandon the 1999 Field Guidance and redefine the term
“public charge.” See Inadmissibility on Public Charge
Grounds, 83 Fed. Reg. 51,114 (proposed Oct. 10, 2018). 4
It did so acting under the authority vested in the Secretary of Homeland Security to establish immigration regulations and enforce immigration law. See 8 U.S.C.
§ 1103(a)(3) (“[The Secretary of Homeland Security]
shall establish such regulations . . . as he deems
The proposed rule would not change the definition of public
charge for removability determinations, only for determinations of
inadmissibility. 83 Fed. Reg. at 51,134. And though the rule only
applies to DHS, DHS is currently working with DOS and DOJ to
ensure that all three agencies apply a consistent definition of the
term in their admissibility inquiries. 84 Fed. Reg. at 41,294 n.3.
4

44a
necessary for carrying out his authority under the provisions of this chapter.”). The proposed rule redefined
the term “public charge” in two ways.
First, the proposed rule for the first time established
a required length of time for which the alien would have
to rely on public benefits before being labeled a public
charge. Under the 1999 Field Guidance, a public charge
was defined as an individual “primarily dependent” on
government benefits, but the 1999 Field Guidance prescribed no specific time period for which this determination should be made. See 64 Fed. Reg. at 28,689,
28,692. Under the new rule, an alien would be considered a public charge if he or she “receives one or more
[designated] public benefits . . . for more than 12
months in the aggregate within a 36-month period.” 83
Fed. Reg. at 51,157-58. Moreover, the proposed rule
counts each public benefit received, so that “receipt of
two different non-monetizable benefits in one month
counts as two months.” Id. at 51,166.
Second, the proposed rule expanded which benefits
contributed to a public-charge determination. The proposed rule still included those cash-benefit programs
that were listed in the 1999 Field Guidance, but now
also includes various in-kind programs, such as:
(A) Supplemental Nutrition Assistance Program (SNAP, formerly called ‘‘Food Stamps’’),
7 U.S.C. 2011 to 2036c;
(B) Section 8 Housing Assistance under the
Housing Choice Voucher Program, as administered by HUD under 24 CFR part 984; 42 U.S.C.
1437f and 1437u;

45a
(C) Section 8 Project-Based Rental Assistance
(including Moderate Rehabilitation) under 24
CFR parts 5, 402, 880 through 884 and 886; and
. . .
(i) Medicaid, 42 U.S.C. 1396 et seq., [with several exceptions, discussed below]
. . .
(iv) Subsidized Housing under the Housing
Act of 1937, 42 U.S.C. 1437 et seq.
Id. at 51,290 (to be codified at 8 C.F.R. § 212.21). 5
Additionally, the proposed rule added other factors
for immigration officers to consider when making a publiccharge determination. The rule still required consideration of the alien’s age, health, family status, financial
status, education, and skills, as well as any affidavits of
support the alien presents. See 83 Fed Reg. 51,178 (to
be codified at 8 C.F.R. § 212.22). But the proposed rule
also laid out new factors to be afforded extra weight.
Four factors weigh heavily against the alien in a publiccharge determination: (1) a finding that the alien “is
DHS altered the Final Rule to make clear that certain benefits
were exempt from consideration, including “Medicaid [collected] by
aliens under the age of 21[, Medicaid collected by] pregnant women
during pregnancy and during the 60-day period after pregnancy,”
school-based services, Individuals with Disabilities Education Act
(IDEA) services, Medicare Part D Low-Income Subsidies, and
emergency medical care. 84 Fed. Reg. at 41,296-97 (codified at 8
C.F.R. § 212.21). Further, in certain circumstances, the proposed
rule excuses receipt of covered public benefits. See id. (codified at
8 C.F.R. § 212.21) (exempting public benefits from consideration
when the recipient has received certain humanitarian relief, the recipient or his spouse was in the Armed Forces, or the recipient received a waiver).
5

46a
not a full-time student and is authorized to work,” but
cannot demonstrate “current employment, employment
history, or [a] reasonable prospect of future employment”; (2) a previous finding of inadmissibility on publiccharge grounds; (3) a medical diagnosis that would likely
require extensive medical treatment or interfere with
the alien’s ability to be self-sufficient; and (4) receipt of
benefits for more than twelve months within a thirty-six
month period. Id. at 51,198-201 (to be codified at 8
C.F.R. § 212.22). Conversely, two factors would weigh
heavily in favor of the alien in a public-charge determination: (1) assets or household income over 250 percent of the Federal poverty line, and (2) individual income over 250 percent of the Federal poverty line. 6 Id.
at 51,292 (to be codified at 8 C.F.R. § 212.22(c)(2)).
During the sixty-day public comment period that followed the NPRM, DHS collected 266,077 comments,
“the vast majority of which opposed the rule.” 84 Fed.
Reg. at 41,297. On August 14, 2019, DHS published the
Final Rule in the Federal Register. Id. at 41,292. In
its 216-page Final Rule, DHS made some changes to the
proposed rule (which are not relevant here) and addressed the comments it received. The Final Rule was
scheduled to take effect on October 15, 2019, and would
apply to anyone applying for admission or adjustment of
status after that date. Id.

The Final Rule added a third factor: private health insurance
not subsidized under the Affordable Care Act. 84 Fed. Reg. at
41,504.
6

47a
C. The Proceedings
1.

The Northern District of California Case

On August 13, 2019, the City and County of San Francisco and the County of Santa Clara sued several government agencies and officials, including U.S. Citizenship and Immigration Services (USCIS), the Acting Director of USCIS Kenneth T. Cuccinelli, DHS, and the
then Acting Director of DHS Kevin McAleenan. They
brought suit in the United States District Court for the
Northern District of California, claiming that the proposed rule violated the APA on two grounds: (1) the
rule was not made in accordance with the law, and (2)
the rule was arbitrary, capricious, and an abuse of discretion. See 5 U.S.C. § 706(2). Three days later, on
August 16, 2019, California, Maine, Oregon, Pennsylvania, and the District of Columbia, sued the same defendants in the same court. They claimed that (1) the proposed rule violated § 706 of the APA because (a) it was
not made in accordance with the INA, the IIRIRA, the
Rehabilitation Act, or state healthcare discretion, (b) it
was arbitrary, capricious, and an abuse of discretion,
and (2) the proposed rule violated the Fifth Amendment’s Due Process Clause because it denied equal protection based on race and unconstitutional animus.
Each set of plaintiffs filed a motion to preliminarily
enjoin enforcement of the proposed rule. On August
27, 2019, the district court ordered the two cases consolidated. 7

Several legal and health-care organizations were also parties to
the motion for a preliminary injunction below. The district court
found that they failed to establish that they were within the zone
7

48a
The district court heard oral argument on October 2,
2019, and on October 11, granted the preliminary injunction. See City & Cty. of San Francisco, 2019 WL
5100718 at *1, 53. The court first held that both the
Counties and the States had standing to sue because
they showed imminent financial injury. Id. at *46-47.
It held that they were in the statute’s zone of interests
because, in enacting the public-charge provision of the
INA, “Congress intended to protect states and their political subdivisions’ coffers.” Id. at *41. On the merits, the district court found that the States satisfied the
four-factor test for a preliminary injunction. See Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008).
The court held that the States had a likelihood of success
on the merits for at least some of their claims. It found
the States were likely to successfully show that the proposed rule was contrary to law because it unreasonably
defined the term “public charge,” and thus failed the
second step of the Chevron analysis. City & Cty. of
San Francisco, 2019 WL 5100718, at *28. Alternatively, the court found that the States had shown a serious question as to whether the INA unambiguously foreclosed the proposed change to the definition of public
charge, thus causing the Final Rule to fail at Chevron
step one. Id. The court also concluded that the
States had demonstrated a likelihood of success on the
arbitrary-and-capricious claim because DHS failed to
adequately consider the adverse economic and public
health-related costs of the proposed rule. Id. at *34,
*37.

of interests. City & Cty. of San Francisco, 2019 WL 5100718, at
*53. They are not parties to this appeal.

49a
Further, the court found that the rule’s implementation would irreparably harm the Counties and States by
causing them to lose millions of dollars in federal reimbursements and face increased operational costs. Id.
at *46-49. Focusing on the public’s interest in the continued provision of medical services and the prevention
of communicable diseases, the district court found both
the balance of the equities and the public interest weighed
in favor of granting an injunction. Id. at *50-51. However, because the court found that the States had failed
to show why a nationwide injunction would be necessary,
the court granted an injunction that applied only to
those persons living in plaintiff states or counties. Id.
at *53.
On October 25, 2019, DHS sought a stay of the preliminary injunction. DHS informed the court that it
would seek appellate relief if the court did not act by
November 14.
2.

The Eastern District of Washington Case

On August 14, 2019, Washington, Virginia, Colorado,
Delaware, Hawai‘i, Illinois, Maryland, Massachusetts,
Minnesota, Nevada, New Jersey, Rhode Island, and the
state attorney general on behalf of Michigan sued
USCIS, Cuccinelli, DHS, and McAleenan in the United
States District Court for the Eastern District of Washington. They alleged claims similar to those presented
in the California cases: (1) the proposed rule violated
the APA because (a) it was not in accordance with immigration law or the Rehabilitation Act, (b) it exceeded
DHS’s statutory jurisdiction or authority, and (c) it was
arbitrary, capricious, and an abuse of discretion, and (2)
the proposed rule violated the Fifth Amendment’s Due

50a
Process Clause because it denied equal protection based
on race and unconstitutional animus.
The district court heard oral argument on October 3,
2019, and on October 11, granted the preliminary injunction. See Washington, 2019 WL 5100717, at *23. The
court’s conclusions largely mirrored those of the Northern District of California, though there were some differences. Citing the States’ anticipated economic, administrative, and public-health costs, the court held that
the States had standing and that the matter was ripe.
Id. at *11. Finding that the INA was enacted “to protect states from having to spend state money to provide
for immigrants who could not provide for themselves,”
the court concluded that the States were within the
INA’s zone of interests. Id.
On the merits, the court held that the States had
shown a likelihood of success on the arbitrary-andcapriciousness claim and the Chevron claim, though the
Washington court was less clear than the California
court had been about at which step of the Chevron analysis the proposed rule would fail. Id. at *13-17. Unlike the California court, the Washington court also
found that the States were likely to succeed in proving
that DHS had violated the Rehabilitation Act, and that
DHS acted beyond its congressionally delegated authority in defining self-sufficiency. Id. at *17-18. Noting
that “the Plaintiff States provide a strong basis for finding that disenrollment from non-cash benefits programs
is predictable, not speculative,” and that such disenrollment would financially harm the States, the court found
that the States would suffer irreparable harm if the injunction were not issued. Id. at *20-21. On these
same grounds, the court found that the balance of the

51a
equities and public interest both “tip[ped] in favor” of
granting a preliminary injunction. Id. at *21. However, unlike the California court, the Washington court
found a geographically limited injunction untenable, in
part because a limited injunction might give immigrants
an incentive to move from unprotected states to protected states.
Accordingly, the Washington court
granted the States a nationwide injunction. Id. at *2223.
On October 25, 2019, DHS sought a stay of the preliminary injunction. DHS informed the court that it
would seek appellate relief if the court did not act by
November 14.
* * *
By November 14, neither district court responded to
the respective motions to stay. On November 15, 2019,
DHS filed a motion in this court for an emergency stay
of the injunction.
II.

JURISDICTION

DHS contends that the plaintiffs do not have Article
III standing to sue and that their claims do not fall
within the zone of interests protected by the INA. We
have an obligation to ensure that jurisdiction exists before proceeding to the merits. See Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 93-95 (1998). 8 Addition-

Both district courts also held that the States’ claims fall within
the INA’s “zone of interests.” See City & Cty. of San Francisco,
2019 WL 5100718, at *41; Washington, 2019 WL 5100717, at *11.
For present purposes, because the issue is close and raises a prudential rather than jurisdictional concern, see Bank of Am. Corp. v.
8

52a
ally, although no party has raised the issue, we must address whether DHS’s request for a stay pending appeal
is moot in light of the fact that two courts outside our
circuit have also issued nationwide injunctions, and any
decision we issue here would not directly affect those orders. We conclude that, at this preliminary stage of
the proceedings, the States have sufficiently alleged
grounds for Article III standing and that DHS’s petition
for a stay is not moot.
A. Article III Standing
Article III of the Constitution limits the federal judicial power to the adjudication of “Cases” and “Controversies.” U.S. CONST. art. III, § 2, cl. 1. This fundamental limitation “is founded in concern about the
proper—and properly limited—role of the courts in a
democratic society.” Summers v. Earth Island Inst.,
555 U.S. 488, 492-93 (2009) (quoting Warth v. Seldin, 422
U.S. 490, 498 (1975)). “One of the essential elements of
a legal case or controversy is that the plaintiff have
standing to sue.” Trump v. Hawai‘i, 138 S. Ct. 2392,
2416 (2018). “[B]uilt on separation-of-powers principles,” standing ensures that litigants have “a personal
stake in the outcome of the controversy as to justify the
exercise of the court’s remedial powers on their behalf.”
Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650 (2017) (internal citations and alterations omitted).
To demonstrate Article III standing, a plaintiff must
show a “concrete and particularized” injury that is “fairly
traceable” to the defendant’s conduct and “that is likely
to be redressed by a favorable judicial decision.”
City of Miami, 137 S. Ct. 1296, 1302 (2017), we will assume that the
States’ claims satisfy the requirement.

53a
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547-48 (2016)
(quoting Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61
(1992)). “At least one plaintiff must have standing to
seek each form of relief requested,” Town of Chester,
137 S. Ct. at 1651, and that party “bears the burden of
establishing” the elements of standing “with the manner
and degree of evidence required at the successive stages
of the litigation,” Lujan, 504 U.S. at 561. “At this very preliminary stage,” plaintiffs “may rely on the allegations
in their Complaint and whatever other evidence they
submitted in support of their [preliminary-injunction]
motion to meet their burden.” Washington v. Trump,
847 F.3d 1151, 1159 (9th Cir. 2017) (per curiam). And
they “need only establish a risk or threat of injury to
satisfy the actual injury requirement.” Harris v. Bd.
of Supervisors, 366 F.3d 754, 762 (9th Cir. 2004); see
Spokeo, 136 S. Ct. at 1548 (noting that the injury must
be “actual or imminent, not conjectural or hypothetical”
(quoting Lujan, 504 U.S. at 560)).
The district courts concluded that the States had
standing based on their alleged loss of federal funds and
increase in operational costs related to individuals disenrolling from the non-cash public benefits at issue.
DHS challenges this finding, arguing that predictions of
future financial harm are based on an “‘attenuated chain
of possibilities’ that does not show ‘certainly impending’
injury.” 9 DHS’s argument is unavailing for several
reasons.
First, the injuries alleged are not entirely speculative
—at least for standing purposes. DHS acknowledges
DHS raises no argument about the second and third elements of
the standing analysis.
9

54a
that one result of the Final Rule will be to encourage
aliens to disenroll from public benefits. It predicted a
2.5 percent disenrollment rate when proposing the rule.
84 Fed. Reg. at 41,463. This disenrollment, DHS predicted, would result in a reduction in Medicaid reimbursement payments to the States of about $1.01 billion.
Id. at 41,301. DHS also acknowledged increased administrative costs that would result from the Final Rule.
Id. at 41,389. To be sure, the predicted result is premised on the actions of third parties, but this type of “predictable effect of Government action on the decisions of
third parties” is sufficient to establish injury in fact.
Dep’t of Commerce v. New York, 139 S. Ct. 2551, 2566
(2019).
Moreover, according to evidence supplied by the
States, the predicted results have already started. As
more individuals disenroll from Medicaid, the States will
no longer receive reimbursements from the federal government for treating them. Similarly, the States have
sufficiently alleged that they are facing new and ongoing
operational costs resulting from the Final Rule. See
City & Cty. of San Francisco, 2019 WL 5100718, at *48.
These costs are predictable, likely, and imminent. It is
disingenuous for DHS to claim that they are too attenuated at this point when it acknowledged these costs in
its own rulemaking process.
Finally, DHS’s reliance on Clapper v. Amnesty Int’l
USA, 568 U.S. 398 (2013), is unfounded. There, the
Court found that various human rights, labor, legal, and
media organizations did not have standing to challenge
the constitutionality of a law authorizing governmental
electronic surveillance of communications for foreign intelligence purposes. Id. at 414. The alleged injury

55a
was that the threat of surveillance would compel them
to travel abroad to have in-person conversations with
sources and witnesses, in addition to other costs related
to protecting the confidentiality of sensitive communications. Id. at 406-07. The Court found that the injury
was not “certainly impending” because it was highly
speculative whether the government would imminently
target communications between the plaintiffs and foreign individuals. Id. at 410-11. The assumption that
their communications would be targeted was not enough
to demonstrate injury in fact. Id. at 411-14. Here,
the States are not making assumptions about their
claimed injuries. Unlike in Clapper, the States present
evidence that the predicted disenrollment and rising administrative costs are currently happening.
Thus, based on the available evidence at this early
stage of the proceedings, we conclude that the States
have shown that they have suffered and will suffer direct
injuries traceable to the Final Rule and thus have standing to challenge its validity.
B. Mootness
Finally, we raise on our own the question of whether
we can consider DHS’s request for a stay of the district
court’s preliminary injunctions. See Demery v. Arpaio, 378 F.3d 1020, 1025 (9th Cir. 2004) (“[W]e have an
independent duty to consider sua sponte whether a case
is moot.”). The stay would, presumably, allow the Final Rule to go into effect pending further proceedings in
the district court and this court. The question of mootness arises because, contemporaneous with the district
courts’ orders here, district courts in Maryland and New
York also issued nationwide injunctions. Casa de Md.,
Inc. v. Trump, 2019 WL 5190689 (D. Md. Oct. 14, 2019);

56a
New York v. U.S. Dep’t of Homeland Sec., 2019 WL
5100372 (S.D.N.Y. Oct. 11, 2019). 10 Thus, unless a stay
also issues in those cases, any stay we might issue would
not allow the Final Rule to go into effect; the Final Rule
would still be barred by those injunctions.
We recently addressed this precise question in California v. U.S. Department of Health & Human Services,
941 F.3d 410, 423 (9th Cir. 2019), and we concluded that
even if an injunction from another court “has a fully nationwide scope, we nevertheless retain jurisdiction under the exception to mootness for cases capable of repetition, yet evading review.” Similarly, we conclude that
DHS’s petition is not moot, and we proceed to the merits
of its petition.
III.

STANDARD OF REVIEW

DHS requests that we stay the district courts’ preliminary injunctions pending resolution of the consideration of the merits of DHS’s appeals. We have authority to do so under the All Writs Act, 28 U.S.C. § 1651,
which provides that the courts “may issue all writs necessary or appropriate in aid of their respective jurisdictions and agreeable to the usages and principles of law.”
See Scripps-Howard Radio, Inc. v. FCC, 316 U.S. 4,
9-10 (1942) (finding that a federal court may stay judgments pending appeal “as part of its traditional equipment for the administration of justice”); In re McKenzie, 180 U.S. 536, 551 (1901) (noting the “inherent power

In a third case out of the Northern District of Illinois, the district
court issued an order enjoining enforcement of the Final Rule in Illinois only. Cook Cty. v. McAleenan, 2019 WL 5110267 (N.D. Ill.
Oct. 14, 2019).
10

57a
of the appellate court to stay . . . proceedings on appeal”); see also Fed. R. Civ. P. 62(g).
Two standards affect our determination, the standard applicable to district courts for preliminary injunctions, and the standard for appellate courts for stays
pending appeal. The district court must apply a fourfactor standard:
A plaintiff seeking a preliminary injunction must establish [1] that he is likely to succeed on the merits,
[2] that he is likely to suffer irreparable harm in the
absence of preliminary relief, [3] that the balance of
equities tips in his favor, and [4] that an injunction is
in the public interest.
Winter, 555 U.S. at 20.
Alternatively, “‘serious questions going to the merits’
and a balance of hardships that tips sharply towards the
plaintiff can support issuance of a preliminary injunction, so long as the plaintiff also shows that there is a
likelihood of irreparable injury and that the injunction
is in the public interest.” All. for the Wild Rockies v.
Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011).
Generally, the purpose of a preliminary injunction is
to “preserve the status quo and the rights of the parties
until a final judgment issues in the cause.”
U.S.
Philips Corp. v. KBC Bank N.V., 590 F.3d 1091, 1094
(9th Cir. 2010) (citing Univ. of Tex. v. Camenisch, 451
U.S. 390, 395 (1981); Sierra On-Line, Inc. v. Phoenix
Software, Inc., 739 F.2d 1415, 1422 (9th Cir. 1984)). An
injunction is “an extraordinary remedy that may only be
awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter, 555 U.S. at 22. It “should
not be granted unless the movant, by a clear showing,

58a
carries the burden of persuasion.” Mazurek v. Armstrong, 520 U.S. 968, 972 (1997) (per curiam) (citation
omitted).
The standard we apply to DHS’s request for a stay is
similar, although the burden of proof is reversed. “The
party requesting a stay bears the burden of showing
that the circumstances justify an exercise of that discretion,” and our analysis is guided by four factors:
(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits; (2)
whether the applicant will be irreparably injured absent a stay; (3) whether issuance of the stay will substantially injure the other parties interested in the
proceeding; and (4) where the public interest lies.
Nken, 556 U.S. at 433-34 (quoting Hilton v. Braunskill,
481 U.S. 770, 776 (1987)). “The first two factors . . .
are the most critical,” and the “mere possibility” of success or irreparable injury is insufficient to satisfy them.
Id. at 434 (internal quotation marks omitted). At this
stage of the proceedings, it is now DHS’s burden to
make “a strong showing that [it] is likely to” prevail
against the States’ claims. Lair v. Bullock, 697 F.3d
1200, 1203 (9th Cir. 2012) (quoting Nken, 556 U.S. at
426). We consider the final two factors “[o]nce an applicant satisfies the first two.” Nken, 556 U.S. at 435.
“A stay is an ‘intrusion into the ordinary process of
administration and judicial review,’ and accordingly ‘is
not a matter of right, even if irreparable injury might
otherwise result to the appellant.’ ” Id. at 427 (citations
omitted). “It is instead ‘an exercise of judicial discretion,’ and ‘the propriety of its issue is dependent upon
the circumstances of the particular case.’ ” Id. at 433

59a
(alteration omitted) (quoting Virginian Ry. Co. v.
United States, 272 U.S. 658, 672-73 (1926)).
There is significant overlap in these standards. The
first prong in both tests—likelihood of success on the
merits—is the same. And the Supreme Court has
made clear that satisfaction of this factor is the irreducible minimum requirement to granting any equitable
and extraordinary relief. Trump v. Hawai‘i, 138 S. Ct.
at 2423. The analysis ends if the moving party fails to
show a likelihood of success on the merits of its claims.
Id.
IV.

LIKELIHOOD OF SUCCESS ON
THE MERITS

Any “person suffering legal wrong . . . or adversely affected or aggrieved” by an agency’s final action may seek judicial review. 5 U.S.C. § 702. The
scope of our review is determined by the APA. As a
reviewing court, we must “set aside” a final rule if it is
“arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” Id. § 706(2)(A). In
making this determination, we may “decide all relevant
questions of law, interpret . . . statutory provisions,
and determine the meaning or applicability of the terms
of an agency action.” Id. § 706.
DHS argues that it is likely to succeed on the merits
of its appeal because, contrary to the conclusions of the
district courts, the Final Rule is neither contrary to law
nor arbitrary and capricious. We agree. The Final
Rule’s definition of “public charge” is consistent with the
relevant statutes, and DHS’s action was not arbitrary or
capricious.

60a
A. Contrary to Law
The States argue that the Final Rule is invalid under
the APA because the Final Rule’s definition of “public
charge” is contrary to (1) the INA and (2) the Rehabilitation Act. We disagree and find that DHS is likely to
succeed in its argument that the Final Rule is not contrary to law. 11
1.

The INA and “Public Charge”

When confronted with an argument that an agency’s
interpretation of a statute that it administers is wrong,
we employ the familiar Chevron two-step test. First,
we ask “whether Congress has directly spoken to the
precise question at issue.” Chevron, U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 842 (1984).
If it has, “that is the end of the matter; for the court, as
well as the agency, must give effect to the unambiguously expressed intent of Congress.” Id. at 842-43.
But if Congress has not spoken directly to the issue at
hand, we proceed to the second step and ask “whether
the agency’s answer is based on a permissible construction of the statute.” Id. at 843.
We must keep in mind why Chevron is an important
rule of construction:
Chevron is rooted in a background presumption of
congressional intent: namely, that Congress, when
The States also brought claims in both courts under the equal
protection component of the Due Process Clause. U.S. CONST. art.
V. Neither district court reached this issue. We also decline to
reach this issue. We will consider the likelihood of success on the
merits only as to those issues that formed the bases for the district
courts’ injunctions. In any further proceedings, the district courts
are free to consider any issues fairly before them.
11

61a
it left ambiguity in a statute administered by an
agency, understood that the ambiguity would be resolved, first and foremost, by the agency, and desired
the agency (rather than the courts) to possess whatever degree of discretion the ambiguity allows.
Chevron thus provides a stable background rule
against which Congress can legislate: Statutory
ambiguities will be resolved, within the bounds of
reasonable interpretation, not by the courts but by
the administering agency. Congress knows to speak
in plain terms when it wishes to circumscribe, and in
capacious terms when it wishes to enlarge, agency
discretion.
Arlington v. FCC, 569 U.S. 290, 296 (2013) (quotation
marks and citations omitted).
The district courts found that the Final Rule failed
the Chevron test at one or both steps because the Final
Rule’s definition of “public charge” was an impermissible reading of that phrase in the INA. We will consider
each step in turn.
a.

Chevron Step 1

At Chevron’s first step, we determine whether Congress has directly spoken to the issue at hand by “employing traditional tools of statutory construction.”
Chevron, 467 U.S. at 843 n.9. That means we start with
the text. Afewerki v. Anaya Law Grp., 868 F.3d 771,
778 (9th Cir. 2017). We will then examine the history
of interpretation to see if there has been a judicial construction of the term “public charge” that “follows from
the unambiguous terms of the statute and thus leaves no
room for agency discretion.” Nat’l Cable & Telecomms.
Ass’n v. Brand X Internet Servs., 545 U.S. 967, 982

62a
(2005). Finally, we will consider other factors raised
by the district courts and the States.
(1) Text. Under § 212 of the INA, an alien is inadmissible if, “in the opinion of” the immigration official,
the alien “is likely at any time to become a public
charge.” In making that determination, the immigration official must consider “at a minimum” the alien’s
age, health, family status, financial resources, education, and skills. 8 U.S.C. § 1182(a)(4)(A). Congress
did not define these terms and placed no further restrictions on what these officers may consider in the
public-charge assessment.
Nor did Congress prescribe how the officers are to regard the five enumerated factors.
We have four quick observations. First, the determination is entrusted to the “opinion” of the consular or
immigration officer. 12 That is the language of discretion, and the officials are given broad leeway. Depending on the context in which the “opinion” is given, the
decision may be nonreviewable. Under the rule of consular nonreviewability, only the most egregious abuses
of discretion may be reviewed. See Kerry v. Din, 135
S. Ct. 2128, 2140-41 (2015) (Kennedy, J., concurring); see
also Cardenas v. United States, 826 F.3d 1164, 1171-72
(9th Cir. 2016) (holding that Justice Kennedy’s concurring opinion in Din is the controlling opinion and summarizing the consular nonreviewability rule). Indeed,
we have previously held that the phrase “in the opinion
The text of the INA does not mention immigration officers.
Rather, it commits the public-charge determination to the “opinion
of the Attorney General.” 8 U.S.C. § 1182(a)(4)(A). As we explained
above, Congress has since transferred the authority granted by the
INA to DHS’s immigration officers.
12

63a
of the Attorney General” in a now-repealed immigration
statute conferred “unreviewable” discretion to the Executive Branch. See Kalaw v. I.N.S., 133 F.3d 1147,
1151-52 (9th Cir. 1997), superseded by statute on other
grounds. And to the extent the federal courts may review such determinations, our review is narrow. See
Montero-Martinez v. Ashcroft, 277 F.3d 1137, 1144 (9th
Cir. 2002) (holding that judicial review of discretionary
acts by the BIA is limited to “the purely legal and hence
non-discretionary” aspects of the BIA’s action); see also
Allen v. Milas, 896 F.3d 1094, 1106-07 (9th Cir. 2018)
(noting that judicial review of visa denials is “limited
. . . to constitutional challenges” and does not extend
to APA-based challenges (emphasis omitted)).
Second, the critical term “public charge” is not a term
of art. It is not self-defining. That does not mean
that officials may pour any meaning into the term, but it
does mean that there is room for discretion as to what,
precisely, being a “public charge” encompasses. In a
word, the phrase is “ambiguous” under Chevron; it is capable of a range of meanings. So long as the agency
has defined the term within that range of meanings, we
have no grounds for second-guessing the agency, “even
if the agency’s reading differs from what [we] believe[]
is the best statutory interpretation.” Brand X, 545
U.S. at 980 (citing Chevron, 467 U.S. at 843-44 & n.11).
It also means that an agency “must consider varying interpretations and the wisdom of its policy on a continuing basis,” including “in response to changed factual circumstances, or a change in administrations.” Id. at 981
(quotations marks and citations omitted).
Third, Congress set out five factors to be taken into
account by immigration officials, but expressly did not

64a
limit the discretion of officials to those factors. Rather
the factors are to be considered “at a minimum.” Other
factors may be considered as well, giving officials considerable discretion in their decisions.
Fourth, Congress granted DHS the power to adopt
regulations to enforce the provisions of the INA.
When Congress created DHS, Congress vested the Secretary of Homeland Security “with the administration
and enforcement of . . . all [] laws relating to the immigration and naturalization of aliens” and authorized
the Secretary to “establish such regulations . . . as
he deems necessary.” 8 U.S.C. § 1103(a)(1) & (3); see
also 6 U.S.C. § 112(b)(1) (authorizing the Secretary to
“delegate any of the Secretary’s functions to any [DHS]
officer, employee, or organizational unit”); Matter of DJ-, 23 I. & N. Dec. at 573-74. By granting regulatory
authority to DHS, Congress intended that DHS would
resolve any ambiguities in the INA. See Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2125 (2016) (“A
premise of Chevron is that when Congress grants an
agency the authority to administer a statute by issuing
regulations with the force of law, it presumes the agency
will use that authority to resolve ambiguities in the statutory scheme.”). As we have already noted, the INA’s
text is ambiguous. DHS has attempted to elucidate
that ambiguity in the Final Rule. In short, we do not
read the text of the INA to unambiguously foreclose
DHS’s action.
(2) Historical Understanding. Although the foregoing would ordinarily be sufficient to end our inquiry,
the current provision, which was most recently rewritten in 1996 in IIRIRA, is merely the most recent itera-

65a
tion of federal immigration law to deem an alien inadmissible if he or she is likely to become a “public
charge.” There is a long history of judicial and administrative interpretations of this phrase in the immigration context that predates the enactment of the INA.
Because “Congress is presumed to be aware of an administrative or judicial interpretation of a statute and to
adopt that interpretation when it re-enacts a statute
without change,” Lorillard v. Pons, 434 U.S. 575, 580
(1978), we must examine this history to determine if
“public charge” has a well-defined and congressionally
understood meaning that limits DHS’s discretion.
The history of the term “public charge” confirms that
its definition has changed over time to adapt to the way
in which federal, state, and local governments have cared
for our most vulnerable populations. “Public charge”
first appeared in this country’s immigration law in 1882.
That statute excluded a would-be immigrant from the
United States if the person was a “convict, lunatic, idiot,
or a[] person unable to take care of himself or herself
without becoming a public charge.” Act of Aug. 3, 1882
ch. 376, § 2, 22 Stat. 214.
Congress did not define “public charge” in the 1882
act. We thus ascribe to that phrase its commonly understood meaning at the time, as evidenced by contemporary sources. See Freeman v. Quicken Loans, Inc.,
566 U.S. 624, 633-34 & nn.6-8 (2012) (citing contemporary dictionary definitions to interpret statutory
phrases).
An 1828 dictionary defined “charge” as
“[t]hat which is enjoined, committed, entrusted or delivered to another, implying care, custody, oversight, or
duty to be performed by the person entrusted,” or a
“person or thing committed to anothers [sic] custody,

66a
care or management.” Charge, WEBSTER’ S DICTIONARY (1828 Online Edition), http://webstersdictionary1828.
com/Dictionary/charge; see also Stewart Rapaljb &
Robert L. Lawrence, DICTIONARY OF AMERICAN AND
ENGLISH LAW, WITH DEFINITIONS OF THE TECHNICAL
TERMS OF THE CANON AND CIVIL LAWS 196 (Frederick
D. Linn & Co. 1888) (defining “charge” as “an obligation
or liability. Thus we speak . . . of a pauper being
chargeable to the parish or town”). That is a broad,
common-sense definition, which was reflected in
Nineteenth-Century judicial opinions using the phrase.
See, e.g., In re Day, 27 F. 678, 681 (C.C.S.D.N.Y. 1886)
(defining a “public charge” as a person who “can neither
take care of themselves, nor are under the charge or
protection of any other person”); State v. The S.S. “Constitution”, 42 Cal. 578, 584-85 (1872) (noting that those
who are “liable to become a public charge” are “paupers,
vagabonds, and criminals, or sick, diseased, infirm, and
disabled persons”); City of Alton v. Madison Cty., 21 Ill.
115, 117 (1859) (noting that a person is not a “public
charge” if the person has “ample means” of support).
The 1882 act did not consider an alien a “public
charge” if the alien received merely some form of public
assistance. The act itself established an “immigrant
fund” that was designed to provide “for the care of immigrants arriving in the United States.” Act of Mar.
26, 1910 ch. 376, § 1, 22 Stat. 214. Congress thus accepted that providing some assistance to recent immigrants would not make those immigrants public charges.
But Congress did not draw that line with any precision.
Instead, we read “public charge” in the 1882 act to refer
generally to those who were unwilling or unable to care
for themselves. In context that often meant that they

67a
were housed in a government or charitable institution,
such as an almshouse, asylum, or penitentiary.
The term “public charge” endured through subsequent amendments to the 1882 act. In 1910, Congress
enacted a statute that deemed “paupers; persons likely
to become a public charge; professional beggars;” and
similar people inadmissible. ch. 128, § 2, 36 Stat. 263
(1910). Relying on the placement of “public charge”
between “paupers” and “professional beggars,” the Supreme Court held that a person is likely to become a
public charge if that person has “permanent personal
objections” to finding employment. Gegiow v. Uhl, 239
U.S. 3, 10 (1915). In that case, the petitioners, Russian
emigrees, arrived in the United States with little cash
and the intention of going to Portland, Oregon. The
immigration officials considered them likely to become
public charges because Portland had a high unemployment rate. In a spare, three-page opinion by Justice
Holmes, the Court noted that the “single question” before the Court was “whether an alien can be declared
likely to become a public charge on the ground that the
labor market in the city of his immediate destination is
overstocked.” Id. at 9-10. The Court answered in the
negative. In making the public-charge determination,
immigration officers must consider an alien’s “personal”
characteristics, not a localized job shortage. Id. at 10.
The Court observed that “public charge” should be
“read as generically similar to the other[] [statutory
terms] mentioned before and after” that phrase. Id.
Five years later, we followed the Supreme Court’s lead,
holding that “the words ‘likely to become a public charge’
are meant to exclude only those persons who are likely
to become occupants of almshouses for want of means

68a
with which to support themselves in the future.” Ng
Fung Ho v. White, 266 F. 765, 769 (9th Cir. 1920) (citing
Howe v. United States, 247 F. 292, 294 (2d Cir. 1917)),
aff ’d in part and rev’d in part on other grounds, 259
U.S. 276 (1922).13 Thus, as of 1920, we considered the
likelihood of being housed in a state institution to be the
primary factor in the public-charge analysis.
By the mid-Twentieth Century, the United States
had largely abandoned the poorhouse in favor of direct
payments through social welfare legislation. At the
federal level, the government had created Social Security and Aid to Families With Dependent Children
(AFDC). At the state level, governments supplemented family income through programs such as unemployment insurance and worker’s compensation. Similar
changes were being made in other programs such as
mental health care, where we moved from institutionalizing the mentally ill to a program of treatment with the
end of releasing them. As Chief Justice Burger observed:
In Ng Fung Ho, the petitioner had been admitted to the United
States, based partly on his holding a “certificate” that allowed him
to be a “merchant.” Id. at 768. Several years after his admission,
he pleaded guilty to gambling. Id. at 769. It was then determined
that the petitioner was no longer a merchant. The government argued that the petitioner was deportable because he had been likely
to become a public charge at the time of his admission. Because
there was no evidence that the certificate he had produced prior to
admission had been fraudulent, we held that merely pleading guilty
to gambling and paying a $25 fine three years after being admitted
did not “prove that the alien . . . was likely to become a public
charge” at the time of admission. Id. We thus rejected the government’s assertion that the petitioner should be deported on that
basis. Id. at 770.
13

69a
Historically, and for a considerable period of time,
subsidized custodial care in private foster homes or
boarding houses was the most benign form of care
provided incompetent or mentally ill persons for
whom the States assumed responsibility. Until well
into the 19th century the vast majority of such persons were simply restrained in poorhouses, almshouses, or jails.
O’Connor v. Donaldson, 422 U.S. 563, 582 (1975) (Burger,
C.J., concurring). “[T]he idea that States may not confine the mentally ill except for the purpose of providing
them with treatment [was] of very recent origin.” Id.
(footnote omitted). The way in which we regarded the
poor and the mentally infirm not only brought changes
in the way we treated them, but major changes in their
legal rights as well. See, e.g., McNeil v. Director, Patuxent Inst., 407 U.S. 245, 248-50 (1972) (requiring a hearing before a person who has completed his criminal sentence can be committed to indefinite confinement in a
mental institution); cf. Goldberg v. Kelly, 397 U.S. 254,
260-61 (1970) (holding that a recipient of public assistance payments is constitutionally entitled to an evidentiary hearing before those payments are terminated).
The movement towards social welfare was soon reflected in the definition of “public charge.” In Matter
of B-, 3 I. & N. Dec. 323 (BIA 1948), the recently created
BIA articulated a new definition of “public charge.”
Permanent institutionalization would not be the sole
measure of whether an alien was a public charge. The
BIA said it would also consider whether an alien received temporary services from the government. At
the same time, the BIA recognized that mere “accep-

70a
tance by an alien of services provided by” the government “does not in and of itself make the alien a public
charge.” Id. at 324. Instead, the BIA stated that an
alien becomes a public charge if three elements are met:
“(1) The State or other governing body must, by appropriate law, impose a charge for the services rendered to
the alien. . . . (2) The authorities must make demand for payment of the charges. . . . And (3) there
must be a failure to pay for the charges.” Id. at 326.
In other words, the government benefit received by the
alien must be monetized, a bill must be presented to the
alien, and the alien must refuse to pay. Ultimately, in
Matter of B-, the BIA held that the petitioner had not
become a public charge, even though she had been involuntarily committed to a mental institution, because the
state of Illinois had not charged her or demanded payment. Id. at 327. The BIA’s order was subsequently
affirmed by the Attorney General. Id. at 337.
Four years later, Congress substantially revised the
immigration laws in the Immigration and Nationality
Act of 1952. The amended statute retained the term
“public charge,” but, for the first time, made clear that
the decision was committed to the opinion of a consular
officer or the Attorney General. The INA deemed inadmissible “[a]liens who, in the opinion of the consular
officer at the time of application for a visa, or in the opinion of the Attorney General at the time of application for
admission, are likely at any time to become public
charges.” Title 2, ch. 2, § 212, 66 Stat. 163, 183 (1952).
Although Matter of B- was not mentioned in the legislative history accompanying the 1952 act, it is notable that
Congress chose to insert this “opinion” language following the BIA’s articulation of a new definition of “public

71a
charge” that departed from prior judicial interpretations of the term.
In 1974, the BIA altered course again. The BIA limited Matter of B-’s three-part test to determining whether
a person had become a public charge after having been
admitted to the United States. See Matter of Harutunian, 14 I. & N. Dec. 583, 585 (BIA 1974). After noting
that the phrase “public charge” had been interpreted
differently by various courts, the BIA held:
[A]ny alien who is incapable of earning a livelihood,
who does not have sufficient funds in the United
States for his support, and has no person in the
United States willing and able to assure that he will
not need public support is excludable as likely to become a public charge whether or not the public support which will be available to him is reimbursable to
the state.
Id. at 589-90. The BIA thus pegged the public-charge
determination to whether the alien was likely to “need
public support,” irrespective of whether the alien was
likely to be institutionalized for any length of time and
billed for the cost by the state. Id. at 589.
That definition of “public charge” was subsequently
amended by the INS. In 1987, the INS issued a final
rule that deemed an applicant for adjustment of status
to be a “public charge” if the applicant had “received
public cash assistance.” Adjustment of Status for Certain Aliens, 52 Fed. Reg. 16,205, 16,211 (May 1, 1987).
INS did not state how much “public cash assistance” an
alien had to receive, but left the decision to officers who
would judge the totality of the circumstances. See id.
at 16,211 (noting that “all [the] evidence produced by the

72a
applicant will be judged”), 16,212 (“The weight given in
considering applicability of the public charge provisions
will depend on many factors. . . . ”). INS did make
clear that “public cash assistance” would not include the
value of “assistance in kind, such as food stamps, public
housing, or other non-cash benefits,” including Medicare and Medicaid. Id. at 16,209.
In 1996, through IIRIRA, Congress enacted the current language appearing in § 212 of the INA. Omnibus
Consolidated Appropriations Act, Title 5 § 531, 110 Stat.
3009 (1996). As detailed above, Congress added a requirement that an immigration officer consider an alien’s “age;” “health;” “family status;” “assets, resources
and financial status;” and “education and skills” when
determining if a person is likely to become a public
charge. 8 U.S.C. § 1182(a)(4)(B).
Responding to the 1996 act, INS published the 1999
Field Guidance to “establish clear standards governing
a determination that an alien is inadmissible or ineligible to adjust status . . . on public charge grounds.”
64 Fed. Reg. at 28,689. In the 1999 Field Guidance,
INS defined “public charge” as “an alien . . . who is
likely to become (for admission/adjustment purposes)
primarily dependent on the government for subsistence,
as demonstrated by either (i) the receipt of public cash
assistance for income maintenance or (ii) institutionalization for long-term care at government expense.” Id.
(internal quotation marks omitted). The 1999 Field
Guidance made clear that the public-charge determination remained a “totality of the circumstances test.”
Id. at 28,690. Within this totality-of-the-circumstances
assessment, only the receipt of “cash public assistance
for income maintenance” should be considered; “receipt

73a
of non-cash benefits or the receipt of special-purpose
cash benefits not for income maintenance should not be
taken into account.” Id. The 1999 Field Guidance
thus largely reaffirmed INS’s 1987 rule. For the past
twenty years, the 1999 Field Guidance has governed,
until it was replaced by the Final Rule.
So what to make of this history? Unlike the district
courts, we are unable to discern one fixed understanding
of “public charge” that has endured since 1882. If anything has been consistent, it is the idea that a totalityof-the-circumstances test governs public-charge determinations. But different factors have been weighted
more or less heavily at different times, reflecting changes
in the way in which we provide assistance to the needy.
Initially, the likelihood of being housed in a government
or charitable institution was most important. Then,
the focus shifted in 1948 to whether public benefits received by an immigrant could be monetized, and the immigrant refused to pay for them. In 1974, it shifted
again to whether the immigrant was employable and
self-sufficient. That was subsequently narrowed in
1987 to whether the immigrant had received public cash
assistance, which excluded in-kind benefits. Congress
then codified particular factors immigration officers
must consider, which was followed by the 1999 Field
Guidance’s definition of “public charge.” In short, we
find that the history of the use of “public charge” in federal immigration law demonstrates that “public charge”
does not have a fixed, unambiguous meaning. Rather,
the phrase is subject to multiple interpretations, it in
fact has been interpreted differently, and the Executive
Branch has been afforded the discretion to interpret it.

74a
Congress simply has not spoken to how “public
charge” should be defined. We must presume that
when Congress enacted the current version of the INA
in 1996, it was aware of the varying historical interpretations of “public charge.” See Forest Grove Sch. Dist.
v. T.A., 557 U.S. 230, 239-40 (2009). Yet Congress
chose not to define “public charge” and, instead, described various factors to be considered “at a minimum,”
without even defining those factors. It is apparent that
Congress left DHS and other agencies enforcing our immigration laws the flexibility to adapt the definition of
“public charge” as necessary.
(3) Other Factors. Both district courts found it significant that Congress twice considered, but failed to enact, a definition of “public charge” that is similar to the
definition adopted in the Final Rule. City & Cty. of
San Francisco, 2019 WL 5100718 at *27; Washington,
2019 WL 5100717, at *17. During the debates over
IIRIRA in 1996, Congress considered whether to enact
the following definition of “public charge”: “the term
‘public charge’ includes any alien who receives [certain
means-tested] benefits . . . for an aggregate period
of at least 12 months or 36 months” in some cases. 142
Cong. Rec. 24,313, at 24,425 (1996). Senator Leahy argued that this was “too quick to label people as public
charges for utilizing the same public assistance that
many Americans need to get on their feet,” and that the
phrase “means tested” was “unnecessarily uncertain.”
S. Rep. No. 104-249, at 63-64 (1996). Nevertheless, the
Senate passed the bill containing the definition of “public charge.” Before the House considered the bill, however, President Clinton implicitly threatened to veto it

75a
because it went “too far in denying legal immigrants access to vital safety net programs which could jeopardize
public health and safety.” Statement on Senate Action
on the “Immigration Control and Financial Responsibility Act of 1996,” 32 Weekly Comp. Pres. Doc. 783 (May
6, 1996). Ultimately, Congress chose not to enact this
“public charge” definition. In 2013, the Senate rejected an amendment to the INA that “would have expanded the definition of ‘public charge’ such that people
who received non-cash health benefits could not become
legal permanent residents. This amendment would also
have denied entry to individuals whom the Department
of Homeland Security determines are likely to receive
these types of benefits in the future.” S. Rep. No. 11340, at 63 (2013).
The district courts viewed these failed legislative efforts as evidence that Congress specifically rejected the
interpretation of “public charge” DHS articulated in the
Final Rule, and that the Final Rule is thus an impermissible reading of the INA. City & Cty. of San Francisco, 2019 WL 5100718, at *27; Washington, 2019 WL
5100717, at *17. We disagree. If this legislative history is probative of anything, it is probative only of the
fact that Congress chose not to codify a particular interpretation of “public charge.” 14 See Cent. Bank of Denver, N.A. v. First Interstate Bank of Denver, N.A., 511
U.S. 164, 184 (1994) (“[F]ailed legislative proposals are

Sometimes it is appropriate to consider language Congress has
rejected, primarily when Congress rejected language in favor of
the statute adopted and under review. See, e.g., INS v. CardozaFonseca, 480 U.S. 421, 441-42 (1987) (contrasting Congress’s decision to adopt the House proposal over the Senate version).
14

76a
a particularly dangerous ground on which to rest an interpretation of a prior statute.” (quotation marks and
citation omitted)). But the failure of Congress to compel DHS to adopt a particular rule is not the logical
equivalent of forbidding DHS from adopting that rule.
The failure to adopt a new rule is just that: no new
rule. 15 And no change to § 212 means that consular officers, the Attorney General, and DHS retain all the discretion granted them in the INA.
A second argument made by the States and relied
upon by the Eastern District of Washington is that DHS
exceeded its authority by determining what makes a
person “self-sufficient.” Washington, 2019 WL 5100717,
at *17-18. This argument is refuted by the statute itself. As we have discussed, the INA requires immigration officers to consider an alien’s “health,” “family status,” “assets, resources, [] financial status,” “education
and skills.” 8 U.S.C. § 1182(a)(4)(B)(i)(II)-(V). The
concept of self-sufficiency is subsumed within each of
these factors. And even if it were not, the statutory
factors are not exhaustive; DHS may add to them. See
We can speculate as to the reasons that members of Congress
declined to adopt these legislative proposals, but the speculation will
not help us. “A bill can be proposed for any number of reasons, and
it can be rejected for just as many others.” Solid Waste Agency of
N. Cook Cty. v. U.S. Army Corps of Engineers, 531 U.S. 159, 170
(2001). Although some members may have thought the rule too
harsh, others may have thought it too lenient, while a third group
may have thought the rule should be left flexible and in the hands of
the immigration agencies. If anything, this legislative history proves
only that Congress decided not to constrain the discretion of agencies in determining who is a public charge. That discretion had long
been vested in the agencies, and these failed legislative efforts did
not alter that discretion.
15

77a
id. § 1182(a)(4)(B)(i). Because DHS has been “charged
with the administration and enforcement” of all “laws
relating to the immigration and naturalization of aliens,”
Id. § 1103(a)(1); see also 6 U.S.C. § 112(b)(1), determining what constitutes self-sufficiency for purposes of the
public-charge assessment is well within DHS’s authority. 16
* * *
In short, Congress has not spoken directly to the interpretation of “public charge” in the INA. Nor did it
unambiguously foreclose the interpretation articulated
in the Final Rule. Instead, the phrase “public charge”
is ambiguous under Chevron. DHS has the authority
to interpret it and “must consider varying interpretations and the wisdom of its policy on a continuing basis.”
Chevron, 467 U.S. at 863-64. Indeed, “the fact that the
agency has adopted different definitions in different
The Eastern District of Washington also held that, because the
states have a “central role in formulation and administration of health
care policy,” DHS “acted beyond its Congressionally delegated authority” when it adopted the Final Rule. Washington, 2019 WL
5100717, at *18; see also id. (“Congress cannot delegate authority
that the Constitution does not allocate to the federal government in
the first place. . . . ”). Congress, of course, has plenary authority to regulate immigration and naturalization. U.S. CONST. art. I,
§ 8, cl. 4. Pursuant to that authority, Congress adopted the “public
charge” rule, which no one has challenged on constitutional grounds.
Further, Congress has authorized DHS to adopt regulations. 8
U.S.C. § 1103(a)(3). DHS thus did not overstep its authority by
promulgating the Final Rule. Indeed, under the district court’s
analysis, even the 1999 Field Guidance might be unconstitutional.
But neither the district court nor the States question the lawfulness
of the 1999 Field Guidance. We see no meaningful difference between INS’s authority to promulgate the 1999 Field Guidance and
DHS’s authority to adopt the Final Rule.
16

78a
contexts adds force to the argument that the definition
itself is flexible, particularly since Congress has never
indicated any disapproval of a flexible reading of the
statute.” Id. at 864. We thus proceed to the second
step of the Chevron analysis.
b.

Chevron Step 2

At Chevron’s second step, we ask whether the
agency’s interpretation is “reasonable—or ‘rational and
consistent with the statute.’ ” Diaz-Quirazco v. Barr,
931 F.3d 830, 840 (9th Cir. 2019) (quoting Sullivan v.
Everhart, 494 U.S. 83, 89 (1990)). If it is, we must defer
to it, “even if the agency’s reading differs from what the
court believes is the best statutory interpretation.”
Perez-Guzman v. Lynch, 835 F.3d 1066, 1073-74 (9th
Cir. 2016) (quoting Brand X, 545 U.S. at 980).
The Final Rule easily satisfies this test. As we have
explained, the INA grants DHS considerable discretion
to determine if an alien is likely to become a public
charge. To be sure, under the Final Rule, in-kind benefits (other than institutionalization) will for the first
time be relevant to the public-charge determination.
We see no statutory basis from which a court could conclude that the addition of certain categories of in-kind
benefits makes DHS’s interpretation untenable. 17 And

Cash benefits and in-kind benefits are often treated under
the single rubric of a “direct subsidy.” Witters v. Wash. Dep’t of
the Servs. for the Blind, 474 U.S. 481, 487 (1986). In certain contexts, such as settlement, “compensation in kind is worth less than
cash of the same nominal value,” In re Mex. Transfer Litig., 267 F.3d
743, 748 (9th Cir. 2001), but the Final Rule does not deal with the
valuation of such services. It deals only with whether in-kind benefits have been received under certain specified programs.
17

79a
whether the change in policy results from changing circumstances or a change in administrations, the wisdom
of the policy is not a question we can review. See Brand
X, 545 U.S. at 981.
Our conclusion is reinforced by the Personal Responsibility and Work Opportunity Reconciliation Act of
1996 (PRWORA), which Congress enacted contemporaneous with IIRIRA. PRWORA set forth our “national
policy with respect to welfare and immigration.” 8 U.S.C.
§ 1601. In relevant part, PRWORA provides, “Selfsufficiency has been a basic principle of United States
immigration law since this country’s earliest immigration statutes.” Id. § 1601(1). As a result, “[i]t continues to be the immigration policy of the United States
that . . . aliens within the Nation’s borders not depend on public resources to meet their needs, but rather
rely on their own capabilities and the resources of their
families, their sponsors, and private organizations.”
Id. § 1601(2). Receipt of non-cash public assistance is
surely relevant to “self-sufficiency” and whether immigrants are “depend[ing] on public resources to meet
their needs.” See id. § 1601(1)-(2); see also Korab v.
Fink, 797 F.3d 572, 580 (9th Cir. 2014). PRWORA thus
lends support to DHS’s interpretation of the INA.
We conclude that DHS’s interpretation of “public
charge” is a permissible construction of the INA.
2.

The Rehabilitation Act

The States argue, and the Eastern District of Washington found, that the Final Rule is inconsistent with the
Rehabilitation Act. Washington, 2019 WL 5100717, at
*18. The Northern District of California rejected that
argument. City & Cty. of San Francisco, 2019 WL

80a
5100718, at *29-30. The Rehabilitation Act provides:
“No otherwise qualified individual with a disability in
the United States . . . shall, solely by reason of her
or his disability, be excluded from participation in, be
denied the benefits of, or be subjected to discrimination
under any program or activity . . . conducted by any
Executive agency.” 29 U.S.C. § 794(a). “Program or
activity” is defined as “all of the operations of . . .
[an] agency.” Id. § 794(b).
This argument need not detain us long. First, under the INA, immigration officers are obligated to consider an immigrant’s “health” when making the publiccharge determination. 8 U.S.C. § 1182(a)(4)(B)(i)(II).
To the extent that inquiry may consider an alien’s disability, the officers have been specifically directed by
Congress to do so. Indeed, Congress’s express direction that immigration officers consider an alien’s “health”
came twenty-three years after the Rehabilitation Act.
We cannot see how a general provision in one statute
constrains an agency given a specific charge in a subsequent law. The INA does not violate the Rehabilitation
Act. Second, nothing in the Final Rule changes DHS’s
practice with respect to considering an alien’s health.
Nothing in the Final Rule suggests that aliens will be
denied admission or adjustment of status “solely by reason of her or his disability.” Throughout the Final
Rule, DHS confirms that the public-charge determination is a totality-of-the-circumstances test. See 84 Fed.
Reg. at 41,295, 41,368.
And DHS specifically addressed this argument in the Final Rule: “it is not the
intent, nor is it the effect of this rule to find a person a
public charge solely based on his or her disability.” Id.

81a
at 41,368. DHS has shown a strong likelihood that the
Final Rule does not violate the Rehabilitation Act.
* * *
In sum, DHS is likely to succeed in its argument that
the Final Rule should not be set aside as contrary to law.
We will not minimize the practical impact of the Final
Rule, but we will observe that it is a short leap in logic
for DHS to go from considering in-cash public assistance to considering both in-cash and in-kind public assistance. DHS has shown that there is a strong likelihood that its decision to consider the receipt of in-kind
government assistance as part of its totality-of-thecircumstances test is a reasonable interpretation of the
INA and does not violate the Rehabilitation Act.
B. Arbitrary and Capricious
Arbitrary and capricious review under the APA addresses the reasonableness of the agency’s decision.
The classic statement of our scope of review is Motor
Vehicle Manufacturers Association of the United States
v. State Farm Mutual Automotive Insurance Co., 463
U.S. 29 (1983):
[T]he agency must examine the relevant data and articulate a satisfactory explanation for its action including a rational connection between the facts found
and the choice made. In reviewing that explanation,
we must consider whether the decision was based on
a consideration of the relevant factors and whether
there has been a clear error of judgment. Normally, an agency rule would be arbitrary and capricious if the agency has relied on factors which Congress has not intended it to consider, entirely failed

82a
to consider an important aspect of the problem, offered an explanation for its decision that runs counter
to the evidence before the agency, or is so implausible
that could not be ascribed to a difference in view of
the product of agency expertise.
Id. at 43 (quotation marks and citations omitted); see
Org. Vill. of Kake v. Dep’t of Agric., 795 F.3d 956, 96667 (9th Cir. 2015). An agency’s failure to respond to any
particular comment or point put forward by a rule’s opponents is not a ground for finding per se arbitrary-andcapricious action. See Safari Aviation Inc. v. Garvey,
300 F.3d 1144, 1150-52 (9th Cir. 2002) (explaining that
there is no per se violation of the APA when an agency
fails to address comments); Thompson v. Clark, 741
F.2d 401, 408 (D.C. Cir. 1984) (“[The APA] has never
been interpreted to require the agency to respond to
every comment, or to analyse [sic] every issue or alternative raised by the comments, no matter how insubstantial.”).
The fact that DHS has changed policy does not substantially alter the burden in the challengers’ favor.
DHS must, of course, “show that there are good reasons
for the new policy,” but, it
need not demonstrate to a court’s satisfaction that
the reasons for the new policy are better than the reasons for the old one; it suffices that the new policy is
permissible under the statute, that there are good
reasons for it, and that the agency believes it to be
better, which the conscious change of course adequately indicates.
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515
(2009).

83a
The district courts raised two objections to DHS’s
consideration that the district courts found made the Final Rule arbitrary and capricious: (1) DHS’s failure to
properly weigh the costs to state and local governments
and healthcare providers, such as hospitals, resulting
from disenrollment from public benefits programs; and
(2) DHS’s inadequate consideration of the Final Rule’s
impact on public health. City & Cty. of San Francisco,
2019 WL 5100718, at *31-35; Washington, 2019 WL
5100717, at *19. We will consider each in turn.
1.

Costs of Disenrollment

The Northern District of California’s principal concern was the higher costs that state and local governments will face as a result of “disenrollment [from] public benefits.” City & Cty. of San Francisco, 2019 WL
5100718, at *31. Specifically, the district court concluded that “DHS appears to have wholly failed to engage with [comments on the costs of the change]. DHS
failed to grapple with the [Final] Rule’s predictable effects on local governments, and instead concluded that
the harms—whatever they may be—are an acceptable
price to pay.” Id. at *32. The court further faulted
DHS for “refus[ing] to consider the costs associated
with predicted, likely disenrollment of those not subject
to the public charge determination.” Id.
We begin with the observation that DHS addressed
at length the costs and benefits associated with the Final
Rule. See 84 Fed. Reg. at 41,300-03 (summarizing
costs and benefits); id. at 41,312-14 (estimating costs to
health care providers, states, and localities); id. at
41,463-81 (responding to various comments on costs and
benefits); id. at 41,485-41,489 (responding to Executive
Orders requiring an assessment of the costs and benefits

84a
of regulatory alternatives). 18 In addition, DHS prepared
an “Economic Analysis Supplemental Information for
Analysis of Public Benefits Programs,” www.regulations.
gov/document?D=USCIS-2010-0012-63742.
DHS’s analysis began by stating, “This rule will impose new costs on this population applying to adjust status . . . that are subject to the public charge ground
of inadmissibility.” 84 Fed. Reg. at 41,300. It estimated the direct costs to the federal government of the
rule to be $35,202,698 annually. Some of these direct
costs to the federal government would be offset by “individuals who may choose to disenroll from or forego enrollment in a public benefits program.” Id. DHS estimated the reduction in federal transfer payments
would be about $2.47 billion annually. Id. at 41,301.
It further estimated that there would be a reduction in
state transfer payments of about $1.01 billion annually.
Id. DHS also acknowledged that the Final Rule would
impose direct and indirect costs on individuals and entities. The first of these, it suggested, were “familiarization costs,” which was “a direct cost of the rule.” Id.
Organizations that work with immigrant communities
would similarly experience indirect costs of familiarization. Id.
Elsewhere, DHS responded to comments claiming
that the Final Rule would cause aliens to disenroll from
or forego enrollment in public benefit programs and that
Indeed, DHS’s notice is quite comprehensive. In no fewer than
216 pages (which DHS estimated would take sixteen to twenty hours
to read), DHS explained the changes proposed, estimated costs and
savings, and addressed scores of comments on topics ranging from
potential public-health concerns to whether DHS should consider
immigrants’ credit scores. See generally 84 Fed. Reg. at 41,292-508.
18

85a
this “would be detrimental to the financial stability and
economy of communities, States, local organizations,
hospitals, safety net providers, foundations, and healthcare centers.” Id. at 41,312; see also id. (suggesting
that the Final Rule would increase the use of hospital
emergency rooms). DHS identified three categories of
aliens who might be affected by the Final Rule. First,
there are aliens who are entitled to public benefits and
seek to immigrate or adjust status. Their receipt of
some public benefits are simply not covered by the rule.
DHS noted, for example, that “emergency response, immunization, education, or [certain] social services” are
not included in its revised definition of “public benefits.”
Id. On the other hand, there are public benefits to
which such an alien is entitled but which will be considered by DHS in its determination whether such alien is
a “public charge.” DHS “acknowledge[d] that individuals subject to this rule may decline to enroll in, or may
choose to disenroll from, public benefits for which they
may be eligible under PRWORA, in order to avoid negative consequences as a result of this final rule.” Id.
DHS could not estimate how many aliens in this category would be affected by the Final Rule “because data
limitations provide neither a precise count nor reasonable estimate of the number of aliens who are both subject to the public charge ground of inadmissibility and
are eligible for public benefits in the United States.”
Id. at 41,313.
The second category of aliens are those who are unlawfully in the United States. These are “generally
barred from receiving federal public benefits other than
emergency assistance.” Id. (footnote omitted). Nevertheless, DHS announced that it will not consider “for

86a
purposes of a public charge inadmissibility determination whether applicants for admission or adjustment of
status are receiving food assistance through other programs, such as exclusively state-funded programs, food
banks, and emergency services, nor will DHS discourage individuals from seeking such assistance.” Id.
Third are those aliens and U.S. citizens who are not
subject to the Final Rule, but erroneously think they are
and disenroll from public benefits out of an abundance
of caution. Id. Disenrollment by this category of persons should not be influenced by the Final Rule because
their receipt of public benefits will “not be counted
against or made attributable to immigrant family members who are subject to this rule.” Id. DHS understood “the potential effects of confusion” over the scope
of the Final Rule that might lead to over-disenrollment.
DHS stated that it would “issue clear guidance that
identifies the groups of individuals who are not subject
to the rule.” Id.
The Northern District of California pointed out that
DHS’s response “fails to discuss costs being borne by
the states, hospitals, or others, other than to say DHS
will issue guidance in an effort to mitigate confusion.”
City & Cty. of San Francisco, 2019 WL 5100718, at *34.
The court further criticized DHS for “flatly refus[ing] to
consider the costs associated with predicted, likely disenrollment of those not subject to the public charge determination.” Id. at *35.
We think several points must be considered here.
First, the costs that the states, localities, and various entities (such as healthcare providers) may suffer are indirect. Nothing in the Final Rule imposes costs on those

87a
governments or entities; the Final Rule does not regulate states, localities, and private entities. Disenrollment will be the consequence of either (1) the free choice
of aliens who wish to avoid any negative repercussions
for their immigration status that would result from accepting public benefits, or (2) the mistaken disenrollment of aliens or U.S. citizens who can receive public
benefits without any consequences for their residency
status. DHS addressed both groups. DHS said it did
not have data to calculate the size of the first group (and,
presumably, the value of the benefits from which they
will disenroll), and it had no way to estimate the second.
84 Fed. Reg. at 41,313. DHS stated that it would try to
compensate for the latter group’s error by publishing
clear guidance, and it also noted that other organizations, public and private, would have an incentive to provide accurate information to persons who might mistakenly disenroll. Id. at 41,486.
Second, DHS did acknowledge the indirect costs the
Final Rule might impose
downstream . . . on state and local economics,
large and small businesses, and individuals. For example, the rule might result in reduced revenues for
healthcare providers participating in Medicaid, companies that manufacture medical supplies or pharmaceuticals, grocery retailers participating in SNAP,
agricultural producers who grow foods that are eligible for purchase using SNAP benefits, or landlords
participating in federally funded housing programs.
Id. It did not attempt to quantify those costs, but it
recognized the overall effect of the Final Rule, and that
is sufficient. See Irvine Med. Ctr. v. Thompson, 275

88a
F.3d 823, 835 (9th Cir. 2002) (“[T]he Secretary acknowledged that some Medicare beneficiaries would possibly
have to shoulder an additional financial burden as a result of the repeal of the carry-forward provision. This
acknowledgment did not render the Secretary’s rulemaking statement or reliance upon it arbitrary, however.” (internal citation omitted)).
Third, DHS is not a regulatory agency like EPA,
FCC, or OSHA. Those agencies have broad mandates
to regulate directly entire industries or practices, sometimes on no more instruction from Congress than to do
so in the “public convenience, interest or necessity,” 47
U.S.C. § 303 (FCC), or as “appropriate and necessary,”
42 U.S.C. § 7412(n)(1)(A) (EPA). When Congress has
vested such broad regulatory authority in agencies, the
Supreme Court has sometimes insisted that the agencies perform some kind of a cost-benefit analysis. See,
e.g., Michigan v. EPA, 135 S. Ct. 2699, 2707 (2015) (EPA
cannot “ignore cost when deciding whether to regulate
power plants”); Indus. Union Dep’t, AFL-CIO v. Am.
Petroleum Inst., 448 U.S. 607, 644 (1980) (plurality opinion) (OSHA must “undertake some cost-benefit analysis
before [it] promulgates any [safety and health] standard”). But see Am. Textile Mfs. Inst. Inc. v. Donovan,
452 U.S. 490, 510-11 (1981) (“Congress uses specific language when intending that an agency engage in
cost-benefit analysis.”). By contrast, DHS is defining
a simple statutory term—“public charge”—to determine whether an alien is admissible. Its only mandate
is to regulate immigration and naturalization, not to secure transfer payments to state governments or ensure
the stability of the health care industry. Any effects on
those entities are indirect and well beyond DHS’s

89a
charge and expertise. Even if it could estimate the
costs to the states, localities, and healthcare providers,
DHS has a mandate from Congress with respect to admitting aliens to the United States. As DHS explained,
DHS does not believe that it is sound policy to ignore
the longstanding self-sufficiency goals set forth by
Congress or to admit or grant adjustment of status
applications of aliens who are likely to receive public
benefits designated in this rule to meet their basic
living needs in . . . hope that doing so might alleviate food and housing insecurity, improve public
health, decrease costs to states and localities, or better guarantee health care provider reimbursements.
DHS does not believe that Congress intended for
DHS to administer [§ 212] in a manner that fails to
account for aliens’ receipt of food, medical, and housing benefits so as to help aliens become self-sufficient.
84 Fed. Reg. at 41,314. Even had DHS been able to calculate the indirect costs that states, localities, and healthcare providers might bear as a result of the Final Rule,
it is not clear what DHS was supposed to balance. Rather, it was sufficient—and not arbitrary and capricious
—for DHS to consider whether, in the long term, the
overall benefits of its policy change will outweigh the
costs of retaining the current policy.
2.

Public-Health Concerns

The Northern District of California also found that
DHS did not sufficiently respond to certain publichealth concerns. City & Cty. of San Francisco, 2019
WL 5100718, at *35-37. Specifically, the court worried
that by disenrolling from public-health benefits like
Medicaid, people may forgo vaccinations, which could

90a
have serious public-health consequences. Id. The
district court also pointed out that the 1999 Field Guidance declined to define “public charge” to include receipt of “health and nutrition benefits” out of fear of possible public-health ramifications. Id. at *37 (citing 64
Fed. Reg. at 28,692).
DHS not only addressed these concerns directly, it
changed its Final Rule in response to the comments.
84 Fed. Reg. at 41,297. With respect to vaccines, DHS
stated that it “does not intend to restrict the access of
vaccines for children or adults or intend to discourage
individuals from obtaining the necessary vaccines to
prevent vaccine-preventable diseases.” Id. at 41,384.
The Final Rule “does not consider receipt of Medicaid
by a child under age 21, or during a person’s pregnancy,
to constitute receipt of public benefits.” DHS said that
would address “a substantial portion, though not all, of
the vaccinations issue.” Id. Accordingly, DHS “believes that vaccines would still be available for children
and adults even if they disenroll from Medicaid.” Id.
at 41,385.
Both the Northern District of California and the
Eastern District of Washington expressed concern that
the Final Rule was a departure from the 1999 Field
Guidance, which raised the vaccine issue, and that the
1999 Field Guidance had “engendered reliance.” City
& Cty. of San Francisco, 2019 WL 5100718, at *37; see
also Washington, 2019 WL 5100717, at *19. The question is not whether an agency can change a policy that
people have come to rely on; clearly, it can. The real
question is whether the agency has acknowledged the
change and explained the reasons for it. DHS knew
well that it was adopting a change in policy; that was the

91a
whole purpose of this rulemaking exercise. See Encino
Motorcars, 136 S. Ct. at 2126 (holding that a Department of Labor regulation was “issued without . . .
reasoned explanation” where there was “decades of industry reliance on the Department’s prior policy” and
the new rule was “offered [with] barely any explanation”); INS v. Yueh-Shaio Yang, 519 U.S. 26, 32 (1996)
(distinguishing “an irrational departure from [established] policy” from “an avowed alteration of it”). “[I]t
suffices that the new policy is permissible under the
statute, that there are good reasons for it, and that the
agency believes it to be better, which the conscious
change of course adequately indicates.” Fox Television Stations, 556 U.S. at 515. Because DHS has adequately explained the reasons for the Final Rule, it has
demonstrated a strong likelihood of success on the merits.
V.

OTHER FACTORS

We have concluded that DHS is likely to succeed on
the merits. Were we reviewing the preliminary injunctions on direct review, this would be sufficient to reverse
the district courts’ orders. See Trump v. Hawai‘i, 138
S. Ct. at 2423. But because we are here on DHS’s motion for a stay, DHS bears the burden of satisfying three
additional factors: that DHS will suffer some irreparable harm, that the balance of the hardships favors a
stay, and that the stay is in the public interest. Nken,
556 U.S. at 434.
A. Irreparable Harm
We first consider whether DHS has shown that it
“will be irreparably injured absent a stay.” Nken, 556
U.S. at 434 (quoting Hilton, 481 U.S. at 776). The

92a
claimed irreparable injury must be likely to occur;
“simply showing some ‘possibility of irreparable injury’ ”
is insufficient. Id. (citation omitted). DHS has carried its burden on this factor.
DHS contends that as long as the Final Rule is enjoined,
DHS will grant lawful-permanent-resident status to
aliens whom the Secretary would otherwise deem
likely to become public charges in the exercise of his
discretion. DHS currently has no practical means
of revisiting public-charge determinations once made,
so the injunctions will inevitably result in the grant
of LPR status to aliens who, under the Secretary’s
interpretation of the statute, are likely to become
public charges.
The States do not deny that LPR status might be irrevocably granted to some aliens, but they claim that DHS
has “exaggerate[d] the effect of the injunction” because
the public-charge exclusion has “never played a significant role in immigration. In contrast, in just 8 of the
14 Plaintiff States [in the Washington case] over 1.8 million lawfully present residents may be driven from federal and state assistance programs if the injunction is
lifted.” They argue that preserving the status quo will
not harm DHS pending adjudication on the merits, especially considering that the Final Rule replaces a policy
that had been in place for decades.
Several points emerge from the parties’ claims.
First, the States appear to concede that decisions to
grant adjustment of status to aliens who could otherwise
not be eligible are not reversible. Second, although the
States argue that “public charge” exclusions have not

93a
been an important component of our immigration scheme
in the past, the whole point of DHS’s Final Rule is that
“public charge” inadmissibility has been underenforced.
Moreover, to the extent the States are contesting the
magnitude of the harm to DHS, the claim is irrelevant
here. We have said that this “analysis focuses on irreparability, ‘irrespective of the magnitude of the injury.’ ”
California v. Azar, 911 F.3d 558, 581 (9th Cir. 2018)
(quoting Simula, Inc. v. Autoliv, Inc., 175 F.3d 716, 725
(9th Cir. 1999)). But even if we look at the magnitude,
the States’ own evidence is double-edged. The States
claim that they will suffer harm because millions of persons will disenroll to avoid potential immigration consequences. This seems to prove DHS’s point. If millions of “lawfully present residents” are currently receiving public benefits and may choose to disenroll rather than be found to be a “public charge” and inadmissible, the harm cited by DHS is not only irreparable, but
significant.
Finally, we think the tenability of DHS’s past practice is of no import here. Congress has granted DHS
the authority to enact and alter immigration regulations
and DHS has done that, and it has done so in a way that
comports with its legal authority. Thus, as of October
15, 2019, DHS had an obligation to deny admission to
those likely to become public charge, as defined by the
Final Rule. This is true regardless of DHS’s prior policy. As a consequence, the preliminary injunctions will
force DHS to grant status to those not legally entitled
to it. DHS has satisfied its burden to show irreparable
harm to the government absent a stay of the injunctions.

94a
B. Balance of Hardships and Public Interest
Since DHS has satisfied the first two factors, we proceed to the final two: balance of equities and the public interest. Nken, 556 U.S. at 435. “Because the government
is a party, we consider [these two factors] together.” California v. Azar, 911 F.3d at 581.
To balance the equities, we consider the hardships
each party is likely to suffer if the other prevails. N.
Cheyenne Tribe v. Norton, 503 F.3d 836, 843-44 (9th Cir.
2007) (citing Amoco Prod. Co. v. Vill. of Gambell, 480
U.S. 531, 542 (1987). We have discussed above the ireparable, non-monetary harm to the government. On
the other hand, the States contend that they face financial, public-health, and administrative harms if the Final
Rule takes effect and otherwise eligible individuals disenroll from public benefits. These effects are indirect
effects of the Final Rule and they are largely shortterm, since they will only result during the pendency of
the proceedings in the district courts and any appeals to
this court and the Supreme Court.19 Those proceedings
are likely to be conducted on an expedited basis, limiting
further any potential harm to be considered by this
court. DHS does not dispute that the States will incur
some financial harm if the Final Rule is not stayed. It
cannot, because DHS repeatedly addressed the potential costs to the States in its Final Rule. See, e.g., 84
Fed. Reb. at 41,300, 41,312-14, 41,385-85, 41,469-70,
41,474. And while ordinarily, we do not consider purely economic harm irreparable, we have concluded that
This is not to say that the States will not continue to incur harms
after the litigation terminates, but these potential harms are not relevant to the question of a preliminary injunction or a stay.
19

95a
“such harm is irreparable” when “the states will not be
able to recover monetary damages.” California v.
Azar, 911 F.3d at 581. Yet the States’ financial concerns will be mitigated to some extent. As DHS explained in the Final Rule, disenrollment from public
benefits means a reduction in federal and state transfer
payments, so the States will realize some savings in expenditures. 84 Fed. Reg. at 41,485-86. Nevertheless,
we consider the harms to the States, even if not readily
quantifiable, significant.
Balancing these harms is particularly difficult in this
case. First, the harms are not comparable. DHS’s
harm is not monetary, but programmatic. The policy
behind Congress’s decision not to admit those who are
likely to become a public charge may have a fiscal component, but it is not the reason for DHS’s Final Rule,
nor has DHS argued financial harm as a reason for seeking a stay. By contrast, the States’ proffered harms
are largely financial. Second, both parties’ proffered
harms are, to a degree, speculative. We cannot say for
certain how many residents of the plaintiff states and
counties will disenroll from public benefits programs,
nor how much any over-disenrollment will cost the
States. Nor can we say for certain how many aliens
might be found admissible during the pendency of the
preliminary injunction, and would have been found inadmissible under the Final Rule. Given the largely predictive nature of both parties’ alleged harms, we cannot
state with any confidence which is greater.
For the same reasons, the public interest in this case
is likewise difficult to calculate with precision. DHS
contends it is in the public’s interest not to grant immigration status to persons likely to become public charges.

96a
The States contend that it is in the public’s interest to
avoid increased administrative and public-health costs.
Both of these contentions are likely true. But on balance, we have few standards for announcing which interest is greater.
We recently observed that “balancing the equities is
not an exact science.” Azar, 911 F.3d at 582. Indeed,
Justice Frankfurter once remarked that the balancing
of the equities was merely “lawyers’ jargon for choosing
between conflicting public interests.”
Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 609 (1952)
(Frankfurter, J., concurring). Whether the stay is
granted or denied, one party’s costs will be incurred and
the other avoided. In the end, the “critical” factors are
that DHS has mustered a strong showing of likelihood
of success on the merits and some irreparable harm.
Nken, 556 U.S. at 434. Those factors weigh in favor of
granting a stay, despite the potential harms to the
States. And for that reason, the stay is in the public
interest.
VI.

CONCLUSION

The motion for a stay of the preliminary injunction in
Nos. 19-17213 and 19-17214 is GRANTED. The motion
for stay of the preliminary injunction in No. 19-35914 is
GRANTED. The cases may proceed consistent with
this opinion.

97a
BYBEE, Circuit Judge, concurring, perplexed and perturbed:
I join the majority opinion in full. I write separately
to emphasize two points—points that I feel must be
made, but are better said in a separate opinion.
We as a nation are engaged in titanic struggles over
the future of immigration in the United States. These
are difficult conversations. As a court, the Ninth Circuit in particular has felt the effects of the recent surge
in immigration. As we observed last year with respect
to the asylum problem:
We have experienced a staggering increase in asylum
applications. Ten years ago we received about 5,000
applications for asylum. In fiscal year 2018 we received about 97,000—nearly a twenty-fold increase.
Our obligation to process these applications in a
timely manner, consistent with our statutes and regulations, is overburdened. The current backlog of
asylum cases exceeds 200,000—about 26% of the immigration courts’ total backlog of nearly 800,000 removal cases. In the meantime, while applications
are processed, thousands of applicants who had been
detained by immigration authorities have been released into the United States.
E. Bay Sanctuary Covenant v. Trump, 932 F.3d 742, 754
(9th Cir. 2018) (citations omitted). Because of our
proximity to Mexico, Central America, and East Asia,
the brunt of these cases will find their way into our
court. And we are well aware that we are only seeing
the matters that find their way into federal court, and
that the burdens of the increase in immigration are
borne not only by our judges, but by the men and women

98a
in the executive branch charged with enforcing the immigration laws.
Our court has faced an unprecedented increase in
emergency petitions arising out of the administration’s
efforts to administer the immigration laws and secure
our borders. These controversial efforts have met with
mixed success in our court and the Supreme Court.
See, e.g., Sierra Club v. Trump, 929 F.3d 670 (9th Cir.)
(construction of wall on the border with Mexico), stay
issued, 140 S. Ct. 1 (2019) (mem.); E. Bay Sanctuary
Covenant v. Trump, 932 F.3d 742 (9th Cir. 2018) (aliens
entering outside a port of entry are ineligible for asylum); Regents of Univ. of Cal. v. U.S. Dep’t of Homeland
Sec., 908 F.3d 476 (9th Cir. 2018) (DACA), cert. granted,
139 S. Ct. 2779 (2019) (mem.); Trump v. Hawai‘i, 878
F.3d 662 (9th Cir. 2017) (per curiam) (entry restrictions), rev’d, 138 S. Ct. 2392 (2018); Flores v. Sessions,
862 F.3d 863 (9th Cir. 2017) (treatment of detained alien
minors under Flores agreement); Hawai‘i v. Trump,
859 F.3d 741 (9th Cir.) (per curiam) (travel ban), vacated
as moot, 138 S. Ct. 377 (2017) (mem.); Washington v.
Trump, 847 F.3d 1151 (9th Cir.) (per curiam) (travel
ban), cert. denied sub nom. Golden v. Washington, 138
S. Ct. 448 (2017) (mem.).
My first point is that even as we are embroiled in
these controversies, no one should mistake our judgments for our policy preferences. Whether “the iron
fist [or an extended velvet glove] would be the preferable policy. . . . our thoughts on the efficacy of the
one approach versus the other are beside the point, since
our business is not to judge the wisdom of the National
Government’s policy.” Am. Ins. Ass’n v. Garamendi,

99a
539 U.S. 396, 427 (2003); see Sale v. Haitian Ctrs. Council, Inc., 509 U.S. 155, 165 (1993) (“The wisdom of the
policy choices made by Presidents Reagan, Bush, and
Clinton is not a matter for our consideration.”); Lochner
v. New York, 198 U.S. 45, 69 (1905) (Harlan, J., dissenting) (“Whether or not this be wise legislation it is not the
province of the court to inquire. Under our systems of
government the courts are not concerned with the wisdom or policy of legislation.”).
Oh, I am not so naive as to think that a simple declaration of judicial neutrality will quell inquiry into judges’
backgrounds, prior writings, and opinions. The battles
over judicial nominations provide ample proof that our
generation of lawyers bear a diverse set of assumptions
about the nature of law, proper modes of constitutional
interpretation, and the role of the judiciary. These are
fair debates and they are likely to continue for some
time. We can only hope that over time our differences
can be resolved by reason and persuasion rather than by
politics by other means. But I don’t know of any judge
—at least not this judge—who can say that every opinion and judgment she issued was in accord with her preferred policy outcomes. “[I]n our private opinions,
[we] need not concur in Congress’ policies to hold its enactments constitutional. Judicially we must tolerate
what personally we may regard as a legislative mistake.” Harisiades v. Shaughnessy, 342 U.S. 580, 590
(1952).
My second point is less politic. In this case, we are
called upon to review the merits of DHS’s Final Rule
through the lens of the judicial review provisions of the
Administrative Procedure Act, 5 U.S.C. § 706. Our review is quite circumscribed. We can set aside agency

100a
action if it is contrary to law, if it exceeds the agency’s
jurisdiction or authority, or if the agency failed to follow
proper procedure. Id. § 706(2)(B)-(D). Those are
largely legal judgments, which we can address through
the traditional tools judges have long used. With respect to the policy behind the agency’s action, we are
largely relegated to reviewing the action for arbitrariness and caprice. Id. § 706(2)(A). That is not a very
rigorous standard and, as a result, an agency has broad
discretion to administer the programs entrusted to it by
Congress. Cf. Vt. Yankee Nuclear Power Corp. v. Nat.
Res. Def. Council, Inc., 435 U.S. 519, 558 (1978) (“[F]undamental policy questions appropriately resolved in
Congress . . . are not subject to reexamination in
the federal courts under the guise of judicial review of
agency action.”).
In the immigration context, whatever dialogue we
have been having with the administration over its policies, we are a poor conversant. We are limited in what
we can say and in our ability—even if anyone thought
we were qualified to do so—to shape our immigration
policies. We lack the tools of inquiry, investigation,
and fact-finding that a responsible policymaker should
have at its disposal. In sum, the APA is the meagerest
of checks on the executive. We are not the proper foil
to this or any other administration as it crafts our immigration policies.
By constitutional design, the branch that is qualified
to establish immigration policy and check any excesses
in the implementation of that policy is Congress. See
U.S. CONST. Art. I, § 8, cl. 4. And, so far as we can tell
from our modest perch in the Ninth Circuit, Congress is
no place to be found in these debates. We have seen

101a
case after case come through our courts, serious and
earnest efforts, even as they are controversial, to address the nation’s immigration challenges. Yet we
have seen little engagement and no actual legislation
from Congress. It matters not to me as a judge
whether Congress embraces or disapproves of the administration’s actions, but it is time for a feckless Congress to come to the table and grapple with these issues.
Don’t leave the table and expect us to clean up.
OWENS, Circuit Judge, concurring in part and dissenting in part:
While I concur with the majority’s jurisdiction analysis, I otherwise respectfully dissent. In light of the:
(1) government’s heavy burden due to the standard of
review, (2) opaqueness of the legal questions before us,
(3) lack of irreparable harm to the government at this
early stage, (4) likelihood of substantial injury to the
plaintiffs, and (5) equities involved, I would deny the
government’s motions to stay and let these cases proceed in the ordinary course. See Nken v. Holder, 556
U.S. 418, 427, 433-34 (2009) (holding that a “stay is an
‘intrusion into the ordinary processes of administration
and judicial review,’ ” and “[t]he party requesting a stay
bears the burden of showing that the circumstances justify an exercise of [judicial] discretion” (citation omitted)).

102a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 19-cv-04717-PJH
CITY AND COUNTY OF SAN FRANCISCO, ET AL.,
PLAINTIFFS

v.
U.S. CITIZENSHIP AND IMMIGRATION SERVICES, ET AL.,
DEFENDANTS

CASE NO. 19-CV-04975-PJH
STATE OF CALIFORNIA, ET AL., PLAINTIFFS
v.
U.S. DEPARTMENT OF HOMELAND SECURITY, ET AL.,
DEFENDANTS

CASE NO. 19-CV-04980-PJH
LA CLINICA DE LA RAZA, ET AL., PLAINTIFFS
v.
DONALD J. TRUMP, ET AL., DEFENDANTS
Filed: Oct. 11, 2019
PRELIMINARY INJUNCTION

103a
This order concerns three motions for a preliminary
injunction filed in three related actions. Each of the
plaintiffs in those actions moved for preliminary injunctive relief. The motions came on for hearing before
this court on October 2, 2019.
Plaintiff the City and County of San Francisco (“San
Francisco”) appeared through its counsel, Matthew
Goldberg, Sara Eisenberg, and Yvonne Mere. Plaintiff
the County of Santa Clara (“Santa Clara” and together
with San Francisco, the “Counties”) appeared through
its counsel, Ravi Rajendra, Laura Trice, and Luke Edwards. Plaintiffs the State of California, District of
Columbia, State of Maine, Commonwealth of Pennsylvania, and State of Oregon (together, including D.C., the
“States”) appeared through their counsel, Anna Rich,
Lisa Cisneros, and Brenda Ayon Verduzco. Plaintiffs
La Clinica De La Raza and California Primary Care Association (the two together are the “Healthcare Organizations”), Maternal and Child Health Access, Farmworker Justice, Council on American Islamic RelationsCalifornia, African Communities Together, Legal Aid
Society of San Mateo County, Central American Resource Center, and Korean Resource Center (the “Legal
Organizations”) (the Legal Organizations and the
Healthcare Organizations together are the “Organizations”) appeared through their counsel, Alvaro Huerta,
Nicholas Espiritu, Joanna Cuevas Ingram, Kevin Herrera, Tanya Broder, Max Wolsen, and Mayra Joachin.
Defendants U.S. Citizenship and Immigration Services (“USCIS”), Department of Homeland Security
(“DHS”), Kevin McAleenen as Acting Secretary of DHS,
Kenneth T. Cuccinelli as Acting Director of USCIS, and

104a
Donald J. Trump, as President of the United States appeared through their counsel, Ethan Davis, Eric Soskin,
and Kuntal Cholera.
Additionally, papers submitted by numerous amici
curiae were before the court. Prior to the hearing, the
court granted motions to file amicus briefs on behalf of
the following non-parties, all of which the court considered in its analysis: American Public Health Association, et al.; Asian Americans Advancing Justice, et al.;
City of Los Angeles, et al.; Justice in Aging, et al.; and
Members of Congress. A number of other requests to
file amici briefs were denied due to the court’s insufficient time to consider them on this particular motion,
given the already-voluminous filings from the parties,
the briefing schedule, and the time-sensitive nature of
plaintiffs’ request for preliminary relief.
Having read the papers filed by the parties and carefully considered their arguments and the relevant legal
authority, and good cause appearing, the court hereby
GRANTS CERTAIN PLAINTIFFS’ MOTIONS AND
ISSUES A PRELIMINARILY INJUNCTION, the
scope of which is discussed below, for the following reasons.
EXECUTIVE SUMMARY

In 1883, Emma Lazarus penned the now-famous sonnet, The New Colossus. Later affixed to the Statue of
Liberty in New York Harbor, the poem has been incorporated into the national consciousness as a representation of the country’s promise to would-be immigrants:
Not like the brazen giant of Greek fame, With conquering limbs astride from land to land; Here at our
sea-washed, sunset gates shall stand A mighty woman

105a
with a torch, whose flame Is the imprisoned lightning, and her name Mother of Exiles. From her
beacon-hand Glows world-wide welcome; her mild
eyes command The air-bridged harbor that twin cities frame.
“Keep, ancient lands, your storied pomp!” cries she
With silent lips. “Give me your tired, your poor,
Your huddled masses yearning to breathe free, The
wretched refuse of your teeming shore. Send these,
the homeless, tempest-tost to me, I lift my lamp beside the golden door!”
But whether one would prefer to see America’s borders opened wide and welcoming, or closed because the
nation is full, laws—not poetry—govern who may enter.
And the year before Lazarus wrote The New Colossus,
Congress had enacted its first comprehensive immigration law, barring entry to “any convict, lunatic, idiot, or
any person unable to take care of himself or herself
without becoming a public charge,” among others. An
Act to Regulate Immigration, 22 Stat. 214, Chap. 376
§ 2. (1882). Although various iterations of similar laws
have since come and gone (the operative statute no
longer refers to “lunatics” or “idiots”), since the very
first immigration law in 1882, this country has consistently excluded those who are likely to become a “public
charge.”
Although Congress has never authored an explicit
definition of the term, courts and the executive branch
have been considering its meaning as used in the statute
for over one hundred and twenty years. As interpretations from those two branches accreted toward a consistent understanding, Congress repeatedly enacted
statutes adopting the identical phrase.

106a
In 1999, the executive branch reviewed its historical
application of the term and issued formal guidance to
executive employees, explaining that the public charge
determination has historically, and should continue to,
focus on whether an individual is primarily dependent
on the government for subsistence.
In 2018, DHS published a new rule (scheduled to take
effect October 15, 2019) that proposed to dramatically
expand the definition of “public charge.” Rather than
include only those who primarily depend on the government for subsistence, DHS now proposes for the first
time to categorize as a public charge every person who
receives 12 months of public benefits (including many inkind benefits, like Medicaid and SNAP/Food Stamps)
over any 36-month period, regardless of how valuable
those benefits are, or how much they cost the government to provide (receiving two types of benefits in one
month would count as receiving benefits for two months).
Today, the court is presented with a challenge to
DHS’s new definition. The plaintiffs seek to prevent
defendants from implementing it before this court can
consider this case on the merits. The plaintiffs argue
that the new definition will lead to widespread disenrollment 1 from public benefits by those who fear being labeled a public charge (and by those confused that they
may be swept up in the rule), which will cause plaintiffs
to lose a substantial amount funding (for example, the

When plaintiffs refer to harms caused by those who will disenroll from public benefits in addition to those who will forego enrollment. This order considers the two categories together, and refers to them interchangeably.
1

107a
federal government heavily subsidizes state expenses
for those enrolled in Medicaid).
The court finds that the plaintiffs are likely to prevail
on the merits, for numerous reasons. DHS’s new definition of “public charge” is likely to be outside the
bounds of a reasonable interpretation of the statute.
Moreover, plaintiffs are likely to prevail on their entirely independent arguments that defendants acted arbitrarily and capriciously during the legally-required
process to implement the changes they propose. Because plaintiffs are likely to prevail and will be irreparably harmed if defendants are permitted to implement
the rule as planned on October 15, this court will enjoin
implementation of the rule in the plaintiff states until
this case is resolved on the merits, as discussed in more
detail below.
BACKGROUND

In each of the actions before the court, the plaintiffs
challenge and seek to preliminarily enjoin implementation of a proposed rule entitled “Inadmissibility on Public Charge Grounds,” proposed by DHS and published
in the Federal Register on August 14, 2019. See Inadmissibility on Public Charge Grounds, 84 Fed. Reg.
41,292 (August 14, 2019) (“the Rule”). The Rule is
scheduled to take effect nationwide on October 15, 2019.
A.

The Three Actions

In City and County of San Francisco v. U.S. Citizenship and Immigration Services, Case No. 19-cv-04717PJH, San Francisco and Santa Clara (together, the
“Counties”) filed a complaint naming as defendants
USCIS; DHS; McAleenen as Acting Secretary of DHS;

108a
and Cuccinelli as Acting Director of USCIS. The complaint asserts two causes of action under the Administrative Procedure Act (“APA”): (1) Violation of APA,
5 U.S.C. § 706(2)(A)—Not in Accordance with Law; and
(2) Violation of APA, 5 U.S.C. § 706(2)(A)—Arbitrary,
Capricious, and Abuse of Discretion. The Counties
filed the present motion for preliminary injunction on
August 28, 2019.
In State of California v. U.S. Department of Homeland Security, Case No. 19-cv-04975-PJH, the States
filed a complaint naming the same defendants as the
Counties: USCIS; DHS; McAleenen as Acting Secretary of DHS; and Cuccinelli as Acting Director of
USCIS. The complaint asserts six causes of action:
(1) Violation of APA, 5 U.S.C. § 706—Contrary to Law,
the Immigration and Nationality Act and the Illegal Immigration Reform and Immigrant Responsibility Act;
(2) Violation of APA, 5 U.S.C. § 706—Contrary to Law,
Section 504 of the Rehabilitation Act, codified at 29
U.S.C. § 794 (the “Rehabilitation Act”); (3) Violation of
APA, 5 U.S.C. § 706—Contrary to Law, State Healthcare
Discretion; (4) Violation of APA, 5 U.S.C. § 706—
Arbitrary and Capricious; (5) Violation of the Fifth
Amendment’s Due Process clause requiring Equal Protection based on race; (6) Violation of the Fifth Amendment’s Due Process clause, based on a violation of Equal
Protection principles based on unconstitutional animus.
The States filed the present motion for preliminary injunction on August 26, 2019. On August 27, 2019, this
court ordered the action brought by the States related
to the action brought by the Counties.
In La Clinica De La Raza v. Trump, Case No. 19-cv04980-PJH, the Organizations filed a complaint naming

109a
the same defendants as the Counties, and also added
Donald J. Trump: USCIS; DHS; McAleenen as Acting
Secretary of DHS; and Cuccinelli as Acting Director of
USCIS; and Donald J. Trump, as President of the
United States. The complaint asserts four causes of
action: (1) Violation of APA, 5 U.S.C. § 706—Contrary
to the Statutory Scheme; (2) Violation of APA, 5 U.S.C.
§ 706—Arbitrary, Capricious, or otherwise not in accordance with law; (3) Violation of the Fifth Amendment
based on Equal Protection for discriminating against
non-white immigrants; (4) under the Declaratory Judgment Act, seeking a determination that the Rule is invalid because it was issued by an unlawfully-appointed
agency director. On August 30, 2019, this court ordered the action brought by the Organizations related
to the action brought by the Counties. The Organizations filed the present motion for preliminary injunction
on September 4, 2019.
B.

The Dispute

The Immigration and Nationality Act, 8 U.S.C.
§§ 1101, et seq. (“INA”), requires that all noncitizens
seeking to be lawfully admitted into the United States
or to become lawful permanent residents (“LPRs”)
prove they are not inadmissible. 8 U.S.C. § 1361;
8 U.S.C. § 1225(a). A noncitizen may be deemed inadmissible on any number of grounds, including that they
are “likely at any time to become a public charge.”
8 U.S.C. § 1182(a)(4)(A).
The specific INA provision relating to whether an alien is likely to become a “public charge” at issue in this
litigation provides, in relevant part:

110a
Except as otherwise provided in this chapter, aliens
who are inadmissible under the following paragraphs
are ineligible to receive visas and ineligible to be admitted to the United States:
. . . .
(4)

Public charge
(A)

In general

Any alien who, in the opinion of the consular officer at the time of application for a visa, or in
the opinion of the Attorney General at the time
of application for admission or adjustment of
status, is likely at any time to become a public
charge is inadmissible.
(B)

Factors to be taken into account

(i) In determining whether an alien is inadmissible under this paragraph, the consular
officer or the Attorney General shall at a
minimum consider the alien’s—
(I)

age;

(II)

health;

(III) family status;
(IV) assets, resources, and financial
status; and
(V)

education and skills.

(ii) In addition to the factors under clause
(i), the consular officer or the Attorney Gen-

111a
eral may also consider any affidavit of support under section 1183a[ 2] of this title for
purposes of exclusion under this paragraph.
8 U.S.C. § 1182(a)(4).
The statute directs a “consular officer” or “the Attorney General” to form an opinion as to whether the applicant “is likely at any time to become a public charge.”
Id. In forming that opinion, immigration officers must
consider “at a minimum” five statutorily-defined factors: (1) age; (2) health; (3) family status; (4) assets,
resources, and financial status; (5) education and skills.
8 U.S.C. § 1182(a)(4)(B)(i).
An officer may additionally consider an affidavit of
support, which is a legally-enforceable contract between
the sponsor of the applicant and the Federal Government.
See 8 U.S.C. § 1182(a)(4)(B)(ii); 8 U.S.C.
§ 1183a(a). The sponsor pledges to accept financial responsibility for the applicant and to maintain the applicant at an income of “not less than 125 percent of the
Federal poverty line during the period in which the affidavit is enforceable[.]” 8 U.S.C. § 1183a(a)(1)(A).
Certain groups of noncitizens, such as asylum seekers and refugees, are not subject to exclusion based on
an assessment that they are likely to become a public
charge. See 8 U.S.C. § 1157 (refugee); 8 U.S.C. § 1158
(asylum); 8 U.S.C. § 1159(c) (refugee).

Section 1183a is titled “Requirements for sponsor’s affidavit of
support” and sets forth the requirements of an “affidavit of support
. . . to establish that an alien is not excludable as a public charge
under section 1182(a)(4) of this title[.]” 8 U.S.C. § 1183a(a)(1).
2

112a
An alien found to be inadmissible as a public charge
may “be admitted in the discretion of the Attorney General . . . upon the giving of a suitable and proper
bond or undertaking approved by the Attorney General,
in such amount and containing such conditions as he may
prescribe . . . holding the United States and all
States . . . harmless against such alien becoming a
public charge.” 8 U.S.C. § 1183.
The public charge ground may arise when, inter alia,
an alien seeks LPR status, or when noncitizens apply
for visas. 8 U.S.C. § 1182(a); 8 U.S.C. § 1255(a). Aliens “to whom a permit to enter the United States has
been issued to enter the United States” are also subject
to an inadmissibility determination by DHS at ports of
entry when they enter and re-enter the United States.
8 U.S.C. § 1185(d).
Immigrants with LPR status may also be subject to
the public charge analysis. For example, an LPR is
considered to be “seeking admission” under various circumstances, for example when returning to the United
States after being “absent from the United States for a
continuous period in excess of 180 days” or after engaging in any “illegal activity after having departed the
United States[.]” 8 U.S.C. § 1101(a)(13)(C)(ii)-(iii).
LPRs can also be denied citizenship and/or placed in removal proceedings if DHS determines retrospectively
that they were inadmissible as a public charge at the
time of their adjustment. 8 U.S.C. § 1227(a)(1)(A); 84
Fed. Reg. at 41,328 & n.176 (discussing possible impact
on naturalizations).
Under a separate provision in the INA, an alien can
be deported upon a determination that he has in fact become a public charge since his admission, from causes

113a
“not affirmatively shown to have arisen since entry[.]”
8 U.S.C. 1227(a)(5). 3
On October 10, 2018, DHS began the rule-making
process to create a new framework for the public charge
assessment by publishing a Notice of Proposed Rulemaking. See Inadmissibility on Public Charge Grounds,
83 Fed. Reg. 51,114 (Oct. 10, 2018) (the notice of proposed rulemaking is the “NPRM”). The NPRM provided a 60-day public comment period, during which
266,077 comments were collected. See 84 Fed. Reg. at
41,297. On August 14, 2019, DHS published the Rule
in the Federal Register. Id. at 41,292. It is set to become effective on October 15, 2019. On October 2,
2019—the morning of the hearing on the pending motions for preliminary injunction—DHS published a 25page list of “corrections” to the proposed final rule. 4
See Case No. 19-cv-04717-PJH, Dkt. 106, Ex. A. DHS
stated that its October 2 amendments to the rule would
not delay its planned implementation on October 15.
The Rule sets out what the parties have referred to
as the “12/36 standard.” That is, the Rule “redefines
the term ‘public charge’ to mean an alien who receives
Confusingly, DHS’s Rule would use completely distinct definitions for the term “public charge” when assessing whether an alien
“has become a public charge” (8 U.S.C. 1227(a)(5)) and whether an
alien “is likely at any time to become a public charge” (8 U.S.C.
1182(a)(4)(A).
4
Although defendants described the changes as fixes to “technical and typographical errors” (Case No. 19-cv-04717-PJH, Dkt.
106, Ex. A at 2), the States argued at the hearing that upon their
limited review of the corrections (a review that was necessarily limited given the eleventh-hour disclosure of DHS’s changes to the
rule), the amendments mooted at least one issue underlying the
States’ motion, regarding treatment of military families.
3

114a
one or more designated public benefits for more than 12
months in the aggregate within any 36-month period
(such that, for instance, receipt of two benefits in one
month counts as two months). This Rule defines the
term ‘public benefit’ to include cash benefits for income
maintenance, SNAP, most forms of Medicaid, Section 8
Housing Assistance under the Housing Choice Voucher
(HCV) Program, Section 8 Project-Based Rental Assistance, and certain other forms of subsidized housing.”
84 Fed. Reg. at 41,295.
Because the INS directs immigration officers to
opine as to whether an alien “is likely at any time to become a public charge,” the Rule’s new definition requires immigration officers to opine as to whether an alien is likely to receive certain public benefits for more
than 12 months in the aggregate within any future 36month period to determine whether he is likely to become a public charge. The rule sets out a number of
positive, negative, heavily-weighted, and normallyweighted factors to assist in making that determination,
and those factors are considered as part of a “totality of
the circumstances” assessment of whether an alien is
likely to use more than 12 months’ worth of benefits in
any future 36-month period.
DISCUSSION
A. Legal Standard

Federal Rule of Civil Procedure 65 provides federal
courts with the authority to issue preliminary injunctions. Fed. R. Civ. P. 65(a). Generally, the purpose of
a preliminary injunction is to preserve the status quo
and the rights of the parties until a final judgment on

115a
the merits can be rendered. See U.S. Philips Corp. v.
KBC Bank N.V., 590 F.3d 1091, 1094 (9th Cir. 2010).
An injunction is a matter of equitable discretion and
is “an extraordinary remedy that may only be awarded
upon a clear showing that the plaintiff is entitled to such
relief.” Winter v. Natural Res. Def. Council, Inc., 555
U.S. 7, 22 (2008); see also Munaf v. Geren, 553 U.S. 674,
689-90 (2008). A preliminary injunction “should not be
granted unless the movant, by a clear showing, carries
the burden of persuasion.” Mazurek v. Armstrong, 520
U.S. 968, 972 (1997) (per curiam).
“A plaintiff seeking a preliminary injunction must establish that [1] he is likely to succeed on the merits, that
[2] he is likely to suffer irreparable harm in the absence
of preliminary relief, that [3] the balance of equities tips
in his favor, and that [4] an injunction is in the public
interest.” Winter, 555 U.S. at 20.
Alternatively, “ ‘serious questions going to the merits’ and a hardship balance that tips sharply toward the
plaintiff can support issuance of an injunction, assuming
the other two elements of the Winter test are also met.”
All. for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1132
(9th Cir. 2011). “That is, ‘serious questions going to
the merits’ and a balance of hardships that tips sharply
towards the plaintiff can support issuance of a preliminary injunction, so long as the plaintiff also shows that
there is a likelihood of irreparable injury and that the
injunction is in the public interest.” Id. at 1135; see
also Disney Enterprises, Inc. v. VidAngel, Inc., 869 F.3d
848, 856 (9th Cir. 2017).
If a plaintiff satisfies its burden to demonstrate that
a preliminary injunction should issue, “injunctive relief

116a
should be no more burdensome to the defendant than
necessary to provide complete relief to the plaintiffs.”
Califano v. Yamasaki, 442 U.S. 682, 702 (1979).
Separately, the APA permits this court to “postpone
the effective date of action . . . pending judicial review.” 5 U.S.C. § 705; Bakersfield City Sch. Dist. of
Kern Cty. v. Boyer, 610 F.2d 621, 624 (9th Cir. 1979)
(“The agency or the court may postpone or stay agency
action pending such judicial review.”) (citing 5 U.S.C.
§ 705). Any such postponement must be made “[o]n
such conditions as may be required and to the extent
necessary to prevent irreparable injury[.]” 5 U.S.C.
§ 705. The factors considered when issuing such a stay
substantially overlap with the Winter factors for a
preliminary injunction. See, e.g., Bauer v. DeVos, 325
F. Supp. 3d 74, 104-07 (D.D.C. 2018).
B. Analysis

In considering plaintiffs’ motions for preliminary injunction, the court considers the Winter factors (and the
alternative All. for the Wild Rockies) factors in turn.
First, the court considers whether plaintiffs have demonstrated they are likely to succeed on the merits of
their claims, or alternatively whether they have demonstrated serious questions going to the merits. Because
a plaintiff must be within a statute’s “zone of interest”
to succeed on an APA challenge based on the underlying
statute, the court considers whether each plaintiff is
within the relevant statute’s zone of interests when assessing its likelihood of success on the merits.
Second, the court considers whether plaintiffs have
demonstrated they are likely to suffer irreparable harm
in the absence of preliminary relief. Because plaintiffs’

117a
alleged irreparable harms are also their alleged bases
for standing, the court considers whether each plaintiff
has standing to bring a ripe claim when assessing its irreparable harms.
Third, the court considers whether plaintiffs have
demonstrated that the balance of equities tip in their favor, and whether the balance of hardships tip sharply in
their favor.
Fourth, the court considers whether plaintiffs have
demonstrated that an injunction is in the public interest.
Fifth, the court addresses the scope of injunctive relief necessary and capable of providing complete relief
to the harms plaintiffs have demonstrated they are likely
to suffer prior to a determination on the merits, absent
such relief.
1.

The State and County Plaintiffs Are Likely to
Succeed on the Merits and Have Raised Serious
Questions

Plaintiffs argue that they are likely to succeed on
three of their causes of action, each alleging a violation
of the APA: (1) that the Rule violates the APA because
it is not in accordance with the term “public charge” as
used in the INA; (2) that the Rule violates the APA because it is not in accordance with the Rehabilitation Act
§ 504; and (3) that the Rule violates the APA because it
is arbitrary, capricious, and an abuse of discretion. 5
Although some of the arguments supporting these claims are
likely to overlap with other claims plaintiffs assert, plaintiffs have
made clear that they are not moving for a preliminarily injunction
based on any other claim, including, inter alia, the claim that the
Rule violates the APA because it is contrary to laws giving the
5

118a
Under the APA, “the reviewing court shall decide all
relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or applicability of the terms of an agency action. The reviewing court shall . . . hold unlawful and set aside
agency action, findings, and conclusions found to be
. . .
arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law[.]” 5 U.S.C.
§ 706.
“In the usual course, when an agency is authorized
by Congress to issue regulations and promulgates a regulation interpreting a statute it enforces, the interpretation receives deference if the statute is ambiguous and
if the agency’s interpretation is reasonable. This principle is implemented by the two-step analysis set forth
in Chevron.” Encino Motorcars, LLC v. Navarro, 136
S. Ct. 2117, 2124 (2016) (citing Chevron U.S.A., Inc. v.
Nat. Res. Def. Council, Inc., 467 U.S. 837, 842 (1984)).
“At the first step, a court must determine whether Congress has ‘directly spoken to the precise question at issue.’ If so, ‘that is the end of the matter; for the court,
as well as the agency, must give effect to the unambiguously expressed intent of Congress.’ If not, then at the
second step the court must defer to the agency’s interpretation if it is ‘reasonable.’ ” Encino Motorcars, 136
S. Ct. at 2124-25 (citations omitted) (quoting Chevron,
467 U.S. at 842-44).
“[I]f the statute is silent or ambiguous with respect
to the specific issue, the question for the court is
States discretion with respect to the provision of healthcare, the
claim under the declaratory judgment act that Cuccinelli was unlawfully appointed, or any of the asserted Constitutional claims.

119a
whether the agency's answer is based on a permissible
construction of the statute.” Chevron, 467 U.S. at 843;
see also Michigan v. E.P.A., 135 S. Ct. 2699, 2707 (2015)
(“Even under this deferential standard, however, agencies must operate within the bounds of reasonable interpretation.”) (internal quotation marks omitted).
The Chevron analysis calls upon the court to “employ[] traditional tools of statutory construction” to fulfill its role as “the final authority on issues of statutory
construction[.]” Chevron, 467 U.S. at 843 n.9; accord
Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1630 (2018).
“Chevron deference, however, is not accorded merely
because the statute is ambiguous and an administrative
official is involved. To begin with, the rule must be
promulgated pursuant to authority Congress has delegated to the official.” Gonzales v. Oregon, 546 U.S.
243, 258 (2006). “The starting point for this inquiry is,
of course, the language of the delegation provision itself.
In many cases authority is clear because the statute
gives an agency broad power to enforce all provisions of
the statute.” Id. (drawing a distinction between delegation of authority to carry out the act generally, and
authority to execute the functions assigned to the
agency).
First, the court assesses whether plaintiffs are likely
to succeed on their claims under the APA that the Rule
is not in accordance with law, as provided in 8 U.S.C.
§ 1182(a)(4). Second, the court assesses whether plaintiffs are likely to succeed on their claims under the APA
that the Rule is not in accordance with law, as provided
in the Rehabilitation Act § 504. Third, the court assess
whether plaintiffs are likely to succeed on their claims

120a
under the APA, that the Rule is arbitrary and capricious. Fourth, the court assesses whether each plaintiff is within the relevant zone of interests, which is required to succeed on an APA claim.
a.

Not in Accordance with Law—8 U.S. Code
§ 1182(a)(4)

Plaintiffs argue that the Rule is not in accordance
with the definition of “public charge” as used in 8 U.S.
Code § 1182(a)(4) for three reasons: (1) DHS’s interpretation should not be accorded any deference, and the
Rule’s definition is inconsistent with the statute; (2)
even if the term is accorded deference, the term plainly
and unambiguously means “primarily dependent on the
government for subsistence,” and the Rule conflicts with
that definition; and (3) the Rule’s definition of “public
charge” is not reasonable or based on a permissible construction of the statute.
The court did not understand plaintiffs to have raised
the first argument in their moving papers, although the
Counties may have raised it obliquely in their reply.
But the court and defendants were surprised to learn at
the hearing that plaintiffs were advancing an argument
that DHS’s promulgation of the Rule was wholly outside
of Congressionally-delegated authority. Cf. Counties’
Reply at 8-9 (“Counties do not contest DHS’s authority
to issue rational regulations governing the case-by-case
application of the statutory standard, so long as they do
not misconstrue the term ‘public charge.’ ”); States’ Reply at 9-10 (“the States have never disputed the commonsense point that Congress in 8 U.S.C. § 1182(a)(4)(A)
assigned responsibility to Defendants to make individual public charge determinations”); Organizations’ Reply at 9 (“even if Defendants were correct, Congress

121a
could delegate to DHS the power only to adopt reasonable interpretations of the statute”). Nevertheless,
plaintiffs have not sufficiently supported, or even explained, their argument to satisfy their burden to show
likelihood of success on the merits based on it. 6 Accordingly, the court analyzes the Rule pursuant to the
framework set out by Chevron.
The second and third arguments concern a challenge
under Chevron’s framework to the meaning of “public
charge” as used in § 1182(a)(4). Plaintiffs’ second argument requires the court to determine whether the
Rule contravenes the statute’s unambiguous meaning,
and their third argument requires the court to determine whether defendants’ chosen definition is reasonable and based on a permissible construction of the statute. Both questions require a discussion of the long usage of the term by Congress, as well as the expansive
evaluation of the term by courts and executive agencies.
As preface to that discussion, a brief outline helps set
the stage. The phrase “public charge” was used in this
country’s first-ever general immigration statute in 1882.
The immigration statutes have been interpreted and
modified many time since then, and although many
other excluded categories of persons came and went,
with each modification through today the phrase “public
charge” remained intact. As a result, the meaning that
the persistent term had when first used is relevant to
understanding the meaning Congress ascribed to it with
However, the court notes that whether DHS’s promulgation of
the Rule falls within the rulemaking authority delegated to it by
Congress may benefit from more attention in the parties’ future
briefing on the merits. See generally 8 U.S.C. § 1103(a).
6

122a
each subsequent statutory revision, including the nowoperative statute, which most recently saw changes to
the relevant provisions in 1990 and 1996.
Ultimately, this dispute concerns the meaning of a
statutory term passed in 1990—with clarifying language
passed in 1996. As such, the court considers the meaning ascribed to the term by Congress at that time, but in
doing so it must afford due consideration to Congress’s
understanding of the term given the long historical context it was operating within, which the court presently
endeavors to describe. See Forest Grove Sch. Dist. v.
T.A., 557 U.S. 230, 239-40 (2009) (“Congress is presumed
to be aware of an administrative or judicial interpretation of a statute and to adopt that interpretation when it
re-enacts a statute without change.”) (quoting Lorillard
v. Pons, 434 U.S. 575, 580 (1978)); United States v.
Argueta-Rosales, 819 F.3d 1149, 1159 (9th Cir. 2016)
(same); J.L. v. Mercer Island Sch. Dist., 592 F.3d 938,
951 (9th Cir. 2010) (Congress does no “abrogate[] sub
silentio the Supreme Court’s decision[s]”); Bob Jones
Univ. v. United States, 461 U.S. 574, 600-01 (1983) (interpretation informed by the fact that Congress had a
“prolonged and acute awareness” of an established
agency interpretation of a statute, considered the precise issue, and rejected bills to overturn the prevailing
interpretation); Merrill Lynch, Pierce, Fenner & Smith,
Inc. v. Curran, 456 U.S. 353, 381-82 (1982) (Congress is
aware “of the ‘contemporary legal context’ in which” it
legislates, and amending a statute while leaving certain
statutory provisions intact “is itself evidence that Congress affirmatively intended to preserve that” context);
see also I.N.S. v. Cardoza-Fonseca, 480 U.S. 421, 442-43
(1987) (“Few principles of statutory construction are

123a
more compelling than the proposition that Congress
does not intend sub silentio to enact statutory language
that it has earlier discarded in favor of other language.”); Albemarle Paper Co. v. Moody, 422 U.S. 405,
414 n.8 (1975) (rejecting construction of statute that
would implement substance of provision that Conference Committee rejected).
1. 1882 Act

In 1882, Congress enacted the country’s first general
immigration statute. See An Act to Regulate Immigration, 22 Stat. 214 (1882) (the “1882 Act”). That statute provided, in part:
That the Secretary of the Treasury . . . shall
have power to . . . provide for the support and
relief of such immigrants therein landing as may fall
into distress or need public aid . . . and it shall be
the duty of such State . . . to examine into the
condition of passengers arriving at the ports . . .
and if on such examination there shall be found
among such passengers any convict, lunatic, idiot, or
any person unable to take care of himself or herself
without becoming a public charge . . . such persons shall not be permitted to land.
22 Stat. 214, Chap. 376 § 2.
Legislative debate on the 1882 Act shows that at least
one member of Congress sought to prevent foreign nations from “‘send[ing] to this country blind, crippled, lunatic, and other infirm paupers, who ultimately become
life-long dependents on our public charities.’ ” 13 Cong.
Rec. 5108-10 (June 19, 1882) (statement of Rep. Van
Voorhis).

124a
The 1882 Act also imposed on each noncitizen who entered the United States a 50-cent head tax for the purpose of creating an “immigrant fund”:
That there shall be levied, collected, and paid a duty
of fifty cents for each and every passenger not a citizen of the United States who shall come by steam or
sail vessel from a foreign port to any port within the
United States. . . . The money thus collected
shall . . . constitute a fund to be called the immigrant fund, and shall be used . . . to defray the
expense of regulating immigration under this act,
and for the care of immigrants arriving in the United
States, for the relief of such as are in distress[.]
22 Stat. 214, Chap. 376, § 1; see also Edye v. Robertson,
112 U.S. 580, 590-91 (1884) (“This act of congress is similar, in its essential features, to many statutes enacted
by states of the Union for the protection of their own
citizens, and for the good of the immigrants who land at
sea-ports within their borders. That the purpose of
these statutes is humane, is highly beneficial to the poor
and helpless immigrant, and is essential to the protection of the people in whose midst they are deposited by
the steam-ships, is beyond dispute.”).
Nineteenth-century dictionaries defined “charge” as
“That which is enjoined, committed, entrusted or delivered to another, implying care, custody, oversight, or
duty to be performed by the person entrusted” and
“The person or thing committed to anothers [sic] custody, care or management; a trust. Thus the people
of a parish are called the ministers charge.” Charge,
Webster’s Dictionary (1828 Online Edition), http://
webstersdictionary1828.com/Dictionary/charge; Charge,
Webster’s Dictionary (1886 Edition), https://archive.org/

125a
details/ websterscomplete00webs/page/218 (“person or
thing committed or intrusted [sic] to the care, custody, or
management of another; a trust; as, to abandon a
charge”). 7
Another contemporary source defines charge “In its
general sense, a charge is an obligation or liability.
Thus we speak of . . . a pauper being chargeable
to the parish or town.” Stewart; Lawrence Rapalje,
Robert L., Dictionary of American and English Law,
with Definitions of the Technical Terms of the Canon
and Civil Laws (1888), at 196.
Prior to the 1882 Act’s enactment, states had played
a larger role in immigration than they do today, and
state governments had used and interpreted the term
“public charge,” although of course not in relation to any
Congressional act.
For example, the New Jersey Supreme Court, when
interpreting a statute concerning the procedures to remove an individual from a township in New Jersey, considered whether a pauper was “either chargeable, or
likely to become chargeable, to the township of Princeton.” Overseers of Princeton Twp. v. Overseers of
Defendants cite Frederic Jesup Stimson, Glossary of Technical
Terms, Phrases, and Maxims of the Common Law (1881), but that
source does not provide a relevant definition. The first-listed definition is the most plausibly-relevant: “A burden, incumbrance,
or lien; as when land is charged with a debt.” Id. at 56. But that
definition concerns how the word charge relates to real property,
which makes sense because at the time, “[m]ore frequently, however, charge is applied to property” as “a general term[.]” Stewart; Lawrence Rapalje, Robert L., Dictionary of American and
English Law, with Definitions of the Technical Terms of the Canon
and Civil Laws (1888), at 196.
7

126a
S. Brunswick Twp., 23 N.J.L. 169, 170 (Sup. Ct. 1851).
Although the case does not make clear what precise relief is necessary to qualify as a public charge, it contemplated that one became a public charge upon seeking
such relief from “the church wardens or overseers of the
poor[.]” Id. at 173. The concurrence clarified that an
“application for relief” is distinct from being “chargeable,” although “[t]he probability of his becoming chargeable is sufficiently shown by his application for relief.”
Id. at 179 (Carpenter, J. concurring). The case does
not explain the type or quantum of relief necessary to
constitute one’s status as a “charge.”
Another state court opinion, People ex rel. Durfee v.
Commissioners of Emigration, 27 Barb. 562, 1858 WL
7084 (N.Y. Sup. Ct. 1858), addressed a statute which
contemplated bonds being paid on behalf of immigrants,
and required the commissioners of immigration who
held those bonds to “indemnify so far as may be the several cities, towns and counties of the state, for any expense or charge which may be incurred for the maintenance and support of the” immigrants. 27 Barb. at 570.
The court held that the statute required indemnification
of all expenses made on behalf of the immigrants—
whether temporary or permanent—so long as the expenses were lawfully made. Id. However, the case
did not draw a clean line holding that any expense spent
on an individual makes him a public charge. Rather, an
equally-plausible reading of the opinion is that the statute requires immunity of all expenses paid to support

127a
immigrants for whom bonds have been paid, regardless
of whether they are formally considered public charges. 8
City of Bos. v. Capen, 61 Mass. 116, 121 (1851) concerned a statute which required a bond for someone
likely to become a public charge. The court explained
that the statute described various categories of people
identified as being at risk of becoming a public charge,
and for whom bond may be required. However, what
assistance or payment qualified one as a “public charge”
was not addressed. 9
As a whole, the statutory language and authority underlying the 1882 Act provide some clear guidance as to
the definition of public charge. For example, the 1882
Act contemplated that admitted aliens (not excluded on
public charge grounds) would receive some assistance
from the state. That is made clear by the same statute’s establishment of a fund “for the care of immigrants
arriving in the United States, for the relief of such as are
in distress[.]” 22 Stat. 214, Chap. 376, § 1. Although
The latter reading would be in accordance with the current interpretation of “public charge” as used elsewhere in the INA, which
requires an alien to be presented with a bill and prove unable or
unwilling to pay it to be deemed a public charge. E.g., Matter of
B-, 3 I. & N. Dec. 323 (A.G. 1948); Field Guidance on Deportability
and Inadmissibility on Public Charge Grounds, 64 Fed. Reg. 28,689
(May 26, 1999); 84 Fed. Reg. at 41,295.
9
The opinion also suggested that those who were “paupers in a
foreign land” must have been “a public charge in another country,”
and then stated without explanation that “the word ‘paupers’ being
used in this connection in its legal, technical sense.” Capen, 61
Mass. at 121. Even looking past the confusion, the court might be
interpreted as finding that all paupers have been public charges,
but from that the conclusion cannot be drawn that all public charges
must have been paupers.
8

128a
the quantum of state support necessary to render one a
public charge is less clear, the 1882 Act did not consider
an alien a public charge for simply receiving some assistance from the state. Also, it appears that contemporary uses of the term would deem one a public charge
after taking on a particular, chargeable debt from the
state and failing to repay it.
2.

1891

In 1891, Congress amended the 1882 Act.
amended statute provided, in part:

That

That the following classes of aliens shall be excluded
from admission into the United States . . . : All
idiots, insane persons, paupers or persons likely to
become a public charge, persons suffering from a
loathsome or a dangerous contagious disease, persons who have been convicted of a felony or other infamous crime or misdemeanor involving moral turpitude, polygamists, and. . . .
An Act in Amendment to the Various Acts Relative to
Immigration and the Importation of Aliens Under Contract or Agreement to Perform Labor, 26 Stat. 1084,
Chap. 551 (“1891 Act”) § 1 (1891).
The 1891 amendment also provided that “any alien
who becomes a public charge within one year after his
arrival in the United States from causes existing prior
to his landing therein shall be deemed to have come in
violation of law and shall be returned” pursuant to the
procedures outline in the statute regarding aliens entering unlawfully. 1891 Act § 11. So, the 1891 Act set out
the now-familiar practice of subjecting aliens to two
“public charge” assessments—one in which the government is called on to make a forward-looking prediction,

129a
and another in which the government is called on to
make a backward-looking assessment. The first asks
at the time of entry whether the alien is likely to become
a public charge. The second asks whether, after some period of time, the alien has in fact become a public charge
due to causes existing before he arrived. Although the
relevant time periods of the assessments have grown,
this scheme generally remains in place today.
The 1891 Act made a notable change to the law by
adding the category “pauper,” and including the term
pauper with “persons likely to become a public charge”
to form a single entry in an expanded list of excluded
categories of people.
An early case interpreting the act considered
whether “the act of 1891 confers upon the inspection officer power to detain and send back an alien immigrant
as being a person liable to become a public charge, in the
absence of any evidence whatever tending to establish
that fact.” In re Feinknopf, 47 F. 447, 448 (E.D.N.Y.
1891). Although it did not define the term “public
charge” in the abstract, the court provided an explanation given the facts before it that essentially laid out a
totality-of-the-circumstances test. It held that “[o]f
course” the following facts, “if believed, would not warrant the conclusion that the petitioner was a person
likely to become a public charge,” and that the case is
“devoid of any evidence whatever of any fact upon which
to base a determination that the petitioner is likely to
become a public charge”:
the petitioner is 40 years old; that he is a native of
Austria; that he is a cabinet-maker by trade, and has
exercised that trade for 25 years; that he has no family; that he has baggage with him, worth $20, and 50

130a
cents in cash; that he is a man who can find employment in his trade, and is willing to exercise the same.
. . . [I]n addition, that the immigrant has not been
an inmate of an almshouse, and has not received public aid or support, and has not been convicted of
crime.
Id. at 447-48. A fair reading suggests that each of the
enumerated facts could be relevant to predicting whether someone is likely to become a public charge.
A subsequent court provided even more guidance.
In United States v. Lipkis, 56 F. 427 (S.D.N.Y. 1893), a
man had arrived in America before his wife and child.
The wife and child were required to pay a bond because
the superintendent of immigration deemed them “likely
to become a public charge” based on “the poverty and
character of the husband,” whose residence gave the appearance of “extreme poverty.” Id. at 427. However,
that poverty alone did not mean he or the family was a
public charge—rather, it meant the family was likely to
become a public charge. “About six months after the
arrival of the mother she became insane, and was sent
to the public insane asylum of the city under the direction of the commissioners of charities and correction,
where only poor persons unable to pay for treatment are
received, and she was there attended to for a considerable period at the expense of the municipality.” Id. at
428. Thus, the mother became a public charge only
when she was committed to the public insane asylum
with “no effort to provide for her at his [the husband’s]
own expense[.]” Id.
But the court did not require commitment to an institution to make one a public charge. It reasoned in dicta
that the family’s financial condition generally subjected

131a
the family to the risk of becoming “a public charge under
the ordinary liabilities to sickness, or as soon as any
other additional charges arose beyond the barest needs
of existence. . . . The liability of his family to become a public charge through any of the ordinary contingencies of life existed when the bond was taken, because of his poverty and inefficiency.” Id. So, a number of different financial shocks could have rendered the
family a public charge.
The court’s analysis drew a distinction between being
a public charge (in this case, someone committed to an
insane asylum with no effort to cover the expense), and
someone likely to become a public charge (in this case,
someone who can pay for “the barest needs of existence,” yet whom an extreme illness could ruin).
The parties cite to state court decisions published
during this time using the term public charge, which are
informative of what the term generally meant at the
time. Those opinions address the duration of benefits
that render one a public charge rather than the quantum, and they tend to suggest that temporary relief did
not make one a public charge as the term was understood at the time. However, they do not address
whether longer-term receipt of a small amount of public
benefits qualifies one as a public charge (as the Rule
would do). See Yeatman v. King, 2 N.D. 421 (1892)
(state loaning seed grain to farmer using the general tax
fund, with obligation of repayment, is designed to prevent farmers “from becoming a public charge by affording them temporary relief ”); Cicero v. Falconberry, 14
Ind. App. 237 (1895) (“The mere fact that a person may
occasionally obtain assistance from the county does not

132a
necessarily make such person a pauper or a public
charge.”). 10
Following the 1891 Act, two points are relatively
clear. First, reaffirming the best interpretation of the
1882 Act, the term was not used at the time to include
short-term or temporary relief from the state, as the
case law continued to demonstrate. Second, Lipkis
could be read to support either of two non-controversial
points: either state-funded institutionalization constitutes becoming a public charge, or state-funded institutionalization with “no effort” to pay the expense after
being billed does so. Simply being able to pay for the
barest needs of existence and nothing more does not
render one a public charge (although it may make one
likely to become a public charge). A third point begins
to materialize in the case law, which is that absent some
particularly-identified negative factor, an employable
individual is not a public charge. E.g., In re Feinknopf,
47 F. at 447-48 (40-year-old man willing to exercise his
trade); Lipkis, 56 F. at 428 (notwithstanding poverty,
working man’s family is not a public charge until financial calamity strikes); Yeatman, 2 N.D. at 421 (public aid
to working farmer).
3.

1903

In 1903, Congress passed a revised version of the act.
That amended statute provided, in part:
The parties also cite Edenburg Borough Poor Dist. v. Strattanville Borough Poor Dist., 5 Pa. Super. 516, 528 (1897), but that case
concerns an individual who appears to have formally registered as
a pauper by seeking public assistance under state or local law. It
does not concern any immigration statutes, nor does the opinion
use the word “charge” or the phrase “public charge.”
10

133a
That the following classes of aliens shall be excluded
from admission into the United States: All idiots,
insane persons, epileptics, and persons who have
been insane within five years previous; persons who
have had two or more attacks of insanity at any time
previously; paupers; persons likely to become a public charge; professional beggars; persons afflicted
with a loathsome or with a dangerous contagious disease; persons who have been convicted of a felony or
other crime or misdemeanor involving moral turpitude; polygamists; anarchists, or. . . . ”
An Act to Regulate the Immigration of Aliens Into the
United States, 32 Stat. 1213, Chap. 1012 § 2 (1903).
This change separated out “paupers” from “persons
likely to become a public charge,” which the previous act
had grouped together as a single item in the list.
The 1903 amendment also provided that any alien
who “shall be found a public charge . . . from causes
existing prior to landing, shall be deported . . . at
any time within two years after arrival[.]” Id. § 20.
4.

1907

In 1907, Congress passed a revised version of the act.
That amended statute provided, in part:
That the following classes of aliens shall be excluded
from admission into the United States: All idiots,
imbeciles, feeble-minded persons, epileptics, insane
persons, and persons who have been insane within
five years previous; persons who have had two or
more attacks of insanity at any time previously; paupers; persons likely to become a public charge; professional beggars; persons afflicted with tuberculosis

134a
or with a loathsome or dangerous contagious disease;
persons not comprehended within any of the foregoing excluded classes who are . . . mentally or
physically defective, such mental or physical defect
being of a nature which may affect the ability of such
alien to earn a living; persons who have been convicted of or admit having committed a felony or other
crime or misdemeanor involving moral turpitude; polygamists, or. . . . ”
An Act to Regulate the Immigration of Aliens Into the
United States, 34 Stat. 898, Chap. 1134 § 2 (1907).
Nothing relevant to the present action appears to
have been changed by this revision. 11
5.

1910

In 1910, Congress amended the 1907 act.
statute provided, in part:

The new

That the following classes of aliens shall be excluded
from admission into the United States: All idiots,
imbeciles, feeble-minded persons, epileptics, insane
persons, and persons who have been insane within
five years previous; persons who have had two or
more attacks of insanity at any time previously; paupers; persons likely to become a public charge; professional beggars; persons afflicted with tuberculosis
or with a loathsome or dangerous contagious disease;

The only notable change is the introduction of an exclusion for
individuals not otherwise captured by the categories who cannot
earn a living based on mental or physical defect. That suggests
that earlier-listed categories also include such people, but not all
such people.
11

135a
persons not comprehended within any of the foregoing excluded classes who are . . . mentally or
physically defective, such mental or physical defect
being of a nature which may affect the ability of such
alien to earn a living; persons who have been convicted of or admit having committed a felony or other
crime or misdemeanor involving moral turpitude; polygamists, or. . . . ”
An Act to Amend an Act entitled An Act to Regulate the
Immigration of Aliens Into the United States, 36 Stat.
263, Chap. 128 § 2 (1910).
Nothing relevant to the present action appears to
have been changed by this revision.
In 1915, the Supreme Court addressed the 1910 act
in Gegiow v. Uhl, 239 U.S. 3 (1915). “The single question” in that case was “whether an alien can be declared
likely to become a public charge on the ground that the
labor market in the city of his immediate destination is
overstocked.” Id. at 9-10. The immigration commissioners in that action determined that the immigrants
were “bound for Portland, Oregon, where the reports of
industrial conditions show that it would be impossible
for these aliens to obtain employment[.]” Id. at 8.
The court held that “[t]he statute deals with admission to the United States, not to Portland. . . . It
would be an amazing claim of power if commissioners
decided not to admit aliens because the labor market of
the United States was overstocked.” Id. at 10. Because the immigration authorities could not consider labor conditions in a single location to determine whether
immigrants would be able to obtain employment, the
factual findings that the immigrants could not find work

136a
in Portland was insufficient to support a determination
that they were likely to become public charges.
The court also reasoned that, because the “public
charge” ground for exclusion was “mentioned between
paupers and professional beggars, and along with idiots,
persons dangerously diseased, persons certified by the
examining surgeon to have a mental or physical defect
of a nature to affect their ability to earn a living,” the
term should be construed as similar with the rest. Id.
Under that construction, the court held that those likely
to become public charges “are to be excluded on the
ground of permanent personal objections accompanying
them irrespective of local conditions[.]” Id. 12 That is,
the court focused on an alien’s general ability and willingness to work and earn a living, rather than the particular wages or labor conditions that existed in the alien’s destination.
A court in 1916 considered “whether the fact that petitioner entered the United States as a gambler, and as
one having no other permanent means of support, actual
or contemplated, makes him a person ‘likely to become
a public charge’ within the meaning of the Immigration
Act.” Lam Fung Yen v. Frick, 233 F. 393, 396 (6th Cir.
1916):
It seems clear that the term ‘persons likely to become
a public charge’ is not limited to paupers or those liable to become such; ‘paupers‘ are mentioned as in a
The Gegiow opinion was subject to some skepticism following
a later amendment to the statute, but the Ninth Circuit subsequently
held that its reasoning remained controlling. See Ex parte Hosaye Sakaguchi, 277 F. 913 (9th Cir. 1922); see also Ex parte Mitchell, 256 F. 229 (N.D.N.Y. 1919).
12

137a
separate class. In United States v. Williams (D.C.)
175 Fed. 274, 275, the term ‘persons likely to become
a public charge‘ is construed as including, ‘not only
those persons who through misfortune cannot be selfsupporting, but also those who will not undertake honest pursuits, and who are likely to become periodically
the inmates of prisons.’ We think this a reasonable

construction. . . . Inmates of jails and prisons
are for the time being public charges, and we think it
open to conclusion by reasonable minds that those
who will not work for a living, but rely for that purpose upon gambling, are more likely than citizens following the ordinary pursuits of industry to become,
at least intermittently, public charges.

Id. at 396-97 (emphasis added).
The court reasoned that because the alien was a gambler and gambling is regarded “within the domain of police supervision and public security,” the petitioner is
reasonably likely to become periodically an inmate of a
prison. Id. at 397. Under the court’s reasoning, someone in a prison is a public charge, akin to someone in an
almshouse or insane asylum. Id.; see also United
States v. Williams, 175 F. 274, 275 (S.D.N.Y. 1910)
(“They are surely public charges, at least during the
term of their incarceration.”).
In 1917, the Second Circuit relied on Gegiow’s statutory analysis when deciding a case under the 1910 statute. Howe v. United States, 247 F. 292 (2d Cir. 1917).
In Howe, a Canadian who had allegedly “drawn a check
. . . which proved bad,” among other things, entered
the United States, and an immigration inspector “believed him guilty of dishonest practice in Canada.” Id.
at 293-94. Because the plaintiff had not admitted to or

138a
been convicted of a felony, the provision excluding criminals did not apply to him. The court reasoned that (1)
the term “public charge” needed to be read in context of
its position in the statute’s list, and (2) it cannot be interpreted to overlap with other items in the list (e.g., idiots, imbeciles, insane persons, criminals). As such,
“[i]f the words covered jails, hospitals, and insane asylums, several of the other categories of exclusion would
seem to be unnecessary.” Id. at 294. Instead, “Congress meant the act to exclude persons who were likely
to become occupants of almshouses for want of means
with which to support themselves in the future.” Id.
The Howe court provided a very specific, restrictive, and
clear definition of the term. This also demonstrates an
early split in the case law as to whether prison inmates
are considered public charges.
By 1917, the Supreme Court, the Second Circuit, and
the Sixth Circuit had all published opinions construing
the term as used in the 1910 act. These are precisely
the sorts of constructions Congress is presumed knowledgeable of when reenacting statutory language. See
Forest Grove, 557 U.S. at 239-40. The Supreme Court
held that predicting whether someone will become a
public charge requires consideration of “permanent personal objections accompanying them irrespective of local conditions[.]” Gegiow, 239 U.S. at 10. The two
Circuit decisions are more difficult to reconcile. First,
they directly contradicted one another with respect to
whether jail inmates were public charges. Second,
Howe broke with the weight of prior authority in holding
that the term was limited to those occupying almshouses
for want of a means of support.

139a
6.

1917

In 1917, Congress amended the Act.
statute provided, in part:

That amended

That the following classes of aliens shall be excluded
from admission into the United States: All idiots,
imbeciles, feeble-minded persons, epileptics, insane
persons; persons who have had one or more attacks
of insanity at any time previously; persons of constitutional psychopathic inferiority; persons with chronic
alcoholism; paupers; professional beggars; vagrants;
persons afflicted with tuberculosis in any form or
with a loathsome or dangerous contagious disease;
persons not comprehended within any of the foregoing excluded classes who are . . . mentally or
physically defective, such physical defect being of a
nature which may affect the ability of such alien to
earn a living; persons who have been convicted of or
admit having committed a felony or other crime or
misdemeanor involving moral turpitude; polygamists, or. . . . ; persons likely to become a public
charge. . . . ”
An Act to Regulate the Immigration of Aliens to, and the
Residence of Aliens in, the United States, 39 Stat. 874,
Chap. 29 § 3 (1917).
The statute also provided for the deportability of
“any alien who within five years after entry becomes a
public charge from causes not affirmatively shown to
have arisen subsequent to landing[.]” Id. § 19.
The “public charge” language remains unchanged,
although moved within the list. The Congressional
Record suggests that Congress intentionally moved the
category of “persons likely to become a public charge”

140a
later in the list in response to Gegiow. See 70 Cong.
Rec. 3560 (1929) (“persons likely to become a public
charge (this clause excluding aliens on the ground likely
to become a public charge has been shifted from its position in section 2 of the immigration act of 1907 to its
present position in section 3 of this act in order to indicate the intention of Congress that aliens shall be excluded upon said ground for economic as well as other
reasons and with a view to overcoming the decision of
the Supreme Court in Gegiow v. Uhl, 239 U. S. 3”); see
also 80 Cong. Rec. 5829 (1936) (same).
A district court in 1919 reasoned that although the
exact same phrase was shifted within the list, “I am unable to see that this change of location of these words in
the act changes the meaning that is to be given them.
A ‘person likely to become a public charge’ is one who
for some cause or reason appears to be about to become
a charge on the public, one who is to be supported at
public expense, by reason of poverty, insanity and poverty, disease and poverty, idiocy and poverty, or, it
might be, by reason of having committed a crime which,
on conviction, would be followed by imprisonment.”
Ex parte Mitchell, 256 F. 229, 230 (N.D.N.Y. 1919). In
that case, there was “no evidence whatever that the alien at any time has relied in any degree on the charity of
others,” but rather the alien “is able to earn her own living and always has done so[.]” Id.
The court then stated that mere speculation about
the possibility of becoming a public charge does not
make one likely to become a public charge: “The alien
may become sick; she may lose her house by fire; she
may lose her personal property by bad investments.
All this is possible, but not probable. There is no claim

141a
that this alien is suffering, or that she has suffered at
any time, from any mental or physical defect. It is not
claimed this alien has been convicted, or even charged
with the commission, of any crime, or that she came to
the United States, or is in the United States, for any immoral or improper purpose.” Id. at 231.
The Ninth Circuit agreed in 1922, holding that the
1917 Amendment’s movement of the “public charge” exclusion “does not change the meaning that should be
given” the exclusion. Ex parte Hosaye Sakaguchi, 277
F. 913, 916 (9th Cir. 1922). The court recognized the
legislative change and that Gegiow’s reliance on the
phrase’s relative position in the statute was compromised, yet it held:
Although in the act of February 5, 1917, under which
the present case is to be determined, the location of
the words ‘persons likely to become a public charge’
is changed, we agree with Judge Ray in Ex parte
Mitchell (D.C.) 256 Fed. 229, that this change of location of the words does not change the meaning that
should be given them, and that it is still to be held
that a person ‘likely to become a public charge’ is one
who, by reason of poverty, insanity, or disease or disability, will probably become a charge on the public.

Id. (emphasis added). 13

In 1923 a district court in Washington state did not cite these
precedents and held instead that Congress’s shift was an effective
modification in response to Gegiow. Ex parte Horn, 292 F. 455
(W.D. Wash. 1923). Interpreting the phrase anew based on its
plain meaning, the court reasoned that “a public charge” is “a person committed to the custody of a department of the government
13

142a
A 1921 Second Circuit opinion relying on Howe and
Ex parte Mitchell held that “A person likely to become
a public charge is one whom it may be necessary to support at public expense by reason of poverty, insanity and
poverty, disease and poverty, idiocy and poverty. We
think that the finding by the administrative authorities,
showing a physical defect of a nature that may affect the
ability of the relator and appellee to earn a living, is sufficient ground for exclusion. His physical condition, together with his financial condition, having but $100 with
him, justified the conclusion of the administrative authorities in finding that he and his children were aliens
likely to become public charges.” Wallis v. U.S. ex rel.
Mannara, 273 F. 509, 511 (2d Cir. 1921) (citation omitted).
A number of courts around this time also held that
imprisonment was one way to become a public charge.
E.g., Ex parte Fragoso, 11 F.2d 988, 989 (S.D. Cal. 1926)
(“The fact is this petitioner did become a public charge.
He was confined in a jail for a period of nine months.”);
U.S. ex rel. Lehtola v. Magie, 47 F.2d 768, 770 (D. Minn.
1931) (noting a circuit split as to whether “dependency
rather than imprisonment” is grounds for finding a public charge); Ex parte Horn, 292 F. 455, 458 (W.D. Wash.
1923).
In 1933, the third edition of Black’s Law Dictionary
was the first to define “public charge.” The definition
relied upon many of the above-cited cases, so for that
reason it is derivative of and less probative than those

by due course of law,” and that committing someone to prison
makes him a public charge. Id. at 457.

143a
cases themselves. Nevertheless, the definition is instructive. It defined the term as: “A person whom it
is necessary to support at public expense by reason of
poverty, insanity and poverty, disease and poverty, or
idiocy and poverty. . . . As used in [the 1917 Act],
one who produces a money charge on, or an expense to,
the public for support and care.” See Black’s Law Dictionary 311 (3d Ed. 1933). The term includes paupers
as well as those who will not undertake honest pursuits
or who are likely to go to prison.
In 1948, the Board of Immigration Appeals (“BIA”)
issued an order, which the acting Attorney General thereafter issued an order approving. The order set out a
very explicit test for the term “public charge” as used
elsewhere in the act, which concerned deportation proceedings of aliens who are later determined to have actually become a public charge during their time in the
country. Matter of B-, 3 I. & N. Dec. 323 (A.G. 1948).
When interpreting the term as used in the deportation context, the BIA set out a 3-part test requiring (1)
an individualized bill for charges incurred, that is (2)
presented to the alien (or a family member) by the government, and (3) which the alien (or family member)
fails to pay.
the following test must be applied to determine
whether an alien has become a public charge within
the reach of the 1917 act: (1) The State or other
governing body must, by appropriate law, impose a
charge for the services rendered to the alien. In
other words, the State must have a cause of action in
contract against either the person taking advantage
of the State services or other designated relatives or
friends. If there is no charge made, and if the State

144a
does not have a cause of action, the alien cannot be
said to be a public charge. (2) The authorities must
make demand for payment of the charges upon those
persons made liable under State law. And (3) there
must be a failure to pay for the charges. If there is
a failure to pay either because of lack of demand or
because the State authorities do not perform their
duty to collect the charges, the alien cannot be said
to have become a public charge.
Id. at 326 (footnote omitted).
The BIA also reasoned that the same definition
would apply to the identical term used earlier in the statute with respect to predicting whether an alien is likely
to become a public charge—i.e., the provision at issue in
the present action:
First, we wish to make the following preliminary observation for the purpose of clarifying the issue.
The acceptance by an alien of services provided by a
State or by a subdivision of a State to its residents,
services for which no specific charge is made, does
not in and of itself make the alien a public charge
within the meaning of the 1917 act. To illustrate, an
alien who participates, without cost to him, in an
adult education program sponsored by the State does
not become a public charge. Similiarly [sic] with respect to an alien child who attends public school, or
alien child who takes advantage of the free-lunch program offered by schools. We could go on ad infinitum setting forth the countless municipal and State
services which are provided to all residents, alien and
citizen alike, without specific charge of the municipality or the State, and which are paid out of the general
tax fund. The fact that the State or the municipality

145a
pays for the services accepted by the alien is not,
then, by itself, the test of whether the alien has become a public charge. . . . [I]f it were to be held
that all aliens became public charges by accepting
such services, such a holding would necessarily result
in making aliens seeking admission to the United
States excludable under that clause of section 3 of the
act of February 5, 1917, which bars aliens likely to
become public charges from entering the United
States, provided it were shown the alien would accept
the free municipal and State services.
Id. at 324-25 & n.1.
District courts had independently adopted the same
meaning under the 1917 Act. E.g., Ex parte Orzechowska, 23 F. Supp. 428, 429 (D. Or. 1938) (individual not a
public charge so long as they will “pay the full amount
of the cost of keeping the girl at the Oregon State Hospital”); Ex parte Kichmiriantz, 283 F. 697, 698 (N.D. Cal.
1922) (same).
This three-part test is still used for determining
whether to deport those who in fact become public
charges currently, and DHS proposes to continue doing
is in the Rule.
Prior to the 1952 Act’s passage, at least one principle
had seemingly coalesced in the case law. The reasoning in Gegiow was reaffirmed, and multiple circuits (also
recognized by Black’s Law Dictionary) agreed that someone likely to become a public charge is one whom it may
be necessary to support at public expense by reason of
poverty, insanity and poverty, disease and poverty, or
idiocy and poverty. Although that oft-used definition
(or a close derivative) is not particularly descriptive as

146a
to what quantum of support qualifies as “necessary to
support” someone at public expense, it reaffirms the
principle expressed in Gegiow and prior cases that the
inquiry is focused on the individual’s inherent ability to
support himself. This definition also accords with
prior interpretations generally finding that, absent
some particularly-identified negative factor, those who
appear generally capable and willing to work are not
likely to become public charges. And unlike the Howe
case, it allows reading the definition of public charge in
light of the surrounding categories of excluded persons,
such that someone who is excluded due to his disease
alone may also be excluded because his disease, in combination with another factor like poverty, is likely to render him a public charge. This remains in line with
other historically-supported, consistent principles described above, namely that temporary assistance does
not render one a public charge and that actual incursion
of debt to the state and refusal to pay could render one
a public charge.
The Attorney General’s order in 1948 for the first
time offered a single, clear definition of the term “public
charge” to be applied consistently throughout the Act.
And it also specifically ruled that acceptance of publiclyfunded services “for which no specific charge is made”
does not make one a public charge. The three-part test
requiring presentation of a bill and inability or refusal
to pay was certainly in accordance with a line of precedential caselaw, but it was by no means the only or even
dominant line at that time. Nevertheless, this AttorneyGeneral-issued order was controlling as administrative
law between its issuance in 1948 and at least Congress’s
next codification of the immigration statutes in 1952.

147a
7.

1952

In 1952, Congress again revised the laws relating to
immigration. That revised statute provided, in part:
Except as otherwise provided in this Act, the following classes of aliens shall be ineligible to receive visas
and shall be excluded from admission into the United
States:
(1) Aliens who are feeble-minded;
(2) Aliens who are insane;
(3) Aliens who have had one or more attacks of insanity;
. . .
(7) Aliens not comprehended within any of the foregoing classes . . . having a physical defect, disease, or disability . . . to be of such a nature that
it may affect the ability of the alien to earn a living,
unless the alien affirmatively establishes that he will
not have to earn a living;
(8) Aliens who are paupers, professional beggars, or
vagrants;
. . .
(15) Aliens who, in the opinion of the consular officer
at the time of application for a visa, or in the opinion
of the Attorney General at the time of application for
admission, are likely at any time to become public
charges”
An Act to Revise the Laws Relating to Immigration,
Naturalization, and Nationality; and for Other Purposes, 66 Stat. 163, 183, Title 2, Chap. 2 (“1952 Act”)
§ 212 (1952).

148a
The 1952 Act also provided for deportation of any alien who, “in the opinion of the Attorney General, has
within five years after entry become a public charge
from causes not affirmatively shown to have arisen after
entry[.]” Id., Chap. 5 § 241(a)(8).
The changes appear to be relatively minor for the
purposes of this dispute. Notably, Congress added the
phrase “at any time” to specify the scope of time the
public charge determination is meant to consider. But
no alteration to the phrase “public charge” appears in
the statute.
The 1951 edition of Black’s Law Dictionary, like the
3rd edition in 1933, assembled its definition based on
precedent discussed above:
A person whom it is necessary to support at public
expense by reason of poverty, insanity and poverty,
or idiocy and poverty. As used in [the 1917 Act]
. . . , one who produces a money charge on, or an
expense to, the public for support and care. As so
used, the term is not limited to paupers or those liable to become such, but includes those who will not
undertake honest pursuits, or who are likely to become periodically the inmates of prison.
Charge, Public Charge, Black’s Law Dictionary (4th ed.
1951) (citations omitted).
BIA dispositions following the passage of the 1952
Act addressed the term. One such disposition surveyed caselaw interpreting the term and held “the statute requires more than a showing of a possibility that
the alien will require public support. Some specific circumstance, such as mental or physical disability, advanced age, or other fact reasonably tending to show

149a
that the burden of supporting the alien is likely to be
cast on the public, must be present. A healthy person
in the prime of life cannot ordinarily be considered likely
to become a public charge, especially where he has friends
or relatives in the United States who have indicated their
ability and willingness to come to his assistance in case
of emergency.” Matter of Martinez-Lopez, 10 I. & N.

Dec. 409, 421-22 (BIA 1962) (emphasis added) (collecting cases).

In that case, the agency held that the individual at
issue was not likely to become a public charge given his
characteristics, which essentially showed he was able to
perform honest work:
When respondent applied for a visa he was 22 years
of age. He was sound of body and had about ten
years of farming experience. He had no specialized
training, but had five years of schooling and apparently planned to seek work for which he was qualified. He spoke no English, but this was no handicap
for he would work among people who spoke Spanish.
He had about $50 in assets. He had a brother gainfully employed in the United States and he had other
close relations who were interested in his welfare and
who worked to bring him to the United States. The
brother was making $85 a week in permanent employment; he was unmarried; he had been sending
money to his family in Mexico, and he was interested
in helping his brother. Respondent had previous
experience in the United States, having spent about
three months here as a contract worker. At that
time he worked both in the fields and in a cannery.
His services appear to have been satisfactory for he

150a
was retained here until his contract was completed.
Respondent had no criminal record.
Id. at 411.
A 1974 BIA decision emphasized that the public
charge determination must consider the totality of the
circumstances, and that prior welfare use alone cannot
be determinative. Matter of Perez, 15 I. & N. Dec. 136,
137 (BIA 1974) (“The respondent's reliance on welfare
for support is a condition which she herself can remedy.”).
Another 1974 BIA decision confused matters. Matter of Harutunian, 14 I. & N. Dec. 583, 584 (BIA 1974).
The decision outlined “[t]he stages in decisional interpretations of the deportation statute, culminating in
Matter of B-”:
1. The words “public charge” had their ordinary
meaning, that is to say, a money charge upon or an
expense to the public for support and care, the alien
being destitute.
2. The alien had not yet become a public charge,
even though he personally was destitute and his care
and support were being paid for by public funds, if
there existed close relatives, ready, willing and able
to pay the bill, but the appropriate government agency
had failed to submit any bill.
3. The alien had not become a public charge where
the alien’s mother had offered to make reimbursement, but under state law payment could not be accepted for maintenance and treatment of the institutionalized alien.

151a
4. The alien had not become a public charge where
the circumstances were like those described in 3,
above, except that no one had offered reimbursement.
Id. at 586 (citations omitted).
However, it reasoned that the Attorney General’s
opinion in Matter of B- “is not necessarily controlling in
relation to the provisions for exclusion.” Id. at 585.
The BIA reasoned that “[w]hile it may normally be assumed that identical words used in different parts of the
same statute are intended to have an identical meaning,
this assumption readily yields when the legislative intent requires variant meanings in different contexts.”
Id. at 586. The BIA then discussed legislative history
in search of congressional intent. Id. The decision
notes that the Senate Judiciary Committee discussed
that courts had given different definitions to the term,
and ultimately it decided not to define the term, “but rather [decided] to establish the specific qualification that
the determination of whether an alien falls into that category rests within the discretion of the consular officers
or the Commissioner.” Id. at 588 (citing S. Rep. 1515,
81st Cong., 2d Sess., April 20, 1950, p. 349).
The BIA stated that the phrase “public charge” must
be “strictly construed” in the deportation context, but
not in the exclusion context. Id. It then reasoned
that the old-age benefits at issue in the case were “individualized public support to the needy, as distinguished
from essentially supplementary benefits, directed to the
general welfare of the public as a whole.” Id. at 589.
Even though the state would never ask for repayment of
those old-age benefits—and therefore they could not
constitute assistance qualifying one as a public charge

152a
under the Matter of B- test—the court reasoned that it
would not consider “the element of reimbursement”
when determining whether someone is likely to become
a public charge. Id.
So, the BIA rejected the Matter of B- test and constructed alternate definitions for the same term depending on whether the executive is predicting whether
someone is likely to become a public charge or deciding
whether someone has already become a public charge.
“Therefore, in our opinion any alien who is incapable of
earning a livelihood, who does not have sufficient funds
in the United States for his support, and has no person
in the United States willing and able to assure that he
will not need public support is excludable as likely to become a public charge whether or not the public support
which will be available to him is reimbursable to the
state.” Id. at 589-90.
These BIA decisions are useful to understand the administrative practices and interpretations operating
when Congress reenacted the same language. Although this period saw confusion within the agency about
the proper way to interpret the phrase as used in different contexts, each of the discussed decisions support the
now-consistent theme that a healthy person in the prime
of life who can work cannot be considered likely to become
a public charge, absent some particularly-identified circumstance evaluated under a totality of the circumstances. E.g., Matter of Martinez-Lopez, 10 I. & N.
Dec. at 422 (collecting cases); Matter of Harutunian, 14
I. & N. Dec. at 589 (“alien who is incapable of earning a
livelihood”); Matter of Perez, 15 I. & N. Dec. at 137 (totality of circumstances).

153a
8.

1987

In 1987, the INS issued a final rule, effective May 1,
1987, following notice and comment. See Adjustment
of Status for Certain Aliens, 52 Fed. Reg. 16,205 (May
1, 1987). The rule implemented section 245A of the Immigration and Nationality Act as amended by section
201 of the Immigration Reform and Control Act of 1986.
Id. at 16,205. So, the 1987 rule concerned the term
“public charge” as used elsewhere in the INA, specifically for aliens adjusting their status to that of aliens
lawfully admitted for temporary residence. The “key
issues” subject to comments “were the public charge
and special rule for determination of public charge[.]”
52 Fed. Reg. at 16,206.
That rule provided: “An applicant . . . is subject to the provisions of section 212(a)(15) of the Act relating to excludability of aliens likely to become public
charges unless the applicant demonstrates a history
of employment in the United States evidencing selfsupport without receipt of public cash assistance. . . .
If the alien’s period(s) of residence in the United States
include significant gaps in employment or if there is reason to believe that the alien may have received public
assistance while employed, the alien may be required to
provide proof that he or she has not received public cash
assistance.” 52 Fed. Reg. at 16,211.
Essentially, this provision exempted aliens who had
been working domestically from the normal public charge
analysis, so long as they could prove a work history and
that they had not relied on public cash assistance. The
rule defined cash assistance to exclude in-kind benefits.
52 Fed. Reg. at 16,209 (“ ‘Public cash assistance’ means
income or needs-based monetary assistance, to include

154a
but not limited to supplemental security income, received by the alien or his or her immediate family members through federal, state, or local programs designed
to meet subsistence levels. It does not include assistance in kind, such as food stamps, public housing, or
other non-cash benefits, nor does it include work-related
compensation or certain types of medical assistance
(Medicare, Medicaid, emergency treatment, services to
pregnant women or children under 18 years of age, or
treatment in the interest of public health).”).
This use of the term is somewhat of an aberration
given that it essentially concerned an exception to the
statute at issue here—and it did not define the term.
However, it did reinforce the long-standing principle underlying the construction of the term that, when considering whether someone should be admitted to the country, the concept of “public charge” concerns primarily
the prospect of gainful employment or some other private source of support.
9.

1990

In 1990, Congress revised the laws relating to immigration. That revised statute provided, in part:
Except as otherwise provided in this Act, the following describes classes of excludable aliens who are ineligible to receive visas and who shall be excluded
from admission into the United States:
(1) Health-Related Grounds
. . .
(2) Criminal and Related Grounds
. . .
(3) Security and Related Grounds

155a
. . .
(4) Public Charge.—Any alien who, in the opinion of
the consular officer at the time of application for a
visa, or in the opinion of the Attorney General at the
time of application for admission or adjustment of
status, is likely at any time to become a public charge
is excludable.
Immigration Act of 1990, 104 Stat. 4978, Title 6 § 601
(1990).
This version of the bill removed language referring
to the feeble-minded, paupers, professional beggars, and
vagrants. There is a suggestion in the Congressional
Record that the removed terms were meant to be consolidated within the public charge category:
The bill removes some of the antiquated and unused
exclusions that have been in our law since the early
1900’s, such as the exclusions based on illiteracy, and
the exclusions for aliens who are “paupers, professional beggars, or vagrants.” These relics have been
replaced by one generic standard which exclude aliens who are “likely to become a public charge.”
136 Cong. Rec. 36797, 36844 (1990).
In 1990, Black’s Law Dictionary defined “public
charge” as “an indigent. A person whom it is necessary
to support at public expense by reason of poverty alone
or illness and poverty.” Charge, Public Charge, Black’s
Law Dictionary (6th ed. 1990).
Although a statutory term is not defined by reference
to one preferred interpretation memorialized in the
Congressional Record, that interpretation is consistent
with the courts’ and executive’s general treatment of the

156a
term since Gegiow. That is, following Gegiow and later
cases applying it to the 1917 Act, courts had read the
term public charge in context of those surrounding
terms rather than in exclusion of them, and focused on
the alien’s ability to work or otherwise provide for himself, which each of the omitted surrounding terms also
ultimately spoke to. But see Howe, 247 F. at 294.
10. 1996

In 1996, Congress again revised the laws relating to
immigration. That revised statute provided, in part:
(4) PUBLIC CHARGE.—
(A) IN GENERAL.—Any alien who, in the
opinion of the consular officer at the time of
application for a visa, or in the opinion of the
Attorney General at the time of application
for admission or adjustment of status, is likely
at any time to become a public charge is excludable.
(B) FACTORS TO BE TAKEN INTO ACCOUNT.—
(i) In determining whether an alien is excludable under this paragraph, the consular officer or the Attorney General
shall at a minimum consider the alien’s—
(I)

age;

(II)

health;

(III) family status;
(IV) assets, resources, and financial status; and

157a
(V)

education and skills.

(ii) In addition to the factors under
clause (i), the consular officer or the Attorney General may also consider any affidavit of support under section 213A for
purposes of exclusion under this paragraph.
Omnibus Consolidated Appropriations Act, 110 Stat.
3009, Title 5 § 531 (1996). This act is often referred to
as the Illegal Immigration Reform and Immigrant Responsibility Act (“IIRIRA”). Elsewhere, the Act provided that “Any alien who, within five years after the
date of entry, has become a public charge from causes
not affirmatively shown to have arisen since entry is deportable.” 8 U.S.C. § 1251(a)(5) (effective April 24,
1996).
The revised law used the same relevant language as
all previous versions—public charge. However, the
statute then listed five factors that Congress instructed
must be considered when determining whether an alien
is likely to become a public charge, and it identified another factor that “may also” be considered.
Contemporaneously, the Personal Responsibility and
Work Opportunity Reconciliation Act (“PRWORA”),
Pub. L. 104-193, restricted most aliens from accessing
many public support programs for a period of time.
During legislative efforts that ultimately resulted in
the IIRIRA, a group of legislators proposed to define
“public charge” with particularity in the statute to include “any alien who receives benefits described in subparagraph (D) for an aggregate period of at least 12
months” (or 36 months in the case of a battered spouse

158a
or child). 142 Cong. Rec. 24313, 24425 (1996). The
benefits listed in subparagraph D (that would qualify an
alien as a public charge) included “means-tested public
benefits,” but it’s not entirely clear what specific benefits that section refers to. 14 That definition was not enacted into law.
11. 1999

The INS attempted in 1999 to engage in rulemaking
to guide immigration officers, aliens, and the public in
understanding the public charge determinations. No
final rule was ever issued. Instead, the agency published Field Guidance addressing the issue. See Field
Guidance on Deportability and Inadmissibility on Public
Charge Grounds, 64 Fed. Reg. 28,689 (May 26, 1999)
(the “1999 Field Guidance”).
The notice was published prior to final rulemaking
because it was deemed “necessary to help alleviate public confusion over the meaning of the term ‘public
charge’ in immigration law and its relationship to the receipt of Federal, State, and local public benefits.” 64
Fed. Reg. at 28,689. “The Department decided to publish a proposed rule defining ‘public charge’ in order to
reduce the negative public health consequences generated by the existing confusion and to provide aliens with
better guidance as to the types of public benefits that
will and will not be considered in public charge determi-

The record refers to Section 213A(e)(1), which appears to have
been codified at 8 U.S.C § 1183a(e), but that does not describe
means-tested benefits. The currently-operative version of 8 U.S.
Code § 1183a(a)(1)(B) also appears to errantly refer to subsection
(e) for a list of means-tested benefits, so this error is not unique.
14

159a
nations.” Id. The notice “both summarizes longstanding law with respect to public charge and provides
new guidance on public charge determinations in light
of the recent changes in law,” notably the “Illegal Immigration Reform and Immigrant Responsibility Act of
1996 (IIRIRA) and welfare reform laws.” Id.
The notice proposed “that ‘public charge’ means an
alien who has become (for deportation purposes) or who
is likely to become (for admission/adjustment purposes)
‘primarily dependent on the government for subsistence, as demonstrated by either (i) the receipt of public
cash assistance for income maintenance or (ii) institutionalization for long-term care at government expense.’
Institutionalization for short periods of rehabilitation
does not constitute such primary dependence.” Id.
Following the implementation of that interpretation,
“officers should not place any weight on the receipt of
non-cash public benefits (other than institutionalization)
or the receipt of cash benefits for purposes other than
for income maintenance with respect to determinations
of admissibility or eligibility for adjustment on public
charge grounds.” Id.
Summarizing current agency practice, the memo explained:
The standard for adjudicating inadmissibility under
section 212(a)(4) has been developed in several Service, BIA, and Attorney General decisions and has
been codified in the Service regulations implementing the legalization provisions of the Immigration Reform and Control Act of 1986. These decisions and
regulations, and section 212(a)(4) itself, create a “totality of the circumstances” test.

160a
In determining whether an alien is likely to become a
public charge, Service officers should assess the financial responsibility of the alien by examining the
“totality of the alien’s circumstances at the time of his
or her application * * * The existence or absence
of a particular factor should never be the sole criterion for determining if an alien is likely to become a
public charge. The determination of financial responsibility should be a prospective evaluation based
on the alien’s age, health, family status, assets, resources and financial status, education, and skills,
among other factors. An alien may be considered
likely to become a public charge even if there is no
legal obligation to reimburse the benefit-granting
agency for the benefits or services received, in contrast to the standards for deportation, discussed below.
Id. at 28,690 (footnotes omitted).
The 1999 Field Guidance then explained that the
three-part test for paying back public debt continues to
apply, but only as an additional test on top of the totality
of the circumstances test for deportation decisions:
Repayment is relevant to the public charge inadmissibility determination only in very limited circumstances. If at the time of application for admission
or adjustment of status the alien is deportable on
public charge grounds under section 237(a)(5) of the
INA due to an outstanding public debt for a cash benefit or the costs of institutionalization, then the alien
is inadmissible. Only a debt that satisfies the threepart [Matter of B-] test under section 237(a)(5), described below, will render an alien deportable as a
public charge and therefore ineligible for admission

161a
or adjustment. If the debt is paid, then the alien will
no longer be inadmissible based on the debt, and the
usual totality of the circumstances test would apply.
Id.
The Feld Guidance explained that a compelling reason to limit the public charge definition to those receiving cash is that “certain federal, state, and local benefits
are increasingly being made available to families with
incomes far above the poverty level, reflecting broad
public policy decisions about improving general public
health and nutrition, promoting education, and assisting
working-poor families in the process of becoming selfsufficient. Thus, participation in such non-cash programs is not evidence of poverty or dependence.” Id.
at 28,692
12. 2013

In 2013, the Senate voted down two amendments to a
never-passed bill regarding immigration. The first
amendment proposed “expanding the criteria for ‘public
charge,’ such that applicants would have to show they
were not likely to qualify even for non-cash employment
supports such as Medicaid, the SNAP program, or the
Children’s Health Insurance Program (CHIP). . . .
[T]he amendment was rejected by voice vote.” S. Rep.
No. 113-40, at 42 (2013).
The second amendment “would have expanded the
definition of ‘public charge’ such that people who received non-cash health benefits could not become legal
permanent residents.
This amendment would also
have denied entry to individuals whom the Department
of Homeland Security determines are likely to receive
these types of benefits in the future. The amendment

162a
was not agreed to by a voice vote.”
at 63 (2013).

S. Rep. No. 113-40,

13. 2019—The Rule

On October 10, 2018, DHS published a Notice of Proposed Rulemaking in the Federal Register. See 83
Fed. Reg. 51,114. The NPRM provided a 60-day public
comment period, during which 266,077 comments were
collected. See 84 Fed. Reg. at 41,297. On August 14,
2019, DHS published the Rule in the Federal Register.
The Rule supersedes the 1999 Field Guidance’s definition of “public charge,” establishing a new definition
based on a minimum time threshold for the receipt of
public benefits.
Under the newly-proposed “12/36
standard,” a public charge is defined as an individual
who receives designated public benefits for more than
12 months in the aggregate within a 36-month period,
although a single month where multiple types of benefits are received is counted as multiple months of receiving aid. 84 Fed. Reg. at 41,295. The “public benefits”
included are extended by the Rule to include many noncash benefits, for example Supplemental Nutrition Assistance Program (“SNAP”), Section 8 Housing Programs, Medicaid, and Public Housing. Id. at 41,501.
Receipt of two categories of benefits in the same months
counts as two months of receipt for benefits, so some will
qualify as public charges without receiving benefits for
12 months. Moreover, the rule is agnostic to the value
(or cost to the government) of the benefits. To take a
plausible example, someone receiving $182 over 36 months
—or an average of less than 17 cents a day—in SNAP
benefits is a public charge under the Rule. See Shing
Decl. ¶ 17.

163a
The Rule does not change the definition of public
charge in the context of deportability, described elsewhere in the INA. 84 Fed. Reg. at 41,295 (“This rule
does not interpret or change DHS’s implementation of
the public charge ground of deportability.”). Rather,
DHS will continue to enforce the 1999 Field Guidance in
the deportation context. Id. at 41,304 (“DHS currently
makes public charge determinations in accordance with
the 1999 Interim Field Guidance. . . . This guidance
explains how the agency determines . . . whether a
person has become a public charge within five years of
entry”). The 1999 Field Guidance, which will continue
to govern, provided that “the definition of public charge
is the same for both admission/adjustment and deportation,” although “the standards applied to public charge
adjudications in each context are significantly different”
because one is forward-looking and one is backwardlooking. 64 Fed. Reg. at 28,689. As such, following
the implementation of the Rule, “public charge” will continue to be defined in the deportation context as “an alien who has become . . . ‘primarily dependent on the
government for subsistence, as demonstrated by either
(i) the receipt of public cash assistance for income maintenance or (ii) institutionalization for long-term care at
government expense.’ ” Id. To assess whether an alien qualifies under that definition in the deportability
context, the 1999 Field Guidance prescribes the 3-part
test established in Matter of B-, 3 I. & N. Dec. 323.
So, the Rule proposes to simultaneously apply multiple definitions for the term public charge. First, its
new definition will be used to predict whether an alien is
likely at any time to become a public charge. Second,

164a
the 1999 Field Guidance’s “primary dependence” definition is left unaltered in the deportation context, and it is
evaluated pursuant to the well-known 3-part Matter of
B- test.
Each step in the Chevron analysis requires the court
to consider the terms of the statute in context. The
court first looks to the statutory text, in light of prior
agency and judicial interpretation—as explained at length
above, although the court notes that judicial and agency
interpretation following the most-recent 1996 revision is
not particularly relevant to understanding the meaning
of the text as enacted in 1996. Cf. Sec’y of the Interior
v. California, 464 U.S. 312, 375 n.36 (1984) (the “view of
a subsequent Congress . . . is not without persuasive value”).
The analysis is also informed to some degree by what
Congress decided not to pass, in addition to what it specifically rejected. “Congress does not intend sub silentio to enact statutory language that it has earlier discarded in favor of other language.” Cardoza-Fonseca,
480 U.S. at 442-43; Albemarle Paper Co., 422 U.S. at 414
n.8 (rejecting construction of statute that would implement provision Conference Committee rejected); Bob
Jones Univ., 461 U.S. at 600-01 (interpretation of statute
informed by the fact that Congress had a “prolonged
and acute awareness” of an established agency interpretation of a statute, considered the precise issue, and rejected bills to overturn the prevailing interpretation);
see also Merrill Lynch, 456 U.S. at 381-82 (interpretation of statute informed by the fact that Congress
amended large portions of statute, but not provision at
issue).

165a
Of particular relevance here, parts of Congress have
explicitly and repeatedly rejected efforts to define “public charge” to include those who receive certain in-kind
benefits for a period of 12 months—efforts that are
strikingly similar to the definition now adopted for the
first time by the executive in the Rule. E.g., 142 Cong.
Rec. 24313, 24425 (1996); S. Rep. No. 113-40, at 42
(2013); S. Rep. No. 113-40, at 63 (2013). Congress’s rejection in 1996 is particularly instructive. As described
above, Congress at that time considered a scheme similar to the Rule, wherein use of means-tested benefits for
12 months would qualify one as a public charge. On
September 24, 1996, the conference committee recommended passage of a version of the bill with that definition. See 142 Cong. Rec. 24389 (conference committee
recommendation), 24425 (public charge definition).
President Clinton had previously praised the legislation
generally, but specifically criticized that bill’s disincentive to obtain public benefits. He called for revision of
the statute. He said “it still goes too far in denying legal immigrants access to vital safety net programs
which could jeopardize public health and safety. Some
work still needs to be done. I urge the Congress to
move quickly to finalize and send me this key legislation.” Statement on Senate Action on the “Immigration Control and Financial Responsibility Act of 1996”,
President William J. Clinton, Weekly Compilation of
Presidential Documents Volume 32, Issue 18 (May 6,
1996) at p. 783. On September 30, 1996, the bill was
signed into law, following the removal of the definition
of public charge that included use of means-tested public benefits. This exchange, which deals with the precise issue presented by this litigation, is particularly in-

166a
structive not because of the president’s words but because of Congress’s response to those words—it intentionally considered and rejected a definition similar to
what the Rule now proposes. Afterall it is Congress,
not the President, who is responsible for writing legislation.
Given the term’s long-standing focus on the individual’s ability and willingness to work or otherwise support himself, and its longstanding allowance for shortterm aid, and the legislative history of the 1996 revision,
it is likely that the Rule’s interpretation defining anyone
who receives any quantity of benefits for 12 months (or
fewer) out of a floating 36-month window as a public
charge is not a permissible or reasonable construction of
the statute. For example, defendants do not contest
that someone receiving less than 50 cents per day—
which is a standard SNAP benefit amount for recipients
at the higher end of income eligibility, Shing Decl. ¶ 17—
would be deemed a public charge under the Rule. That
could also be calculated as $182 over 36 months—or an
average of less than 17 cents a day. At no point over
the long history described above could that have qualified one as a public charge, unless the bill for those
charges was presented to the recipient and he refused
to pay. Moreover, the Rule’s double-counting of months
where multiple benefits are received raises serious
questions with respect to whether the Rule impermissibly considers temporary or short-term relief, receipt of
which has never been sufficient to qualify someone as a
public charge (absent repayment, following presentation of an invoice).
Deciding otherwise would put this court at odds with
persuasive Supreme Court and Ninth Circuit precedent.

167a
The Supreme Court has defined the term to allow exclusion only “on the ground of permanent personal objections accompanying them [the excluded aliens] irrespective of local conditions[.]” Gegiow, 239 U.S. at 10. In
that case, “the aliens came from a remote province of
Russia. They knew no trade. They knew no language
but their own. Only one could read or write in his own
language. They had sums aggregating slightly more
than $25 each. They were not employed, and had no
promise of employment. They were ticketed through
to Portland, Or., where, owing to depressed labor conditions, the prospect of their obtaining work ‘was most unfavorable.’ ” Ex parte Hosaye Sakaguchi, 277 F. at 916
(citing Gegiow, 239 U.S. at 10). Still, they were not
likely to become public charges within the meaning of
the statute. The Ninth Circuit reaffirmed that definition following reorganization of the statute.
Id.
(“change of location of the words does not change the
meaning that should be given them”). Since Gegiow and
Ex parte Hosaye Sakaguchi, Congress has not altered
the term “public charge,” which the Ninth Circuit has
defined standing alone, irrespective of its placement or
context within the list of excluded persons in the statute.
The court therefore sees no good reason to depart from
those precedential opinions, which suggest that an ablebodied, working-age individual who is willing to engage
in honest work is not excludable based on a prediction
that he will become a public charge unless a particular
reason can be articulated to exclude him. This reasoning does not allow for exclusion based on the increasing
generosity of society’s public assistance to provide for
more than the barest requirements of subsistence. Gegiow, in fact, explicitly precludes consideration of local
labor conditions.

168a
The likely unreasonableness of the rule is further
demonstrated by just how expansive the definition is.
The history of the term, evidenced by its repeated verbatim reenactment, excluded those who were likely to
become public charges based on poverty, or idiocy and
poverty, or disease and poverty, etc. But plaintiffs
demonstrate that in a single year, roughly a quarter
U.S.-born citizens receive one or more benefits used to
define who is a public charge under the Rule. And
plaintiffs demonstrate that, over the course of their lifetimes, about 40% of U.S.-born citizens are expected to
receive one or more of those benefits. Although these
figures do not indicate what percent of U.S.-born citizens would actually be deemed public charges under the
Rule (that would require determining how many individuals receive multiple benefits per month, in addition to
how many months benefits are received over any 3-year
period), it suggests that the Rule is substantially outside
the bounds of a reasonable interpretation of the statute.
With regard to plaintiffs’ claim that the Rule is not in
accordance with law, for the foregoing reasons, and
given the above discussion of the term’s long-standing
use and evolution in the immigration statutes, this court
finds that plaintiffs are likely to succeed on the merits
with respect to their claim that the Rule’s definition of
public charge is unreasonable and not based on a permissible construction of the statute, under the second
prong of the Chevron analysis. 15 Alternatively, plaintiffs have raised at least serious questions with respect
to whether “the statute, read in context, unambiguously
For the same reasons that plaintiffs are likely to succeed on
this question, they have undoubtedly raised serious questions with
respect to it.
15

169a
forecloses” the precise question at issue, namely DHS’s
expansive interpretation of the term to include individuals willing and able work productively in the national
economy, under the first prong of the Chevron analysis.
See Esquivel-Quintana v. Sessions, 137 S. Ct. 1562, 1572
(2017); see also Whitman v. Am. Trucking Associations,
531 U.S. 457, 471 (2001) (finding a particular construction “unambiguously bar[red]” when “interpreted in its
statutory and historical context”).
b.

Not in Accordance with Law—Rehabilitation
Act

The Rehabilitation Act prohibits “any program or activity receiving federal financial assistance” or “any program or activity conducted by any Executive agency,”
from excluding, denying benefits to, or discriminating
against persons with disabilities. 29 U.S.C. § 794(a).
“To establish a violation of § 504 of the RA [Rehabilitation Act], a plaintiff must show that (1) she is handicapped within the meaning of the RA; (2) she is otherwise qualified for the benefit or services sought; (3) she
was denied the benefit or services solely by reason of
her handicap; and (4) the program providing the benefit
or services receives federal financial assistance.” Lovell v. Chandler, 303 F.3d 1039, 1052 (9th Cir. 2002); 29
U.S.C. § 794(a) (“[n]o otherwise qualified individual with
a disability . . . shall, solely by reason of her or his
disability, be . . . subjected to discrimination under
. . . any program or activity conducted by any Executive agency”).
The States argue that the Rule will exclude some individuals solely based on disability because a disability
will predictably be responsible for a number of negative

170a
factors in some individuals: (1) a negative health factor
because the Rule adopts a definition of “health” that
strongly overlaps with disability; (2) a negative factor if
the applicant lacks private insurance; and (3) a negative
factor if the applicant has received Medicaid for 12 of
the last 36 months, even though use of Medicaid is common for the disabled because it covers services that no
other insurer provides.
Defendants first argue that the Rule’s multi-factor
test means the Rehabilitation Act is not violated because
disability cannot be the “sole” determinative factor.
Second, they argue that even if the statutes are in conflict, a specific, later statutory command—such as the
INA’s requirement that the agency consider health—
supersedes section 504’s general proscription.
First, the Rehabilitation Act requires that a plaintiff
show that a disabled person was denied services “solely”
by reason of her disability. The Rule does not deny any
alien admission into the United States, or adjustment of
status, “solely by reason of ” disability. All covered aliens, disabled or not, are subject to the same inquiry:
whether they are likely to use one or more covered federal benefits for the specified period of time. Even
though a disability is likely to be an underlying cause of
some individuals qualifying for additional negative factors, it will not be the sole cause. As such, disability is
one non-dispositive factor. 16

Plaintiffs’ citation to Lovell is unavailing. They claim the case
found a multi-factor test violated the Act, “notwithstanding other
factors” unrelated to disability. But in Lovell, defendants asked
the court to look at a multifactored system, but the court declined
16

171a
Second, the INA explicitly lists “health” as a factor
that an officer “shall . . . consider” in making a public charge determination. 8 U.S.C. § 1182(a)(4)(B)(i).
“Health” includes an alien’s disability and whatever impact the disability may have on the alien’s expenses and
ability to work. Congress, not the Rule, requires DHS
to take this factor into account, and the caselaw has long
considered this factor. See, e.g., Knutzen v. Eben Ezer
Lutheran Hous. Ctr., 815 F.2d 1343, 1353 (10th Cir.
1987) (section 504 may not “revoke or repeal . . . a
much more specific statute . . . absent express language by Congress”).
As such, plaintiffs have not demonstrated even serious questions going the merits with respect to this claim.
c.

Arbitrary and Capricious

Section 4 of the APA, 5 U.S.C. § 553, prescribes
a three-step procedure for so-called “notice-andcomment rulemaking.”
First, the agency must
issue a “[g]eneral notice of proposed rule making,”
ordinarily by publication in the Federal Register.
§ 553(b).
Second, if “notice [is] required,” the
agency must “give interested persons an opportunity
to participate in the rule making through submission
of written data, views, or arguments.” § 553(c). An
agency must consider and respond to significant com-

and instead looked at treatment of the disabled under a single program. It was “undisputed that disabled people who, but for their
disability, were eligible for healthcare benefits from the State under” that single program “were denied coverage because of the categorical exclusion of the disabled from” that program. Lovell, 303
F.3d at 1053.

172a
ments received during the period for public comment. Third, when the agency promulgates the final rule, it must include in the rule’s text “a concise
general statement of [its] basis and purpose.”
§ 553(c). Rules issued through the notice-and-comment process are often referred to as “legislative
rules” because they have the “force and effect of law.”
Chrysler Corp. v. Brown, 441 U.S. 281 (1979).
Perez v. Mortg. Bankers Ass’n, 135 S. Ct. 1199, 1203
(2015) (citations omitted).
“‘[A]rbitrary and capricious’ review under the APA
focuses on the reasonableness of an agency’s decisionmaking processes.” CHW W. Bay v. Thompson, 246
F.3d 1218, 1223 (9th Cir. 2001). Agency action is invalid if the agency fails to give adequate reasons for its decisions, fails to examine the relevant data, or offers no
“rational connection between the facts found and the
choice made.” Motor Vehicle Mfrs. Ass’n of U.S., Inc.
v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983);
see also Encino Motorcars, 136 S. Ct. at 2125. A rule is
arbitrary and capricious if the agency has “entirely
failed to consider an important aspect of the problem,
offered an explanation for its decision that runs counter
to the evidence before the agency, or is so implausible
that it could not be ascribed to a difference in view or
the product of agency expertise.” Id.
Agencies are required to “reflect upon the information contained in the record and grapple with contrary evidence.” Fred Meyer Stores, Inc. v. NLRB,
865 F.3d 630, 638 (D.C. Cir. 2017). Where “the agency
has failed to ‘examine the relevant data’ or failed to ‘articulate a rational explanation for its actions,’ ” its decision is arbitrary and capricious. Genuine Parts Co. v.

173a
EPA, 890 F.3d 304, 311-12 (D.C. Cir. 2018). And where
an agency is uncertain about the effects of agency action, it may not rely on “ ‘substantial uncertainty’ as a
justification for its actions.”
Greater Yellowstone
Coal., Inc. v. Servheen, 665 F.3d 1015, 1028 (9th Cir.
2011). Instead, it must “rationally explain why the uncertainty” supports the chosen approach. Id. (“Otherwise, we might as well be deferring to a coin flip.”).
“[A]n internally inconsistent analysis is arbitrary and
capricious.” Nat’l Parks Conservation Ass’n v. E.P.A.,
788 F.3d 1134, 1141 (9th Cir. 2015).
But “[t]he scope of review under the ‘arbitrary and
capricious’ standard is narrow and a court is not to substitute its judgment for that of the agency.” Motor Vehicle Mfrs. Ass’n, 463 U.S. at 43; San Luis & Delta-Mendota Water Auth. v. Jewell, 747 F.3d 581, 601 (9th Cir.
2014) (“Although our inquiry must be thorough, the
standard of review is highly deferential; the agency’s decision is ‘entitled to a presumption of regularity,’ and we
may not substitute our judgment for that of the agency.”).
An agency’s obligation to respond to comments on a proposed rulemaking is “not ‘particularly demanding.’ ”
Ass’n of Private Sector Colls. & Univs. v. Duncan, 681
F.3d 427, 441-42 (D.C. Cir. 2012). “[T]he agency’s response to public comments need only ‘enable [courts] to
see what major issues of policy were ventilated . . .
and why the agency reacted to them as it did.’ ” Pub.
Citizen, Inc. v. FAA, 988 F.2d 186, 197 (D.C. Cir. 1993).
Rule changes face a higher burden when departing
from prior policy:
Agencies are free to change their existing policies as
long as they provide a reasoned explanation for the

174a
change. When an agency changes its existing position, it need not always provide a more detailed justification than what would suffice for a new policy
created on a blank slate. But the agency must at
least display awareness that it is changing position
and show that there are good reasons for the new policy. In explaining its changed position, an agency
must also be cognizant that longstanding policies
may have engendered serious reliance interests that
must be taken into account. In such cases it is not
that further justification is demanded by the mere
fact of policy change; but that a reasoned explanation
is needed for disregarding facts and circumstances
that underlay or were engendered by the prior policy.
It follows that an unexplained inconsistency in
agency policy is a reason for holding an interpretation to be an arbitrary and capricious change from
agency practice. An arbitrary and capricious regulation of this sort is itself unlawful and receives no
Chevron deference.
Encino Motorcars, 136 S. Ct. at 2125-26 (internal quotation marks and citations omitted); accord F.C.C. v. Fox
Television Stations, Inc., 556 U.S. 502, 515 (2009)
(agency must “provide a more detailed justification than
what would suffice for a new policy created on a blank
slate . . . when, for example, its new policy rests
upon factual findings that contradict those which underlay its prior policy; or when its prior policy has engendered serious reliance interests that must be taken into
account”).
Plaintiffs raise numerous procedural challenges to
the Rule. The court addresses them in two general cat-

175a
egories. First, the court considers plaintiffs arguments that DHS failed to adequately consider and address the Rule’s costs and benefits. Second, the court
considers plaintiffs’ remaining procedural challenges.
i.

DHS Failed to Adequately Consider
Costs and Benefits

Plaintiffs argue that DHS failed to consider costs and
benefits in three ways. First, DHS failed to adequately consider significant costs to local and state governments raised in comments, as well as the related issue of DHS’s failure to consider evidence when estimating disenrollment figures. Second, DHS failed to consider concerns about health effects like disease outbreaks. Third, DHS acted impermissibly with respect
to the burden the I-944 form would impose.
Based on plaintiffs’ first and second arguments, discussed presently, this court finds that they are likely to
succeed on the merits with respect to their claim that
the Rule is arbitrary and capricious. 17
A.

Local and State Government Costs
and Disenrollment Rates

Plaintiffs argue that commenters documented the
dangers to individuals and public health generally that
stem from disenrollment in public benefits, and explained that local and state governments will face higher
costs because of this disenrollment. See 84 Fed. Reg.
at 41,310-12 (explaining that “[m]any commenters par-

For the same reasons that plaintiffs are likely to succeed on
this claim, they have undoubtedly raised serious questions with respect to it.
17

176a
ticularly emphasized that disenrollment or foregoing enrollment would be detrimental to the financial stability
and economy of communities, States, local organizations, hospitals, safety net providers, foundations,
and healthcare centers”); id. at 41,469-70; Case No.
19-cv-04717-PJH, Dkt. 44, Exs. C-E (letters submitted
in response to NPRM). Numerous comments included
specific cost calculations. See, e.g., 84 Fed. Reg. at
41,475 (citing specific cost estimates from comments);
Cho Decl., Ex. C at 22-23 (estimating losses to California
at $1.76 billion in revenue from federal government and
17,700 jobs), Ex. J at 11 (estimating that the Rule would
cost hospitals more than $17 billion in uncompensated
care), Ex. K at 5-7 (detailing expected costs to hospitals).
Plaintiffs relatedly argue that DHS under-estimated
disenrollment figures and the accompanying effects, including the effects on state and local governments. 18
For example, despite its concession that the Rule will
cause members of mixed-status households (i.e., those
including U.S. citizens) to disenroll from benefits, 84
Fed. Reg. at 41,300, DHS refused to consider the costs

DHS argues that it’s 2.5% figure is not part of the regulatory
analysis and cannot be challenged because it was calculated pursuant to an executive order. The court disagrees. See Council of
Parent Attorneys & Advocates, Inc. v. DeVos, 365 F. Supp. 3d 28,
54 n.11 (D.D.C. 2019) (“The government contended . . . that
because its regulatory impact analysis was conducted pursuant to
Executive Orders, it is not subject to judicial review.
. . .
These arguments are contrary to D.C. Circuit precedent. Because the government relied on its cost-benefit analysis . . . a
flaw in that analysis can render the regulation arbitrary and capricious.”).
18

177a
associated with such disenrollment, stating: “DHS believes that it would be unwarranted for U.S. citizens and
aliens exempt from public charge inadmissibility to disenroll from a public benefit program or forego enrollment in response to this rule when such individuals are
not subject to this rule DHS will not alter this rule to
account for such unwarranted choices.” Id. at 41,313.
Defendants correctly argue that they are not required to quantify every potential cost and benefit and
precisely weigh them out. They respond to these challenges both in the Rule and before the court with three
essential points. First, DHS read the comments, but
the forward-looking economic impact to states, cities,
hospitals, and others was too difficult to assess. Second, with respect to the disenrollment of those who will
not be subject to a public charge assessment in the future, the Rule’s effect was too difficult to assess.
Third, even if DHS had assessed those costs, they would
be outweighed by the benefits of excluding aliens who
would rely on public assistance, and of promoting selfsufficiency of aliens already in the United States.
Those benefits are in line with Congressional statements of policy.
DHS was required to a certain extent to grapple with
estimates and credible data explained in the comments,
and in turn explain why DHS chose not to credit them.
See Ctr. for Biological Diversity v. Zinke, 900 F.3d 1053,
1068-69 (9th Cir. 2018) (finding agency action arbitrary
and capricious where the agency did not explain why it
did not credit available data that did not support its action). Defendants are correct that DHS was not required to parse costs and benefits precisely. But to the

178a
extent the exact harms are unknown or difficult to predict, that does not justify “disregarding the effect entirely.” Pub. Citizen v. Fed. Motor Carrier Safety Admin., 374 F.3d 1209, 1219 (D.C. Cir. 2004).
Here, even under the deferential APA analysis, DHS
appears to have wholly failed to engage with this entire
category of comments. DHS failed to grapple with the
Rule’s predictable effects on local governments, and instead concluded that the harms—whatever they may
be—are an acceptable price to pay. At minimum, the
APA requires more than reading public comments and
responding with a general statement that, however correct the comments may be, the agency declines to consider the issues and costs identified because doing so
would contravene the government’s favored policy.
For example, under the heading “Increased Costs to
Health Care Providers, States, and Localities,” the government summarized the comments it was responding
to:
Many commenters particularly emphasized that disenrollment or foregoing enrollment would be detrimental to the financial stability and economy of communities, States, local organizations, hospitals, safety
net providers, foundations, and healthcare centers.
Commenters offering estimates on the number of
people who would disenroll from Medicaid under the
proposed rule warned that the costs associated with
the resultant rise in uncompensated care would be
borne by health systems, hospitals, and insured patients.
84 Fed. Reg. at 41,312.
The government’s response, in part, was:

179a
Response:
With respect to the rule’s potential
“chilling effects” or disenrollment impacts, DHS
notes that (1) the rule's overriding consideration, i.e.,
the Government's interest as set forth in PRWORA,
is a sufficient basis to move forward; (2) it is difficult
to predict the rule's disenrollment impacts with respect to the regulated population, although DHS has
attempted to do so in the accompanying Final Regulatory Impact Analysis; and (3) it is also difficult to
predict the rule’s disenrollment impacts with respect
to people who are not regulated by this rule, although,
again, DHS has attempted to do so in the accompanying Final Regulatory Impact Analysis.
First, as discussed above, this rule is rationally related to the Government's interest, as set forth in
PRWORA, to: (1) Minimize the incentive of aliens
who attempt to immigrate to, or adjust status in the
United States due to the availability of public benefits; and (2) Promote the self-sufficiency of aliens
within the United States. DHS has defined public
benefits by focusing on cash assistance programs for
income maintenance, and an exhaustive list of noncash food, housing, and healthcare, designed to meet
basic living needs. This definition does not include
benefits related exclusively to emergency response,
immunization, education, or social services, nor does
it include exclusively state and local non-cash aid programs. DHS acknowledges that individuals subject
to this rule may decline to enroll in, or may choose to
disenroll from, public benefits for which they may be
eligible under PRWORA, in order to avoid negative
consequences as a result of this final rule. However,
DHS has authority to take past, current, and likely

180a
future receipt of public benefits into account, even
where it may ultimately result in discouraging aliens
from receiving public benefits.
Although individuals may reconsider their receipt of
public benefits as defined by this rule in light of future immigration consequences, this rule does not
prohibit an alien from obtaining a public benefit for
which he or she is eligible. DHS expects that aliens
seeking lawful permanent resident status or nonimmigrant status in the United States will make purposeful and well-informed decisions commensurate
with the immigration status they are seeking. But
regardless, DHS declines to limit the effect of the
rulemaking to avoid the possibility that individuals
subject to this rule may disenroll or choose not to enroll, as self-sufficiency is the rule’s ultimate aim.
Second, DHS finds it difficult to predict how this rule
will affect aliens subject to the public charge ground
of inadmissibility, because data limitations provide
neither a precise count nor reasonable estimate of the
number of aliens who are both subject to the public
charge ground of inadmissibility and are eligible for
public benefits in the United States. This difficulty
is compounded by the fact that most applicants subject to the public charge ground of inadmissibility
and therefore this rule are generally unlikely to suffer negative consequences resulting from past receipt of public benefits because they will have been
residing outside of the United States and therefore,
ineligible to have ever received public benefits.
. . . .

181a
Third, DHS finds it difficult to predict the rule's disenrollment impacts with respect to people who are
not regulated by this rule, such as people who erroneously believe themselves to be affected. . . .
This rule does not prohibit or otherwise discourage
individuals who are not subject to the public charge
inadmissibility from receiving any public benefits for
which they are eligible.
. . . .
Because DHS will not consider the receipt of public
benefits by U.S. citizens and aliens not subject to
public charge inadmissibility, the receipt of public
benefits by these individuals will not be counted against
or made attributable to immigrant family members
who are subject to this rule. Accordingly, DHS believes that it would be unwarranted for U.S. citizens
and aliens exempt from public charge inadmissibility
to disenroll from a public benefit program or forego
enrollment in response to this rule when such individuals are not subject to this rule. DHS will not alter
this rule to account for such unwarranted choices.
DHS appreciates the potential effects of confusion
regarding the rule's scope and effect, as well as the
potential nexus between public benefit enrollment reduction and food insecurity, housing scarcity, public
health and vaccinations, education health-based services, reimbursement to health providers, and increased costs to states and localities. In response to
comments, DHS will also issue clear guidance that
identifies the groups of individuals who are not subject to this rule, including, but not limited to, U.S. citizens, lawful permanent residents returning from a

182a
trip abroad who are not considered applicants for admission, and refugees.
. . . .
In sum, DHS does not believe that it is sound policy
to ignore the longstanding self-sufficiency goals set
forth by Congress or to admit or grant adjustment of
status applications of aliens who are likely to receive
public benefits designated in this rule to meet their
basic living needs in an [sic] the hope that doing so
might alleviate food and housing insecurity, improve
public health, decrease costs to states and localities,
or better guarantee health care provider reimbursements. . . . DHS believes that it will ultimately
strengthen public safety, health, and nutrition
through this rule by denying admission or adjustment of status to aliens who are not likely to be selfsufficient.
84 Fed. Reg. at 41,312-14 (footnotes omitted).
That answer entirely fails to discuss costs being
borne by the states, hospitals, or others, other than to
say DHS will issue guidance in an effort to mitigate confusion. The answer discusses disenrollment rates being difficult to measure, but flatly refuses to account for
certain types of disenrollment (for example those who
“erroneously believe themselves to be affected” and
make “unwarranted choices”). DHS’s response constitutes a thinly-veiled abdication of the responsibility to
consider the issue. Rather than engage, the response
simply elides the issue that the APA requires consideration of.
Ending the analysis with the conclusion that “DHS
believes that it will ultimately strengthen public safety,

183a
health, and nutrition through this rule” fails to show that
DHS “examine[d] the relevant data and articulate[d] a
satisfactory explanation for its action including a rational connection between the facts found and the choice
made.” Encino Motorcars, 136 S. Ct. at 2125 (quoting
Motor Vehicle Mfrs. Assn., 463 U.S. at 43); Sorenson
Commc’ns Inc. v. F.C.C., 755 F.3d 702, 708 (D.C. Cir.
2014) (“Though an agency’s predictive judgments about
the likely economic effects of a rule are entitled to deference, deference to such judgments must be based on
some logic and evidence, not sheer speculation.”) (internal quotation marks and citations omitted). DHS fails
to explain how those benefits will come about with any
evidentiary support. In fact, ample evidence cited in
the comments shows exactly the opposite—that use of
public benefits improves public health and welfare.
DHS’s bare assertion to the contrary simply is not
enough to satisfy its obligations. Even ignoring the
fact that the conclusion lacks a reasoned explanation of
how it was reached, DHS also fails to address why the
supposed benefits will outweigh the likely costs (DHS
had at this point already declined to discuss what the
likely costs are in fact are). Plaintiffs have shown it is
likely that, with respect to consideration of costs imposed on states and localities by the Rule, DHS offers
no “path [that] may reasonably be discerned” in its reasoning. Motor Vehicle Mfrs. Ass’n, 463 U.S. at 43.
Moreover, DHS may not discount an undisputed impact of the Rule simply because DHS believes it is “unwarranted.” See Michigan, 135 S. Ct. at 2707 (“reasonable regulation ordinarily requires paying attention to
the advantages and the disadvantages of agency deci-

184a
sions”). DHS flatly refused to consider the costs associated with predicted, likely disenrollment of those not
subject to the public charge determination by stating:
“DHS believes that it would be unwarranted for U.S. citizens and aliens exempt from public charge inadmissibility to disenroll from a public benefit program or forgo
enrollment in response to this rule when such individuals are not subject to this rule. DHS will not alter this
rule to account for such unwarranted choices.” 84 Fed.
Reg. at 41,313. But DHS’s disagreement with the
source of a cost does not make it go away, and it does not
discharge DHS’s obligation to consider it. DHS must
consider the costs of widespread disenrollment that it
anticipates—it cannot ignore costs by calling their
causes “unwarranted.”
Plaintiffs have shown it is
likely that DHS understood that individuals would disenroll even though they are not subject to the public
charge determination, yet DHS refused to consider that
cost entirely. Doing so would have been arbitrary and
capricious. Michigan, 135 S. Ct. at 2707 (“ ‘cost’ includes more than the expense of complying with regulations; any disadvantage could be termed a cost. . . .
Consideration of cost reflects the understanding that
reasonable regulation ordinarily requires paying attention to the advantages and the disadvantages of agency
decisions.”); accord Metlife, Inc. v. Fin. Stability Oversight Council, 177 F. Supp. 3d 219, 223 (D.D.C. 2016)
(“focus[ing] exclusively on the presumed benefits . . .
and ignor[ing] the attendant costs . . . is itself unreasonable under the teachings of Michigan v. Environmental Protection Agency”); Regents of Univ. of California v. United States Dep’t of Homeland Sec., 279
F. Supp. 3d 1011, 1046 (N.D. Cal.), aff ’d sub nom. Re-

185a
gents of the Univ. of California v. U.S. Dep’t of Homeland Sec., 908 F.3d 476 (9th Cir. 2018), cert. granted sub
nom. Dep’t of Homeland Sec. v. Regents of the Univ. of
California, 139 S. Ct. 2779 (2019) (same).
B.

Health Effects

Plaintiffs argue that DHS ignored comments describing how loss of benefits would trigger negative
health consequences, including the spread of disease
and aggravation of chronic illness. DHS received ample
commentary regarding this issue. See, e.g., 84 Fed.
Reg. at 41,384 (summarizing certain comments); Cho
Decl., Ex. M at 4 (Kaiser Permanente comment linking
the rule’s impacts on prescription adherence with increased chance of outbreaks of communicable disease),
Ex. N at 9 (Pub. Health Inst. Comment: “We cannot
achieve universally agreed upon public health goals,
such as reducing chronic diseases throughout the U.S.,
when we directly or indirectly deny large segments of
our population the very building blocks they need for
good health”), Ex. O at 4 (Nat’l Assoc. Ped. Nurse Practitioners comment discussing “worse health outcomes”),
P at 7 (Children’s HealthWatch comment warning of “increased prevalence of communicable diseases”).
Defendants offer the same general defenses in response. First, DHS read the comments, but the forward-looking impact to health was too difficult to assess.
Second, even if DHS had assessed those costs, they
would be outweighed by the benefits of excluding aliens
who would rely on public benefits and promoting selfsufficiency of aliens already in the United States. Those
benefits are in line with Congressional statements of
policy.

186a
Relevantly here, similar negative health outcomes
were a key rationale for prior agency action. When issuing the 1999 guidance, INS described its primary motivation “to reduce the negative public health consequences generated by the existing confusion.” 64 Fed.
Reg. at 28,689; see also id. at 28,692 (adopting regulation
on an interim basis because “confusion . . . has deterred eligible [immigrants] and their families, including U.S. citizen children, from seeking important health
and nutrition benefits,” and that “reluctance to access
benefits has an adverse impact not just on the potential
recipients, but on public health and the general welfare”). In reversing the 1999 guidance, defendants
must “ ‘display awareness that it is changing position’
and ‘show that there are good reasons for the new policy.’ ” Encino Motorcars, 136 S. Ct. at 2126 (quoting
FCC v. Fox, 556 U.S. at 515). Moreover, where the
prior policy engendered reliance, “a reasoned explanation is needed for disregarding facts and circumstances
that underlay or were engendered by the prior policy.”
Id.
Under the heading “Vaccinations,” the government
summarized the comments it was responding to:
Commenters indicated that the public charge rule
would make immigrant families afraid to seek healthcare, including vaccinations against communicable
diseases, and therefore, endanger the U.S. population. . . . . The commenter indicated that engaging with the public health system was critical to ensuring robust immunization to protect the population
overall; if a subset of the community were fearful to
access government healthcare services, regardless of

187a
whether a specific type of service qualified for a narrow exception, it would have a significant impact on
the country’s ability to protect and promote the public health. Another commenter indicated that its
health department anticipated that promulgation of
the rule, as written in the NPRM, will result in decreased utilization of children’s healthcare, including
vaccinations, which will increase the risk for vaccine
preventable diseases . . . increasing the likelihood of an outbreak.
Some commenters stated that since many immigrants live in communities alongside people of the
same national origin, reduced vaccinations could
result in unvaccinated or under-vaccinated clusters
of individuals. Commenters warned that research
shows that uninsured individuals are much less likely
to be vaccinated. One commenter stated that a recent study found that even a five percent reduction in
vaccine coverage could trigger a significant measles
outbreak. . . . Another commenter stated that
the rule would increase the incidence of childhood
diseases like chickenpox, measles, mumps and rubella and deter parents from vaccinating their children.
84 Fed. Reg. at 41,384.
The government’s response was:
With this rulemaking, DHS does not intend to restrict the access of vaccines for children or adults or
intend to discourage individuals from obtaining the
necessary vaccines to prevent vaccine-preventable
diseases. The purpose of this rulemaking is to ensure that those seeking admission to the United States

188a
are self-sufficient and rely on themselves or family
and friends for support instead of relying on the government for subsistence. As noted above, this final
rule does not consider receipt of Medicaid by a child
under age 21, or during a person’s pregnancy, to constitute receipt of public benefits. This should address a substantial portion, though not all, of the vaccinations issue.
Vaccinations obtained through public benefits programs are not considered public benefits under 8
CFR 212.21(b), although if an alien enrolls in Medicaid for the purpose of obtaining vaccines, the Medicaid itself qualifies as a public benefit. DHS also
notes that free or low cost vaccines are available to
children who are not insured or underinsured through
the Vaccines for Children (VFC) Program. In addition, local health centers and state health departments provide preventive services that include vaccines that may be offered on a sliding scale fee based
on income. Therefore, DHS believes that vaccines
would still be available for children and adults even if
they disenroll from Medicaid.
84 Fed. Reg. at 41,384-85 (footnotes omitted).
DHS’s response to the comments was essentially that
it understood that fewer people would get vaccines following the Rule, which would present a risk, but there
are ways to get vaccines without Medicaid. As a result,
DHS acknowledged that fewer people will get vaccines,
but it failed engage at all in the consequences of that
fact.
Plaintiffs have demonstrated a likelihood of success
based upon this argument. This change departs from

189a
a longstanding prior policy, as explained in the 1999
Field Guidance, that is likely to have engendered reliance. That guide explained that certain rules were
needed because uncertainty had “deterred eligible aliens and their families, including U.S. citizen children,
from seeking important health and nutrition benefits[,
which] . . . has an adverse impact not just on the potential recipients, but on public health and the general
welfare.” 64 Fed. Reg. at 28,692 (emphasis added).
Given that the 1999 Field Guidance was both longstanding precedent and specifically concerned benefits supporting general public health (not simple health of the
aliens—e.g., vaccines), DHS must provide “a reasoned
explanation . . . for disregarding facts and circumstances that underlay or were engendered by the prior
policy.” FCC v. Fox, 556 U.S. at 515-16; accord Encino
Motorcars, 136 S. Ct. at 2126 (“an unexplained inconsistency in agency policy is a reason for holding an interpretation to be an arbitrary and capricious change
from agency practice”) (internal quotation marks omitted).
Although DHS acknowledged departure from the
1999 Field Guidance as a general matter (e.g., 84 Fed.
Reg. at 41,307-08), DHS simply declined to engage with
certain, identified public-health consequences of the
Rule. It made no attempt, whatsoever, to investigate
the type or magnitude of harm that would flow from the
reality which it admittedly recognized would result—
fewer people would be vaccinated. Instead, and just as
with its refusal to consider “unwarranted” choices to
disenroll from Medicaid discussed above, DHS responded only that it “believes that vaccines would still

190a
be available” through some other channels. The response is devoid of rationale, but additionally it fails entirely to provide a reasoned explanation for disregarding the facts and circumstances underlying the prior
policy.
C.

Form I-944

Plaintiffs argue that defendants’ estimate of the time
and cost burden that the new Form I-944, entitled Declaration of Self Sufficiency, will have on applicants is implausible. They argue that the Rule provides too-low
of an estimate for the time required to fill out the form,
based on its estimate about the time it takes to fill out
another related form. They argue that DHS did not
adequately consider the differences between the forms
when arriving at their estimate. Yet DHS considered
and responded to comments regarding the time commitment required by Form I-944. In response DHS modified the form, removed some duplicative questions, and
explained that it is important to be filed separately because it is filed by the immigrant himself. 84 Fed. Reg.
at 41,484. Plaintiffs have not demonstrated a likelihood of success or serious questions with respect to this
argument.
ii.

Other Challenges

Plaintiffs raise a number of other procedural challenges under the APA. The court finds that plaintiffs
have not demonstrated a likelihood of success on the
merits or serious questions with respect to any, and it
will address some of them briefly.
Plaintiffs argue that the Rule stops treating sponsors’ affidavits of support as sufficient assurance that
immigrant applicants will not become overly dependent

191a
on public benefits, yet Congress specified in 8 U.S.C.
§ 1182(a)(4)(B)(ii) that the executive simply “may also”
consider such affidavits. Although plaintiffs argue
that in practice USCIS has accepted affidavits of support as conclusive, the controlling statute and 1999 Field
Guidance make clear that this is not a change in policy.
See 64 Fed. Reg. at 28,690 (“Where such an AOS has
been filed on an alien's behalf, it should be considered
along with the statutory factors in the public charge determination.”).
Plaintiffs argue the Rule is inconsistent because
DHS included an exemption for individuals under the
age of 21 who receive Medicaid benefits, but did not include a similar exemption for individuals under the age
of 21 who receive SNAP benefits. DHS considered this
issue and provided a reasoned explanation for providing
Medicaid to children, including that it can provide funding for “in-school health services and serve as an important way to ensure that children receive the vaccines
needed to protect public health and welfare.” 84 Fed.
Reg. at 41,380.
Plaintiffs argue the Rule is inconsistent because the
statute requires consideration of “education and skills”
and “health,” but the Rule requires a much more searching inquiry into health than education and skills. For
example, the Rule considers details about an individual’s
health insurance, benefits receipt, and financial status
of household members, but inconsistently fails to take
into account admission or attendance in a college or
trade school. But the Rule in fact allows for consideration of admission or attendance in a college or trade
school, and DHS adequately addressed these issues in
response to comments. See 84 Fed. Reg. at 41,436

192a
(“the exact nature of the education (or lack thereof) and
employment would have to be considered”).
Plaintiffs argue the Rule is inconsistent because it
considers past immigration-related fee waivers, which
may be submitted before a noncitizen is legally eligible
to work and as a result punish that individual for applying to work legally. DHS adequately responded, noting that “[s]ince fee waivers are based on an inability to
pay, seeking or obtaining a fee waiver for an immigration benefit suggests an inability to be self-sufficient.”
84 Fed. Reg. at 41,424-25.
Plaintiffs argue the Rule is inconsistent because
Medicaid use by pregnant women or children (who are
not penalized for using Medicaid under the rule) is
counted against them, because Medicaid is not counted
as an asset that could offset the negative factor of their
illness that Medicaid is paying to treat. Plaintiffs argue that is not consistent, because private insurance is
considered an asset. Defendants argue that the Rule
does not count a severe medical condition as a heavily
weighed negative factor if the alien has “the financial resources to pay for reasonably foreseeable medical costs
related to such medical condition,” and such “financial
resources” can include Medicaid benefits for those pregnant or under 21. See 84 Fed. Reg. at 41,504 (“resources . . . to pay for reasonably foreseeable medical costs” includes “health insurance not designated as
a public benefit under 8 CFR 212.21(b)”).
Plaintiffs argue the Rule is irrational because an income of 125% of the federal poverty guideline rate
counts as a positive factor, yet individuals whose in-

193a
comes exceed that qualify for non-cash benefits considered under the Rule. But not all factors in a multifactor test are required to align in outcome to be rational.
Plaintiffs argue the Rule is irrational because while
it considers large family size as a negative factor in a
public charge assessment, DHS’s own data indicates
that non-cash benefit is higher among families of three
than families of four, and that noncitizens’ use of cash
benefits decreases as family size grows. 84 Fed. Reg.
at 41,395. The parties appear to disagree about which
studies are “good studies” here, but DHS’s response explained its interpretation of the studies and concluded
that “the data properly reflects that receipt of noncash
benefits generally increases with an increase in family
size.” Id.
Plaintiffs argue the Rule is irrational because it considers the mere application for benefits in the public
charge determination. Plaintiffs argue that an application for benefits does not indicate a noncitizen is actually
financially and otherwise eligible for the benefit or will
decide to use the benefit. DHS reasonably explained
that an “application for a public benefit is not the same
as receipt but is indicative of an alien’s intent to receive
such a benefit.” 84 Fed. Reg. at 41,422.
Plaintiffs argue the Rule is irrational because it is ultimately a vague and entirely unpredictable framework
for weighing the statutorily-authorized and newlyadded factors, which results in limitless discretion. The
precise nature of the procedural challenge is unclear
here, but the underlying statute requires consideration
of “at minimum” five factors, and then specifically mentions another factor that “may” be considered. Moreover, the statute specifically targets those who are likely

194a
to be a public charge “in the opinion of the Attorney
General,” who as DHS recognized has long been given
discretion to make such determinations under the statute. 84 Fed. Reg. at 41,398 (“DHS notes that officer
discretion is not a new concept in USCIS immigration
benefits adjudications.”).
Plaintiffs argue the Rule is irrational because some
factors are actually determinative, and impossible to
overcome because the factors significantly overlap. As
a result, the Rule funnels officials’ decision-making towards favoring high-income individuals at the expense
of the poor and other marginalized groups. To the extent plaintiffs challenge the Rule favoring admission of
the wealthy over the poor, the plaintiffs’ appropriate
target is the underlying statute rather than the Rule implementing it. The statute itself calls for consideration
of a number of factors, ultimately aimed at excluding
from the country a group comprised of those who are
more likely to be poor than rich.
d.

Zone of Interests

In order to succeed on the merits, plaintiffs must be
within the zone of interests of the statute that forms the
basis of their challenge. The zone of interests analysis
asks “whether Congress created a private cause of action in legislation” (Organized Vill. of Kake v. U.S. Dep’t
of Agric., 795 F.3d 956, 964 (9th Cir. 2015)), such that
“this particular class of persons has a right to sue under
this substantive statute” (Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118, 127 (2014)). It
is “not a question of Article III standing” (Organized

195a
Vill. of Kake, 795 F.3d at 964), but rather is more appropriately assessed with plaintiffs’ likelihood of success. 19
“[A] person suing under the APA must satisfy not
only Article III’s standing requirements, but an additional test: The interest he asserts must be ‘arguably
within the zone of interests to be protected or regulated
by the statute’ that he says was violated.” Match-EBe-Nash-She-Wish Band of Pottawatomi Indians v.
Patchak, 567 U.S. 209, 224 (2012) (quoting Ass’n of Data
Processing Serv. Organizations, Inc. v. Camp, 397 U.S.
150, 153 (1970)). In the APA context, “[t]he ‘zone of interest’ test is a guide for deciding whether, in view of
Congress’ evident intent [when enacting the APA] to
make agency action presumptively reviewable, a particular plaintiff should be heard to complain of a particular
agency decision. In cases where the plaintiff is not itself the subject of the contested regulatory action, the
test denies a right of review if the plaintiff ’s interests
are so marginally related to or inconsistent with the purposes implicit in the statute that it cannot reasonably be
assumed that Congress intended to permit the suit.
The test is not meant to be especially demanding; in particular, there need be no indication of congressional purpose to benefit the would-be plaintiff.” Clarke v. Sec.
Indus. Ass’n, 479 U.S. 388, 399-400 (1987) (footnote
omitted); see also Pottawatomi Indians, 567 U.S. at 22526 (2012).

The “zone of interests” requirement was formerly referred to
as an assessment of “prudential standing,” but “prudential standing is a misnomer as applied to the zone-of-interests analysis[.]”
Lexmark, 572 U.S. at 127 (internal quotation marks omitted); accord Organized Vill. of Kake, 795 F.3d at 964 (9th Cir. 2015).
19

196a
“Whether a plaintiff comes within the ‘zone of interests’ is an issue that requires us to determine, using traditional tools of statutory interpretation, whether a legislatively conferred cause of action encompasses a particular plaintiff’s claim.” Lexmark, 572 U.S. at 127.
“In answering this question, we recognize that ‘the
breadth of the [applicable] zone of interests varies according to the provisions of law at issue.’ ” Sierra Club
v. Trump, 929 F.3d 670, 700 (9th Cir. 2019) (quoting
Lexmark, 572 U.S. at 130). “When the [Supreme]
Court has applied the zone of interests test in APA actions, however, it has analyzed the zone of interests of
the statute the agency is alleged to have violated, not
any zone of interests of the APA itself.” Id. at 702; accord Mendoza v. Perez, 754 F.3d 1002, 1016 (D.C. Cir.
2014). Nevertheless, “when analyzing whether a plaintiff falls within the zone of interests of a particular statute, courts should be particularly lenient if a violation of
that statute is being asserted through an APA claim.”
Id. at 703 n.26; accord Pottawatomi Indians, 567 U.S. at
225 (“we have always conspicuously included the word
‘arguably’ in the test to indicate that the benefit of any
doubt goes to the plaintiff ”); Pit River Tribe v. Bureau
of Land Mgmt., 793 F.3d 1147, 1155-56 (9th Cir. 2015)
(“The zone-of-interests test should be applied consistent
with Congress’s intent ‘to make agency action presumptively reviewable’ under the APA.”).
Procedural and substantive challenges under the
APA are subject to the same analysis, because “a party
within the zone of interests of any substantive authority
generally will be within the zone of interests of any pro-

197a
cedural requirement governing exercise of that authority[.]” Int’l Bhd. of Teamsters v. Pena, 17 F.3d 1478,
1484 (D.C. Cir. 1994).
“Whether a plaintiff ’s interest is ‘arguably . . .
protected . . . by the statute’ within the meaning of
the zone-of-interests test is to be determined not by reference to the overall purpose of the Act in question (here
[in the context of the Endangered Species Act], species
preservation), but by reference to the particular provision of law upon which the plaintiff relies.” Bennett v.
Spear, 520 U.S. 154, 175-76 (1997). Put differently,
“the plaintiff must establish that the injury he complains
of . . . falls within the ‘zone of interests’ sought to be
protected by the statutory provision whose violation
forms the legal basis for his complaint.” Id. at 176
(quoting Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 883
(1990)) (citing Air Courier Conference v. Postal Workers, 498 U.S. 517, 523-24 (1991)). For example, an allegation that § 4 of the Bank Service Corporation Act was
violated considers whether plaintiffs are within the zone
of interests of § 4 itself, not “the overall purpose of the
Bank Service Corporation Act of 1962[.]” Id. (citing
Data Processing, 397 U.S. at 155-156); accord Air Courier Conference, 498 U.S. at 529-30 (The “relevant statute” is generally not the entire act, because “to accept
this level of generality in defining the ‘relevant statute’
could deprive the zone-of-interests test of virtually all
meaning.”); Pit River Tribe, 793 F.3d at 1157 (“ability to
challenge . . . cannot be determined by looking to
the broad objectives of the” act); but see E. Bay Sanctuary Covenant v. Trump, 932 F.3d 742, 768 n.9 (9th Cir.
2018) (“E. Bay Sanctuary I”) (“ ‘[W]e are not limited to

198a
considering the [specific] statute under which [plaintiffs] sued, but may consider any provision that helps us
to understand Congress’ overall purposes in the [INA].’ ”)
(quoting Clarke, 479 U.S. at 401).
Although the relevant statute “is the statute whose
violation is the gravamen of the complaint” and not the
entire act, the court may also look to provisions that
“have any integral relationship” with the relevant statute. Air Courier Conference, 498 U.S. at 529-30 (quoting Lujan, 497 U.S. at 886) (citing Clarke, 479 U.S. at
388). For example, when the challenged statutory section operates as an enumerated exception to another
section, the court may consider both sections when determining whether a plaintiff falls within the zone of interests of the challenged section. Clarke, 479 U.S. at
401 (considering related statutory section to which challenged statute was an exception); accord Air Courier
Conference, 498 U.S. at 529 (recognizing the exception
in Clarke as limited: “This statement [that the court
may look beyond the specific challenged section], like all
others in our opinions, must be taken in the context in
which it was made. In the next paragraph of the opinion, the Court pointed out that 12 U.S.C. § 36, which the
plaintiffs in that case claimed had been misinterpreted
by the Comptroller, was itself ‘a limited exception to
the otherwise applicable requirement of [12 U.S.C.]
§ 81,’. . . . Thus the zone-of-interests test was to be
applied not merely in the light of § 36, which was the
basis of the plaintiffs’ claim on the merits, but also in the
light of § 81, to which § 36 was an exception.”).

199a
i.

The County and State Plaintiffs

The County and State plaintiffs’ interests are
squarely within the challenged statute’s zone of interests. For example, that statute allows the Attorney
General to consider an affidavit of support under 8 U.S.
Code § 1183a when determining whether to exclude
an alien as a likely public charge.
See 8 U.S.C.
§§ 1182(a)(4)(B)(ii). Although distinct, Section 1183a is
specifically referred to and incorporated into the public
charge analysis set out in the challenged statute. As a
result, § 1183a has an integral relationship with
§ 1182(a)(4), such that it should be considered when determining whether plaintiffs are within the zone of interests of the challenged statute.
Section 1183a explains that someone can sponsor an
alien by guaranteeing to financially support him, and
thereby alleviate the concern that he may become a public charge. That statute also provides that any such
sponsorship can only be considered in the public charge
analysis if it is supported by an affidavit that is “legally
enforceable against the sponsor by . . . any State
(or any political subdivision of such State), or by any
other entity that provides any means-tested public benefit[.]”
§ 1183a(a)(1)(B); see also § 1183a(b)(1)(A)
(“Upon notification that a sponsored alien has received
any means-tested public benefit, the . . . appropriate entity of the Federal Government, a State, or any
political subdivision of a State shall request reimbursement by the sponsor in an amount which is equal to the
unreimbursed costs of such benefit.”). Moreover, the
sponsor must agree to submit to jurisdiction in state
courts for actions to compel reimbursement of benefits
those states paid to the alien. §§ 1183a(a)(1)(C), (e)(2).

200a
By recognizing that states (and political subdivisions
of states) would be paying means-tested public benefits
to those subject to a public charge analysis, requiring
that states and their subdivisions have legally-enforceable
rights to recover those expenses when an alien is admitted based on consideration of an affidavit of support, and
guaranteeing state-court jurisdiction for such enforcement actions, Congress clearly intended to protect states
and their political subdivisions with the challenged statute.
Moreover, given the attention paid to states’ rights to
recover payment of “any means-tested public benefit”
from affiants in § 1183a, it is also more than arguable
that Congress intended to protect states and their political subdivisions’ coffers when providing for the exclusion of any alien “likely at any time to become a public
charge” in the first place. 8 U.S.C. §§ 1182(a)(4)(A).
So, the State and County plaintiffs’ financial interests
are also at least arguably protected by the statute for
this independent reason.
Therefore, the States’ and Counties’ interests are
more than arguably related to the challenged statute’s
purpose, and they satisfy the zone-of-interests requirement.
ii. The Organizations

The Organizations move for an injunction based on
one claim that the Rule violates the APA because it is
substantively contrary to the term “public charge” as
used in 8 U.S.C. § 1182(a)(4), and a related procedural
APA claim based on the same underlying statute. As
such, the Organizations must be within that statute’s
zone of interest.

201a
Their papers argue that they are within the statute’s
zone of interests for three reasons. First, the Rule itself counts health care providers and nonprofit organizations among those who will be affected by it. Second,
plaintiffs’ interests in serving low-income, immigrant
communities by providing medical or legal services and
advice are related to and consistent with the statute’s
purpose to provide procedures and policies for immigration relief. Third, and relatedly, the Ninth Circuit has
recently held that similar plaintiffs are within the INA’s
zone of interests.
First, the Organizations argue the Rule itself contemplates that organizations like them will be adversely
affected by it. But being negatively affected by a rule
implementing a statute is not sufficient to establish that
the statute conferred a cause of action encompassing
that plaintiff’s claim. The Organizations’ argument
that they will be hurt by the Rule speaks to their standing to challenge it, rather than whether they are within
the statute’s zone of interest. See Air Courier Conference, 498 U.S. at 524 (“injury in fact does not necessarily
mean one is within the zone of interests to be protected
by a given statute”); see also Lujan, 497 U.S. at 883 (“for
example, the failure of an agency to comply with a statutory provision requiring ‘on the record’ hearings would
assuredly have an adverse effect upon the company that
has the contract to record and transcribe the agency’s
proceedings; but since the provision was obviously enacted to protect the interests of the parties to the proceedings and not those of the reporters, that company
would not be ‘adversely affected within the meaning’ of
the statute”).

202a
Second, the Organizations argue that their interests
align with the statute. Yet their briefing failed to identify or explain what statutory provisions support their
argument. That failure is fatal given the Supreme
Court’s direction that the zone of interests analysis “requires us to determine, using traditional tools of statutory interpretation, whether a legislatively conferred
cause of action encompasses a particular plaintiff ’s
claim.” Lexmark, 572 U.S. at 127. When asked at the
hearing what specific statutory provisions they are relying upon, the Organizations for the first time identified
8 U.S.C. § 1611. That section outlines the federal public benefits for which aliens are eligible. But the Organizations do not assert a challenge based on a violation of § 1611, and it is not at all clear that § 1611 has
“any integral relationship with” 8 U.S.C. § 1182(a)(4)
such that it is proper for the court to consider it in the
zone of interests inquiry. See Air Courier Conference,
498 U.S. at 529 (without a particular reason to suggest
otherwise, sections within the same act are not sufficiently related); cf. Clarke, 479 U.S. at 401 (considering
related statutory section to which challenged statute
was an exception).
Even if the court were to consider § 1611, the Organizations leave the court to guess at what connection
those statutory provisions share, much less how 8 U.S.C.
§ 1182(a)(4) is related to the Organizations’ purposes in
light of § 1611. Finally, the Organizations do not even
explain how their interests are more than marginally related to § 1611 itself—which does not even “give institutions like the Organizations a role[.]” E. Bay Sanctuary I, 932 F.3d at 769.

203a
At this stage of litigation, the Organizations have not
met their burden to demonstrate that there are serious
questions concerning whether they are within the challenged statute’s zone of interest, and certainly they have
failed to demonstrate a likelihood that they are able to
bring the APA actions underlying their present motion.
Taking a step back, the Organizations simply fail to
explain how their interests relate to § 1182(a)(4)’s purpose of excluding immigrants likely to become public
charges. This may be because the Organizations identify, without explanation, the statute’s purpose as providing “procedures and policies for immigration relief.”
That may be based on an argument about the INA’s
overall statutory purpose, untethered to the statutory
challenge underlying this motion. In support of that
argument, the Organizations rely on E. Bay Sanctuary
I, 932 F.3d at 771. But the statute at issue in that action concerned asylum seekers, and the very statute underlying that challenge contained a provision requiring
the Attorney General to refer asylum seekers to pro
bono legal aid organizations, such as the plaintiff entities in that action. The court identified specific references to the role of pro bono legal organizations within
the challenged statute itself, and it found that was sufficient. That is very different from the facts presented
here. See E. Bay Sanctuary I, 932 F.3d at 768 (“Within
the asylum statute [underlying the preliminary injunction, 8 U.S.C. § 1158(a)(1)], Congress took steps to en-

204a
sure that pro bono legal services of the type that the Organizations provide are available to asylum seekers.
See 8 U.S.C. § 1158(d)(4)(A)-(B)”). 20
2.

Plaintiffs are Likely to Suffer Irreparable Harm

The three distinct issues of (i) standing, (ii) ripeness,
and (iii) irreparable harm in the absence of an injunction
are supported by the same factual analysis for each
plaintiff. Although each of the three requirements is
independent for plaintiffs to succeed on this motion, a
finding that plaintiffs are likely to suffer irreparable
harm in the absence of an injunction here is sufficient to
establish standing and ripeness. For the Organizations, the court assesses only standing and ripeness.
The court first addresses the legal standards, and
then assesses each plaintiff ’s demonstrated harms.
a.

Legal Standards
i. Standing

Federal courts may adjudicate only actual cases or
controversies, see U.S. Const. Art. III, § 2, and may not
render advisory opinions as to what the law ought to be
or affecting a dispute that has not yet arisen. Aetna
Life Ins. Co. of Hartford, Conn. v. Haworth, 300 U.S.
227, 240 (1937). Article III’s “standing” requirements
To the extent the Organizations argue that E. Bay Sanctuary
I, 932 F.3d at 771 allows this court to look to unrelated provisions
in the INA for a section justifying their interest in the action, the
court is at a loss as how to how reconcile that interpretation with
Bennett, 520 U.S. at 175-76, Air Courier Conference, 498 U.S. at
529, and Pit River Tribe, 793 F.3d at 1157. Absent clarity from an
en banc determination of this issue, the court hews to Supreme
Court and prior panel authority on the question.
20

205a
limit the court’s subject matter jurisdiction. See Cetacean Cmty. v. Bush, 386 F.3d 1169, 1174 (9th Cir. 2004).
The burden of establishing standing rests on the party
asserting the claim. Renne v. Geary, 501 U.S. 312, 316
(1991).
The “irreducible constitutional minimum of standing
contains three elements. First, the plaintiff must have
suffered an injury in fact—an invasion of a legally protected interest which is (a) concrete and particularized,
and (b) actual or imminent, not conjectural or hypothetical. Second, there must be a causal connection between the injury and the conduct complained of—the injury has to be fairly traceable to the challenged action
of the defendant, and not the result of the independent
action of some third party not before the court. Third,
it must be likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61 (1992)
(citations and internal quotation marks omitted); see
also Spokeo Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016).
“At least one plaintiff must have standing to seek
each form of relief requested, and that party bears the
burden of establishing the elements of standing with the
manner and degree of evidence required at the successive stages of the litigation.” E. Bay Sanctuary I, 932
F.3d at 763-64 (internal quotation marks and citations
omitted). At this preliminary stage, plaintiffs “may
rely on the allegations in their Complaint and whatever
other evidence they submitted in support of their” motion to meet their burden. Id. at 764. They “need
only establish a risk or threat of injury to satisfy the actual injury requirement.” Id.

206a
Organizations can establish standing two different
ways.
First, “Organizations can demonstrate organizational standing by showing that the challenged ‘practices have perceptibly impaired [their] ability to provide
the services [they were] formed to provide.’ ” Id. at
765. “[A] diversion-of-resources injury is sufficient to
establish organizational standing for purposes of Article
III if the organization shows that, independent of the litigation, the challenged policy frustrates the organization’s goals and requires the organization to expend resources in representing clients they otherwise would
spend in other ways.” Id. (internal quotation marks
and citations omitted) (citing inter alia, Comite de Jornaleros de Redondo Beach v. City of Redondo Beach,
657 F.3d 936, 943 (9th Cir. 2011) (en banc) (advocacy
groups had organizational standing to challenge an antisolicitation ordinance that targeted day laborers based
on the resources spent by the groups in assisting day
laborers during their arrests and meetings with workers
about the status of the ordinance); Nat’l Council of La
Raza v. Cegavske, 800 F.3d 1032, 1039-40 (9th Cir. 2015)
(civil rights groups had organizational standing to challenge alleged voter registration violations where the
groups had to “expend additional resources” to counteract those violations that “they would have spent on some
other aspect of their organizational purpose”); El Rescate Legal Servs., Inc. v. Exec. Office of Immigration
Review, 959 F.2d 742, 748 (9th Cir. 1991) (legal services
groups had organizational standing to challenge a policy
of providing only partial interpretation of immigration
court proceedings, noting that the policy “frustrate[d]”
the group’s “efforts to obtain asylum and withholding of

207a
deportation in immigration court proceedings” and required them “to expend resources in representing clients they otherwise would spend in other ways.”); Valle
del Sol Inc. v. Whiting, 732 F.3d 1006, 1018 (9th Cir.
2013) (finding organizational standing where the plaintiffs “had to divert resources to educational programs to
address its members’ and volunteers’ concerns about
the [challenged] law’s effect”)).
In E. Bay Sanctuary I, the Ninth Circuit held that
plaintiffs established organizational standing by declaring that enforcement of a regulation “frustrated their
mission of providing legal aid” to asylum applicants by
“significantly discourage[ing] a large number of those
individuals from seeking asylum given their ineligibility.” 932 F.3d at 766. That regulation would require
plaintiffs “to partially convert their affirmative asylum
practice into a removal defense program, an overhaul
that would require ‘developing new training materials’
and ‘significant training of existing staff.’ ” Id. “Finally, the [plaintiff] Organizations have each undertaken, and will continue to undertake, education and
outreach initiatives regarding the new rule, efforts that
require the diversion of resources away from other efforts to provide legal services to their local immigrant
communities.” Id.
Second, “Organizations can demonstrate organizational standing by showing that the Rule will cause them
to lose a substantial amount of funding. For standing
purposes, a loss of even a small amount of money is ordinarily an ‘injury.’ We have held that an organization
that suffers a decreased amount of business and lost rev-

208a
enues due to a government policy easily satisfies the ‘injury in fact’ standing requirement.” Id. at 766-67 (internal quotation marks and citations omitted).
In E. Bay Sanctuary I, the Ninth Circuit held that
plaintiffs established organizational standing by declaring that they received a large portion of their funding
based on the number of asylum applications they pursue, and that if their prospective clients “became categorically ineligible for asylum, East Bay would lose a
significant amount of business and suffer a concomitant
loss of funding.” Id. at 767.
ii.

Ripeness

“Ripeness is an Article III doctrine designed to ensure that courts adjudicate live cases or controversies
and do not ‘issue advisory opinions [or] declare rights in
hypothetical cases.’ A proper ripeness inquiry contains a
constitutional and a prudential component.” Bishop
Paiute Tribe v. Inyo Cty., 863 F.3d 1144, 1153 (9th Cir.
2017) (citations omitted).
“For a case to be ripe, it must present issues that are
definite and concrete, not hypothetical or abstract.
Constitutional ripeness is often treated under the rubric
of standing because ripeness coincides squarely with
standing’s injury in fact prong.” Id. (internal quotation marks and citations omitted); Thomas v. Anchorage
Equal Rights Comm’n, 220 F.3d 1134, 1138-39 (9th Cir.
2000) (“Sorting out where standing ends and ripeness
begins is not an easy task. . . . . [I]n ‘measuring
whether the litigant has asserted an injury that is real
and concrete rather than speculative and hypothetical,
the ripeness inquiry merges almost completely with
standing.’ ”). Allegations that a “threat” to a “concrete

209a
interest is actual and imminent” are sufficient to allege
“an injury in fact that meets the requirements of constitutional ripeness.” Bishop Paiute Tribe, 863 F.3d at
1154. Therefore, if plaintiffs satisfy the Article III
standing requirements under Lujan v. Defs. of Wildlife,
addressed above, the action here is ripe. In this case,
the analysis for both requirements is the same. See,
e.g., Thomas, 220 F.3d at 1139 (“Whether the question
is viewed as one of standing or ripeness, the Constitution mandates that prior to our exercise of jurisdiction
there exist a constitutional ‘case or controversy,’ that
the issues presented are ‘definite and concrete, not hypothetical or abstract.’ . . . We need not delve into
the nuances of the distinction between the injury in fact
prong of standing and the constitutional component of
ripeness: in this case, the analysis is the same.”).
“In evaluating the prudential aspects of ripeness, our
analysis is guided by two overarching considerations:
‘the fitness of the issues for judicial decision and the
hardship to the parties of withholding court consideration.’ ” Thomas, 220 F.3d at 1141. When the question
presented “is ‘a purely legal one’ ” that “constitutes ‘final
agency action’ within the meaning of § 10 of the APA,”
that suggests the issue is fit for judicial decision. Nat’l
Park Hosp. Ass’n v. Dep’t of Interior, 538 U.S. 803, 812
(2003). However, an issue may not be ripe for review if
“further factual development would ‘significantly advance our ability to deal with the legal issues presented.’ ” Id.
iii. Irreparable Harm

“A plaintiff seeking preliminary relief must ‘demonstrate that irreparable injury is likely in the absence of
an injunction.’ ” California v. Azar, 911 F.3d 558, 581

210a
(9th Cir. 2018) (quoting Winter, 555 U.S. at 22); Boardman v. Pac. Seafood Grp., 822 F.3d 1011, 1023 (9th Cir.
2016) (“A threat of irreparable harm is sufficiently immediate to warrant preliminary injunctive relief if the
plaintiff ‘is likely to suffer irreparable harm before a decision on the merits can be rendered.’ ”) (quoting Winter,
555 U.S. at 22)).
“There must be a ‘sufficient causal connection’ between the alleged irreparable harm and the activity to
be enjoined, and showing that ‘the requested injunction
would forestall’ the irreparable harm qualifies as such a
connection.” Nat’l Wildlife Fed’n v. Nat’l Marine Fisheries Serv., 886 F.3d 803, 819 (9th Cir. 2018) (citing Perfect 10, Inc. v. Google, Inc., 653 F.3d 976, 981-82 (9th Cir.
2011)). “However, a plaintiff ‘need not further show
that the action sought to be enjoined is the exclusive
cause of the injury.’ ” Id. (quoting M.R. v. Dreyfus, 697
F.3d 706, 728 (9th Cir. 2012)).
The irreparable harm “analysis focuses on irreparability, ‘irrespective of the magnitude of the injury.’ ”
Azar, 911 F.3d at 581 (quoting Simula, Inc. v. Autoliv,
Inc., 175 F.3d 716, 725 (9th Cir. 1999)). “[T]he temporary loss of income, ultimately to be recovered, does not
usually constitute irreparable injury.” Sampson v.
Murray, 415 U.S. 61, 90 (1974). But the general rule
that “[e]conomic harm is not normally considered irreparable” does not apply where there is no adequate remedy to recover those damages, such as in APA cases.
Azar, 911 F.3d at 581 (citing 5 U.S.C. § 702).

211a
b. The Plaintiffs’ Harms

First, the court assesses the Counties’ and States’
standing, the ripeness of their claims, and whether they
have demonstrated irreparable harm in absence of an
injunction. Second, the court assesses the Organizations’ standing and the ripeness of their claims.
i. The States and Counties

The States and Counties argue that they will suffer
five categories of irreparable harm: (A) loss of federal
funds, mostly in Medicaid reimbursement; (B) increased
operational costs; (C) increased costs to their own
healthcare operations (D) public health problems and
resulting increased costs; and (E) reduced economic activity due to a decrease in federal funds in the community.
A. Loss of Federal Funds

The Counties argue that they will lose millions of dollars in federal Medicaid reimbursement funds. Each
provides a broad array of health services to low-income
residents, many of which are at least partially reimbursed with federal Medicaid dollars. DHS itself estimates that 2.5% of individuals in households with a
noncitizen will disenroll from Medicaid, which would
translate to a roughly $7.5 million loss in Medicaid reimbursement funds.
The States similarly argue that DHS itself estimates
that the Rule will cause a reduction in payments from
the federal government due to disenrollment or foregone enrollment by eligible individuals to be over $1.5
billion, nationwide. 83 Fed. Reg. at 51,267-69.

212a
Defendants argue the harm is too speculative, caused
only by third-party actions, and not imminent because
the merits can be resolved quickly on summary judgment. Defendants argue that even assuming a 2.5%
rate of disenrollment, plaintiffs fail to show that the
States and Counties will be harmed, rather than individuals residing within their boundaries. Defendants argue that harm individual citizens will suffer cannot support the States and Counties claims of irreparable harm.
Finally, defendants argue that any financial harms the
States and Counties identify are not sufficiently large to
establish irreparable harm.
First, regarding the speculative nature of the harm,
defendants themselves predict a 2.5% disenrollment
rate when assessing the Rule, subject to the procedural
requirements of the APA. 84 Fed. Reg. at 41,463.
The Rule itself also estimated that it will cause a reduction in payments from the federal government due to
disenrollment or foregone enrollment by eligible individuals of over $1.5 billion. 83 Fed. Reg. at 51,267-69;
see also Cisneros Decl. A at 98-99, Table 18 (annual estimates of $1.46 billion to $4.37 billion in reduced payments). Those figures, which underlie DHS’s analysis
in support of the Rule pursuant to the APA’s requirements, are not speculative conjectures as to what might
possibly occur. They are meant to be serious efforts by
an agency to assess the impact of a proposed rule, and it
is difficult to fathom how defendants can argue otherwise. And plaintiffs offer sufficient evidence to demonstrate that disenrollment or non-enrollments will reach
at least that level. See 84 Fed. Reg. at 41,463; Wong
Decl. ¶¶ 18-45; Shing Decl. ¶ 30; Weisberg Decl. ¶12;
Ponce Decl. ¶¶ 4-11, 25. This type of predictable result

213a
from a broad policy, although not precise to the level of
the individual actor, is sufficiently-specific to allege irreparable harm. See Dep’t of Commerce v. New York,
139 S. Ct. 2551, 2565 (2019). Moreover, plaintiffs offer
evidence showing that disenrollment due to the public
charge rulemaking has already begun. See, e.g., Cody
Decl. ¶ 8; Newstrom Decl. ¶ 43; Weisberg Decl. ¶¶ 1214; Shing Decl. ¶¶ 23-24; Chawla Decl. ¶ 13; Fanelli Decl.
¶ 38; Neville-Morgan Decl. ¶ 16; Ruiz Decl. ¶¶ 10, 12;
Kofman Decl. ¶ 6; Medina Decl. ¶¶ 18-22. Plaintiffs offer strong evidence that disenrollment is likely to continue between now and the resolution of this issue on the
merits, absent an injunction.
Plaintiffs also adequately demonstrate that the loss
of Medicaid reimbursement is sure to be immediate,
once individuals disenroll. That is apparent from the
very mechanics of the harm. Today, the States and
Counties are partially reimbursed by the federal government for care provided to Medicaid enrollees. As
individuals disenroll, the plaintiffs will no longer be reimbursed for treating them. This will have obvious adverse budgetary consequences. For one, there will indisputably be fewer individuals covered by Medicaid
seeking treatment. So, the States and Counties will
not be reimbursed for treating those disenrolled individuals (whether they treat them or not). The States and
Counties would experience this terminated revenue
stream even if they turned away patients without medical insurance (which they will not). Put differently,
there will be fewer people on Medicaid to treat and get
reimbursed for.

214a
To the extent defendants argue that the mechanics
will work out as a budgetary boon to plaintiffs, the argument is not plausible in the context of this preliminary
injunction motion. Although it could potentially work
out as a total budgetary savings for the plaintiff entities
if they reconfigured their operations, reduced staff, reduced provision of services, and undertook other costsavings measures, such savings could not plausibly be
realized prior to the determination of this action’s merits. See, e.g., Lorenz Decl. ¶¶ 19-22. Instead, the plaintiffs will be continuing to operate with most of the costs
and expectations associated with the status quo, with
one change—no reimbursements.
Second, the States and Counties’ argument regarding loss of Medicaid funding does not rely on harms to
their citizens. Rather, the arguments concern the plaintiffs’ own loss of funds.
Third, plaintiffs must demonstrate that they are
likely to suffer irreparable harm, but they need not establish a particular quantum of harm to satisfy the requirement. Azar, 911 F.3d at 581 (irreparable harm
“analysis focuses on irreparability, ‘irrespective of the
magnitude of the injury’ ”). Nor do defendants explain
why San Francisco’s likely loss of $7.5 million in Medicaid reimbursements (based on a 2.5% disenrollment
rate) is not sufficiently large even under their theory of
the requirement. See Wagner Decl. ¶ 5. Santa Clara
similarly estimates $4.6 million in foregone Medicaid
funds due to more conservative 1.9% decline in enrollment. Shing Decl. ¶ 32 (estimating $4.6 million in Medicaid fund losses due to 1.9% decline in enrollment).
The States similarly demonstrate the harms they are

215a
likely to suffer from the loss of Medicaid reimbursements. See Cantwell Decl. ¶¶ 6, 14 (2.5 million noncitizen Medicaid beneficiaries in California); Ferrer Decl.
¶ 19 (predicted disenrollment figures in L.A. County);
Lucia Decl. ¶ 23 (estimates of $957 million in lost funding
in California, assuming 15% disenrollment rate); Buhrig
I Decl. ¶¶ 4, 8, 10, 27 (330,000 Pennsylvania Medicaid
beneficiaries are part of a household with a noncitizen);
Allen Decl. ¶¶ 10, 18, 36-40 (63,000 noncitizens participate in the Oregon Health Plan system, a federal/state
partnership program; other participants are citizen children part of a household with a noncitizen); Byrd Decl.
¶¶ 18-20 & Ex. A at 2, 4 (16,000 children in the District
of Columbia receive Medicaid assistance, and 28% of the
District’s children are part of a household with a noncitizen; 9,800 immigrants enrolled in Medicaid reside in the
District); Probert Decl. ¶¶ 4-8, 15 (13,918 noncitizens enrolled in Medicaid in Maine).
B. Increased Operational Costs

The States argue that the Rule will impose burdens
on their ongoing operations. Defendants argue that
such costs are self-imposed and not cognizable.
Governmental administrative costs caused by changes
in federal policy are cognizable injuries. See Cal. v.
Trump, 267 F. Supp. 3d 1119, 1126 (N.D. Cal. 2017) (states’
“administrative costs” caused by a disruption to health-

216a
care exchanges they administer were sufficient to demonstrate standing) (collecting cases); see also Azar, 911
F.3d at 573-74. 21
The Counties have submitted evidence of cognizable,
irreparable costs. Santa Clara explains that they have
already spent over 1,000 hours answering questions about
the Rule, processing disenrollment, analyzing the impact of the rule on their services and undertaking community education and outreach—and these activities are
likely to continue to be necessary. E.g., Shing Decl.
¶¶ 8, 11-12; see also Lorenz Decl. ¶ 19; Márquez Decl.
¶¶ 9-10. San Francisco has submitted evidence of similar measures it has already taken and will continue
to take in direct response to the Rule. See Pon Decl.
¶¶ 13-16; Rhorer Decl. ¶ 11; Smith Decl. ¶¶ 4-9. California and Oregon have submitted evidence showing
they are likely to imminently suffer similar harms absent an injunction. Ruiz Decl. ¶ 19 (California); Fernandez Decl. ¶¶ 34-36 (California); Fanelli Decl. ¶ 40
(California); Salazar Decl. ¶ 37 (Oregon). Other states
submit declarations regarding these issues, but they are
too vague or speculative to support issuance of an injunction. E.g., Byrd Decl. ¶¶ 22-23 (discussing past efforts in D.C., and stating the District will generally “need
to train staff ” on the issue); Probert Decl. ¶ 16 (speculation concerning costs Maine may face).
Additionally, certain plaintiff states use Medicaid
and SNAP enrollment to automatically certify children
The government relies on inapposite case law, most notably
Crane v. Johnson, 783 F.3d 244, 253-54 (5th Cir. 2015), which addressed individual public employee claims (not claims by the public
entity itself ) that they might have to change their job practices because of a policy change.
21

217a
into school lunch programs, meaning that those states
would face higher administrative costs to certify student
eligibility for free lunch following disenrollment caused
by the Rule. To the extent states’ administrative costs
increase to assess eligibility for free lunch as children
disenroll from the federal programs (as opposed to
merely an increased burden on the applicants), that administrative cost increase is cognizable harm. California and D.C. submit competent evidence demonstrating
that their costs in administering school lunch programs
will increase. See Palmer Decl. ¶ 16 (declaring D.C.’s
costs would go up to process school lunch applications);
Fernandez Decl. ¶ 30 (declaring California’s “administrative streamlining and efficiency” will suffer when enrolling students for free lunch); see generally NevilleMorgan Decl. ¶ 22 (in California, “paperwork is more
burdensome for those without an automatic qualification
through Medi-Cal or SNAP, and immigrant eligible families are less likely to obtain school lunch benefits in this
way”).
These costs that the States and Counties have identified are predictable, likely, and imminent. In fact,
DHS specifically contemplated certain of these costs
when formulating the Rule. E.g., 83 Fed. Reg. at 51,260
(“The primary sources of the consequences and indirect
impacts of the proposed rule would be costs to various entities that the rule does not directly regulate, such as
hospital systems, state agencies, and other organizations
that provide public assistance to aliens and their households. Indirect costs associated with this rule include
familiarization with the rule for those entities that are
not directly regulated but still want to understand the
changes in federal and state transfer payments due to

218a
this rule.”) (emphasis added); see also 84 Fed. Reg. at
41,389 (“DHS agrees that some entities, such as State
and local governments or other businesses and organizations would incur costs related to the changes commenters identify.”).
Because the States and Counties have each demonstrated sufficient likely irreparable injury in the form of
loss of federal funds to support a preliminary injunction,
and the Counties, California, D.C., and Oregon have
demonstrated additional irreparable injury in the form
of operational costs, the court need not address the remaining three categories of irreparable harm plaintiffs
argue they will imminently suffer.
ii.

The Organizations

“[C]ourts have an ‘independent obligation’ to police
their own subject matter jurisdiction, including the parties’ standing. Accordingly, we must assure ourselves
that Plaintiffs have alleged an injury in fact, fairly traceable to the defendant’s conduct, and likely to be redressed by a favorable judicial decision.” Animal Legal Def. Fund v. United States Dep’t of Agric., 935 F.3d
858, 866 (9th Cir. 2019) (citations omitted).
“[A] diversion-of-resources injury is sufficient to establish organizational standing for purposes of Article
III if the organization shows that, independent of the litigation, the challenged policy frustrates the organization’s goals and requires the organization to expend resources in representing clients they otherwise would
spend in other ways.” E. Bay Sanctuary I, 932 F.3d at
765 (internal quotation marks and citations omitted).

219a
Defendants argue that the Organizations fail to identify any injury they will suffer if they do not divert resources towards addressing their concerns, apart from
harm to the health care they are able to provide to low
income communities. For example, if they failed to divert resources, they would not face staff shortages or
provide worse health services.
In E. Bay Sanctuary I, the court found standing
based on an organization partially converting an asylum
practice into a removal defense program, a prediction
that applications filed on behalf of the organizations’ clients would become more difficult and reduce available
funds for other activities, and education and outreach initiatives regarding the new rule. 932 F.3d at 766; see
also, e.g., El Rescate Legal Services, 959 F.2d at 748
(standing where legal services groups had expended
“resources in representing clients they otherwise would
spend in other ways”); Fair Hous. Council of San Fernando Valley v. Roommate.com, LLC, 666 F.3d 1216,
1219 (9th Cir. 2012) (finding organizational standing
where the plaintiff responded to allegations of discrimination by “start[ing] new education and outreach campaigns targeted at discriminatory roommate advertising”).
The Healthcare Organizations’ missions are to provide high quality health care to low-income and immigrant communities. Castellano-García Decl. ¶ 5; García Decl. ¶ 3, 7-10. La Clínica and California-PrimaryCare-Association-member-organization Asian Health
Services have diverted resources from their core missions to address community and individual patient concerns about the public charge determination. García
Decl. ¶¶ 13, 16, 21; Quach Decl. ¶¶ 26-29 (evidence of $1

220a
million diversion to education campaigns about the Rule).
These education efforts take away from their ability to
serve their core organizational purposes. Moreover,
they will have to lay off employees and change or cancel
programs in response to the Rule. García Decl. ¶ 18;
see also Ku Decl. ¶ 65 (estimating nationwide community health center staffing losses of 3,400 to 6,100 employees).
The Legal Organizations’ missions are to provide advocacy and/or legal services to their clients and members, including obtaining immigration relief and helping
to secure public benefits. Kassa Decl. ¶¶ 3-7; Ayloush
Decl. ¶¶ 4-7; Sharp Decl. ¶¶ 4-7; Goldstein Decl. ¶¶ 4-5;
Seon Decl. ¶¶ 3- 7; Nakamura Decl. ¶¶ 3-8; Kersey Decl.
¶¶ 6-7, 14-20.
Plaintiffs have adequately alleged frustration of their
purpose because many of their clients will no longer be
eligible for immigration relief, or will choose to not enroll or to disenroll from benefits to remain eligible for
immigration relief. The Rule plainly hinders their clients’ ability to obtain immigration relief and/or public
benefits.
Plaintiffs have also adequately alleged that they will
have to divert funding because those who may still be
eligible for relief or choose to apply for benefits will require additional time and resources from plaintiffs to address the effects of the Rule, and this additional time
and rising ineligibility or disenrollment means that
plaintiffs will be able to file fewer cases and help fewer
clients. See Kassa Decl. ¶¶ 10-13, 16; Ayloush Decl.
¶¶ 11-14; Sharp Decl. ¶¶ 12-15, 18; Goldstein Decl. ¶ 8;
Seon Decl. ¶¶ 10-14; Nakamura Decl. ¶¶ 12, 14-15; Kersey Decl. ¶¶ 23-30. Kassa Decl. ¶¶ 10, 12-13; Ayloush

221a
Decl. ¶¶ 11-12; Sharp Decl. ¶ 13; Seon Decl. ¶¶ 10-14;
Nakamura Decl. ¶¶ 14-16; Kersey Decl. ¶¶ 34, 36.
Some plaintiffs also have increased operational costs
as they address the impact of the Rule on their services,
such as by hiring additional staff or adding new programs or services. Ayloush Decl. ¶ 14; Seon Decl. ¶ 14;
Nakamura Decl. ¶¶ 13-14, 16-17; Kersey Decl. ¶¶ 21, 2630, 35. Some plaintiffs have had to divert resources
from other core services and priorities to staffing, training, education, and public outreach addressing the Rule.
Kassa Decl. ¶¶ 11, 14-17; Ayloush Decl. ¶¶ 13, 15-16;
Sharp Decl. ¶¶ 14-16; Goldstein Decl. ¶ 7-12; Seon Decl.
¶ 16-19, 21; Nakamura Decl. ¶¶ 13-14, 16-17; Kersey
Decl. ¶¶ 26-29, 35-36.
Defendants would have this court require more than
the Ninth Circuit does for standing. Here, it is enough
for plaintiffs to allege that their goals of providing
healthcare and legal services to low-income immigrants
are frustrated, and that the challenged policy has stimulated the organizations into spending money on things
they would not otherwise have spent money on. Plaintiffs’ public education efforts, changes to their programs, increased costs of assisting clients, and other diversions of resources qualify under the Ninth Circuit’s
requirements. 22

As the issue was not meaningfully addressed by the parties, the
court does not decide at this time whether California Primary Care
Association satisfies the requirements for associational standing.
22

222a
3.

The Balance of Equities and Hardships Tip
Sharply in Plaintiffs’ Favor

“A court must ‘balance the interests of all parties and
weigh the damage to each’ in determining the balance of
the equities.” CTIA - The Wireless Ass’n v. City of
Berkeley, 928 F.3d 832, 852 (9th Cir. 2019) (quoting
Stormans, Inc. v. Selecky, 586 F.3d 1109, 1138 (9th Cir.
2009)).
There is little question that the balance of equities
and hardships tip sharply in favor of the States and
Counties. Defendants have been operating under a
consistent definition of “public charge” since at least
1999, when the INS issued Field Guidance specifying
“that ‘public charge’ means an alien . . . who is likely
to become (for admission/adjustment purposes) ‘primarily dependent on the government for subsistence, as
demonstrated by either (i) the receipt of public cash assistance for income maintenance or (ii) institutionalization for long-term care at government expense.’ ” 64
Fed. Reg. at 28,689. That standard is specific and
workable, and defendants have been administering it for
decades. In fact, defendants conceded that do not argue that they would suffer any hardship in the face of an
injunction prohibiting them from replacing those standards with the new Rule until resolution of this case on
the merits. Defendants’ only argument with respect to
the balance of equities or hardships and the public interest is that Congress has made a policy judgment that
aliens should be self-sufficient, and the executive should
not be prevented from implementing a rule that advances that policy.
On the other hand, implementing the change defendants propose would upend state and local governments’

223a
operations as they support immigrants while determining how to adjust to the new Rule and provide services
that the federal government once predictably assisted
with. To the extent this factor is merged with the public interest and considers the effects on non-parties, the
most severely affected individuals are the aliens seeking
LPR status themselves, who would face uncertainty regarding their access to healthcare and subsidized nutrition as they learn to adapt to and attempt to navigate
the Rule’s deterrents.
In short, implementing the Rule after decades of a
consistent policy prior to a determination of this action
on the merits—which defendants argue will be accomplished in short order—does little to advance the defendants’ interests, and it would entirely upend the
plaintiffs’ (and the non-party aliens’) interests.
4.

An Injunction Is in the Public’s Interest

“When the government is a party, the last two factors
merge.” Azar, 911 F.3d at 575. Therefore, the public
interest analysis is subsumed in the balance of equities
and hardships, addressed above, and the public interest
therefore favors and injunction.
Even though the public’s interest generally merges
with the balance of equities, it can be “appropriate to
consider the factors separately,” for example when intervenors present distinct interests. League of Wilderness Defs./Blue Mountains Biodiversity Project v.
Connaughton, 752 F.3d 755, 766 (9th Cir. 2014). In
those instances, “[t]he public interest inquiry primarily
addresses impact on non-parties rather than parties.”
Id.

224a
Here, the public interest cuts sharply in favor of an
injunction. Specifically, the public interest supports continuing the provision of medical services through Medicaid to those who would predictably disenroll absent an
injunction, for numerous reasons. Although the court
has not reached the issue as to whether plaintiffs’ arguments regarding the impacts on public health support
their argument for imminent harm, the parties and numerous amici have explained that the predictable disenrollment from Medicaid absent an injunction would have
adverse health consequences not only to those who disenroll, but to the entire populations of the plaintiff
states, for example, in the form of decreased vaccination
rates. The public certainly has an interest in decreasing the risk of preventable contagion.
As such, the public interest supports preserving the
long-standing status quo pending final, coherent resolution on the merits.
5.

Scope of the Injunction Necessary to Redress
Plaintiffs’ Imminent Harms
a.

Legal Standard

When a plaintiff satisfies its burden to demonstrate
that a preliminary injunction should issue, “injunctive
relief should be no more burdensome to the defendant
than necessary to provide complete relief to the plaintiffs.” Califano, 442 U.S. at 702; accord L.A. Haven
Hospice, Inc. v. Sebelius, 638 F.3d 644, 664 (9th Cir.
2011) (injunction “should be no more burdensome to the
defendant than necessary to provide complete relief to
the plaintiffs before the court”) (internal quotation mark
omitted); Lamb-Weston, Inc. v. McCain Foods, Ltd., 941
F.2d 970, 974 (9th Cir. 1991) (“Injunctive relief . . .

225a
must be tailored to remedy the specific harm alleged.”).
“ ‘The purpose of such interim equitable relief is not to
conclusively determine the rights of the parties but to
balance the equities as the litigation moves forward.’ ”
Azar, 911 F.3d at 582.
But “[t]here is no general requirement that an injunction affect only the parties in the suit.” Bresgal v.
Brock, 843 F.2d 1163, 1169 (9th Cir. 1987). “[A]n injunction is not necessarily made over-broad by extending benefit or protection to persons other than prevailing parties in the lawsuit—even if it is not a class
action—if such breadth is necessary to give prevailing
parties the relief to which they are entitled.” Id. at
1170; accord Regents of the Univ. of California v. U.S.
Dep’t of Homeland Sec., 908 F.3d 476, 511 (9th Cir.
2018), cert. granted sub nom. Dep’t of Homeland Sec. v.
Regents of the Univ. of California, 139 S. Ct. 2779 (2019).
With respect to immigration matters in particular,
the Ninth Circuit has “consistently recognized the authority of district courts to enjoin unlawful policies on a
universal basis.” E. Bay Sanctuary I, 932 F.3d at 779
(citing Regents of the Univ. of Cal., 908 F.3d at 511; Hawaii v. Trump, 878 F.3d 662, 701 (9th Cir. 2017), rev’d on
other grounds and remanded, 138 S. Ct. 2392 (2018);
Washington v. Trump, 847 F.3d 1151, 1166-67 (9th Cir.),
reconsideration en banc denied, 853 F.3d 933 & 858 F.3d
1168 (9th Cir. 2017), and cert. denied sub nom. Golden v.
Washington, 138 S. Ct. 448 (2017)). “These are, however, ‘exceptional cases.’ ” E. Bay Sanctuary Covenant
v. Barr, 934 F.3d 1026, 1029 (9th Cir. 2019) (“E. Bay
Sanctuary II”) (quoting City & Cty. of San Francisco v.
Trump, 897 F.3d 1225, 1244 (9th Cir. 2018)). That is
because, even though courts have the authority to issue

226a
nationwide preliminarily injunctions, doing so still requires “an articulated connection to a plaintiff ’s particular harm[.]” Id. (“nationwide injunction is [not] appropriate simply because this case presents a rule that
applies nationwide”); see also Azar, 911 F.3d at 582-84.
That requirement is not lifted in the immigration context. E.g., E. Bay Sanctuary II, 934 F.3d at 1029 (“Under our case law, however, all injunctions—even ones involving national policies—must be ‘narrowly tailored to
remedy the specific harm shown.’ ”); E. Bay Sanctuary
I, 932 F.3d at 779 (nationwide scope appropriate where
it “is necessary to provide the plaintiffs here with complete redress” and district court could not “have crafted
a narrower remedy that would have provided complete
relief to the [plaintiffs]”) (quoting Regents of the Univ.
of Cal., 908 F.3d at 512) (internal quotation mark omitted). 23

The Ninth Circuit requires an articulated connection to a plaintiff’s particular harms notwithstanding “the need for uniformity in
immigration policy.” See Regents of the Univ. of Cal., 908 F.3d
at 511 (“Allowing uneven application of nationwide immigration
policy flies in the face of these requirements.”); Hawaii v. Trump,
878 F.3d at 701 (“Because this case implicates immigration policy,
a nationwide injunction was necessary to give Plaintiffs a full expression of their rights.”); see also San Francisco v. Trump, 897
F.3d at 1244 (“These exceptional cases are consistent with our general rule that ‘[w]here relief can be structured on an individual basis, it must be narrowly tailored to remedy the specific harm shown’
—’an injunction is not necessarily made overbroad by extending
benefit or protection to persons other than prevailing parties in the
lawsuit . . . if such breadth is necessary to give prevailing parties the relief to which they are entitled.’ ”) (quoting Bresgal, 843
F.2d at 1170-71).
23

227a
The Ninth Circuit has emphasized that any preliminary injunction must be supported by evidence in the
record identifying the likely effect the enjoined conduct
would have on the particular plaintiffs. E.g., San Francisco v. Trump, 897 F.3d at 1244 (the “record is not sufficient to support a nationwide injunction” where “the
Counties’ tendered evidence is limited to the effect of
the Order on their governments and the State of California. . . . However, the record is not sufficiently
developed on the nationwide impact of the Executive Order.”); Azar, 911 F.3d at 584 (“On the present record, an
injunction that applies only to the plaintiff states would
provide complete relief to them. It would prevent the
economic harm extensively detailed in the record. Indeed, while the record before the district court was voluminous on the harm to the plaintiffs, it was not developed as to the economic impact on other states.”). “District judges must require a showing of nationwide impact or sufficient similarity to the plaintiff states to foreclose litigation in other districts, from Alaska to Puerto
Rico to Maine to Guam.” Azar, 911 F.3d at 584.
Finally, although the scope of the injunction in this
action is governed by the controlling Ninth Circuit law
explained above, the court notes that the Ninth Circuit
and the Supreme Court have both credited prudential
considerations supporting their admonition that nationwide preliminary injunctions are appropriate only in
“exceptional cases.” See San Francisco v. Trump, 897
F.3d at 1244; E. Bay Sanctuary II, 934 F.3d at 1029.
First, nationwide injunctions unconnected to a plaintiff’s
particular harm “unnecessarily ‘stymie novel legal challenges and robust debate’ arising in different judicial
districts.” E. Bay Sanctuary II, 934 F.3d at 1029; see

228a
also Azar, 911 F.3d at 583 (“The Supreme Court has repeatedly emphasized that nationwide injunctions have
detrimental consequences to the development of law and
deprive appellate courts of a wider range of perspectives.”). That consideration is relevant here, where actions raising similar changes are also currently pending
in district courts in New York, Maryland, and Washington, and perhaps more. Second, nationwide injunctions may fail to adequately recognize “the equities of
non-parties who are deprived the right to litigate in
other forums,” who “are essentially deprived of their
ability to participate[.]” Azar, 911 F.3d at 583. Third,
“[n]ationwide injunctions are also associated with forum
shopping, which hinders the equitable administration of
laws.” Id.
b.

Analysis

Here, the Counties and the States have demonstrated a likelihood of irreparable harm based on their
loss of Medicaid funding from the federal government
and increased operational costs they are likely to carry. 24
Those harms stem directly from disenrollment of individuals seeking medical care in their jurisdictions, residing in their jurisdictions, and enrolling in certain other
public benefits in their jurisdictions (for example, school
lunch programs). Those harms, and the supporting

Because the Organizations have not demonstrated a likelihood
of success on—or serious questions going to—the merits of their
APA causes of action (the only claims underlying their motion for
preliminary injunction), they have not demonstrated that an injunction should issue to prevent the harms they are likely to suffer,
so the court does not consider their alleged harms in determining
the scope of the injunction.
24

229a
record, are discussed in detail above. In order to preserve the status quo pending resolution on the merits
and to prevent certain of these irreparable harms, it is
necessary to enjoin implementation of the Rule with respect to those who reside in the States and Counties any
time following the date of this order, until this action is
resolved on the merits. Moreover, defendants must be
additionally enjoined from applying the Rule to any individual who is part of a household (as defined in the
Rule, 8 C.F.R. § 212.21(d)) that includes a person who
has resided in a plaintiff State or County any time following the date of this order, until this action is resolved
on the merits.
Defendants may, of course, continue to process applications and otherwise operate pursuant to the standards
employed prior to October 15, 2019—that is, pursuant to
the status quo.
The plaintiffs request a nationwide injunction based
primarily on what they argue would be the inadministrability of an immigration policy that is not administered
uniformly nationally. But a nationwide injunction is
not “appropriate simply because this case presents a
rule that applies nationwide.” E. Bay Sanctuary II,
934 F.3d at 1029; accord San Francisco v. Trump, 897
F.3d at 1244 (record must also be independently “developed on the nationwide impact” and the statewide impact).
Plaintiffs also argue that a nationwide injunction is
necessary to provide certainty to the public and quell
confusion about the implementation of the Rule. They
argue that general, nationwide confusion will cause disenrollment even in the States and Counties, causing the

230a
above-discussed harms. Plaintiffs have certainly demonstrated that confusion about the nation’s immigration
policies is a cause of disenrollment, even for those who
will not be subject to the public charge assessment.
However, plaintiffs have not demonstrated the marginal
effect a nationwide injunction would have on curing that
confusion for their residents over and above an injunction limited to their own borders. Although it is conceivable that a nationwide injunction pending resolution
on the merits would lead to less disenrollment due to
confusion within California than this injunction covering
all of California (and the other States), it is plaintiffs’
obligation to demonstrate the necessity of such relief.
This court does not suggest that no evidence could support such an injunction. Nor does the court suggest
that the record evidence is necessarily insufficient.
Rather plaintiffs, by devoting only a few cursory paragraphs in their briefs to the scope the injunction, have
failed to sufficiently tie that evidence to the need for an
injunction beyond their borders in order to remedy the
specific harms alleged and accepted by the court as
likely, imminent, and irreparable.
CONCLUSION

For the foregoing reasons, the States and Counties’
motion for a preliminary injunction is GRANTED, as
explained above. The Organizations’ motion is DENIED, because they do not fall within the zone of interests of the statute forming the basis of their APA claims.
PRELIMINARY INJUNCTION

Defendants U.S. Citizenship and Immigration
Services, Department of Homeland Security, Kevin
McAleenen as Acting Secretary of DHS, Kenneth T.

231a
Cuccinelli as Acting Director of USCIS, and Donald J.
Trump, as President of the United States, are hereby
enjoined from applying the Rule, in any manner, to any
person residing (now or at any time following the issuance of this order) in San Francisco City or County,
Santa Clara County, California, Oregon, the District of
Columbia, Maine, or Pennsylvania, or to anyone who is
part of a household (as defined by the Rule, 8 C.F.R.
§ 212.21(d)) that includes such a person. The injunction will remain in effect until a resolution of this action
on the merits.
IT IS SO ORDERED.

Dated:

Oct. 11, 2019
/s/ PHYLLIS J. HAMILTON
PHYLLIS J. HAMILTON
United States District Judge

232a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

No. 4:19-CV-5210-RMP
STATE OF WASHINGTON; COMMONWEALTH OF
VIRGINIA; STATE OF COLORADO; STATE OF DELAWARE;
STATE OF HAWAI’I; STATE OF ILLINOIS; STATE OF
MARYLAND; COMMONWEALTH OF MASSACHUSETTS;
DANA NESSEL, ATTORNEY GENERAL ON BEHALF OF
THE PEOPLE OF MICHIGAN; STATE OF MINNESOTA;
STATE OF NEVADA; STATE OF NEW JERSEY; STATE OF
NEW MEXICO; AND STATE OF RHODE ISLAND,
PLAINTIFFS

v.
UNITED STATES DEPARTMENT OF HOMELAND
SECURITY, A FEDERAL AGENCY; KEVIN K. MCALEENAN,
IN HIS OFFICIAL CAPACITY AS ACTING SECRETARY OF
THE UNITED STATES DEPARTMENT OF HOMELAND
SECURITY; UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES, A FEDERAL AGENCY; AND
KENNETH T. CUCCINELLI, II, IN HIS OFFICIAL CAPACITY
AS ACTING DIRECTOR OF UNITED STATES CITIZENSHIP
AND IMMIGRATION SERVICES, DEFENDANTS
[Filed: Oct. 11, 2019]
ORDER GRANTING PLAINTIFF STATES’ MOTION
FOR SECTION 705 STAY AND PRELIMINARY
INJUNCTION

233a
Fourteen states challenge the Department of Homeland Security’s expansive revision of the Public Charge
Rule. Congress and the U.S. Constitution authorize
this Court to provide judicial review of agency actions.
The Plaintiff States ask the Court to serve as a check on
the power asserted by the Department of Homeland Security to alter longstanding definitions of who is deemed
a Public Charge. After reviewing extensive briefing
and hearing argument, the Court finds that the Plaintiff
States have shown that the status quo should be preserved pending resolution of this litigation. 1 Therefore, the Court GRANTS the motion to stay the effective
date of the Public Charge Rule until the issues can be
adjudicated on their merits.
The Motion for a Section 705 Stay and for Preliminary Injunction, ECF No. 34, is brought by Plaintiffs
State of Washington, Commonwealth of Virginia, State
of Colorado, State of Delaware, State of Hawai’i, State

The Court has reviewed the Motion for Preliminary Injunction,
ECF No. 34, and supporting declarations and materials, ECF Nos.
35-87; the Plaintiff States’ First Amended Complaint, ECF No. 31;
the Briefs of Amici Curiae submitted in support of the Plaintiff
States’ Motion, ECF Nos. 111 (from nonprofit anti-domestic violence and anti-sexual assault organizations), 109 (from Health Law
Advocates and other public health organizations), 110 (from nonprofit organizations support of the disability community), 149
(from hospitals and medical schools), 150 (from nonprofit organizations supporting seniors), 151 (from health care providers and
health care advocates), 152 (from professional medical organizations), and 153 (from the Fiscal Policy Institute, the Presidents’
Alliance on Higher Education and Immigration, and other organizations addressing economic impact); the Federal Defendants’ Opposition to Preliminary Relief, ECF No. 155; and the Plaintiff
States’ Reply, ECF No. 158.
1

234a
of Illinois, State of Maryland, Commonwealth of Massachusetts, Attorney General Dana Nessel on behalf of the
People of Michigan, State of Minnesota, State of Nevada, State of New Jersey, State of New Mexico, and
State of Rhode Island (collectively, “the Plaintiff States”).
Defendants are the United States Department of
Homeland Security (“DHS”), Acting Secretary of DHS
Kevin K. McAleenan, United States Citizenship and Immigration Services (“USCIS”), and Acting Director of
USCIS Kenneth T. Cuccinelli II (collectively, “the Federal Defendants”). Pursuant to the Administrative
Procedure Act and the guarantee of equal protection under the Due Process Clause of the U.S. Constitution, the
Plaintiff States challenge the Federal Defendants’ redefinition of who may be denied immigration status as a
“public charge” in federal immigration law among applicants for visas or legal permanent residency.
I.

BACKGROUND

On August 14, 2019, DHS published in the Federal
Register a final rule, Inadmissibility on Public Charge
Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019) (to be codified at 8 C.F.R. pts. 103, 212, 213, 214, 245 and 248)
(“Public Charge Rule”), that redefines whether a visa
applicant seeking admission to the United States and
any applicant for legal permanent residency is considered inadmissible because DHS finds him or her “likely
at any time to become a public charge.” See 8 U.S.C.
§ 1182(a)(4). The Public Charge Rule is scheduled to
take effect on October 15, 2019. 84 Fed. Reg. at 41,292.

235a
A. The Immigration and Nationality Act’s Public
Charge Ground of Inadmissibility

The Immigration and Nationality Act of 1952 (“INA”),
8 U.S.C. § 1101 et seq., requires visa applicants and individuals applying to become permanent legal residents to
demonstrate that they are not “inadmissible.” 8 U.S.C.
§§ 1361, 1225(a), and 1255(a). 2 The INA sets forth ten
grounds of inadmissibility, all of which make a person
“ineligible to receive visas and ineligible to be admitted
to the United States.” 8 U.S.C. § 1182(a). This case
concerns one of those grounds: a likelihood of becoming a public charge. Id. § 1182(a)(4)(A).
In its current form, the INA provides that “[a]ny alien who, in the opinion of the consular officer at the time
of application for a visa, or in the opinion of the Attorney
General at the time of application for admission or adjustment of status, is likely at any time to become a public charge is inadmissible.” 3 8 U.S.C. § 1182(a)(4)(A).
The same provision requires the officer determining
whether an applicant is inadmissible as a public charge
to consider “at a minimum” the applicant’s

The INA “established a ‘comprehensive federal statutory scheme
for regulation of immigration and naturalization’ and set ‘the terms
and conditions of admission to the country and the subsequent
treatment of aliens lawfully in the country.’ ” Chamber of Commerce of the United States v. Whiting, 563 U.S. 582, 587 (2011)
(quoting De Canas v. Bica, 424 U.S. 351, 353 (1976)).
3
When Congress transferred the adjudicatory functions of the
former Commissioner of the Immigration and Naturalization Service (“INS”) to the Secretary of DHS, the Attorney General’s authority regarding the public charge provision was delegated to the
Director of USCIS, a division of DHS. See 6 U.S.C. § 271(b)(5).
2

236a
(I)

age;

(II)

health;

(III) family status;
(IV) assets, resources, and financial status; and
(V)

education and skills.

8 U.S.C. § 1182(a)(4)(B)(i).
The officer “may also consider any affidavit of support under section 213A [8 U.S.C. § 1183a] for purposes
of exclusion” on the public charge ground.
Id.
§ 1182(a)(4)(B)(ii).
B. Public Charge Rulemaking Process and Content
of the Public Charge Rule

The Public Charge Rule followed issuance of a proposed rule on October 10, 2018. Inadmissibility on Public
Charge Grounds, 83 Fed. Reg. 51,114 (proposed Oct. 10,
2018) (to be codified at 8 C.F.R. pts. 103, 212, 213, 214,
245 and 248). According to the Public Charge Rule,
DHS received “266,077 comments” on the proposed rule,
“the vast majority of which opposed the rule.” 84 Fed.
Reg. at 41,297.
The final rule made several changes to the proposed
rule. See 84 Fed. Reg. at 41,297-41,300. For instance:
Under the proposed rule, DHS would not have considered the receipt of benefits below the applicable
threshold in the totality of the circumstances. As a
consequence, USCIS would have been unable to consider an alien’s past receipt of public benefits below
the threshold at all, even if such receipt was indica-

237a
tive, to some degree, of the alien’s likelihood of becoming a public charge at any time in the future.
Under this final rule, adjudicators will consider and
give appropriate weight to past receipt of public benefits below the single durational threshold described
above in the totality of the circumstances.
84 Fed. Reg. at 41,297.
In addition, while the proposed rule provided for consideration of the receipt of Medicaid benefits by applicants under age 21, the Public Charge Rule does not
negatively assess applicants for being enrolled in Medicaid while under the age 21, while pregnant, or “during
the 60-day period after pregnancy.” 84 Fed. Reg. at
41,297.
1.

Redefinition of “Public Charge”

The Public Charge Rule, in its final format, defines
“public charge” to denote “an alien who receives one or
more public benefits, as defined in paragraph (b) of this
section, for more than 12 months in the aggregate within
any 36-month period (such that, for instance, receipt
of two benefits in one month counts as two months).”
84 Fed. Reg. at 41,501 (to be codified at 8 C.F.R.
§ 212.21(a)) 4. The Public Charge Rule redefines “public benefit” to include: “(1) [a]ny Federal, State, local,
or tribal cash assistance for income maintenance (other
than tax credits),” including Supplemental Security Income (“SSI”), Temporary Assistance for Needy Fami-

The Court’s subsequent references to the provisions of the Public Charge Rule will use the C.F.R. citations scheduled to take effect on October 15, 2019.
4

238a
lies (“TANF”) or state “General Assistance”; (2) Supplemental Nutrition Assistance Program (“SNAP,” colloquially known as “food stamps”); (3) housing assistance
vouchers under Section 8 of the U.S. Housing Act of
1937; (4) Section 8 “Project-Based” rental assistance, including “Moderate Rehabilitation”; (5) Medicaid, with
exceptions for benefits for an emergency medical condition, services or benefits under the Individuals with Disabilities Education Act (“IDEA”), school-based services
or benefits, and benefits for immigrants under age 21 or
to a woman during pregnancy or within 60 days after
pregnancy; and (6) public housing under Section 9 of the
U.S. Housing Act of 1937. 8 C.F.R. § 212.21(b).
2. Weighted Factors for Totality of the Circumstances Determination

The Public Charge Rule instructs officers to evaluate
whether an applicant is “likely to become a public
charge” using a “totality of the circumstances” test that
“at least entail[s] consideration of the alien’s age; health;
family status; education and skills; and assets, resources,
and financial status” as described in the Rule. 8 C.F.R.
§ 212.22(a), (b). The Public Charge Rule then prescribes
a variety of factors to weigh “positively,” in favor of a
determination that an applicant is not a public charge,
and factors to weigh “negatively,” in favor of finding the
applicant inadmissible as a public charge. 8 C.F.R.
§ 212.22(a), (b), and (c); see also, e.g., 84 Fed. Reg. 41,295
(“Specifically, the rule contains a list of negative and
positive factors that DHS will consider as part of this
determination, and directs officers to consider these factors in the totality of the alien’s circumstances. . . .
The rule also contains lists of heavily weighted negative
factors and heavily weighted positive factors.”). The

239a
Public Charge Rule attributes heavy negative weight to
the following circumstances:
(1) “not a full-time student and is authorized to
work, but is unable to demonstrate current employment, recent employment history, or a reasonable
prospect of future employment”;
(2) “certified or approved to receive one or more
public benefits . . . for more than 12 months in
the aggregate within any 36-month period, beginning
no earlier than 36 months prior to the alien’s application for admission or adjustment of status”;
(3) “diagnosed with a medical condition that is
likely to require extensive medical treatment or institutionalization or that will interfere with the alien’s
ability to provide for himself or herself, attend school,
or work; and . . . uninsured and has neither the
prospect of obtaining private health insurance, nor
the financial resources to pay for reasonably foreseeable medical costs related to such medical condition”;
and
(4) “previously found inadmissible or deportable
on public charge grounds[.]”
8 C.F.R. § 212.22(c)(1)(i)-(iv).
Conversely, the Public Charge Rule attributes heavy
positive weight to three factors:
(1) an annual household income, assets, or resources above 250 percent of the Federal Poverty
Guidelines (“FPG”) for the household size;
(2) an annual individual income of at least 250
percent of the FPG for the household size; and

240a
(3) private health insurance that is not subsidized under the Affordable Care Act.
See 8 C.F.R. § 212.22(c)(2)(i)-(iii).
The Public Charge Rule also directs officers to consider whether the applicant (1) is under the age of 18 or
over the minimum early retirement age for social security; (2) has a medical condition that will require extensive treatment or interfere with the ability to attend
school or work; (3) has an annual household gross income under 125 percent of the FPG; (4) has a household
size that makes the immigrant likely to become a public
charge at any time in the future; (5) lacks significant assets, like savings accounts, stocks, bonds, or real estate;
(6) lacks significant assets and resources to cover reasonably foreseeable medical costs; (7) has any financial
liabilities; (8) has applied for, been certified to receive,
or received public benefits after October 15, 2019; (9)
has applied for or has received a USCIS fee waiver for
an immigration benefit request; (10) has a poor credit
history and credit score; (11) lacks private health insurance or other resources to cover reasonably foreseeable
medical costs; (12) lacks a high school diploma (or equivalent) or a higher education degree; (13) lacks occupational skills, certifications, or licenses; or (14) is not proficient in English. See 8 C.F.R. § 212.22(b).
The officer administering the public charge admissibility test has the discretion to determine what factors
are relevant and may consider factors beyond those enumerated in the rule. See 8 C.F.R. § 212.22(a)
C.

Applicability of the Rule

The Public Charge Rule applies to any non-citizen
subject to section 212(a)(4) of the INA, 8 U.S.C.

241a
§ 1182(a)(4), who applies to DHS anytime on or after October 15, 2019, for admission to the United States or for
adjustment of status to that of lawful permanent resident. 8 C.F.R. § 212.20.
D. Summary of the Counts of the First Amended
Complaint

On the same day that the Public Charge Rule was
published in the federal register, the fourteen Plaintiff
States filed a lawsuit seeking to enjoin the Federal Defendants from enacting the rule. The Plaintiff States
subsequently filed a First Amended Complaint, ECF
No. 31, stating four causes of action: (1) a violation of
the APA, 5 U.S.C. § 706(2)(C), for agency action “not in
accordance with law”; (2) a violation of the APA, 5 U.S.C.
§ 706(2)(C), for agency action “in excess of statutory jurisdiction [or] authority” or “ultra vires”; (3) a violation
of the APA, 5 U.S.C. § 706(2)(C), for agency action that
is “arbitrary, capricious, [or] an abuse of discretion”;
and (4) a violation of the guarantee of equal protection
under the U.S. Constitution’s Fifth Amendment Due
Process Clause on the basis that the Public Charge Rule
allegedly was motivated by an intent to discriminate
based on race, ethnicity, or national origin. ECF No.
31 at 161-70.
The Federal Defendants have not yet filed an answer,
but they have responded to the pending motion. ECF
No. 155. In their response, the Federal Defendants
challenge the Plaintiff States’ standing to bring this action. Id. at 18.
II. JURISDICTION

The Court has subject-matter jurisdiction over this
action pursuant to 28 U.S.C. § 1331.

242a
III. STANDING AND RIPENESS
A.

Standing Requirement

Article III, section 2 of the Constitution extends the
power of the federal courts to only “Cases” and “Controversies.” U.S. Const., Art. III, sect. 2. “Those two
words confine ‘the business of federal courts to questions presented in an adversary context and in a form
historically viewed as capable of resolution through the
judicial process.’ ” Massachusetts v. EPA, 549 U.S.
497, 516 (2007) (quoting Flast v. Cohen, 392 U.S. 83, 95
(1968)).
To establish standing to sue under Article III, “a
plaintiff must demonstrate ‘that it has suffered a concrete and particularized injury that is either actual or
imminent, that the injury is fairly traceable to the defendant, and that it is likely that a favorable decision will
redress that injury.’ ” Washington v. Trump, 847 F.3d
1151, 1159 (9th Cir. 2017) (quoting Massachusetts, 549
U.S. at 517)). While an injury sufficient for constitutional standing must be concrete and particularized rather than conjectural or hypothetical, “an allegation of
future injury may suffice if the threatened injury is certainly impending, or there is a substantial risk that the
harm will occur.” Susan B. Anthony List v. Driehaus,
134 S. Ct. 2334, 2341 (2014) (internal quotations omitted).
The Federal Defendants assert that the Plaintiff
States lack standing because their injuries are speculative and do not qualify as injuries-in-fact. ECF No. 155
at 18-21. The Federal Defendants further maintain
that the Plaintiff States’ described injuries would be the

243a
result of third parties’ independent decisions to “unnecessarily . . . forgo all federal benefits,” which the
Federal Defendants argue is too weak a basis to support
that the injury is fairly traceable to the Public Charge
Rule. ECF No. 155 at 19-21.
At this early stage in the litigation, the Plaintiff
States may satisfy their burden with allegations in their
Amended Complaint and other evidence submitted in
support of their Motion for a Section 705 Stay and Preliminary Injunction. See Washington, 847 F.3d at
1159. Amici briefs also may support the Plaintiff
States’ showing of the elements of standing. See SEC
v. Private Equity Mgmt. Grp., Inc., No. CV 09-2901 PSG
(Ex), 2009 U.S. Dist. LEXIS 75158, at *18 n.5, 2009 WL
2488044 (C.D. Cal. Aug. 10, 2009) (exercising the court’s
discretion to consider evidence submitted by amicus curiae where it was “in a sense, the same evidence produced by a party”).
B.

Alleged Harms
1.

Missions of State Benefits Programs

The Plaintiff States allege that they “combine billions
of dollars of federal funds from Medicaid with billions of
dollars of state funds to administer health care programs for millions” of the Plaintiff States’ residents.
ECF No. 34 at 26; see ECF Nos. 37 at 4; 38 at 4; 40 at 4.
The Plaintiff States argue that the health programs administered by them enable beneficiaries in varying degrees to access preventative care, chronic disease management, prescription drug treatment, mental health
treatment, and immunizations. See, e.g., ECF No. 40
at 5-7. The Plaintiff States contend that they administer their programs “to ensure the health, well-being, and

244a
economic self-sufficiency” of all of their residents and to
provide “comprehensive and affordable health insurance coverage” to State residents. ECF Nos. 41 at 7;
45 at 5.
Multiple submissions from the Plaintiff States and
the amici briefs endorse an estimate that “the Public
Charge Rule could lead to Medicaid disenrollment rates
ranging from 15 percent to 35 percent” among Medicaid
and Children’s Health Insurance Program enrollees
who live in mixed-status households, which “equates to
between 2.1 and 4.9 million beneficiaries disenrolling
from the programs.” ECF No. 151 at 20-21; see also
ECF Nos. 111-1 at 69; 149 at 15-16. The Plaintiff
States argue that residents’ disenrollment or foregoing
enrollment “unwinds all the progress that has been
achieved” and results “in a sicker risk pool and increase[d]
premium costs for all remaining residents enrolled in
commercial coverage” through the state plans. ECF
Nos. 37 at 14; 43 at 7.
As stated in the comments submitted to DHS by the
Dana-Farber Cancer Institute, “regulations that will
make immigrant families fearful of seeking health care
services like primary care and routine health screenings
will increase the burden of both disease and healthcare
costs across the country.” ECF No. 35-2 at 3.
In addition to making receipt of Medicaid health insurance and other public benefit programs a negative
factor, the Plaintiff States proffer that the Public Charge
Rule disincentivizes individuals from seeking medical
diagnoses and treatment because a diagnosis of a medical condition requiring extensive medical treatment or
institutionalization will be weighed as a heavy negative
factor when combined with a lack of health insurance or

245a
independent resources to cover the associated costs; or
weighed as a negative factor even with health insurance
or independent resources to cover the associated costs.
See ECF Nos. 35-2 at 3; 35-1 at 158, 165, and 168.
Health care professionals noted that the weighting of
these factors “creates a strong incentive for immigrants
to avoid medical examinations and tests to prevent identification of any serious health problem.” ECF No. 352 at 3; see also ECF No. 65 at 14 (“Fear of the rule
change and its effects on utilizing cancer-screening services for people of a variety of citizenship status can lead
to grave consequences both in lives lost from treatable
cancers and intensive financial costs of late stage treatment and related care.”). Delaying diagnosis and treatment until a condition results in a medical emergency
compromises the health and wellbeing of individuals and
families and increases the cost of health care for the hospitals, the Plaintiff States, and the Plaintiff States’ residents as a whole. See ECF Nos. 35-2 at 3; 109 at 18, 47.
Health care providers within the Plaintiff States’
health systems likely will incur harms as well. A larger
uninsured population is likely to “generate significant
uncompensated care costs,” which, in turn, are likely to
“fall disproportionately on providers in low-income communities who rely on Medicaid for financial support.”
ECF No. 109 at 48. Service cuts to make up for the
uncompensated care costs would then result in fewer patients being able to access primary care services. Id.
Another filing supports that the Public Charge Rule
likely will burden the doctor-patient relationship. See
ECF No. 151. First, amici health care providers highlight the “well-established state interest in protecting
doctor-patient consultations from state intrusion so that

246a
patients and doctors may work together to determine
the best course of medical care.” Id. at 19. By “entwining medical decision-making” with immigration considerations, the health care providers maintain that the
Public Charge Rule will constrain “clinicians’ abilities to
recommend public benefit programs as well as their access to reliable forthright disclosures from their patients.” Id.; see also ECF No. 60 at 9 (“Families have
asked our providers about applying for Medicaid or
SNAP in the past, but our providers note that they rescinded these requests” after hearing about the proposed public charge rule.). Furthermore, health care
providers anticipate that “forcing non-citizens to choose
between medical treatment or potential deportation or
family separation” will induce “patients to miss followup appointments or forego treatment” that a clinician
has prescribed. Id. at 20.
The Plaintiff States submitted declarations and copies of the comments submitted to DHS during the rulemaking process supporting the conclusion that disenrollment from publicly-funded health insurance programs and related benefits already has begun to occur
in anticipation of the effective date of the Public Charge
Rule. See ECF Nos. 35-2 at 3; 35-3 at 11; see also ECF
Nos. 152 at 8; 153 at 17.
2. Health and Well-Being of Plaintiff State Residents

The Plaintiff States’ evidence supports that decreased utilization of immunizations against communicable diseases “could lead to higher rates of contagion
and worse community health,” both in the immigrant
population and the U.S. citizen population because of the

247a
nature of epidemics. ECF No. 65 at 14 (further recounting that “[d]isease prevention is dependent upon
access to vaccines and high vaccination rates”); see also,
e.g., ECF No. 44 at 9.
State health officials anticipate that the Public
Charge Rule and its potential to incentivize disenrollment from “critical services” “will unduly increase the
number of people living in poverty and thus destabilize
the economic health” of communities in the Plaintiff
States. ECF No. 37 at 14.
The amici briefs submitted for the Court’s consideration, in addition to the Plaintiff States’ submissions, detail harm specific to particular vulnerable groups in the
Plaintiff States and throughout the country.
a.

Children and Pregnant Women

Perhaps best documented in the extensive submissions in support of the instant motion are the anticipated
harms to children from disenrollment as a result of the
Public Charge Rule. DHS acknowledges in the Public
Charge Rule notice that the Public Charge Rule may
“increase the poverty of certain families and children,
including U.S. citizen children.”
84 Fed. Reg. at
41,482. The Plaintiff States focus on harm to children
stemming from lack of access to health care, sufficient
and nutritious food, and adequate housing.
A chilling effect from the Public Charge Rule will deter eligible people, including U.S. Citizen children of immigrant parents, from accessing non-cash public benefits, which will result in further injury to the Plaintiff
States. For instance, disenrolling from SNAP benefits
and other supplemental nutrition services is likely to
lead to food insecurity with resultant injuries. See,

248a
e.g., ECF No. 35-2 at 7. Forgoing medical care for children or adult family members because of fear of using
non-cash public benefits will lead to less preventative
care and result in increased hospital admissions and
medical costs, and poor health and developmental delays
in young children. ECF No. 35-2 at 278-79. Food insecurity and poor health care ultimately result in longterm health issues and lower math and reading achievement test scores among school children. Id.
With respect to housing, fair market rent without
non-cash public benefits may be unaffordable in highercost areas of the Plaintiff States even for a family with
two household members who each work full-time minimum wage jobs. See ECF No. 77 at 17 (providing detail regarding the Massachusetts housing market).
Therefore, “[f]or immigrants who work low-wage jobs
and their families, many of which include U.S. citizen
children, dropping housing benefits to avoid adverse immigration consequences . . . can be reasonably expected to upend their financial stability and substantially increase homelessness.”
Id.
The Plaintiff
States submitted evidence that homelessness and housing instability during childhood “can have lifelong effects on children’s physical and mental health.” ECF
No. 35-2 at 39. When families lose their residences because they no longer receive financial assistance with
rent, children in those households “are more likely to develop respiratory infections and asthma,” among other
harms. ECF No. 37 at 14.
b.

Disabled Individuals

Amici provide a compelling analysis of how the factors introduced by the Public Charge Rule dispropor-

249a
tionately penalize disabled applicants by “triple-counting” the effects of being disabled. ECF No. 110 at 23.
The medical condition and use of Medicaid or other services used to facilitate independence for disabled individuals each may be assessed negatively against an applicant. See 8 C.F.R. § 212.22(b); see also ECF No. 110
at 23. An individual who is disabled with a medical condition likely to require extensive medical treatment
would be disqualified from the positive “health” factor,
even if he or she is in good health apart from the disability. See id. Therefore, there is a significant possibility that disabled applicants who currently reside in
the Plaintiff States, or legal permanent residents who
return to the U.S. after a 180-day period outside of the
U.S., would be deemed inadmissible primarily on the basis of their disability.
In addition, the chilling effect arising out of predictable confusion from the changes in the Public Charge
Rule may cause immigrant parents to refuse benefits for
their disabled U.S. citizen children or legal permanent
resident children. ECF No. 110 at 26. Notably, disenrollment of disabled individuals from services in childhood is the type of harm that may result in extra costs
to Plaintiff States far into the future because of the citizen and legal permanent resident children reaching
adulthood with untreated disabilities.
c.

Elderly

Amici have argued convincingly that the Public
Charge Rule will have a substantial negative impact on
the elderly. Many of the Public Charge Rule’s negative
factors inherently apply to the elderly. For instance, being over the age of sixty-two may be weighed negatively
against an applicant. ECF No. 150 at 16; see 8 C.F.R.

250a
§ 212.22(b)(1)(i). Additionally, many elderly people
rely on their families for support. See id. at 19-20.
Although immigration law in the United States has traditionally favored family unification, the Public Charge
Rule may penalize people for living with their families,
counting their family reliance against them. See ECF
No. 150 at 19 (citing the “preference allocation for familysponsored immigrants” in 8 U.S.C. § 1153(a)). Furthermore, the new rule penalizes people with a medical diagnosis that will require extensive treatment, and most
adults over fifty years old have at least one chronic
health condition. Id. at 18 (citing AARP Public Policy
Institute, Chronic Care: A Call to Action for Health
Reform, 11-12, 16 (2009); University of New Hampshire
Institute on Disability/UCED, 2017 Disability Statistics
Annual Report (2018)); see 8 C.F.R. § 212.22(b)(2)(ii)(B).
Many elderly people rely on non-cash forms of public assistance like Medicaid, SNAP, and public housing and
rental assistance. ECF No. 150 at 15. That assistance
will be counted against them by the Public Charge Rule,
predictably leading to disenrollment from such programs. See id. at 27; 8 C.F.R. § 212.22(d). Amici persuasively argue that without assistance from important
programs like Medicaid elderly people will experience
additional and exacerbated medical problems, “creating
a new and uncompensated care burden on society.”
ECF No. 150 at 27.
Moreover, many elderly people do not satisfy the
Public Charge Rule’s positive factors. For instance,
one of the Rule’s positive factors is having an income
that exceeds 250 percent of the federal poverty level.
Id. at 16; 8 C.F.R. § 212.22(c)(2)(ii). Amici state that
most people over the age of sixty-two live in moderate

251a
to low-income households, making them ineligible for
this positive factor. See ECF No. 150 at 16 (citing Public
Charge Proposed Rule: Potentially Chilled Population Data Dashboard, Mannat (Oct. 11, 2018)). Many
people also will have their income level counted negatively against them because having an income of less
than 125 percent of the federal poverty level is a negative factor. Id.; see 8 C.F.R. § 212.22(b)(4)(i).
d.

Domestic Violence Victims

Amici organizations who support victims of domestic
violence identify an overlap between the assistance a
woman may seek or receive as she leaves an abusive relationship and establishes independence and the new
definition of “public benefit” in the Public Charge Rule.
See ECF No. 111 at 20-32. In addition, the Public
Charge Rule does not except health issues resulting
from abuse from the negative medical condition factors.
See id.; 8 C.F.R. § 212.22(b). The amici represent that
the chilling effect is occurring in anticipation of the Public Charge Rule, with “victims . . . already foregoing critical housing, food, and healthcare assistance out
of fear that it will jeopardize their immigration status.”
ECF No. 111 at 22. Foregoing non-cash public benefits by domestic violence victims risks “broader impacts” to the health and wellbeing of residents throughout the Plaintiff States “as a result of unmitigated trauma
to victims and their families.” Id. at 24.
3. Financial Harm to Plaintiff States

The Plaintiff States and the amici briefs make a cohesive showing of ongoing financial harm to the States
as disenrollment from “safety net” benefits programs
predictably occurs among vulnerable populations. As

252a
noted above, both immigrant and U.S. citizen children of
immigrants are more likely to experience poorer longterm outcomes, including impaired growth, compromised cognitive development, and obesity without access to non-cash public benefits. ECF No. 149 at 21.
Further, exposure to housing insecurity and homelessness often is associated with increased vulnerability to a
range of adult diseases such as heart attacks, strokes,
and smoking-related cancers. Id. at 22. Even if the
immigrant children no longer reside in the Plaintiff
States, the affected U.S. citizen children will remain entitled to live in the Plaintiff States, or in other states not
plaintiffs before this Court, once they are adults. Therefore, the Plaintiff States face increased costs to address
the predictable effects of the adverse childhood experiences over the course of these U.S. citizen children’s lifetimes, potentially fifty years or more down the road.
The Plaintiff States further face likely pecuniary
harm from contagion due to unvaccinated residents, resulting in outbreaks of influenza, measles, and a higher
incidence of preventable disease among immigrants as
well as U.S. citizens. ECF No. 38 at 7-8. It is reasonably certain that any outbreaks would result in “reduced
days at work, reduced days at school, lower productivity, and long-term negative economic consequences,” as
well as the cost of responding to an epidemic for state
and local health departments. Id.
The Plaintiff States also allege that they will incur
additional administrative costs as a result of the Public
Charge Rule, including “training staff, responding to client inquiries related to the Final Rule, and modifying
existing communications and forms.” ECF No. 40 at 78 (declaration from the Deputy Commissioner of the

253a
New Jersey Department of Human Services, adding
“Because the rules for determining whether someone is
a public charge are technical and confusing, it will be extremely difficult to train frontline staff to have the requisite understanding necessary to help potential applicants determine whether they would be deemed a public
charge under the proposed Final Rule.”). The Plaintiff
States also may incur the expense of developing alternative programming and enacting new eligibility rules
across multiple systems of benefits to “mirror” the effect of Medicaid and other federal programs and to mitigate the negative effects from the Public Charge Rule
on individual and community health. See ECF No. 37
at 15.
C.

Application of Harms to Standing Requirements

The Plaintiff States argue that they have made a
clear showing of each element of standing by showing
that “the Rule will lead to a cascade of costs to states as
immigrants disenroll from federal and state benefits
programs, . . . thereby frustrating the States’ mission in creating such programs and harming state residents.” ECF No. 158 at 11 (citing cases supporting
state standing based on a proprietary interest and a
quasi-sovereign interest in the health and wellbeing of
the state’s residents). The Plaintiff States further allege future economic harm. Id. at 35 (citing a declaration at ECF No. 66 at 19 estimating an annual reduction
in total economic output of $41.8 to $97.5 million and
other damage to the Washington State economy alone).
The Federal Defendants argue that the Plaintiff
States’ alleged harm is not fairly traceable to the Public
Charge Rule but would be the result of third-party de-

254a
cisions, such as “unnecessarily choosing to forgo all federal benefits.” See ECF No. 155 at 19-21. The Supreme Court recently addressed the Federal Defendants’ traceability argument in Dep’t of Commerce v. New
York, 139 S. Ct. 2551 (2019), in which a group of states
and other plaintiffs challenged the Secretary of Commerce’s decision to inquire about citizenship status on
the census questionnaire. Id. at 2557. There, the Government argued “that any harm to respondents is not
fairly traceable to the Secretary’s decision, because such
harm depends on the independent action of third parties
choosing to violate their legal duty to respond to the census.” 139 S. Ct. at 2565. The Supreme Court rejected
the Government’s argument, concluding:
But we are satisfied that, in these circumstances, respondents have met their burden of showing that
third parties will likely react in predictable ways to
the citizenship question, even if they do so unlawfully
and despite the requirement that the Government
keep individual answers confidential. . . . Respondents’ theory of standing . . . does not rest
on mere speculation about the decisions of third parties; it relies instead on the predictable effect of Government action on the decisions of third parties.
139 S. Ct. at 2566.
The Plaintiff States have made a strong showing of
the predictable effect of the Government action on individual residents who are not parties in this action, and
in turn, the predictable effect on the Plaintiff States.
The complexities of the multi-factor totality of the circumstances test and the new definition of “public charge”
that USCIS officers must administer are not fully cap-

255a
tured in this Order. Nevertheless, from the components of the rule that the Court already has closely examined, it is predictable that applying the multi-factor
Public Charge Rule would result in disparate results depending on each USCIS officer. Moreover, the general
message conveyed to USCIS officers, immigrants, legal
permanent residents, and the general public alike is unmistakable: the Public Charge Rule creates a wider
barrier to exclude individuals seeking to alter their immigration status.
Therefore, it is further predictable that individuals
who perceive that they or their children may fall within
the broadened scope of the public charge inadmissibility
ground will seek to reduce that risk by disenrolling from
non-cash public benefits.
Otherwise stated, the
chilling effect of the Public Charge Rule likely will lead
individuals to disenroll from benefits, because receipt of
those benefits likely would subject them to a public
charge determination, and, equally foreseeably, because
the Public Charge Rule will create fear and confusion
regarding public charge inadmissibility.
Also predictable is that the chilling effect will negatively impact the Plaintiff States’ missions, the health
and wellbeing of their residents, citizens and non-citizens
alike, and the Plaintiff States’ budgets and economies.
“ ‘A causal chain does not fail simply because it has several ‘links,’ provided those links are not hypothetical or
tenuous.’ ” California v. Azar, 911 F.3d 558, 571-72
(9th Cir. 2018) (quoting Maya v. Centex Corp., 658 F.3d
1060, 1070 (9th Cir. 2011) (internal quotation omitted)).
While the magnitude of the injuries may remain in dispute, the Plaintiff States have shown that their likely injuries are a predictable result of the Public Charge Rule.

256a
See California, 911 F.3d at 572 (citing United States v.
Students Challenging Regulatory Agency Procedures,
412 U.S. 669, 689 n.14 (1973), for the proposition that injuries of only a few dollars can establish standing).
D.

Ripeness

A case is ripe for adjudication only if it presents “issues that are ‘definite and concrete, not hypothetical or
abstract.’ ” Clark v. City of Seattle, 899 F.3d 802, 809
(9th Cir. 2018) (quoting Bishop Paiute Tribe v. Inyo
Cty., 863 F.3d. 1144, 1153 (9th Cir. 2017)). Just as the
Federal Defendants argue that the Plaintiff States’ alleged harms are not concrete or imminent, they make
the same arguments for purposes of ripeness. The Court
applies the same analysis as discussed for standing and
concludes that the alleged harms are sufficiently concrete and imminent to support ripeness.
The Federal Defendants also argue that the Court
should decline to hear the case on the basis of prudential
ripeness. See ECF No. 155 at 25. Courts resolve questions of prudential ripeness “in a twofold aspect,” evaluating “both the fitness of the issues for judicial decision
and the hardship to the parties of withholding court consideration.” Abbott Labs. v. Gardner, 387 U.S. 136, 148
(1967). Where review of an administrative action is at
issue, “[f]itness for resolution depends on the nature of
the issue and the finality of the administrative agency’s
action.” Hotel Emples. & Rest. Emples. Int’l Union v.
Nev. Gaming Comm’n, 984 F.2d 1507, 1513 (9th Cir.
1993). Once a court has found that constitutional ripeness is satisfied, the prudential ripeness bar is minimal,
as “‘a federal court’s obligation to hear and decide’ cases
within its jurisdiction is ‘virtually unflagging.’ ” Susan
B. Anthony List, 572 U.S. at 167 (quoting Lexmark Int’l,

257a
Inc. v. Static Control Components, Inc., 572 U.S. 118,
125-26 (2014) (internal quotation omitted)).
The Federal Defendants misconstrue the issues
raised by the Amended Complaint and the record on the
instant motion. Challenges to the validity of a rule under the judicial review provisions of the APA present issues fit for adjudication by a court. See Abbott Laboratories, 387 U.S. at 149-52 (review of a rule before it has
been applied and enforced is available where “the regulations are clear-cut,” present a legal issue, and constitute the agency’s formal and definitive statement of policy). Moreover, the Plaintiff States’ harm would only
be exacerbated by delaying review. For example, delaying review increases the potential for spread of infectious diseases among the populations of the Plaintiff
States, as well as to nearby states, as a result of reduced
access to health care and vaccinations. Therefore, the
Court finds this matter is ripe for review.
E.

Zone of Interests

The Federal Defendants argue that the Plaintiff
States do not fall within the “zone of interests” of the INA
because: “It is aliens improperly determined inadmissible, not States, who ‘fall within the zone of interests
protected’ by any limitations implicit in § 1182(a)(4)(A)
and § 1183 because they are the ‘reasonable—indeed,
predictable—challengers’ to DHS’s inadmissibility decisions.” ECF No. 155 at 28 (citing Match-E-Be-NashShe-Wish Band of Pottawatomi Indians v. Patchak, 567
U.S. 209, 227 (2012); 8 U.S.C. § 1252 (providing for appeal by an individual of a final order of removal based on
a public charge determination)).

258a
However, the zone of interests test is “not ‘especially
demanding.’ ” Lexmark Int’l, 572 U.S. at 130 (quoting
Match-E-Be-Nash-She-Wish, 567 U.S. at 225). Particularly where a plaintiff pursues relief through the APA,
the Supreme Court has directed that the test shall be
applied “in keeping with Congress’s ‘evident intent’
when enacting the APA ‘to make agency action presumptively reviewable.’ ” Match-E-Be-Nash-She-Wish,
567 U.S. at 225 (quoting Clarke v. Sec. Indus. Ass’n, 479
U.S. 388, 399 (1987)). There is no requirement that a
plaintiff show “any ‘indication of congressional purpose
to benefit the would-be plaintiff.’ ” Id. (quoting Clarke,
479 U.S. at 399-400). Moreover, the “benefit of any
doubt goes to the plaintiff.” Id. “The test forecloses
suit only when a plaintiff’s ‘interests are so marginally
related to or inconsistent with the purposes implicit in
the statute that it cannot reasonably be assumed that
Congress intended to permit the suit.’ ” Id. (quoting
Clarke, 479 U.S. at 399).
The Plaintiff States meet this lenient standard by
tracing the origins of the public charge exclusion enacted
by Congress in 1882 “to protect state fiscs.” ECF No.
158 at 14. The concept of a “public charge” exclusion
originally was incorporated into U.S. law by Congress in
1882 to protect states from having to spend state money
to provide for immigrants who could not provide for
themselves. ECF No. 158 at 14-15 n.3. The Plaintiff
States reasonably extrapolate: “By imposing significant uncompensated costs on the Plaintiff States and undermining their comprehensive public assistance programs, the Rule undermines the very interests advanced by the statutes on which DHS relies.” ECF
No. 158 at 14-15 (citing Texas v. United States, 809 F.3d

259a
124, 163 (5th Cir. 2015), aff ’d, 136 S. Ct. 2271 (2016) for
the proposition that it “recogniz[es] states’ economic interests in immigration policy”). Thus, states were at
the center of the zone of interest for use of the term
“public charge” from the beginning of the relevant statutory scheme, and the Plaintiff States continue to have
interests that are sufficiently consistent with the purposes implicit in the public charge inadmissibility policy
to challenge its application now.
The Court finds that the Plaintiff States have standing to pursue this action, that the issues are ripe for adjudication, and that the Plaintiff States are within the
zone of interests of the Public Charge Rule.
IV. LEGAL STANDARDS FOR STAYS AND PRELIMINARY INJUNCTIONS IN CASES CHALLENGING
AGENCY ACTION

The Administrative Procedure Act’s stay provision
states, in relevant part:
On such conditions as may be required and to the extent necessary to prevent irreparable injury, the reviewing court . . . may issue all necessary and
appropriate process to postpone the effective date of
an agency action or to preserve status or rights pending conclusion of the review proceedings.
5 U.S.C. § 705. 5

Alternatively, Section 705 authorizes an agency itself to temporarily stay the effective date of its rule pending judicial review,
when it “finds that justice so requires.” 5 U.S.C. § 705.
5

260a
The Court applies a closely similar standard in deciding whether to stay the effect of a rule under section 705
as it does in deciding whether to issue a preliminary injunction under Fed. R. Civ. P. Rule 65(a). Nken v.
Holder, 556 U.S. 418, 425-26 (2009); see also Hill Dermaceuticals, Inc. v. United States FDA, 524 F. Supp. 2d
5, 8 (D.D.C. 2007). For a preliminary injunction, the
moving party must demonstrate: (1) likelihood of success on the merits; (2) likelihood of irreparable harm in
the absence of preliminary relief; (3) that the balance of
equities tips in the moving party’s favor; and (4) that an
injunction is in the public interest. Winter v. Natural
Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). For a stay,
the traditional test articulates the third factor in slightly
different terms: “ ‘whether issuance of the stay will
substantially injure the other parties.” Nken, 556 U.S.
at 419 (quoting Hilton v. Braunskill, 481 U.S. 770, 776
(1987)).
Provided the Court considers all four parts of the
Winter test, the Court may supplement its preliminary
injunction inquiry by considering whether “the likelihood of success is such that ‘serious questions going to
the merits were raised and the balance of hardships tips
sharply in [the requesting party’s] favor.’ ” Alliance
for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1132 (9th
Cir. 2011) (quoting Clear Channel Outdoor, Inc. v. City
of L.A., 340 F.3d 810, 813 (9th Cir. 2003)). The Ninth
Circuit’s “sliding scale” approach survives Winter, “so
long as the [movant] also shows that there is a likelihood
of irreparable injury and that the injunction is in the
public interest.” Alliance for the Wild Rockies, 632
F.3d at 1135.

261a
Both a stay under section 705 and a preliminary injunction serve the purpose of preserving the status quo
until a trial on the merits can be held. Univ. of Texas
v. Camenisch, 451 U.S. 390, 395 (1981); Boardman v.
Pac. Seafood Grp., 822 F.3d 1011, 1024 (9th Cir. 2016);
Sierra Club v. Jackson, 833 F. Supp. 2d 11, 28 (D.D.C.
2012) (“Such a stay is not designed to do anything other
than preserve the status quo.”) (citing 5 U.S.C. § 705).
Section 705 and preliminary injunctions under Rule
65, although determined by application of similar standards, offer different forms of relief. Nken, 556 U.S. at
428. An injunction “is directed at someone, and governs that party’s conduct.” Id. “By contrast, instead
of directing the conduct of a particular actor, a stay operates upon the judicial proceeding itself. It does so
either by halting or postponing some portion of the proceeding, or by temporarily divesting an order of enforceability.” Id. “If nothing else, the terms are by no
means synonymous.” Id.
One difference is that Fed. R. Civ. P. 65(c) requires
the court to determine the amount that the movant must
give in security for “the costs and damages sustained by
any party found to have been wrongfully enjoined or restrained.” Section 705 contains no such requirement.
In granting preliminary injunctive relief pursuant to
Fed. R. Civ. P. 65, a court must consider whether the
defendant shall be enjoined from enforcing the disputed
rule against all persons nationwide, or solely against
plaintiffs. “Crafting a preliminary injunction is an exercise of discretion and judgment, often dependent as
much on the equities of a given case as the substance of
the legal issues it presents.” Trump v. Intern. Refugee
Assistance Project, 137 S. Ct. 2080, 2087 (2017).

262a
There is “no bar against . . . nationwide relief in
federal district or circuit court when it is appropriate.”
Bresgal v. Brock, 843 F.2d 1163, 1170 (9th Cir. 1987); see
also Steele v. Bulova Watch Co., 344 U.S. 280, 289 (1952)
(“[T]he District Court in exercising its equity powers
may command persons properly before it to cease or
perform acts outside its territorial jurisdiction.”); Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139, 181 n.12
(2010) (J. Stevens, dissenting) (“Although we have not
squarely addressed the issue, in my view there is no requirement that an injunction affect only the parties in
the suit. To limit an injunction against a federal agency
to the named plaintiffs would only encourage numerous
other regulated entities to file additional lawsuits in this
and other federal jurisdictions.”) (internal quotations
omitted). The primary consideration is whether the injunctive relief is sufficiently narrow in scope to “ ‘be no
more burdensome to the defendant than necessary to
provide complete relief to the plaintiffs’ before the
court.” L.A. Haven Hospice, Inc. v. Sebelius, 638 F.3d
644, 664 (9th Cir. 2011) (quoting Califano v. Yamasaki,
442 U.S. 682, 702 (1979)).
The Ninth Circuit has “upheld nationwide injunctions when ‘necessary to give Plaintiff a full expression
of their rights.’ ” City & Cty. of San Francisco v. Trump,
897 F.3d 1225, 1244 (9th Cir. 2018) (quoting Hawaii v.
Trump, 878 F.3d 662, 701 (9th Cir. 2017), rev’d on other
grounds Trump v. Hawaii, 138 S. Ct. 2392 (2018), and
citing Washington v. Trump, 847 F.3d 1151, 1166-67
(9th Cir. 2017) (per curium)). By contrast, the Ninth
Circuit has vacated a nationwide injunction on a finding
that the plaintiffs did not make “a sufficient showing of

263a
‘nationwide impact’ demonstrating that a nationwide injunction is necessary to completely accord relief to
them.’ ” Id.
V. ANALYSIS
A.

Likelihood of Success on the Merits

For purposes of the Motion for a Stay and Preliminary Injunction, the Plaintiff States highlight the likelihood of success on the merits of their first and third
causes of action, both of which are pursuant to the APA.
ECF No. 34 at 21-51.
Under the APA, “[a] person suffering legal wrong because of agency action . . . is entitled to judicial review thereof.” 5 U.S.C. § 702. The APA further directs courts to “hold unlawful and set aside agency action, findings, and conclusions found to be . . . arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law.” 5 U.S.C. § 706(2)(A).
1. First Cause of Action: Violation of the Administrative Procedure Act—Action Not in Accordance with Law

An administrative agency “may not exercise its authority ‘in a manner that is inconsistent with the administrative structure that Congress enacted into law.’ ”
FDA v. Brown & Williamson Tobacco Corp., 529 U.S.
120, 125 (2000), superseded by statute on other grounds,
21 U.S.C. § 387a. When an administrative agency’s action involves the construction of a statute that the agency
administers, a court’s analysis is governed by the twostep framework set forth in Chevron U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837
(1984). Id. at 125-26.

264a
A reviewing court’s first inquiry under Chevron is
whether Congress has expressed its intent clearly
and unambiguously in the statutory language at issue.
Brown & Williamson, 529 U.S. at 132. If Congress has
spoken directly to the issue before the reviewing court,
the court’s inquiry need not proceed further, and the
court “must give effect to the unambiguously expressed
intent of Congress.” Chevron, 467 U.S. at 843. If
Congress has not addressed the specific question raised
by the administrative agency’s construction of a statute,
“a reviewing court must respect the agency’s construction of the statute so long as it is permissible.” Brown
& Williamson, 529 U.S. at 132 (citing INS v. AguirreAguirre, 526 U.S. 415, 424 (1999); Auer v. Robbins, 519
U.S. 452, 457 (1997)).
In analyzing the first step of Chevron, “whether Congress has specifically addressed the question at issue, a
reviewing court should not confine itself to examining a
particular statutory provision in isolation.” Brown &
Williamson, 529 U.S. at 133. The reviewing court
must read the words of a statute “‘in their context and
with a view to their place in the overall statutory
scheme.’ ” Id. (quoting Davis v. Michigan Dept. of
Treasury, 489 U.S. 803, 809 (1989)). A court must interpret a particular statutory provision both in the context of other parts of the same regulatory scheme and
with respect to other statutes that may affect the meaning of the statutory provision at issue. Id.
In this case, the issue is whether Congress has expressed its intent regarding barring individuals from
obtaining visas or changing their status to legal permanent residents based on a specific definition of public
charge. Congress has expressed its intent regarding

265a
the public charge statute in a variety of forms. In 1986,
Congress included a special rule in a section of the INA
addressing waivers of the public charge inadmissibility
ground for applicants seeking legal permanent residency status. 8 U.S.C. § 1255a(d)(2)(B)(iii). The “special rule for determination of public charge,” excepts an
immigrant seeking relief under that section from inadmissibility as a public charge if he or she demonstrates
“a history of employment in the United States evidencing self-support without receipt of public cash assistance.” Id.
Later, as part of the Personal Responsibility and
Work Opportunity Reconciliation Act of 1996 (“Welfare
Reform Act”), Congress enacted a statutory provision
articulating the following “Statements of national policy
concerning welfare and immigration”:
The Congress makes the following statements concerning national policy with respect to welfare and
immigration:
(1) Self-sufficiency has been a basic principle of
United States immigration law since this country’s
earliest immigration statutes.
(2) It continues to be the immigration policy of the
United States that—
(A) aliens within the Nation’s borders not depend on public resources to meet their needs, but rather rely on their own capabilities and the resources
of their families, their sponsors, and private organizations, and

266a
(B) the availability of public benefits not constitute an incentive for immigration to the United
States.
(3) Despite the principle of self-sufficiency, aliens
have been applying for and receiving public benefits
from Federal, State, and local governments at increasing rates.
(4) Current eligibility rules for public assistance
and unenforceable financial support agreements have
proved wholly incapable of assuring that individual
aliens not burden the public benefits system.
(5) It is a compelling government interest to enact
new rules for eligibility and sponsorship agreements
in order to assure that aliens be self-reliant in accordance with national immigration policy.
(6) It is a compelling government interest to remove
the incentive for illegal immigration provided by the
availability of public benefits.
(7) With respect to the State authority to make determinations concerning the eligibility of qualified aliens for public benefits in this title, a State that
chooses to follow the Federal classification in determining the eligibility of such aliens for public assistance shall be considered to have chosen the least restrictive means available for achieving the compelling governmental interest of assuring that aliens be
self-reliant in accordance with national immigration
policy.
8 U.S.C. § 1601.
The Welfare Reform Act further limited eligibility
for many “federal means-tested public benefits,” such as

267a
Medicaid and SNAP, to “qualified” immigrants, and
Congress defined “qualified” to include lawful permanent residents and certain other legal statuses. See
8 U.S.C. § 1641(b). Most immigrants become “qualified” for benefits eligibility five years after their date of
entry. 8 U.S.C. §§ 1612, 1613. States retain a significant degree of authority to determine eligibility for state
benefits. See 8 U.S.C. §§ 1621-22, 1641.
Thus, in the course of significantly restricting access
to public benefits by non-citizens, Congress expressly
states that part of its national immigration policy is allowing public benefits to qualified aliens in “the least restrictive means available” in order to achieve the goal
that the aliens “be self-reliant.” 8 U.S.C. § 1601(7).
Congress did not state that there should be no public
benefits provided to qualified aliens, but rather that
public benefits be provided in “the least restrictive
means available.” See id. The Public Charge Rule at
issue here likely would chill qualified aliens from accessing all public benefits by weighing negatively the use of
non-cash public benefits for inadmissibility purposes.
One month after enactment of the Welfare Reform
Act, the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 (“Immigration Reform Act”)
reenacted the existing public charge provision and codified the five minimum factors approach to public charge
determinations that remains in effect today and will
continue to be in effect if the Public Charge Rule is
not implemented on October 15, 2019. See 8 U.S.C.
§ 1182(a)(4).
In the course of enacting the Immigration Reform
Act, members of Congress debated whether to expand
the public charge definition to include use of non-cash

268a
public benefits. See Immigration Control & Financial
Responsibility Act of 1996, H.R. 2202, 104th Cong. § 202
(1996) (early House bill that would have defined public
charge for purposes of removal to include receipt by a
non-citizen of Medicaid, supplemental food assistance,
SSI, and other means-tested public benefits). However, in the Senate, at least one senator criticized the
effort to include previously unconsidered, non-cash public benefits in the public charge test and to create a
bright-line framework of considering whether the immigrant has received public benefits for an aggregate of
twelve months as “too quick to label people as public
charges for utilizing the same public assistance that
many Americans need to get on their feet.” S. Rep. No.
104-249, at *63-64 (1996) (Senator Leahy’s remarks).
Congress’s intent is reflected by the fact that the Immigration Reform Act that was enacted into law did not
contain the provisions that would have incorporated into
the public charge determination non-cash public benefits. See 8 U.S.C. § 1182(a)(4).
After the Welfare Reform Act and the Immigration
Reform Act took effect, Congress further demonstrated
its intent regarding non-cash public benefits for immigrants by expanding access to SNAP benefits for certain
immigrants who resided in the United States at the time
that the Welfare Reform Act was enacted and to children and certain immigrants with disabilities regardless
of how long they had been in the country. See Agricultural Research, Extension, and Education Reform Act
of 1998, Pub. L. No. 105-185, 112 Stat. 523; Farm Security and Rural Investment Act of 2002, Pub. L. No. 107171, 116 Stat. 134.

269a
In 1999, to “help alleviate public confusion over the
meaning of the term ‘public charge’ in immigration law
and its relationship to the receipt of Federal, State, and
local public benefits,” the INS issued “field guidance”
(“the 1999 field guidance”) and a proposed rule to guide
public charge determinations by INS officers. INS,
Field Guidance on Deportability and Inadmissibility on
Public Charge Grounds, 64 Fed. Reg. 28,689 (Mar. 26,
1999). The 1999 field guidance provided that a person
may be deemed a public charge under the inadmissibility provision at 8 U.S.C. § 1182(a)(4) if the person is “primarily dependent on the government for subsistence, as
demonstrated by either (i) the receipt of public cash assistance for income maintenance or (ii) institutionalization for long-term care at government expense.” Id. at
28,692.
In issuing the field guidance and proposed rule, the
INS reasoned as follows:
The Service is proposing this definition by regulation
and adopting it on an interim basis for several reasons. First, confusion about the relationship between the receipt of public benefits and the concept
of ‘‘public charge’’ has deterred eligible aliens and
their families, including U.S. citizen children, from
seeking important health and nutrition benefits that
they are legally entitled to receive. This reluctance
to access benefits has an adverse impact not just on
the potential recipients, but on public health and the
general welfare. Second, non-cash benefits (other
than institutionalization for long-term care) are by
their nature supplemental and do not, alone or in
combination, provide sufficient resources to support
an individual or family. In addition to receiving

270a
non-cash benefits, an alien would have to have either
additional income—such as wages, savings, or earned
retirement benefits—or public cash assistance.
Thus, by focusing on cash assistance for income
maintenance, the Service can identify those who are
primarily dependent on the government for subsistence without inhibiting access to non-cash benefits
that serve important public interests. Finally, certain federal, state, and local benefits are increasingly
being made available to families with incomes far
above the poverty level, reflecting broad public policy
decisions about improving general public health and
nutrition, promoting education, and assisting working-poor families in the process of becoming self-sufficient. Thus, participation in such noncash programs is not evidence of poverty or dependence.
64 Fed. Reg. at 28,692.
In addition, the INS noted: “In adopting this new
definition, the Service does not expect to substantially
change the number of aliens who will be found deportable or inadmissible as public charges.” Id.
The proposed rule was never finalized, but the 1999
field guidance has applied to public charge determinations since it was issued twenty years ago. See ECF
No. 35-1 at 109. During the past twenty-year period,
Congress has not expressly altered the working definition of public charge or the field guidance as to how the
public charge inadmissibility ground should be applied
to applicants for visas or permanent legal residency.
In 2013, Congress again considered and rejected a
proposal to broaden the public charge inadmissibility
ground to require applicants to show that “they were not

271a
likely to qualify even for non-cash employment supports
such as Medicaid, the SNAP program, or the Children’s
Health Insurance Program (CHIP).” S. Rep. No. 11340 (Jun. 7, 2013).
The Plaintiff States also maintain that the Public
Charge Rule “departs from the unambiguously expressed
intent of Congress” in statutes other than the Welfare
Reform Act and the INA, namely section 504 of the Rehabilitation Act and a statute governing SNAP benefits.
ECF No. 31 at 169-71.
With respect to the Rehabilitation Act of 1973, the
Plaintiff States assert that the Public Charge Rule is not
in accordance with section 504, which provides that “[n]o
otherwise qualified individual with a disability in the
United States . . . shall, solely by reason of her or
his disability, be excluded from the participation in, be
denied the benefits of, or be subjected to discrimination
. . . under any program or activity conducted by an
Executive agency.” 29 U.S.C. § 794(a). The SNAP
statute provides that “the value of benefits that may be
provided under this chapter shall not be considered income or resources for any purpose under any Federal,
State, or local laws.” 7 U.S.C. § 2017(b).
The Federal Defendants broadly assert: “From the
beginning, immigration authorities have recognized that
the plain meaning of the public charge ground of inadmissibility encompasses all of those likely to become a
financial burden on the public, and that the purpose of the
provision is to exclude those who are not self-sufficient.”
ECF No. 155 at 35-36. The Federal Defendants rely
on the statements of the Secretary of Labor to the
House Committee on Immigration and Naturalization in

272a
1916 to support that the goal behind the public charge
inadmissibility ground is to support self-sufficiency:
[(1)] a person is ‘likely to become a public charge’
when ‘such applicant may be a charge (an economic
burden) upon the community to which he is going.’
[; and]
[(2)] the public charge clause ‘for so many years has
been the chief measure of protection in the law . . .
intended to reach economic rather than sanitary objections to the admission of certain classes of aliens.’
Id. (citing H.R. Doc. No. 64-886, at 3-4 (1916)); see also
ECF No. 155 at 37 (“As explained above, Congress and
the Executive Branch have long recognized the ‘public
charge’ ground as a ‘chief measure’ for ensuring the economic self-sufficiency of aliens.”).
The Federal Defendants’ arguments to this Court
replicate DHS’s assertion in the rulemaking record that
“self-sufficiency is the rule’s ultimate aim.” 84 Fed.
Reg. at 41,313. DHS attempts to reconcile the absence
of the Welfare Reform Act’s “self-sufficiency” language
in the public charge inadmissibility provision at 8 U.S.C.
§ 1182(a)(4) by noting the temporal proximity between
the Welfare Reform Act and the Immigration Reform
Act:
Although the INA does not mention self-sufficiency
in the context of . . . 8 U.S.C. § 1182(a)(4), DHS
believes that there is a strong connection between the
self-sufficiency policy statements [in the Welfare Reform Act] (even if not codified in the INA itself ) at
8 U.S.C. 1601 and the public charge inadmissibility
language in . . . 8 U.S.C. 1182(a)(4), which were
enacted within a month of each other.

273a
84 Fed. Reg. at 41,355-56.
Notably, DHS cites no basis for interpreting the policy statements at 8 U.S.C. § 1601 beyond a belief in “a
strong connection” between those policy statements and
the public charge rule inadmissibility ground.
Essentially, at this early stage in the litigation, the
Federal Defendants urge the Court to take two unsupported leaps of statutory construction. First, they seek a
legal conclusion that the purpose of the public charge
inadmissibility provision is to “ensur[e] the economic
self-sufficiency of aliens.” ECF No. 155 at 37. Second,
the Federal Defendants argue that Congress has delegated to DHS the role of determining what benefits programs, income levels, and household sizes or compositions, promote or undermine self-sufficiency. However,
the Federal Defendants have not cited any statute, legislative history, or other resource that supports the interpretation that Congress has delegated to DHS the
authority to expand the definition of who is inadmissible
as a public charge or to define what benefits undermine,
rather than promote, the stated goal of achieving selfsufficiency.
By contrast, the Plaintiff States offer extensive support for the conclusion that Congress unambiguously rejected key components of the Public Charge Rule, including the consideration of non-cash public benefits
and a rigid twelve-month aggregate approach in determining whether someone would be deemed a public
charge. In the pivotal legislative period of 1996, and
again in 2013, Congress rejected the provisions that the
Public Charge Rule now incorporates. In 2013, as the
Plaintiff States underscore, Congress rejected expan-

274a
sion of the benefits considered for public charge exclusion with full awareness of the 1999 field guidance in effect. See ECF No. 158 at 18 (citing Lorillard v. Pons,
434 U.S. 575, 580 (1978) (“Congress is presumed to be
aware of an administrative or judicial interpretation of
a statute and to adopt that interpretation when it reenacts a statute without change.”)).
Furthermore, the Plaintiff States make a strong
showing in the record that DHS has overstepped its authority. The Federal Defendants assert, without any
citation to authority, that “an individual who relies on
Medicaid benefits for an extended period of time in order ‘to get up, get dressed, and go to work,’ is not selfsufficient.’ ” ECF No. 155 at 54 (quoting from Plaintiff’s motion at ECF No. 34). Yet, again, the Federal
Defendants offer no authority to support that DHS’s
role, by Congressional authorization, is to define selfsufficiency. See Comcast Corp. v. FCC, 600 F.3d 642,
655 (D.C. Cir. 2010) (rejecting the FCC’s interpretation
of its authority because “if accepted it would virtually
free the Commission from its congressional tether.”).
The Federal Defendants also have not explained how
DHS as an agency has the expertise necessary to make
a determination of what promotes self-sufficiency and
what amounts to self-sufficiency.
As further illustration of DHS’s unmooring from its
Congressionally delegated authority, DHS justifies including receipt of Medicaid in the public charge consideration by reciting that “ ‘the total Federal expenditure
for the Medicaid program overall is by far larger than
any other program for low-income people.’ ” ECF No.
109 at 41 (brief from Health Law Advocates and other
public health organizations, quoting 84 Fed. Reg. at

275a
41,379). However, “[t]he cost of Medicaid is not DHS’s
concern[, as] Congress delegated the implementation
and administration of Medicaid, including the cost of the
program, to HHS and the states.” Id. (citing 42 U.S.C.
§§ 1396, 1396-1, 1315(a)). Congress cannot delegate
authority that the Constitution does not allocate to the
federal government in the first place, and the states exercise a central role in formulation and administration
of health care policy. See Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 636 (“[T]he facets of governing
that touch on citizens’ daily lives are normally administered by smaller governments closer to the governed.”);
see also Medtronic, Inc. v. Lohr, 518 U.S. 470, 484 (1996)
(noting the “historic primacy of state regulation of matters of health and safety”). Therefore, the Court finds
a likelihood that the Plaintiff States will be successful in
proving that DHS acted beyond its Congressionally delegated authority when it promulgated the Public Charge
Rule.
Moreover, the Rehabilitation Act prohibits denying a
person benefits, excluding a person from participating,
or discriminating against a person “solely by reason of
her or his disability[.]” 29 U.S.C. § 794(a). Although
DHS acknowledges in the Public Charge Rule notice
that the Public Charge Rule will have a “potentially outsized impact” on individuals with disabilities, DHS rationalizes that “Congress did not specifically provide for
a public charge exemption for individuals with disabilities and in fact included health as a mandatory factor in
the public charge inadmissibility consideration.” 84
Fed. Reg. at 41,368. The Federal Defendants argue

276a
that the Public Charge Rule is consistent with the Rehabilitation Act because disability is “one factor (among
many) that may be considered.” ECF No. 155 at 61.
At this early stage in the litigation, the plain language of the Public Charge Rule casts doubt that DHS
ultimately will be able to show that the Public Charge
Rule is not contrary to the Rehabilitation Act. First,
contrary to the Federal Defendants’ assertion, the Public Charge Rule does not state that disability is a factor
that “may” be considered. Rather, if the “disability” is
a “medical condition that is likely to require extensive
medical treatment,” it is one of the minimum factors that
the officer must consider. See 8 C.F.R. § 212.22(b).
Second, as the amici highlighted, an individual with a
disability is likely to have the disability counted at least
twice as a negative factor in the public charge determination because receipt of Medicaid is “essential” for millions of people in the United States with disabilities, and
“a third of Medicaid’s adult recipients under the age of
65 are people with disabilities.” ECF No. 110 at 19
(emphasis in original removed).
Amici maintain that contrary to being an indicator of
becoming a public charge, Medicaid is “positively associated with employment and the integration of individuals with disabilities, in part because Medicaid covers employment supports that enable people with disabilities
to work.” ECF No. 110 at 19-20; see also 42 U.S.C.
§ 1396-1 (providing that grants to states for medical assistance programs for families with dependent children
and aged, blind, or disabled individuals are for the purpose of “help[ing] such families and individuals attain or
retain capability for independence or self-care[.]”).

277a
Therefore, accessing Medicaid logically would assist immigrants, not hinder them, in becoming self-sufficient,
which is DHS’s stated goal of the Public Charge Rule.
Given the history of the public charge provision at
8 U.S.C. § 1182(a)(4)(B), particularly the two recent rejections by Congress of arguments in favor of expanding
the rule to include consideration of non-cash benefits for
exclusion as the Public Charge Rule now does, the Court
finds a significant likelihood that the language of the final rule expands beyond the statutory framework of
what a USCIS officer previously was to consider in applying the public charge test. See INS v. CardozaFonseca, 480 U.S. 421, 442-43 (1987) (“ ‘Few principles
of statutory construction are more compelling than the
proposition that Congress does not intend sub silentio
to enact statutory language that it has earlier discarded
in favor of other language.’ ”) (quoting Nachman Corp.
v. Pension Benefit Guaranty Corp., 446 U.S. 359 392-93
(1980) (Stewart, J. dissenting)).
The U.S. Constitution vests Congress with plenary
power to create immigration law, subject only to constitutional limitations. See U.S. Const. Art. I, sect. 8, cl.
4; Zadvydas v. Davis, 533 U.S. 678, 695 (2001). An administrative agency may not make through rulemaking
immigration law that Congress declined to enact. See
Cuomo v. Clearing House Ass’n, LLC, 557 U.S. 519, 533
(2009) (rejecting a federal agency’s interpretation of a
statute and finding that the agency had “attempted to
do what Congress declined to do”).
Therefore, the Court finds that the Plaintiff States
have demonstrated a strong likelihood of success on the
merits of their first cause of action.

278a
2. Count 3:
Violation of the Administrative
Procedure Act—Arbitrary and Capricious Agency Action

Review of a rulemaking procedure under section
706(2)’s arbitrary and capricious standard is “narrow
and a court is not to substitute its judgment for that of
the agency.” Motor Vehicle Mfrs. Ass’n of the U.S.,
Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43
(1983). Nevertheless, an agency has a duty to examine
“the relevant data” and to articulate “a satisfactory explanation for its action, ‘including a rational connection
between the facts found and the choice made.’ ” Dep’t
of Commerce, 139 S. Ct. at 2569 (quoting State Farm,
463 U.S. at 43 (internal quotation omitted)). An agency
rule is arbitrary and capricious “if the agency has ruled
on factors which Congress has not intended it to consider, entirely failed to consider an important aspect of
the problem, offered an explanation for its decision that
runs counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a difference
in view or the product of agency expertise.” State
Farm, 463 U.S. at 43.
Further, when an agency’s prior policy has engendered “serious reliance interests,” an agency would be
“arbitrary and capricious to ignore such matters,” and
the agency must “provide a more detailed justification
than what would suffice for a new policy created on a
blank slate.” FCC v. Fox TV Stations, Inc., 556 U.S.
502, 515-16 (2009). For instance, in INS v. Yueh-Shaio
Yang, 519 U.S. 26, 29-30 (1996), the Supreme Court examined statutory text elsewhere in the INA establishing
minimum requirements to be eligible for a waiver of deportation. Although the Court found that the relevant

279a
provision of the INA “imposes no limitations on the factors that the Attorney General (or her delegate, the
INS) may consider,” the Court determined that the
practices of the INS in exercising its discretion nonetheless were germane to whether the agency violated the
APA. Id. at 31-32 (internal citation omitted). “Though
the agency’s discretion is unfettered at the outset, if it
announces and follows—by rule or by settled course of
adjudication—a general policy by which its exercise of
discretion will be governed, an irrational departure from
that policy (as opposed to an avowed alteration of it)
could constitute action that must be overturned as ‘arbitrary, capricious, [or] an abuse of discretion’ within the
meaning of the Administrative Procedure Act, 5 U.S.C.
§ 706(2)(A).” Id. at 32.
The record on the instant motion raises concerns that
the process that DHS followed in formulating the Public
Charge Rule did not adhere to the requirements of the
APA. First, based on the statutory and agency history
of the public charge inadmissibility ground discussed
above, it is likely that the status quo has engendered
“serious reliance interests” and DHS will be held to the
higher standard of providing “a more detailed justification.” FCC, 556 U.S. at 515-16. Although DHS received over 266,000 comments, the agency’s responses
to those comments appear conclusory. Moreover, the
repeated justification of the changes as promoting selfsufficiency of immigrants in the United States appears
inconsistent with the new components of the Public
Charge Rule, such as the negative weight attributed to
disabled people who use Medicaid to become or remain
self-sufficient. See ECF No. 110; 42 U.S.C. § 1396-1.

280a
Therefore, the Court finds that there are serious
questions going to the merits regarding whether DHS
has acted in an arbitrary and capricious manner in formulating the Public Charge Rule. Moreover, the Plaintiff States have demonstrated a substantial likelihood of
success on the merits of at least two of their causes of
action in this matter.
B.

Likelihood of Irreparable Harm

The Plaintiff States are likely to incur multiple forms
of irreparable harm if the Public Charge Rule takes effect as scheduled on October 15, 2019, before this case
can be resolved on the merits.
First, the Plaintiff States provide a strong basis for
finding that disenrollment from non-cash benefits programs is predictable, not speculative. See, e.g., ECF
No. 35-1 at 98-140 (detailing the chilling effects of the
Public Charge Rule on the use of benefits by legal immigrant families including those with U.S. citizen children); see also Rodde v. Bonta, 357 F.3d 988, 999 (9th
Cir. 2004) (finding irreparable harm caused by denial of
Medicaid and resulting lack of necessary treatment, increased pain, and medical complications). Not only that,
DHS’s predecessor agency noted the harms resulting
from a chilling effect twenty years before publication of
the Public Charge Rule. 64 Fed. Reg. at 28,692 (“ . . .
reluctance to access benefits has an adverse impact not
just on the potential recipients, but on public health and
the general welfare.”).
As discussed in terms of standing, the Public Charge
Rule threatens a wide variety of predictable harms to
the Plaintiff States’ interests in promoting the missions
of their health care systems, the health and wellbeing of

281a
their residents, and the Plaintiff States’ financial security. The harms to children, including U.S. citizen children, from reduced access to medical care, food assistance, and housing support particularly threaten the
Plaintiff States with a need to re-allocate resources that
will only compound over time. Chronic hunger and
housing insecurity in childhood is associated with disorders and other negative effects later in life that are
likely to impose significant expenses on state funds.
See ECF No. 149 at 21-22. As a natural consequence,
the Plaintiff States are likely to lose tax revenue from
affected children growing into adults with a compromised ability to contribute to their families and communities. See ECF No. 35-1 at 171, 618.
Second, the Public Charge Rule notice itself acknowledges many of the harms alleged by the Plaintiff States.
DHS recognizes that disenrollment or foregone enrollment will occur. 84 Fed. Reg. at 41,463. DHS also
acknowledges that more individuals will visit emergency
rooms for emergent and primary care, resulting in “a
potential for increases in uncompensated care” and that
communities will experience increases in communicable
diseases. Id. at 41,384.
In the Public Charge Rule notice, DHS attempts to
justify the likely harms by invoking the goal of promoting “the self-sufficiency of aliens within the United
States.” See, e.g., 84 Fed. Reg. 41,309 (as underscored
by the Plaintiff States at oral argument, the Public
Charge Rule notice uses the word “self-sufficiency” 165
times and the word “self-sufficient” 135 times). Whether
DHS can use the stated goal of promoting self-sufficiency
to justify this rulemaking remains an open question for
a later determination, although, as the Court found

282a
above, the Plaintiff States have made a strong showing
that DHS overstepped their Congressionally authorized
role in interpreting and enforcing the policy statements
in 8 U.S.C. § 1601.
The operative question for this prong of both a section 705 stay and preliminary injunction analysis is
whether there is a likelihood of irreparable injury. The
Court finds this prong satisfied and notes that DHS itself recognizes that irreparable injury will occur. The
Federal Defendants contest only the magnitude of the
harms claimed by the Plaintiff States and the amici.
However, the Federal Defendants do not contest the existence of irreparable harm and DHS acknowledged
many of the harms in its own rulemaking notice. See
Simula, Inc. v. Autoliv, Inc., 175 F.3d 716 (9th Cir. 1999)
(requiring a party moving for a preliminary injunction
to demonstrate “a significant threat of irreparable injury, irrespective of the magnitude of the injury”).
Therefore, the Court finds that immediate and ongoing harm to the Plaintiff States and their residents, both
immigrant and non-immigrant, is predictable, and there
is a significant likelihood of irreparable injury if the rule
were to take effect as scheduled on October 15, 2019.
C. Balance of the Equities, Substantial Injury to the
Opposing Party, and the Public Interest 6

The third and fourth factors of both a section 705 stay
and preliminary injunction analysis also tip in favor of
preserving the status quo until this litigation is resolved.
When the federal government is a party, the balance of the equities and public interest factors merge. Drakes Bay Oyster Co.
v. Jewell, 747 F.3d 1073 (9th Cir. 2014) (citing Nken, 556 U.S. at
435).
6

283a
The Federal Defendants assert that they have “a substantial interest in administering the national immigration system, a solely federal prerogative,” and that they
“have made the assessment in their expertise that the
‘status quo’ referred to by Plaintiffs is insufficient or inappropriate to serve the purposes of proper immigration
enforcement.’ ” ECF No. 155 at 67-68 (emphasis in
original).
However, the Federal Defendants have made no
showing of hardship, injury to themselves, or damage to
the public interest from continuing to enforce the status
quo with respect to the public charge ground of inadmissibility until these issues can be resolved on the merits.
See Sierra Forest Legacy v. Sherman, 646 F.3d 1161,
1186 (9th Cir. 2011) (reasoning that automatically deferring to federal agencies’ expert assessment of the equities of an injunction would result in “nearly unattainable” relief from the federal government’s policies, “as
government experts will likely attest that the public interest favors the federal government’s preferred policy,
regardless of procedural failures.”).
In contrast, the Plaintiff States have shown a significant threat of irreparable injury as a result of the impending enactment of the Public Charge Rule by numerous individuals disenrolling from benefits for which they
or their relatives were qualified, out of fear or confusion,
that accepting those non-cash public benefits will deprive them of an opportunity for legal permanent residency. The Plaintiff States have further demonstrated
how that chilling effect predictably would cause irreparable injury by creating long-term costs to the Plaintiff
States from providing ongoing triage for residents who

284a
have missed opportunities for timely diagnoses, vaccinations, or building a strong foundation in childhood that
will allow U.S. citizen children and future U.S. citizens
to flourish and contribute to their communities as taxpaying adults.
Further, the Court finds a significant threat of immediate and ongoing harm to all states because of the
likelihood of residents of the Plaintiff States travelling
through or relocating to other states. Consequently,
the balance of equities tips sharply in favor of the Plaintiff States, and the third factor for purposes of a stay,
threat of substantial injury to the opposing party, favors
the Plaintiff States, as well.
The Court finds that the Plaintiff States and the dozens of amici who submitted briefs in support of the stay
and injunctive relief have established that “an injunction
is in the public interest” because of the numerous detrimental effects that the Public Charge Rule may cause.
See Winter, 555 U.S. at 20; see also League of Women
Voters of U.S. v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016)
(“[T]here is a substantial public interest in having governmental agencies abide by the federal laws that govern their existence and operations.”).
VI. FORM AND SCOPE OF RELIEF

The Plaintiff States have shown under the four requisite considerations of the Winter test that they are entitled to both a stay under 5 U.S.C. § 705 and a preliminary injunction under Fed. R. Civ. P. 65.
In section 705, Congress expressly created a mechanism for a reviewing court to intervene to suspend an
administrative action until a challenge to the legality of

285a
that action can be judicially reviewed. 5 U.S.C. § 705. 7
Here, postponing the effective date of the Public Charge
Rule, in its entirety, provides the Plaintiff States’ the
necessary relief to “prevent irreparable injury,” as section 705 instructs. See Nken, 556 U.S. at 421 (“A stay
does not make time stand still, but does hold a ruling in
abeyance to allow an appellate court the time necessary
to review it.”).
Alternatively, if a reviewing court determines that a
section 705 stay is not appropriate or timely, the Court
also finds that the Plaintiff States offer substantial evidence to support a preliminary injunction from enforcement of the Public Charge Rule, without geographic limitation.
Just as the remedy under section 705 for administrative actions is to preserve the status quo while the merits of a challenge to administrative action is resolved, an
injunction must apply universally to workably maintain
the status quo and adequately protect the Plaintiff States
from irreparable harm. Limiting the scope of the injunction to the fourteen Plaintiff States would not prevent those harms to the Plaintiff States, for several reasons. First, any immigrant residing in one of the Plaintiff States may in the future need to move to a non-plaintiff state but would be deterred from accessing public
benefits if relief were limited in geographic scope. Sec-

See Frank Chang, The Administrative Procedure Act’s Stay Provision: Bypassing Scylla and Charybdis of Preliminary Injunctions, 85 Geo. Wash. L. Rev. 1529, 1552 (2017) (“The nationwide
stay is an acceptable and rational policy choice that Congress made:
while it delegates certain rulemaking authority to the agencies, it does
so on the premise that the judiciary will curb their excesses.”).
7

286a
ond, a geographically limited injunction could spur immigrants now living in non-plaintiff states to move to
one of the Plaintiff States, compounding the Plaintiff
States’ economic injuries to accommodate a surge in social services enrollees. Third, if the injunction applied
only in the fourteen Plaintiff States, a lawful permanent
resident returning to the United States from a trip abroad
of more than 180 days may be subject to the Public Charge
Rule at a point of entry. Therefore, the scope of the
injunction must be universal to afford the Plaintiff
States the relief to which they are entitled. See, e.g.,
California, 911 F.3d at 582 (“Although there is no bar
against nationwide relief in federal district court . . .
such broad relief must be necessary to give prevailing
parties the relief to which they are entitled.”) (internal
quotation marks and citation omitted).
Finally, the Court declines to limit the injunction to
apply only in those states within the U.S. Court of Appeals for the Ninth Circuit. In addition to the reasons
discussed above, a Ninth Circuit-only injunction would
deprive eleven of the fourteen Plaintiff States any relief
at all. Colorado, Delaware, Illinois, Maryland, Massachusetts, Michigan, Minnesota, New Jersey, New Mexico, Rhode Island, and Virginia are located in seven
other judicial circuits (the First, Third, Fourth, Sixth,
Seventh, Eighth, and Tenth Circuits) and would derive
no protection from irreparable injury from relief limited
to jurisdictions within the Ninth Circuit.
Accordingly, IT IS HEREBY ORDERED:
1. The Plaintiff States’ Motion for a Section 705
Stay Pending Judicial Review and for Preliminary Injunction, ECF No. 34, is GRANTED.

287a
2. The Court finds that the Plaintiff States have established a likelihood of success on the merits of their
claims under the Administrative Procedure Act, that
they would suffer irreparable harm absent a stay of the
effective date of the Public Charge Rule or preliminary
injunctive relief, that the lack of substantial injury to the
opposing party and the public interest favor a stay, and
that the balance of equities and the public interest favor
an injunction.
3.

The Court therefore, pursuant to 5 U.S.C. § 705,

STAYS the implementation of the U.S. Department of

Homeland Security’s (DHS) Rule entitled Inadmissibility on Public Charge Grounds, 84 Fed. Reg. 41,292 (Aug.
14, 2019) (to be codified at 8 C.F.R. pts. 103, 212, 213,
214, 245 and 248), in its entirety, pending entry of a final
judgment on the Plaintiff States’ APA claims. The effective date of the Final Rule is POSTPONED pending
conclusion of these review proceedings.
4. In the alternative, pursuant to Rule 65(a) of the
Federal Rules of Civil Procedure, the Court PRELIMINARILY ENJOINS the Federal Defendants and their officers, agents, servants, employees, and attorneys, and
any person in active concert or participation with them,
from implementing or enforcing the Rule entitled Inadmissibility on Public Charge Grounds, 84 Fed. Reg.
41,292 (Aug. 14, 2019), in any manner or in any respect,
and shall preserve the status quo pursuant to the regulations promulgated under 8 C.F.R. Parts 103, 212, 213,
214, 245, and 248, in effect as of the date of this Order,
until further order of the Court.
5. No bond shall be required pursuant to Federal
Rule of Civil Procedure 65(c).

288a
IT IS SO ORDERED.

The District Court Clerk is directed to enter this Order and provide copies to counsel.
DATED Oct. 11, 2019.

/s/

ROSANNA MALOUF PETERSON
ROSANNA MALOUF PETERSON
United States District Judge

289a
APPENDIX E

1.

8 U.S.C. 1182(a)(4) provides:

Inadmissible aliens
(a)

Classes of aliens ineligible for visas or admission

Except as otherwise provided in this chapter, aliens
who are inadmissible under the following paragraphs
are ineligible to receive visas and ineligible to be admitted to the United States:
(4) Public charge
(A)

In general

Any alien who, in the opinion of the consular officer at the time of application for a visa, or in the
opinion of the Attorney General at the time of application for admission or adjustment of status, is
likely at any time to become a public charge is inadmissible.
(B)

Factors to be taken into account

(i) In determining whether an alien is inadmissible under this paragraph, the consular officer
or the Attorney General shall at a minimum consider the alien’s—
(I)

age;

(II)

health;

(III) family status;
(IV) assets, resources, and financial status;
and

290a
(V)

education and skills.

(ii) In addition to the factors under clause (i),
the consular officer or the Attorney General may
also consider any affidavit of support under section 1183a of this title for purposes of exclusion
under this paragraph.
(C)

Family-sponsored immigrants

Any alien who seeks admission or adjustment
of status under a visa number issued under section
1151(b)(2) or 1153(a) of this title is inadmissible
under this paragraph unless—
(i)

the alien has obtained—

(I) status as a spouse or a child of a
United States citizen pursuant to clause (ii),
(iii), or (iv) of section 1154(a)(1)(A) of this title;
(II) classification pursuant to clause
(ii) or (iii) of section 1154(a)(1)(B) of this title; or
(III) classification or status as a VAWA
self-petitioner; or
(ii) the person petitioning for the alien’s
admission (and any additional sponsor required
under section 1183a(f ) of this title or any alternative sponsor permitted under paragraph
(5)(B) of such section) has executed an affidavit
of support described in section 1183a of this title with respect to such alien.

291a
(D)

Certain employment-based immigrants

Any alien who seeks admission or adjustment
of status under a visa number issued under section
1153(b) of this title by virtue of a classification petition filed by a relative of the alien (or by an entity
in which such relative has a significant ownership
interest) is inadmissible under this paragraph unless such relative has executed an affidavit of support described in section 1183a of this title with
respect to such alien.
(E)

Special rule for qualified alien victims

Subparagraphs (A), (B), and (C) shall not apply
to an alien who—
(i)

is a VAWA self-petitioner;

(ii) is an applicant for, or is granted, nonimmigrant status under section 1101(a)(15)(U) of
this title; or
(iii) is a qualified alien described in section
1641(c) of this title.
2.

8 U.S.C. 1183a provides in pertinent part:

Requirements for sponsor’s affidavit of support
(a)

Enforceability
(1) Terms of affidavit

No affidavit of support may be accepted by the Attorney General or by any consular officer to establish
that an alien is not excludable as a public charge un-

292a
der section 1182(a)(4) of this title unless such affidavit is executed by a sponsor of the alien as a contract—
(A) in which the sponsor agrees to provide
support to maintain the sponsored alien at an annual income that is not less than 125 percent of the
Federal poverty line during the period in which
the affidavit is enforceable;
(B) that is legally enforceable against the
sponsor by the sponsored alien, the Federal Government, any State (or any political subdivision of
such State), or by any other entity that provides
any means-tested public benefit (as defined in
subsection (e)1), consistent with the provisions of
this section; and
(C) in which the sponsor agrees to submit to
the jurisdiction of any Federal or State court for
the purpose of actions brought under subsection
(b)(2).
(2) Period of enforceability

An affidavit of support shall be enforceable with
respect to benefits provided for an alien before the
date the alien is naturalized as a citizen of the United
States, or, if earlier, the termination date provided
under paragraph (3).
*
(b)

*

*

*

*

Reimbursement of government expenses
(1) Request for reimbursement

1

See Reference in Text note below.

293a
(A)

Requirement

Upon notification that a sponsored alien has received any means-tested public benefit, the appropriate nongovernmental entity which provided such
benefit or the appropriate entity of the Federal
Government, a State, or any political subdivision
of a State shall request reimbursement by the
sponsor in an amount which is equal to the unreimbursed costs of such benefit.
(B)

Regulations

The Attorney General, in consultation with the
heads of other appropriate Federal agencies, shall
prescribe such regulations as may be necessary to
carry out subparagraph (A).
(2) Actions to compel reimbursement
(A)

In case of nonresponse

If within 45 days after a request for reimbursement under paragraph (1)(A), the appropriate entity has not received a response from the sponsor
indicating a willingness to commence payment an
action may be brought against the sponsor pursuant to the affidavit of support.
(B)

In case of failure to pay

If the sponsor fails to abide by the repayment
terms established by the appropriate entity, the
entity may bring an action against the sponsor
pursuant to the affidavit of support.
(C)

Limitation on actions

No cause of action may be brought under this
paragraph later than 10 years after the date on

294a
which the sponsored alien last received any meanstested public benefit to which the affidavit of support applies.
*
3.

*

*

*

*

8 U.S.C. 1227(a)(5) provides:

Deportable aliens
(a)

Classes of deportable aliens

Any alien (including an alien crewman) in and admitted to the United States shall, upon the order of the Attorney General, be removed if the alien is within one or
more of the following classes of deportable aliens:
(5) Public charge

Any alien who, within five years after the date of
entry, has become a public charge from causes not
affirmatively shown to have arisen since entry is deportable.
4.

8 U.S.C. 1601 provides:

Statements of national policy concerning welfare and immigration

The Congress makes the following statements concerning national policy with respect to welfare and immigration:
(1) Self-sufficiency has been a basic principle of
United States immigration law since this country’s
earliest immigration statutes.

295a
(2) It continues to be the immigration policy of
the United States that—
(A) aliens within the Nation’s borders not depend on public resources to meet their needs, but
rather rely on their own capabilities and the resources of their families, their sponsors, and private organizations, and
(B) the availability of public benefits not constitute an incentive for immigration to the United
States.
(3) Despite the principle of self-sufficiency, aliens have been applying for and receiving public benefits from Federal, State, and local governments at
increasing rates.
(4) Current eligibility rules for public assistance
and unenforceable financial support agreements have
proved wholly incapable of assuring that individual
aliens not burden the public benefits system.
(5) It is a compelling government interest to enact new rules for eligibility and sponsorship agreements in order to assure that aliens be self-reliant in
accordance with national immigration policy.
(6) It is a compelling government interest to remove the incentive for illegal immigration provided
by the availability of public benefits.
(7) With respect to the State authority to make
determinations concerning the eligibility of qualified
aliens for public benefits in this chapter, a State that
chooses to follow the Federal classification in determining the eligibility of such aliens for public assis-

296a
tance shall be considered to have chosen the least restrictive means available for achieving the compelling governmental interest of assuring that aliens be
self-reliant in accordance with national immigration
policy.
5.

8 U.S.C. 1611 provides:

Aliens who are not qualified aliens ineligible for Federal
public benefits
(a)

In general

Notwithstanding any other provision of law and except as provided in subsection (b), an alien who is not a
qualified alien (as defined in section 1641 of this title) is
not eligible for any Federal public benefit (as defined in
subsection (c)).
(b)

Exceptions

(1) Subsection (a) shall not apply with respect to the
following Federal public benefits:
(A) Medical assistance under title XIX of the
Social Security Act [42 U.S.C. 1396 et seq.] (or any
successor program to such title) for care and services
that are necessary for the treatment of an emergency
medical condition (as defined in section 1903(v)(3) of
such Act [42 U.S.C. 1396b(v)(3)]) of the alien involved
and are not related to an organ transplant procedure,
if the alien involved otherwise meets the eligibility
requirements for medical assistance under the State
plan approved under such title (other than the requirement of the receipt of aid or assistance under
title IV of such Act [42 U.S.C. 601 et seq.], supplemental security income benefits under title XVI of

297a
such Act [42 U.S.C. 1381 et seq.], or a State supplementary payment).
(B) Short-term, non-cash, in-kind emergency disaster relief.
(C) Public health assistance (not including any
assistance under title XIX of the Social Security Act
[42 U.S.C. 1396 et seq.]) for immunizations with respect to immunizable diseases and for testing and
treatment of symptoms of communicable diseases
whether or not such symptoms are caused by a communicable disease.
(D) Programs, services, or assistance (such as
soup kitchens, crisis counseling and intervention, and
short-term shelter) specified by the Attorney General, in the Attorney General’s sole and unreviewable
discretion after consultation with appropriate Federal agencies and departments, which (i) deliver inkind services at the community level, including
through public or private nonprofit agencies; (ii) do
not condition the provision of assistance, the amount
of assistance provided, or the cost of assistance provided on the individual recipient’s income or resources;
and (iii) are necessary for the protection of life or
safety.
(E) Programs for housing or community development assistance or financial assistance administered by the Secretary of Housing and Urban Development, any program under title V of the Housing
Act of 1949 [42 U.S.C. 1471 et seq.], or any assistance
under section 1926c of title 7, to the extent that the
alien is receiving such a benefit on August 22, 1996.

298a
(2) Subsection (a) shall not apply to any benefit payable under title II of the Social Security Act [42 U.S.C.
401 et seq.] to an alien who is lawfully present in the
United States as determined by the Attorney General,
to any benefit if nonpayment of such benefit would contravene an international agreement described in section
233 of the Social Security Act [42 U.S.C. 433], to any
benefit if nonpayment would be contrary to section
202(t) of the Social Security Act [42 U.S.C. 402(t)], or to
any benefit payable under title II of the Social Security
Act to which entitlement is based on an application filed
in or before August 1996.
(3) Subsection (a) shall not apply to any benefit payable under title XVIII of the Social Security Act
[42 U.S.C. 1395 et seq.] (relating to the medicare program) to an alien who is lawfully present in the United
States as determined by the Attorney General and, with
respect to benefits payable under part A of such title
[42 U.S.C. 1395c et seq.], who was authorized to be employed with respect to any wages attributable to employment which are counted for purposes of eligibility
for such benefits.
(4) Subsection (a) shall not apply to any benefit payable under the Railroad Retirement Act of 1974
[45 U.S.C. 231 et seq.] or the Railroad Unemployment
Insurance Act [45 U.S.C. 351 et seq.] to an alien who is
lawfully present in the United States as determined by
the Attorney General or to an alien residing outside the
United States.
(5) Subsection (a) shall not apply to eligibility for
benefits for the program defined in section 1612(a)(3)(A)
of this title (relating to the supplemental security income program), or to eligibility for benefits under any

299a
other program that is based on eligibility for benefits
under the program so defined, for an alien who was receiving such benefits on August 22, 1996.
(c)

“Federal public benefit” defined

(1) Except as provided in paragraph (2), for purposes of this chapter the term “Federal public benefit”
means—
(A) any grant, contract, loan, professional license, or commercial license provided by an agency
of the United States or by appropriated funds of the
United States; and
(B) any retirement, welfare, health, disability,
public or assisted housing, postsecondary education,
food assistance, unemployment benefit, or any other
similar benefit for which payments or assistance are
provided to an individual, household, or family eligibility unit by an agency of the United States or by
appropriated funds of the United States.
(2) Such term shall not apply—
(A) to any contract, professional license, or commercial license for a nonimmigrant whose visa for entry is related to such employment in the United
States, or to a citizen of a freely associated state, if
section 141 of the applicable compact of free association approved in Public Law 99-239 or 99-658 (or a
successor provision) is in effect;
(B) with respect to benefits for an alien who as
a work authorized nonimmigrant or as an alien lawfully admitted for permanent residence under the
Immigration and Nationality Act [8 U.S.C. 1101
et seq.] qualified for such benefits and for whom the

300a
United States under reciprocal treaty agreements is
required to pay benefits, as determined by the Attorney General, after consultation with the Secretary of
State; or
(C) to the issuance of a professional license to,
or the renewal of a professional license by, a foreign
national not physically present in the United States.
6.

29 U.S.C. 794 provides:

Nondiscrimination under Federal grants and programs
(a)

Promulgation of rules and regulations

No otherwise qualified individual with a disability in
the United States, as defined in section 705(20) of this
title, shall, solely by reason of her or his disability, be
excluded from the participation in, be denied the benefits of, or be subjected to discrimination under any program or activity receiving Federal financial assistance
or under any program or activity conducted by any Executive agency or by the United States Postal Service.
The head of each such agency shall promulgate such
regulations as may be necessary to carry out the amendments to this section made by the Rehabilitation, Comprehensive Services, and Developmental Disabilities
Act of 1978. Copies of any proposed regulation shall be
submitted to appropriate authorizing committees of the
Congress, and such regulation may take effect no earlier
than the thirtieth day after the date on which such regulation is so submitted to such committees.

301a
(b)

“Program or activity” defined

For the purposes of this section, the term “program
or activity” means all of the operations of—
(1)(A) a department, agency, special purpose district, or other instrumentality of a State or of a local
government; or
(B) the entity of such State or local government
that distributes such assistance and each such department or agency (and each other State or local government entity) to which the assistance is extended, in
the case of assistance to a State or local government;
(2)(A) a college, university, or other postsecondary institution, or a public system of higher education; or
(B) a local educational agency (as defined in section 7801 of title 20), system of career and technical
education, or other school system;
(3)(A) an entire corporation, partnership, or other
private organization, or an entire sole proprietorship—
(i) if assistance is extended to such corporation, partnership, private organization, or sole proprietorship as a whole; or
(ii) which is principally engaged in the business of providing education, health care, housing,
social services, or parks and recreation; or
(B) the entire plant or other comparable, geographically separate facility to which Federal financial assistance is extended, in the case of any other

302a
corporation, partnership, private organization, or sole
proprietorship; or
(4) any other entity which is established by two
or more of the entities described in paragraph (1), (2),
or (3);
any part of which is extended Federal financial assistance.
(c)

Significant structural alterations by small providers

Small providers are not required by subsection (a) to
make significant structural alterations to their existing
facilities for the purpose of assuring program accessibility, if alternative means of providing the services are
available. The terms used in this subsection shall be
construed with reference to the regulations existing on
March 22, 1988.
(d)

Standards used in determining violation of section

The standards used to determine whether this section has been violated in a complaint alleging employment discrimination under this section shall be the
standards applied under title I of the Americans with
Disabilities Act of 1990 (42 U.S.C. 12111 et seq.) and the
provisions of sections 501 through 504, and 510,1 of the
Americans with Disabilities Act of 1990 (42 U.S.C.
12201-12204 and 12210), as such sections relate to employment.

1

See References in Text note below.

